NO. 19-__

In the
Supreme Court of the United States
COMCAST CORPORATION, ET AL.,
Petitioners,
V.

INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

APPENDIX VOLUME I OF III

DAVID J. LISSON
DAVIS POLK & WARDWELL
LLP
1600 El Camino Real
Menlo Park, CA 94025

DONALD B. VERRILLI, JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
1155 F Street NW 7th Floor
Washington, D.C. 20004
(202) 220-1100
Donald.Verrilli@MTO.com
BRIAN J. SPRINGER
MUNGER, TOLLES & OLSON LLP
350 S. Grand Ave., 50th Floor
Los Angeles, CA 90071

Counsel for the Comcast petitioners
(Additional counsel listed on inside cover)

PAUL M. BARTKOWSKI
ADDUCI, MASTRIANI &
SCHAUMBERG LLP
1133 Connecticut Ave. NW,
12th Floor
Washington, D.C. 20036
Counsel for the Technicolor
Petitioners

MITCHELL G. STOCKWELL
MICHAEL J. TURTON
JOSHUA H. LEE
KILPATRICK TOWNSEND &
STOCKTON LLP
1100 Peachtree St. NE,
Ste. 2800
Atlanta, GA 30309
JOSHUA B. POND
KILPATRICK TOWNSEND &
STOCKTON LLP
607 14th St NW, Ste. 900
Washington, D.C. 20005
Counsel for the ARRIS
Petitioners

TABLE OF CONTENTS
Volume I
Appendix A: Opinion of the United States
Court of Appeals for the Federal Circuit
(March 2, 2020) ......................................................... 1a
Appendix B: Opinion of the United States
International Trade Commission
(December 6, 2017) ................................................. 18a
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) ................................... 75a
Volume II
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) (continued).............. 343a
Volume III
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) (continued).............. 693a
Appendix D: Relevant Cease and Desist and
Limited Exclusion Orders of the United States
International Trade Commission ........................ 950a
Appendix E: Statutory Provisions...................... 1016a

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Nos. 2018-1450, 2018-1653, 2018-1667

COMCAST CORPORATION, COMCAST CABLE
COMMUNICATIONS, LLC, COMCAST CABLE
COMMUNICATIONS MANAGEMENT, LLC,
COMCAST BUSINESS COMMUNICATIONS, LLC,
COMCAST HOLDINGS CORPORATION, COMCAST
SHARED SERVICES, LLC, ARRIS ENTERPRISES,
INC., ARRIS GLOBAL LTD., ARRIS GROUP, INC.,
ARRIS INTERNATIONAL PLC, ARRIS
SOLUTIONS, INC., ARRIS TECHNOLOGY, INC.,
PACE AMERICAS, LLC, TECHNICOLOR, S.A.,
TECHNICOLOR CONNECTED HOME USA LLC,
TECHNICOLOR USA, INC.,
Appellants
v.
INTERNATIONAL TRADE COMMISSION,
Appellee
ROVI CORPORATION, ROVI GUIDES, INC.,
Intervenors

Appeals from the United States International
Trade Commission in Investigation No. 337-TA-1001.
[Filed: March 2, 2020]
Before: NEWMAN, REYNA, and HUGHES,

2a
Circuit Judges.
OPINION
NEWMAN, Circuit Judge.
Appellants Comcast Corporation, Comcast Cable
Communications,
LLC,
Comcast
Cable
Communications Management, LLC, Comcast
Business Communications, LLC, Comcast Holdings
Corporation, Comcast Shared Services, LLC
(collectively “Comcast”); ARRIS Enterprises, Inc.,
ARRIS Global Ltd., ARRIS Group, Inc., ARRIS
International plc, ARRIS Solutions, Inc., ARRIS
Technology, Inc., Pace Americas, LLC (collectively
“ARRIS”); and Technicolor SA, Technicolor Connected
Home USA LLC, and Technicolor USA, Inc.
(collectively “Technicolor”) appeal the decision and
orders of the United States International Trade
Commission (“ITC” or “Commission”). The ITC’s
rulings 1 are in accordance with law and supported by
substantial evidence, and are affirmed.
BACKGROUND
Rovi Corporation and Rovi Guides, Inc. (collectively
“Rovi”) filed a complaint with the ITC alleging
violation of Section 337 of the Tariff Act of 1930. Rovi
asserted, inter alia, infringement of claims 1, 2, 14,
and 17 of United States Patent No. 8,006,263 (“the ’263
patent”) and claims 1, 3, 5, 9, 10, 14, and 18 of United
Certain Digital Video Receivers and Hardware and Software
Components Thereof, Inv. No. 337-TA-1001, USITC Pub. 4931,
2017 WL 11249982 (Dec. 6, 2017) (“Comm. Op.”); Certain Digital
Video Receivers and Hardware and Software Components
Thereof, Inv. No. 337-TA-1001, USITC Pub. 4931, 2017 WL
3485153 (May 26, 2017) (“Final ID”).

1

3a
States Patent No. 8,578,413 (“the ’413 patent”). Rovi
stated, and the Commission found, that Comcast’s
customers directly infringe the ’263 and ’413 patents
by using Comcast’s X1 system. The Commission found
that Comcast is in violation of Section 337 by
importing the X1 set-top boxes that are used in the
infringing system.
The ’263 and ’413 patents describe and claim an
interactive television program guide system for remote
access to television programs. The asserted claims
require a remote program guide access device, such as
a mobile device, that is connected to an interactive
television program guide system over a remote access
link, whereby users can remotely access the program
guide system. Claim 1 of the ’263 patent is
representative:
1. A system for selecting television
programs over a remote access link
comprising
an
Internet
communications path for recording,
comprising:
a local interactive television program
guide equipment on which a local
interactive television program guide
is implemented, wherein the local
interactive television program guide
equipment includes user television
equipment located within a user’s
home and the local interactive
television program guide generates a
display of one or more program
listings for display on a display device
at the user’s home; and
a remote program guide access device

4a
located outside of the user’s home on
which a remote access interactive
television
program
guide
is
implemented, wherein the remote
program guide access device is a
mobile device, and wherein the
remote access interactive television
program guide:
generates a display of a plurality of
program listings for display on the
remote program guide access device,
wherein the display of the plurality of
program listings is generated based
on a user profile stored at a location
remote from the remote program
guide access device;
receives a selection of a program listing
of the plurality of program listings in
the display, wherein the selection
identifies a television program
corresponding to the selected program
listing for recording by the local
interactive television program guide;
and
transmits a communication identifying
the television program corresponding
to the selected program listing from
the
remote
access
interactive
television program guide to the local
interactive television program guide
over the Internet communications
path;
wherein the local interactive television
program
guide
receives
the

5a
communication and records the
television program corresponding to
the
selected
program
listing
responsive to the communication
using the local interactive television
program guide equipment.
’263 patent col. 28, ll. 27–63.
The administrative law judge (“ALJ”) conducted an
investigation and trial, and found violation of Section
337. The ALJ found that the X1 set-top boxes are
imported by ARRIS and Technicolor, and that
“Comcast is sufficiently involved with the design,
manufacture, and importation of the accused products,
such that it is an importer for purposes of Section 337.”
Final ID at *11. The full Commission affirmed “the
Final ID’s findings and conclusion that Comcast
imports the X1 STBs 2 into the United States.” Comm.
Op. at *7.
The full Commission affirmed “the Final ID’s
conclusion that the X1 systems meet all of the
limitations of the asserted claims” and “Comcast’s
customers directly infringed the ’263 and ’413 patents
through their use of the X1 systems in the United
States.” Id. at *10–11. The Commission stated that
“[t]he Final ID’s unreviewed findings also conclude
that Comcast induced that infringement,” and that
“Comcast also instructs, directs, or advises its
customers on how to carry out direct infringement of
the asserted claims of the ’263 and ’413 patents with
the X1 STBs.” Id. The Commission affirmed that
Comcast violated Section 337.
The Commission refers to the set-top boxes as “STBs” in the
Commission Opinions and Determinations.
2

6a
For ARRIS and Technicolor, the full Commission
affirmed the finding of the Final ID that these entities
do not directly infringe the asserted claims because
they do not provide a “remote access device” as
required by the claims. Id. at *13; Final ID at *162. The
Final ID also found that they do not contributorily
infringe because the set-top boxes have substantial
non-infringing uses. Id. at *163.
The Commission issued a limited exclusion order
and cease and desist orders directed to the Comcast
respondents. The limited exclusion order excludes
importation of the X1 set-top boxes by Comcast,
including importation by ARRIS and Technicolor on
behalf of Comcast:
Digital video receivers and hardware
and software components thereof that
infringe one or more of [the asserted
claims of the ’263 patent and the ’413
patent] that are manufactured by, or on
behalf of, or are imported by or on behalf
of [Comcast,] or any of their affiliated
companies, parents, subsidiaries, agents,
or other related business entities, or
their successors or assigns, including
ARRIS and Technicolor to the extent
they import such products on behalf of
[Comcast], are excluded from entry for
consumption into the United States . . . .
Certain Digital Video Receivers and Hardware and
Software Components Thereof, Inv. No. 337-TA-1001,
USITC Pub. 4931 (August 2019) (limited exclusion
order) (footnote omitted). The Commission also issued
six cease and desist orders to each of the Comcast
entities, ordering that each entity:

7a
[C]ease and desist from conducting any
of the following activities in the United
States: importing, selling, offering for
sale, leasing, offering for lease, renting,
offering for rent, marketing, advertising,
distributing, transferring (except for
exportation), and soliciting U.S. agents
or distributors for, certain digital video
receivers and hardware and software
components thereof covered by [the
asserted claims of the ’263 patent and the
’413 patent] in violation of section 337 of
the Tariff Act of 1930 . . . .
Id. (cease and desist orders).
Comcast, ARRIS, and Technicolor appeal, and Rovi
participates as intervenor. On appeal Comcast does
not dispute direct infringement by its customers, and
does not dispute that it induces infringement by its
customers. Instead, Comcast argues that its conduct is
not actionable under Section 337 because Comcast’s
inducing conduct “takes place entirely domestically,
well after, and unrelated to, the article’s importation”
and also that Comcast does not itself import the
articles. Comcast Br. 1–2. ARRIS and Technicolor
argue that the Commission does not have authority to
issue an exclusion order “that blocks the importation
of articles manufactured and imported by ARRIS and
Technicolor despite the Commission’s determination
that ARRIS and Technicolor did not violate Section 337
and did not infringe the asserted patents.” ARRIS Br.
14.
DISCUSSION
Standards of Review

8a
The Commission’s factual findings are reviewed for
support by substantial evidence. Honeywell Int’l, Inc.
v. U.S. Int’l Trade Comm’n, 341 F.3d 1332, 1338 (Fed.
Cir. 2003). Legal conclusions receive de novo review.
Id.
To remedy violation of Section 337, “the
Commission has broad discretion in selecting the form,
scope, and extent of the remedy, and judicial review of
its choice of remedy necessarily is limited.” Hyundai
Elecs. Indus. Co. v. U.S. Int’l Trade Comm’n, 899 F.2d
1204, 1209 (Fed. Cir. 1990). The court “may set aside
the Commission’s choice of remedy only if it is legally
erroneous, arbitrary and capricious, or constitutes an
abuse of discretion.” Fuji Photo Film Co. v. U.S. Int’l
Trade Comm’n, 386 F.3d 1095, 1106 (Fed. Cir. 2004).
I
MOTION TO DISMISS
The ’263 patent expired on September 18, 2019 and
the ’413 patent expired on July 16, 2019. The
Appellants have moved for dismissal of this appeal on
the ground that the appeal has become moot, for after
a patent expires “the ITC’s limited exclusionary order
and cease and desist orders as to that patent have no
further prospective effect.” Hyosung TNS Inc. v. U.S.
Int’l Trade Comm’n, 926 F.3d 1353, 1357 (Fed. Cir.
2019). The Appellants also request vacatur of the
Commission’s determination of violation of Section
337.
The Commission and Rovi oppose, stating that there
are continuing issues and actions to which these
rulings are relevant, whereby appellate finality is
warranted because there are ongoing “collateral
consequences,” referring to two ITC investigations on

9a
unexpired Rovi patents that involve imported X1 settop boxes. The Commission identifies Certain Digital
Video Receivers and Related Hardware and Software
Components,
Inv.
No.
337-TA-1103
(“1103
Investigation”) and Certain Digital Video Receivers,
Broadband Gateways, and Related Hardware and
Software Components, Inv. No. 337-TA-1158 (“1158
Investigation”).
It appears to be undisputed that these
investigations are likely to be affected by the decisions
here on appeal. For example, in the 1103 Investigation
the ALJ stated that “[t]he Federal Circuit’s ruling” in
the present appeal “will affect the finding” in that
investigation. 1103 Investigation, 2019 WL 2953268,
at *2 (June 3, 2019). And in the 1158 Investigation
there is a similar issue of importation, with the date
for completion of the investigation set for October 29,
2020, pursuant to Commission Rule 210.51(a)(1). 1158
Investigation, 2019 WL 2880853, at *2 (July 3, 2019).
It is recognized that “a case may remain alive based
on collateral consequences, which may be found in the
prospect that a judgment will affect future litigation or
administrative action.” Hyosung, 926 F.3d at 1358
(citing 13C Charles Alan Wright, Arthur R. Miller &
Edward H. Cooper, Federal Practice and Procedure
§ 3533.3.1 (3d ed. 2008) (internal quotation marks
omitted)). Although in Hyosung the court held that copending district court litigation did not avert mootness
of an ITC decision after patent expiration, the pending
actions here involve unexpired patents related to the
same imported X1 set-top boxes. The Commission
states that the issues on appeal concern the scope of
Section 337 as a matter of statutory interpretation.
We conclude that there are sufficient collateral

10a
consequences to negate mootness. The motion for
dismissal is denied.
II
THE SECTION 337 VIOLATION
The Final ID and the full Commission found
violation of Section 337. 19 U.S.C. § 1337(a) includes:
(1) Subject to paragraph
following are unlawful . . . .

(2),

the

(B) The importation into the United
States, the sale for importation, or
the sale within the United States
after importation by the owner,
importer, or consignee, of articles
that—
(i) infringe a valid and enforceable
United States patent . . . .
It is not disputed that Comcast’s customers directly
infringe the ’263 and ’413 patents. It is also undisputed
that Comcast induces its customers to directly infringe
these patents. Comcast’s argument is that Section 337
is not violated for two reasons: first, that the imported
X1 set-top boxes are not “articles that infringe”
because the boxes do not infringe the patents at the
time of importation; and second, that Comcast is not
the importer of the X1 set-top boxes, but takes title to
the imported boxes only after the boxes are imported
by ARRIS and Technicolor.

11a
A
“Articles that Infringe”
Comcast argues that the Commission’s authority
under Section 337 is limited to excluding articles that
infringe at the time of importation. Comcast states
that this is the holding of Suprema, Inc. v. U.S. Int’l
Trade Comm’n, 796 F.3d 1338 (Fed. Cir. 2015) (en
banc). The Commission and Rovi respond that
Suprema establishes that imported articles infringe in
terms of Section 337, when infringement occurs after
importation.
In Suprema this court considered Section 337 as
applied to infringement after importation, stating:
Section
337
contemplates
that
infringement
may
occur
after
importation. The statute defines as
unlawful “the sale within the United
States after importation . . . of articles
that—(i) infringe . . . .” The statute thus
distinguishes the unfair trade act of
importation from infringement by
defining as unfair the importation of an
article that will infringe, i.e., be sold,
“after
importation.”
Section
337(a)(1)(B)’s “sale . . . after importation”
language confirms that the Commission
is permitted to focus on post-importation
activity to identify the completion of
infringement.
Id. at 1349 (alteration and emphasis in original)
(citations omitted). The court held that “the
Commission’s interpretation that the phrase ‘articles
that infringe’ covers goods that were used by an

12a
importer to directly infringe post-importation as a
result of the seller’s inducement is reasonable.” Id. at
1352–53.
Comcast argues that Suprema should be limited to
its facts, whereby the inducement liability must be
attached to the imported article at the time of the
article’s importation. Comcast states that the
imported X1 set-top boxes are incapable of
infringement until the X1 set-top boxes are combined
with Comcast’s domestic servers and its customers’
mobile devices. Comcast contends that any inducing
conduct of articles that infringe occurs entirely after
the boxes’ importation.
The Commission correctly held that Section 337
applies to articles that infringe after importation. See
Suprema, supra. The Commission found:
Moreover, even if the location of
Comcast’s inducing conduct were legally
relevant, and it is not, Comcast designed
the X1 STBs to be used in an infringing
manner, and directed their manufacture
overseas—requiring,
among
other
things, overseas installation of the
relevant software onto the STBs. Final
ID at 9–12, 232, 234; Wing Shing Pdts.
(BVI), Ltd. v. Simatelex Manufactory Co.,
479 F.Supp.2d 388, 409–11 (S.D.N.Y.
2007) (“[N]umerous courts have held
that, in contrast to §§ 271 (a) and (c),
§ 271 (b) applies to extraterritorial
conduct.”); see also, e.g., Honeywell, Inc.
v. Metz Apparatewerke, 509 F.2d 1137,
1141–42 (7th Cir. 1975); MEMC Elec.
Materials, Inc. v. Mitsubishi Materials

13a
Silicon Corp., 2006 WL 463525, at *7
(N.D. Cal. 2006). Comcast then directed
the importation of those STBs to
Comcast facilities in the United States.
Final ID at 9–12. Comcast’s inducing
activity took place overseas, prior to
importation; it took place at importation;
and it took place in the United States,
after importation. See, e.g., id. at 9–12,
232–37, 399.
J.A. 85 n.13. It is undisputed that direct infringement
of the ’263 and ’413 patents occurs when the imported
X1 set-top boxes are fitted by or on behalf of Comcast
and used with Comcast’s customers’ mobile devices.
Reversible error has not been shown in the
Commission’s determinations that the X1 set-top
boxes imported by and for Comcast for use by
Comcast’s customers are “articles that infringe” in
terms of Section 337.
B
“Importer” under Section 337
Section 337 prohibits the “importation into the
United States, the sale for importation, or the sale
within the United States after importation by the
owner, importer, or consignee, of articles that” infringe
a valid patent. 19 U.S.C. § 1337(a)(1)(B)(i). Whether a
party is an importer in terms of Section 337 is a
question of fact, and the Commission’s finding is
reviewed for support by substantial evidence. In re
Orion Co., 71 F.2d 458, 462 (C.C.P.A. 1934) (“This is
substantial evidence that, at the time of the acts
complained of by the complainant, the Orion Company
was an importer or consignee of slide fasteners.”).

14a
Comcast argues that it is not an importer of the X1
set-top boxes, in that the importer of record is ARRIS
or Technicolor. Comcast states that it does not
physically bring the boxes into the United States and
it does not exercise any control over the process of
importation. The Commission and Rovi respond that
Comcast is an importer in terms of Section 337 because
Comcast causes the X1 set-top boxes to enter the
United States.
The Final ID found that the X1 set-top boxes “are so
tailored to Comcast’s system and requirements that
they would not function within another cable
operator’s system.” Final ID at *11. “Further, the
software at issue in the heart of this investigation is
attributable squarely to Comcast.” Id. The Final ID
concluded that “the evidence shows that Comcast is
sufficiently involved with the design, manufacture,
and importation of the accused products, such that it
is an importer for purposes of Section 337.” Id.
The Final ID sets forth extensive evidence of
Comcast’s control over the importation of the X1 set-top
boxes, including that Comcast requires that the X1 settop boxes “adhere to its specifications and
acceptability standards.” Id. at *10. Comcast also
“[p]rovides ARRIS and Technicolor with detailed
technical documents” so the X1 set-top boxes “operate
as required by Comcast within its network to provide
services to Comcast subscribers.” Id. The “products are
designed only for Comcast” and Comcast restricts
ARRIS’s “ability to sell the products without Comcast’s
permission.” J.A. 135.
The Final ID found that Comcast “[k]nows the
imported products are manufactured abroad and
imported into the United States” and requires ARRIS

15a
and Technicolor “to deliver the accused products to
Comcast delivery sites in the United States.” Final ID
at *10–11. The Final ID found that “Comcast alone
controls the volume of accused products that enter the
United States, through forecasts and orders sent to
ARRIS and Technicolor.” J.A. 136.
The Final ID also found that Comcast “[r]equires
ARRIS and Technicolor to handle importation
formalities, such as fees, documentation, licenses, and
regulatory approvals.” Id. The Final ID concluded that
“Comcast is sufficiently involved in the importation of
the accused products that it satisfies the importation
requirement, under 19 U.S.C. § 1337(A)(1)(B).” Final
ID at *405.
The full Commission concluded that Comcast is an
importer of the X1 set-top boxes. The Commission
stated that “Section 337, as applied to Comcast’s
relevant conduct here, requires importation of articles,
proof of direct infringement, and proof of inducement,
all of which have been established by the record. It is
no defense to the violation of a trade statute that
Comcast, from the United States, actively induces the
infringement by its users as to the imported X1 STBs.”
Comm. Op. at *12.
The Commission’s findings of importation by or for
Comcast of articles for infringing use are supported by
substantial
evidence.
The
Commission’s
determination of violation of Section 337 is in
conformity to the statute and precedent.

16a
III
THE LIMITED EXCLUSION ORDER
ARRIS and Technicolor argue that Section 337
limits exclusion orders to articles “imported by any
person violating the provision of this section.” 19
U.S.C. § 1337(d)(1). ARRIS and Technicolor argue that
the limited exclusion order is improperly applied to
them because they were found not to be infringers or
contributory infringers. The Final ID found that the X1
set-top boxes are non-infringing when imported, and
that contributory infringement does not lie because
the boxes as imported have non-infringing uses such
as watching live television.
The Commission responds that the exclusion order
as applied to ARRIS and Technicolor is within ITC
discretion to enforce Section 337, because the order is
limited to importations on behalf of Comcast, of articles
whose intended use is to infringe the patents at issue.
The Commission has discretion in selecting a
remedy that has a reasonable relation to the unlawful
trade practice. See Cisco Systems, Inc. v. U.S. Int’l
Trade Comm’n, 873 F.3d 1354, 1363 (Fed. Cir. 2017)
(“Blocking imports of articles that induce patent
infringement has a reasonable relationship to stopping
unlawful trade acts.”). The Commission points out that
ARRIS and Technicolor were respondents in the
investigation, and the exclusion order is limited to
articles imported on behalf of Comcast. On these facts,
the limited exclusion order is within the Commission’s
discretion as reasonably related to stopping the
unlawful infringement, and is affirmed.
CONCLUSION
The rulings and remedial actions of the Commission

17a
are in accordance with law, and the underlying findings
are supported by substantial evidence. The
Commission’s decision and implementing orders are
affirmed.
AFFIRMED

18a
APPENDIX B
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
COMMISSION OPINION
This investigation is before the Commission for a
final determination on the issues under review, and to
determine the appropriate remedy, the public interest,
and bonding. The Commission has determined to
affirm that respondent Comcast violated section 337 of
the Tariff Act of 1930, as amended (19 U.S.C. 1337)
(“section 337”), in connection with claims 1, 2, 14, and
17 of U.S. Patent No. 8,006,263 (“the ’263 patent”) and
claims 1, 3, 5, 9, 10, 14, and 18 of U.S. Patent No.
8,578,413 (“the ’413 patent”).
The Commission has determined to affirm the final
initial determination (the “Final ID”) in part, affirm
the Final ID with modifications in part, reverse the
Final ID in part, vacate the Final ID in part, and take
no position as to certain issues under review. More
particularly, the Commission affirms the Final ID’s
determination that Comcast imports the accused X1
set-top boxes (“STBs”), and takes no position as to
whether Comcast is an importer of the Legacy STBs.
The Commission also takes no position on whether
Comcast sells the accused products after importation.
The Commission concludes that there is no section
337 violation as to the Legacy STBs. Regarding the X1
STBs, the Commission affirms the Final ID’s

19a
conclusion that Comcast’s customers directly infringe
the ’263 and ’413 patents. Thus, the Commission
affirms the Final ID’s conclusion that complainant
Rovi has established a violation by Comcast as to those
patents and the X1 STBs.
The Commission also takes the following actions.
The Commission vacates the Final ID’s conclusion that
Comcast’s two alternative designs infringe the ’263
and ’413 patents and instead concludes that those
designs are too hypothetical to adjudicate at this time.
The Commission modifies and affirms the Final ID’s
claim construction of the claim term “cancel a function
of the second tuner to permit the second tuner to
perform the requested tuning operation” in U.S.
Patent No. 8,621,512 (“the ’512 patent”) and affirms
the Final ID’s infringement determinations as to that
patent. The Commission modifies and affirms the
Final ID’s conclusion that the asserted claims of the
’512 patent are invalid as obvious. The Commission
takes no position as to whether the ARRIS-Rovi
Agreement provides a defense to the allegations
against ARRIS, and as to whether Rovi established the
economic prong of the domestic industry requirement
based on patent licensing. The Commission adopts the
remainder of the Final ID to the extent that it does not
conflict with this opinion or to the extent it is not
expressly addressed in this opinion.
Having found a violation of section 337 in this
investigation by Comcast, the Commission has
determined that the appropriate form of relief is a
limited exclusion order (“LEO”) and cease and desist
orders (“CDOs”). The Commission has determined to
issue an LEO as to Comcast’s infringing digital video
receivers and hardware and software components

20a
thereof. The CDOs prohibit, among other things, the
importation, sale, and distribution of infringing
products by Comcast.
The Commission has also determined that the
public interest factors enumerated in sections 337(d)
and (f) do not preclude issuance of the orders. Finally,
the Commission has determined that a bond in the
amount of zero (i.e., no bond) is required to permit
temporary importation and sale during the period of
Presidential review (19 U.S.C. 1337(d)) of digital video
receivers and hardware and software components
thereof that are subject to the orders.
I. BACKGROUND
A. Procedural History
1. Institution
The Commission instituted this investigation on
May 26, 2016, based on a complaint filed on behalf of
Rovi Corporation and Rovi Guides, Inc. (collectively,
“Rovi”), both of San Carlos, California. 81 FR 33547,
33547 (May 26, 2016) (the “Notice of Investigation”).
The complaint, as amended, alleges violations of
section 337 of the Tariff Act of 1930, as amended, 19
U.S.C. 1337, by reason of infringement of certain
claims of U.S. Patent Nos. 8,006,263 (“the ’263
patent”); 8,578,413 (“the ’413 patent”); 8,046,801 (“the
’801 patent”); 8,621,512 (“the ’512 patent”); 8,768,147
(“the ’147 patent”); 8,566,871 (“the ’871 patent”); and
6,418,556 (“the ’556 patent”). Id. at 33547-48. The
complaint further alleges that a domestic industry
exists. Id. at 33548.
The Notice of Investigation named sixteen
respondents.
The
respondents
are
Comcast
Corporation; Comcast Cable Communications, LLC;

21a
Comcast Cable Communications Management, LLC;
Comcast Business Communications, LLC; Comcast
Holdings Corporation; Comcast Shared Services, LLC
(collectively “Comcast”); Technicolor SA; Technicolor
USA, Inc.; Technicolor Connected Home USA LLC
(collectively “Technicolor”); ARRIS International plc;
ARRIS Group Inc.; ARRIS Technology, Inc.; ARRIS
Enterprises LLC; ARRIS Solutions, Inc.; ARRIS
Global Ltd., and Pace Americas, LLC (collectively,
“ARRIS”)
(all
respondents
collectively,
the
“Respondents”). Notice of Investigation, 81 FR at
33548; see also 82 FR 38934-36 (Aug. 16, 2017) (the
“Notice of Review”). The Office of Unfair Import
Investigations is not a party to this investigation. See
Notice of Investigation, 81 FR at 33548.
2. Non-Final Initial Determinations
On October 21, 2016, the Commission determined
not to review an initial determination (“ID”)
terminating the investigation as to claims 5, 6, 8, 9, 11,
12, and 18 of the ’263 patent; claims 6-8, 12, and 15-17
of the ’413 patent; claims 2-4, 6-9, 11-14, 16-27, and 2954 of the ’801 patent; claims 4, 8, 9, 11, 12, 16, 20, 21,
23, and 24 of the ’512 patent; claims 5, 6, 8, 10, 15, 21,
22, and 24 of the ’147 patent; claims 2, 4, 10, 11, 13, 16,
19-22, 24, 26, 28, 30, 33, 35, 36, and 39 of the ’556
patent; and claims 1, 2, 6-11, 13, 19-22, 24, and 30-33
of the ’871 patent. 1 On December 2, 2016, the
Commission determined not to review an ID
terminating the investigation as to claim 15 of the ’263
patent; claim 28 of the ’801 patent; claims 2, 3, 14, and
15 of the ’512 patent; claim 16 of the ’147 patent; claims
3, 12, and 14 of the ’556 patent; and claims 23, 28, and
Order No. 17 (Sept. 23, 2016), unreviewed, Comm’n Notice (Oct.
21, 2016).

1

22a
29 of the ’871 patent. 2 On December 28, 2016, the
Commission determined not to review an ID
terminating the investigation as to all infringement
allegations with respect to the ’147 patent. 3
For sake of clarity regarding the effect of the nonfinal IDs, the table below presents the remaining
claims (and purposes thereof).
Patent

Infringement

Domestic
Industry
(Technical
Prong)

X1 STBs

Legacy STBs

’556

7, 18, 40

7, 18, 40

7, 18, 40

’263

1, 2, 14, 17

1, 2, 14, 17

1, 2, 14, 17

’801

1, 5, 10, 15

1, 5, 10, 15

1, 5, 10, 15

’871

12, 17, 18

(none)

12, 13, 17, 18

’413

1, 3, 5, 9, 10, 1, 3, 5, 9, 10, 14,
14, 18
18

1, 3, 5, 9, 10,
14, 18

’512

1, 10, 13, 22

1, 10, 13, 22

1, 10, 13, 22

3. The Final ID, Petitions Thereof, and the
Recommended Determination
On May 26, 2017, the ALJ issued the Final ID,
which concludes with forty-nine conclusions of fact and
law (abbreviated herein as “COFL”). Final ID at 610Order No. 25 (Nov. 14, 2016), unreviewed, Comm’n Notice (Dec.
2, 2016).
2

Order No. 27 (Dec. 5, 2016), unreviewed, Comm’n Notice (Dec.
28, 2016).
3

23a
13. The Final ID finds a violation of section 337 in
connection with the asserted claims of the ’263 and
’413 patents, but not in connection with the asserted
claims of the ’556, ’801, ’871, and ’512 patents.
Specifically, the Final ID finds that the Commission
has subject matter jurisdiction over the allegations in
the complaint, in rem jurisdiction over the accused
products, and in personam jurisdiction over
Respondents. Final ID at 610. The Final ID finds that
Comcast, ARRIS, and Technicolor import the accused
products, but that Comcast does not sell accused
products for or after importation. Id. at 9-14.
On June 9, 2017, the ALJ issued his
Recommendation on Remedy and Bond (the “RD”). The
RD declares that,
subject
to
any
public
interest
determination of the Commission, the
Commission should: (1) issue a [LEO]
covering products that infringe one or
more of the claims as to which a violation
of section 337 has been found; (2) issue
[CDOs]; and (3) require no bond during
the Presidential review period.
RD at 1.
4. The Commission’s Review of the Final ID
On June 12, 2017, Rovi and Respondents each filed
a petition for review of the Final ID, each challenging
a number of the Final ID’s findings and conclusions. 4
Rovi’s and Respondents’ petitions for review of the Final ID are
cited herein as “Rovi Pet.” and “Resps. Pet.,” respectively; and
Rovi’s and Respondents’ replies to the other’s petitions are cited
herein as “Rovi Pet. (Reply)” and “Resps. Pet. (Reply),”
respectively. The parties’ separately-filed summaries of their
4

24a
On August 10, 2017, the Commission determined to
review some of the petitioned issues. Notice of Review,
82 FR at 38934-36. Specifically, the Commission
determined to review the following issues:
(1) The Final ID’s determination that
Comcast is an importer of the accused
products (Issue 1 in Respondents’
Petition for Review).
(2) The Final ID’s determination that
Comcast has not sold accused products in
the United States after the importation
of those products into the United States
(the issue discussed in section III of
Rovi’s Petition for Review).
(3) The Final ID’s determination that the
accused Legacy products are “articles
that infringe” (Issue 2 in Respondents’
Petition for Review).
(4) . . . [W]hether the X1 products are
“articles that infringe” (Issue 3 in
Respondents’ Petition for Review), the
issue of direct infringement of the ’263
and ’413 patents by the X1 accused
products (Issue 5 in Respondents’
Petition for Review), and the issue of “the
nature and scope of the violation found”
(the issue discussed in section X1 of
Respondents’ Petition for Review).
(5) . . . [W]hether Comcast’s two
alternative designs infringe the ’263 and
’413 patents (Issue 4 in Respondents’
petitions and/or replies are denoted herein with “(Summary).”

25a
Petition for Review).
(6) The Final ID’s claim construction of
“cancel a function of the second tuner to
permit the second tuner to perform the
requested tuning operation” in the ’512
patent, and the Final ID’s infringement
determinations as to that patent (Issue
26 in Respondents’ Petition for Review).
(7) The Final ID’s conclusion that the
asserted claims of the ’512 patent are
invalid as obvious (the issue discussed in
section VI.B.4 of Rovi’s Petition for
Review).
(8) . . . [W]hether the ARRIS-Rovi
Agreement provides a defense to the
allegations
against
the
ARRIS
respondents (the issue discussed in
section X1 of Respondents’ Petition for
Review).
(9) The Final ID’s conclusion that Rovi
did not establish the economic prong of
the domestic industry requirement
based on patent licensing (the issue
discussed in section IV of Rovi’s Petition
for Review).
Id. at 389345. The Commission requested briefing on
certain topics. The Commission further concluded that
certain of Respondents’ assignments of error were
waived:
The Commission has further determined
that Respondents’ petition of the Final
ID’s determinations is improper as to the
following issues: (1) The representative

26a
accused X1 products for the ’263, ’413,
and ’801 patents; (2) the induced
infringement of the ’263 and ’413
patents; and (3) the eligibility under 35
U.S.C. 101 of the ’512 patent. See 19 CFR
210.43(b)(2) (“Petitions for review may
not incorporate statements, issues, or
arguments by reference.”). Those
assignments of error are therefore
waived.
Id. On August 24, 2017, Rovi and Respondents filed
their written submissions on the issues under review
and on remedy, public interest, and bonding, and on
August 31, 2017, the parties filed their reply
submissions. 5
On August 23, 2017, Respondents filed a “Petition
for
Reconsideration
of
the
Commission’s
Determination of Waiver as to Certain Issues Specified
in Respondents’ Petition for Review or, Alternatively,
Application of Waiver to Issues Raised in Rovi’s
Petition for Review,’’ challenging the Commission’s
finding of waiver as to the three issues noted above. On
August 30, 2017, Rovi filed a response thereto. Based
on the conclusory assertions and incorporation of posthearing briefing in Respondents’ petition for review,
Respondents waived their arguments and failed to
demonstrate that any finding or conclusion of material
fact was clearly erroneous; that any legal conclusion
was erroneous, without governing precedent, rule or
law, or constitutes an abuse of discretion; or that any
Rovi’s and Respondents’ initial submissions are cited herein as
“Rovi Br.” and “Resps. Br.,” respectively, and the parties’ reply
submissions are cited herein as “Rovi Br. (Reply)” and “Resps. Br.
(Reply),” respectively.

5

27a
issue is one affecting Commission policy. 19 CFR
210.43(b)(1)-(b)(2). Accordingly, we have found the
issues waived, and have adopted the ALJ’s findings on
these issues.
B. Patents Related to the Issues under Review
1. The ’263 and ’413 Patents—the “Remote
Access Patents”
The ’263 and ’413 patents are each titled
“Interactive television program guide with remote
access.” The ’263 patent issued on August 23, 2011,
and the ’413 patent issued on November 5, 2013. JX0002 (’263 patent), at cover page; JX-0005 (’413
patent), at cover page. Respondents refer to the ’263
and ’413 patents as the “Remote Access Patents.” See
Final ID at 178. Each Remote Access Patent claims the
benefit of U.S. Provisional Application Nos:
60/097,527, filed August 21, 1998, and 60/093,292,
filed July 17, 1998. JX-0002 (’263 patent), at cover
page; JX-0005 (’413 patent), at cover page. Each of the
Remote Access Patents shares essentially the same
specification. See generally JX-0002 (’263 patent); JX0005 (’413 patent), at cover page; see also Rovi PostHrg. Br. 6 at 41 (explaining that the patents “stem from
a common, parent application filed on July 16, 1999”).
The Remote Access Patents relate to interactive
television guide programs (“IPGs”) that operate on
local devices, such as STBs, and remote devices, such
as a laptops or mobile phones. See JX-0002 (’263
patent), at Abstract; JX-0005 (’413 patent), at
“Rovi Post-Hrg. Br.” refers to the Rovi’s post-hearing brief,
which was filed with the ALJ. Respondents’ post-hearing brief is
similarly abbreviated as “Resps. Post-Hrg. Br.,” and the parties’
reply post-hearing briefing is cited as “Rovi Post-Hrg. Br. (Reply)”
or “Resps. Post-Hrg. Br. (Reply),” respectively.
6

28a
Abstract; see also Final ID at 178, 281.
2. The ’512 Patent
The ’512 patent, titled “Interactive television
program guide with simultaneous watch and record
capabilities,” issued on December 31, 2013, and claims
the benefit of several applications, the earliest of which
is U.S. Provisional Application No. 60/089,487, filed on
June 16, 1998. JX-0006 (’512 patent), at cover page.
The ’512 patent discloses a television guide that allows
a user to record a program while simultaneously
watching another program. Id.
C. Products at Issue
1. The Accused Products
The accused products are STBs (and their ancillary
remote controls and applications) that Comcast
supplies to customers to enable their television
viewing experience. See, e.g., Final ID at 7. These
products are capable of supporting one of two softwarebased guides supplied by Comcast to its customers: the
X1 Guide or the Legacy Guide. Regarding the
differences between the X1 Guide and the Legacy
Guide, the Legacy STBs locally store and execute the
IPG 7 software and programming scheduling data “on
the box,” and the new X1 STBs receive IPG screen
views from the “cloud.” See, e g., id. at 220.
In view of certain licensing agreements at issue in
this investigation, Rovi declares that it
accuses all digital video receivers and
hardware and software components
An IPG allows, for example, a person viewing a television to
select channels for viewing or recording.

7

29a
thereof, including all products capable of
supporting Comcast’s X1 or Legacy
Guide, that are or were: (1) products
purchased by Comcast on or after April
1, 2016 8, regardless of when they were
imported; (2) products installed by
Comcast into its customer base on or
after April 1, 2016, regardless of when
they were purchased by Comcast or
imported; and (3) products that Comcast
now holds in inventory and that Comcast
will, in the normal course of business,
install into Comcast’s customer base on
or after April 1, 2016, regardless of when
they were purchased by Comcast or
imported.
Rovi Post-Hrg. Br. at 10. Rovi further accuses
all Technicolor and ARRIS products
capable of supporting Comcast’s X1 or
Legacy Guide, that are or were: (1)
products imported on or after April 1,
2016 and sold to Comcast; (2) products
sold to Comcast on or after April 1, 2016,
regardless of when they were imported;
and (3) products that Technicolor or
ARRIS hold in inventory for sale to
Comcast, regardless of when they were
imported. The foregoing includes remote
controls and applications that operate in
conjunction with any of the identified
models.
April 1, 2016, is the day after patent and software licenses
between Rovi (licensor) and Comcast (licensee) expired.

8

30a
Id. at 10-11.
2. The Domestic Industry Products
The domestic industry products in this investigation
are Rovi’s i-Guide, Passport, and TotalGuide XD
systems. Final ID at 576.
II.

ISSUES UNDER REVIEW

A. Whether Comcast Has Imported or Sold
Infringing Products after the Importation
into the United States
1. The X1 STBs
The Commission has determined to affirm the Final
ID’s findings and conclusion that Comcast imports the
X1 STBs into the United States. The Commission has
determined to take no position as to whether Comcast
has sold the X1 STBs in the United States after the
importation of those products into the United States.
See Beloit Corp. v. Valet Oy, 742 F.2d 1421, 1423 (Fed.
Cir. 1984).
2. The Legacy STBs
As discussed below, the Commission has
determined that Rovi cannot establish a violation
based on any unfair act related to the Legacy STBs.
The Commission has thus determined to take no
position as to whether Comcast has imported or sold
the Legacy STBs after the importation into the United
States. See Beloit, 742 F.2d at 1423.
B. Whether Rovi Established a Violation as to
the Legacy STBs
1. The Applicable Law
“An express or implied license is a defense to
infringement.” Radar Indus., Inc. v. Cleveland Die &

31a
Mfg. Co., 424 F. App’x 931, 933 (Fed. Cir. 2011). “The
burden of proving that an implied license exists is on
the party asserting an implied license as a defense to
infringement.” Augustine Med, Inc. v. Progressive
Dynamics, Inc., 194 F.3d 1367, 1370 (Fed. Cir. 1999).
“The longstanding doctrine of patent exhaustion
provides that the initial authorized sale of a patented
item terminates all patent rights to that item.” Quanta
Computer Inc. v. LG Elecs., Inc., 553 U.S. 617, 625, 128
S.Ct. 2109, 170 L.Ed.2d 996 (2008).
2. The Final ID
The Final ID concludes that “[t]he accused Legacy
products infringe claims 1, 2, 14, and 17 of [the ’263
patent]; claims 1, 3, 5, 9, 10, 14, and 18 of [the ’413
patent]; and claims 1, 10, 13, and 22 of U.S. Patent No.
8,621,512.” Final ID at 611. However, the Final ID
finds no violation by Comcast with respect to the
Legacy STBs based on a 2010 Patent License between
Rovi and Comcast. Id. at 553-54. Relevant to the
Legacy STBs and regarding Comcast’s licensing
defense, the Final ID declares,
The 2010 Patent License permits
Comcast (and authorized third parties)
to [
] products that practice Rovi’s
Patents. Thus, the license expressly
allows Comcast, along with its suppliers,
to import products before April 1, 2016.
Accordingly, . . . products imported
before April 1, 2016 are not unlawful
imports, and there has been no . . . unfair
act which would constitute a violation
[of] Section 337 for these products.
Final ID at 553-54 (footnote and citations omitted). [ ].

32a
3. Commission Determination and Analysis
The Commission hereby supplements the Final ID
with the following analysis. Rovi has not established a
violation as to the Legacy STBs imported prior to the
expiration of the license additionally because the sale
of all Legacy STBs at issue that was authorized by Rovi
exhausted Rovi’s patent rights as to those products.
Patent exhaustion is generally triggered by a
patentee’s sale of an item or through a sale of that item
that is authorized by the patentee (such as a sale by a
licensee authorized by the patentee). Impression
Prods. Inc. v. Lexmark Int’l, Inc., 137 S. Ct. 1523, 1531,
1534-35 (2017); see also Quanta, 553 U.S. at 625 (“The
longstanding doctrine of patent exhaustion provides
that the initial authorized sale of a patented item
terminates all patent rights to that item.”); see also
Powertech Tech. Inc. v. Tessera, Inc., 660 F.3d 1301,
1307 (Fed. Cir. 2011); LG Elecs. Inc. v. Hitachi Ltd.,
655 F. Supp. 2d 1036, 1047-48 (N.D. Cal. 2009) (citing
U.S. v. Masonite Corp., 316 U.S. 265, 278 (1942)).
Patent exhaustion
marks the point where patent rights
yield to the common law principle
against restraints on alienation. The
Patent Act “promote[s] the progress of
science and the useful arts by granting to
[inventors] a limited monopoly” that
allows them to “secure the financial
rewards” for their inventions. [Univis
Lens. Co. v. U.S., 316 U.S., 241, 250
(1942)]. But once a patentee sells an
item, it has “enjoyed all the rights
secured” by that limited monopoly.
Keeler v. Standard Folding Bed Co., 157

33a
U.S. 659, 661, 15 S.Ct. 738, 39 L.Ed. 848
(1895). Because “the purpose of the
patent law is fulfilled . . . when the
patentee has received his reward for the
use of his invention,” that law furnishes
“no basis for restraining the use and
enjoyment of the thing sold.” Univis, 316
U.S., at 251, 62 S.Ct. 1088.
Impression Prods., 137 S. Ct. at 1531-32. “The patent
exhaustion analysis focuses on the agreement to which
the patent holder is a party” because “[o]nly that
agreement reflects what the patent holder has
bargained for” and “reflects the relevant transaction
pursuant to which the patent holder contemplated
sales of the patented items, whether through a direct
licensee, or through a subsequent sublicensee.” High
Point Sarl v. T-Mobile USA. Inc. 53 F.Supp.3d 797,
803, 805 (D.N.J. 2014) (holding that sales by a sublicensee were authorized by the patentee’s license
agreement with the licensee for purposes of patent
exhaustion), aff’d per curiam, 640 Fed. Appx. 917 (Fed.
Cir. 2016) (unpublished).
Rovi granted Comcast an express license to [ ]. JX0050C, at § 1(b) (emphasis added). As shown above, the
license agreement thus authorized Comcast to [
]
STBs. Also as shown above, that license agreement
authorized [
]. See, e.g., RX-0838C (Shank RWS) at
QA28-29; ARRIS’s Resp. to the Complaint (June 30,
2016, Rule 210.13(b) Statement); Tr. 465-66, 469-71,
558; JX-0100C (Johnson Dep. Tr.) 48; RX-0781C (Folk
RWS) at Q/A 50 ([
]); Technicolor’s Aug. 1, 2016,
Supplemental Rule 210.13(b) Statement. Thus,
focusing on the “license agreement to which the patent
holder is a party,” see High Point, 53 F.Supp.3d at 805,

34a
all sales of Legacy STBs were sales authorized by the
license agreement [ ]. Therefore, Rovi’s patent rights
have been exhausted as to those STBs, and none of the
import, re-import, 9 or any alleged sale after
importation of the Legacy STBs at issue can be the
basis of a violation under section 337(a)(1)(B). 10
After the ALJ issued the Final ID, Comcast submitted with the
Office of the Secretary a letter including supplemental disclosures
and representations, [ ]. The Commission determined to reopen
the evidentiary record and accept the supplemental disclosure
and related submissions. See Notice of Review, 82 FR at 3893435.
9

Similarly, any alleged infringing conduct or unfair acts under
section 337 regarding X1 STBs that were purchased and imported
prior to the expiration of the license cannot serve as a basis of a
violation under section 337(a)(1)(B). In Quanta, the Supreme
Court considered whether exhaustion can apply when the sold
article does not itself fully practice the asserted claims, such as if
the claims are method claims. See Quanta, 553 U.S. at 628-35.
There, the Court declared that exhaustion is triggered when the
sold article has as its only reasonable and intended use to practice
the patent and where the article embodies the essential features
of the patented invention. See Quanta, 553 U.S. at 631-32 (citing
Univis, 316 U.S. at 249-51).
10

The standard under Quanta is satisfied with respect to both the
X1 and Legacy STBs. The Final ID’s unreviewed finding declares
that the Legacy STBs infringe the ’263 and ’413 patents, see, e.g.,
Final ID at 611, and the Commission concludes (as discussed
below) that the X1 STBs infringe the ’263 and ’413 patents.
Furthermore, “the accused products are so tailored to Comcast’s
system and requirements that they would not function within
another cable operator’s system.” Final ID at 12. Additionally (as
discussed below), the Commission concludes that Rovi has shown
that Comcast induced the infringement of the ’263 and ’413
patents as to the X1 STBs, and the analogous finding of the Final
ID as to the Legacy STBs was not petitioned. See Final ID at 611.
Thus, Comcast had the intent to infringe those patents with both
sets of STBs. Accordingly, exhaustion applies to all STBs
imported prior to the expiration of the license.

35a
C. Whether Rovi Established that the X1 STBs
Infringe the ’263 and ’413 Patents
1. The Applicable Law
a. Infringement
i. Direct Infringement
35 U.S.C. 271(a) defines direct infringement and
declares, “whoever without authority makes, uses,
offers to sell, or sells any patented invention, within
the United States or imports into the United States
any patented invention during the term of the patent
therefor, infringes the patent.” The complainant in a
section 337 investigation bears the burden of proving
infringement of the asserted patent claims by a
preponderance of the evidence. Certain Flooring
Prods., Inv. No. 337-TA-443, Comm’n Notice of Final
Determination of No Violation of Section 337, 2002 WL
448690, at *59, (Mar. 22, 2002); Enercon GmbH v. Int’l
Trade Comm’n, 151 F.3d 1376 (Fed. Cir. 1998).
ii. Indirect Infringement
Section 271(b) of the Patent Act also provides that
“[w]hoever actively induces infringement of a patent
shall be liable as an infringer.” 35 U.S.C. 271(b). “To
prevail on a claim of induced infringement, in addition
to inducement by the defendant, the patentee must
also show that the asserted patent was directly
infringed.” Epcon Gas Sys. v. Bauer Compressors, Inc.,
279 F.3d 1022, 1033 (Fed. Cir. 2002). Furthermore,
“[s]ection 271(b) covers active inducement of
infringement, which typically includes acts that
intentionally cause, urge, encourage, or aid another to
directly infringe a patent.” Arris Grp. v. British
Telecomm. PLC, 639 F.3d 1368, 1379, n.13 (Fed. Cir.
2011). The Supreme Court held that induced

36a
infringement under § 271(b) requires knowledge that
the induced acts constitute patent infringement.
Commil USA, LLC v. Cisco Sys, Inc., 135 S.Ct. 1920,
1926-27 (2015).
2. The Final ID
The Final ID finds direct infringement of claims 1,
2, 14, and 17 of the ’263 patent and claims 1, 3, 5, 9,
10, 14, and 18 of the ’413 patent. See, e.g., Final ID at
399, 610-11. 11 The Final ID also finds that Comcast
induces its customers to infringe those patents. E.g.,
id. at 610-11. The Final ID further finds that ARRIS
and Technicolor do not directly or indirectly infringe
those patents. E.g., id. at 237, 610-11.
3. Commission Determination and Analysis
The Commission affirms the Final ID’s conclusion
that Comcast’s customers directly infringed the ’263
and ’413 patents through their use of the X1 systems
in the United States. See Final ID at 234-38. The Final
ID’s unreviewed findings also conclude that Comcast
induced that infringement. See id. at 232-34. The
The Commission agrees with the Final ID’s unpetitioned
finding that the parties have determined to treat claim 1 of the
’263 patent as representative of the relevant claims for
infringement purposes. Id. at 228-30, 396-400 (“Neither Rovi nor
Comcast present separate, substantive argument as to whether
Comcast does or does not infringe claims 2, 14, and 17 of [the ’263
patent]”) (“Rovi relies on the same evidence and argument
presented for claim 1 of the ’263 Patent to argue that claims 1, 3,
5, 9, 10, 14, and 18 [of the ’413 patent] are infringed”) (“Similarly,
Comcast has not presented any separate, substantive noninfringement arguments for the ’413 Patent.”). To the extent that
there are any pertinent differences between the claims, the
parties, through their representations and conduct, have waived
reliance on those differences.

11

37a
parties dispute whether the Final ID finds that
Comcast itself directly infringed the ’263 and ’413
patents through Comcast’s “‘testing and use’ of the
Accused Products in the United States after
importation.” Rovi Br. (Reply) at 12 (citing Final ID at
211-32); Resps. Br. (Reply) at 33-34, n. 12. To the
extent that the Final ID so finds direct infringement
by Comcast, we take no position on the issue, which,
because of Comcast’s inducement of its customers’
direct infringement, is unnecessary for our findings of
violation of section 337. 12 The Commission finds no
section 337 violation by ARRIS or Technicolor because
Rovi failed to demonstrate direct or indirect
infringement by ARRIS and Technicolor.
Claim 1 of the ’263 patent, which is representative
of the relevant claims, recites (with Rovi’s
annotations):
[1pre] 1. A system for selecting television
programs over a remote access link
comprising an Internet communications
path for recording, comprising:
[1a] a local interactive television
program guide equipment on which a
local interactive television program
guide is implemented, wherein the local
Were the Commission to have found direct infringement by
Comcast, the parties dispute whether section 337 can redress that
infringement absent a showing of indirect infringement, in view
of their differing interpretations of Certain Electronic Devices
with Image Processing Systems, Components Thereof, and
Associated Software, Inv. No. 337-TA-724, Comm’n Op. (Dec. 21,
2011) and the subsequent Federal Circuit decision in Suprema
concerning section 337’s scope. However, this dispute is moot
under the current findings.
12

38a
interactive television program guide
equipment includes user television
equipment located within a user’s home
and the local interactive television
program guide generates a display of one
or more program listings for display on a
display device at the user’s home; and
[1b] a remote program guide access
device located outside of the user’s home
on which a remote access interactive
television
program
guide
is
implemented, wherein the remote
program guide access device is a mobile
device, and wherein the remote access
interactive television program guide:
[1c] generates a display of a plurality of
program listings for display on the
remote program guide access device,
wherein the display of the plurality of
program listings is generated based on a
user profile stored at a location remote
from the remote program guide access
device;
[1d] receives a selection of a program
listing of the plurality of program
listings in the display, wherein the
selection identifies a television program
corresponding to the selected program
listing for recording by the local
interactive television program guide;
and
[1e]
transmits
a
communication
identifying the television program
corresponding to the selected program

39a
listing from the remote access interactive
television program guide to the local
interactive television program guide over
the Internet communications path;
[1f] wherein the local interactive
television program guide receives the
communication
and
records
the
television program corresponding to the
selected program listing responsive to
the communication using the local
interactive television program guide
equipment.
JX-0002 (’263 patent) at 28:27-63 (emphasis added).
The Commission affirms the Final ID’s conclusion
that the X1 systems meet all of the limitations of the
asserted claims of the ’263 and ’413 patents. See Final
ID at 211-30, 396-399. The unreviewed portion of the
Final ID additionally finds as follows. Comcast also
instructs, directs, or advises its customers on how to
carry out direct infringement of the asserted claims of
the ’263 and ’413 patents with the X1 STBs. See [ ],
such as CX-1886 (Xfinity TV Remote for Google Play
Store) and CX-1887 (Xfinity TV Remote for Apple App
Store)); Hrg. Tr. at 259-62 (Dr. Shamos, testifying on
CX-1697 (Xfinity DVR Cloud Video), which instructs
its customers on how to use the Xfinity DVR on the
cloud using Comcast Xfinity Apps in a manner that Dr.
Shamos has opined infringes the asserted claims). [ ].
See Hrg. Tr. at 903 (Dr. Wigdor); JX-0090C (Brown
Dep. Tr.) at 65-68, 76-78, 80-82; JX-0105C (McCann
Dep. Tr.) at 121-23; Hrg. Tr. at 251 (Dr. Shamos,
describing how favorite channels, recently viewed
programs, recently recorded programs, and parental
control information can all be used to display television

40a
program listing on a mobile device based on user
profile information). Furthermore, CX-1696 (The X1
Platform Video), CX-0456 (X1 Entertainment
Operating System Brochure), CX-1886 (Xfinity TV
Remote for Google Play), CX-1887 (Screenshots Xfinity TV Remote), CX-1890 (Set Up Recording
Webpg), and CX-1894 (Xfinity TV Remote App
website), all show that Comcast instructs its customers
to view the remote interactive television program
guide on the user’s smartphone by using the Xfinity X1
App. CX-0002C (Shamos WS) at Q/A 179. Also by using
this app, customers can view a remote interactive
television program guide or get “recommendations just
for [the specific user].” CX-1696 (The X1 Platform
Video). Once the customer has decided which programs
to record, the app then communicates with the
customer’s DVR over the Internet and instructs the
DVR to record the selected programming and displays
the programs selected for recording on the remote
guide generated for display to the customer. Id. CX1886 (Xfinity TV Remote for Google Play) shows that
the Android version of the Xfinity TV Remote App had
“1,000,000 to 5,000,000” installs as of October 2016.
Comcast also provides instructions to its customers on
using cloud-based videos and DVR. CX-1692 (How to
Get Started with Cloud-Based DVR); CX-0002C
(Shamos WS) at Q/A 37, 178-79.
Comcast’s customers use the Xfinity Apps in the
way that Comcast promotes them, and thus directly
infringe the asserted claims of the ’263 and ’413
patents. Hrg. Tr. (Nush) at 731 [ ]. For example, Mr.
Peter Nush testified at the hearing on the number of
remote recording requests that occurred using the
Xfinity Apps in the United States (including the TV
App and Remote TV App). Hrg. Tr. (Nush) at 732-34.

41a
[
]. Hrg. Tr. (Nush) at 732. For example, CX-1515C
(Comcast Remote Client Application Usage Data) at 4,
shows [
].
As to Comcast’s inducement of its customers’
infringement, the Commission observes that the
unreviewed portion of the Final ID finds as follows.
Comcast had actual knowledge of the ’263 and ’413
patents at least since 2014, when Comcast and Rovi
held license-renewal discussions. See, e.g., CX-1725C
(Comcast Interrog. Resp.) at 11-13; see also CDX0303C (citing CX-0292C, CX-0272C, CX-1450C); RX0860C. Furthermore, Comcast knew or was willfully
blind to the high probability that its actions would
cause its customers to infringe the ’263 and ’413
patents. Comcast previously licensed the ’263 and ’413
patents (in other words, it paid for the right to practice
the patents), it received claim charts articulating
Rovi’s infringement allegations and did not respond to
them, [
]. See, e.g., CX-0001C (Armaly WS) at Q/A
114 (discussing the licensed patents and the license,
JX-0051C), Q/A 120-24, 129-30 (discussing claim
charts); [ ].
Respondents argue that their inducing conduct is
not actionable under section 337 because “Comcast’s
inducing conduct took place entirely domestically,
after importation.” Resps. Br. at 18. Respondents miss
the point. Section 337, as applied to Comcast’s relevant
conduct here, requires importation of articles, proof of
direct infringement, and proof of inducement, all of
which have been established by the record. It is no
defense to the violation of a trade statute that
Comcast, from the United States, actively induces the
infringement by its users as to the imported X1 STBs. 13
13

Moreover, even if the location of Comcast’s inducing conduct

42a
Respondents also argue that it “would be a vast and
unjustified extension of the Commission’s authority
and the rationale of Suprema to uphold the [Final] ID’s
apparent conclusion that Section 337 reaches the
importation of X1 STBs used domestically by
Comcast’s subscribers in an X1 ‘ecosystem’ found to
have substantial non-infringing uses.” Resps. Br. at
15. Respondents’ argument is flawed. The present
investigation involves Comcast’s active inducement of
its customers’ infringement, not contributory
infringement. Because the concept of substantial noninfringing uses is applicable only in the context of
contributory infringement, it plays no role in the
analysis of the direct and induced infringement that
remains at issue here. Toshiba Corp. v. Imation Corp.,
681 F.3d 1358, 1364 (Fed. Cir. 2012) (explaining that
“substantial non-infringing use” is relevant only to
contributory infringement); cf. Metro-Goldwyn-Mayer
Studios Inc. v. Grokster, Ltd., 545 U.S. 913, 942

were legally relevant, and it is not, Comcast designed the X1 STBs
to be used in an infringing manner, and directed their
manufacture overseas—requiring, among other things, overseas
installation of the relevant software onto the STBs. Final ID at 912, 232, 234; Wing Shing Pdts. (BVI), Ltd. v. Simatelex
Manufactory Co., 479 F.Supp.2d 388, 409-11 (S.D.N.Y. 2007)
(“[N]umerous courts have held that, in contrast to §§ 271 (a) and
(c), § 271 (b) applies to extraterritorial conduct.”); see also, e.g.,
Honeywell, Inc. v. Metz Apparatewerke, 509 F.2d 1137, 1141-42
(7th Cir. 1975); MEMC Elec. Materials, Inc. v. Mitsubishi
Materials Silicon Corp., 2006 WL 463525, at *7 (N.D. Cal. 2006).
Comcast then directed the importation of those STBs to Comcast
facilities in the United States. Final ID at 9-12. Comcast’s
inducing activity took place overseas, prior to importation; it took
place at importation; and it took place in the United States, after
importation. See, e.g., id. at 9-12, 232-37, 399.

43a
(2005). 14
Rovi did not allege direct infringement by ARRIS
and Technicolor. See, e.g., Final ID at 211, 396-97.
Also, the Final ID finds that Rovi failed to demonstrate
indirect infringement by ARRIS and Technicolor. See,
e.g., Final ID at 611. The Commission affirms these
findings.
D. Whether Rovi Established that Comcast’s
Two Alternative Designs Infringe the ’263 and
’413 Patents 15
The Final ID concludes that Comcast’s proposed
alternative designs infringe the ’263 and ’413 patents.
The Commission has determined to vacate that
conclusion and instead concludes that the evidence of
record shows that those designs are too hypothetical to
adjudicate at this time.
The Commission declines to adjudicate new
products when their design is not yet final. See Certain
GPS Chips, Inv. No. 337-TA-596, ID (unreviewed),
USITC Pub. No. 4133, 2010 WL 1502175 at *34-35
The Commission has previously found a violation of section 337
where a respondent induced customers in the United States to
directly infringe a U.S. method patent. See, e.g., Certain Network
Devices, Related Software & Components Thereof (II), Inv. No.
337-TA-945, Final ID at 107-08 (Dec. 9,2016), reviewed on other
grounds, (“Arista’s customers directly infringe the ’577 patent.”).
14

The Final ID has a Conclusion of Law that the alternative
designs violate the ’263 and ’413 patents. Final ID at 612. The
underlying analysis in the Final ID addresses a different issue
raised by Comcast—whether the existence of non-infringing uses
for the Legacy and X1 products negates infringement. Id. at 23031. Our analysis addresses the issue based on Comcast’s
testimony and arguments regarding an alternative design made
before the ALJ.
15

44a
(Mar. 1, 2010) (refusing jurisdiction over new product
that was still in development because the design was
not final)); cf. Certain Elec. Digital Media Devices &
Components Thereof, 337-TA-796, Comm’n Op. (Pub.
Version), at 103-05 (Sept. 6, 2013) (affirming Final ID’s
adjudication of design around products where the
design of those products was fixed).
Respondents’ argument to the ALJ shows that the
design of the alternative products is [
].
[

].

As shown above, the evidence of record
demonstrates that Comcast’s alternative designs are
not yet final. Accordingly, the Commission has
determined to vacate the Final ID’s finding of
infringement as to those products, and instead
concludes that the alternative designs are too
speculative to adjudicate at this time.
E. Construction of “Cancel a Function of the
Second Tuner to Permit the Second Tuner to
Perform the Requested Tuning Operation” in
the ’512 Patent, and the Final ID’s
Infringement Determinations as to that
Patent
1. The Applicable Law
a. Claim Construction
Only claim terms in controversy need to be
construed, and only to the extent necessary to resolve
the controversy. Vanderlande Indus. Nederland BV v.
Int’l Trade Comm’n, 366 F.3d 1311, 1323 (Fed. Cir.
2004). When claim terms are construed, construction
begins with the plain language of the claim. Claims are
given their ordinary meaning as understood by a

45a
person of ordinary skill in the art (“POSITA”) who
views the claim terms in the context of the entire
patent. Phillips v. AWH Corp. 415 F.3d 1303, 1312-13
(Fed. Cir. 2005), cert denied, 546 U.S. 1170 (2006).
When the meaning of a claim term is uncertain, the
specification usually is the best guide. Phillips, 415
F.3d at 1315. “[T]he specification ‘is always highly
relevant and is usually dispositive.’” Id. at 1315
(quoting Vitronics Corp. v. Conceptronic, Inc., 90 F.3d
1576, 1582 (Fed. Cir. 1996)).
b. Infringement
The applicable law on infringement can be found
above in section II.C.l.
2. The Final ID
Respondents’ petition challenged the Final ID’s
claim construction of the “cancel a function of the
second tuner to permit the second tuner to perform the
requested tuning operation” limitation in the asserted
claims of the ’512 patent. Claim 1 is reproduced below
(with Rovi’s annotations) as representative of the
claims of the ’512 patent.
[1a]1. A method for resolving a conflict
when multiple operations are performed
using multiple tuners controlled by an
interactive television program guide, the
method comprising:
[1b] receiving a request to perform a
tuning operation;
[1c] determining that neither a first
tuner nor a second tuner are available to
perform the requested tuning operation,
wherein the first tuner and the second

46a
tuner are both capable of performing the
tuning operation; and
[1d] in response to the determination,
displaying an alert that provides a user
with an opportunity to direct the
interactive television program guide to
cancel a function of the second tuner to
permit the second tuner to perform the
requested tuning operation.
JX-0006 (’512 patent) at 18:35-47 (emphasis added).
Before the ALJ, the parties disputed the phrase
“cancel the function of the second tuner to permit the
second tuner to perform the requested tuning
operation.” See Final ID at 421-29. The Final ID
describes the parties’ proposed constructions as
follows.
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

Stop a function utilizing a Comcast does not clearly
signal tuned to by the
present a construction in
second tuner in order to
its post-hearing brief.
permit the requested
function utilizing a signal
tuned to by the second
tuner to be performed.
Id. at 421. 16 The Final ID adopts Rovi’s construction.
Id. at 427. The Final ID cites figures 4(b) and (c), which
are reproduced below.
Respondents’ petition declares that it proposed that this phrase
be construed as “terminate a function being performed by the last
allocated tuner so it can perform the requested tuning operation.”
Resps. Pet. at 93.
16

47a

Related to the above figures, the Final ID recognizes
that the specification recites,
FIG. 4(b) is an illustrative interactive
television program guide viewer option
selection screen for use in canceling a
picture-in-picture function or other
secondary user functions in accordance
with the present invention.
FIG. 4(c) is an illustrative interactive
television program guide viewer option
selection screen for use in the
cancellation of a scheduled recording in
accordance with the present invention.
JX-0006 (’512 patent) at 2:60-67; Final ID at 428. The
Final ID further quotes the Summary of the Invention,
which recites,
If the [STB] is equipped with multiple
tuners,
the
interactive
television
program guide will allocate one of the
tuners for recording[] the program when
it is time for the program to start.
However, if all of the tuners are in use,

48a
which may be the case if the viewer is
watching one program and using a
picture-in-picture (“PIP”) feature to view
another program or to display additional
text or graphics by using some other
secondary tuner function feature that
requires a tuner to operate, the
interactive television program guide may
allocate a tuner for the recording function
if the user indicates that he is no longer
interested in using the PIP or another
secondary tuner function or if the tuner
allocation scheme dictates it do so.
Alternatively, if the [STB] is equipped
with two tuners, one may be dedicated
for television viewing and interactive
television program guide user features,
while the other tuner may be dedicated
for recording use only.
Final ID at 428 (quoting JX-0006 (’512 patent) at 1:652:13 (emphasis provided by the Final ID)). The Final
ID then concludes, “Rovi’s construction is consistent
with the claim language, and is supported by the
specification and figures, because it ties the action
(cancelling the function) to the second tuner.” Id. at
429. The Final ID then determines that the accused
Legacy STBs infringe, but the accused X1 STBs do not
infringe. Id. at 479-81; see also id. at 610-11 (COFL 12,
19).
3. Commission Determination and Analysis
The Commission affirms and adopts the Final ID’s
construction and hereby supplements the findings and
reasoning of the Final ID. Respondents suggest that
the Final ID’s construction of the disputed claim term

49a
is inconsistent with the specification. See Resps. Pet.
at 93-94. We disagree. In the example cited in the Final
ID, the “first tuner” is the tuner that is tuned to a
program that is being viewed and the “second tuner” is
the tuner that is tuned to a picture-in-picture program
or is performing another secondary tuner function. See
JX-0006 (’512 patent) at 2:1-10, 2:60-67, Figs. 4(b)-(c).
There is nothing improper or inconsistent with the
Final ID’s reliance on this example to support its
construction for the phrase “cancel a function of the
second tuner to perform the requested tuning
operation.” If anything, this example contradicts
Comcast’s proposed construction, which the Final ID
correctly rejected and which requires cancellation of
the “last allocated” tuner. In the example, there is no
disclosure of which of the two tuners was allocated first
and which of the two the tuners was allocated second
(or last). Id.; see also CX-0003C (Balakrishnan WS) at
Q/A 228-30. In other words, the “second tuner,” whose
function of picture-in-picture or text or graphics was
cancelled, could have been the first allocated tuner and
the “first tuner” (whose function of viewing a program
was not cancelled) or could have been the second (or
last) allocated tuner. Thus, the order in which a tuner
was allocated is not relevant to the issue of which
tuner is cancelled; the example does not show
cancelling a “last allocated tuner”; and Comcast’s
proposed construction is inconsistent with the
specification. Having affirmed the Final ID’s claim
construction, the Commission additionally affirms the
Final ID’s infringement conclusions.
F. Whether Respondents Established that the
Asserted Claims of the ’512 Patent Are Invalid
as Obvious

50a
1. The Applicable Law
One cannot be held liable for practicing an invalid
patent claim. See Pandrol USA, LP v. AirBoss Ry.
Prods., Inc., 320 F.3d 1354, 1365 (Fed. Cir. 2003).
Nevertheless, each claim of a patent is presumed to be
valid, even if it depends from a claim found to be
invalid. 35 U.S.C. 282; DMI Inc. v. Deere & Co., 802
F.2d 421 (Fed. Cir. 1986). A respondent that has raised
patent invalidity as an affirmative defense must
overcome the presumption of validity by “clear and
convincing” evidence of invalidity. Checkpoint Sys.,
Inc. v. U.S. Int’l Trade Comm’n, 54 F.3d 756, 761 (Fed,
Cir. 1995).
Under section 103 of the Patent Act, a patent claim
is invalid “if the differences between the subject matter
sought to be patented and the prior art are such that
the subject matter as a whole would have been obvious
at the time the invention was made to a [POSITA] to
which said subject matter pertains.” 35 U.S.C. 103.
While the ultimate determination of whether an
invention would have been obvious is a legal
conclusion, it is based on “underlying factual inquiries
including: (1) the scope and content of the prior art; (2)
the level of ordinary skill in the art; (3) the differences
between the claimed invention and the prior art; and
(4) objective evidence of nonobviousness.” Eli Lilly &
Co. v. Teva Pharm. USA, Inc., 619 F.3d 1329 (Fed. Cir.
2010).
2. The Final ID
The Final ID finds claims 1, 10, 13, and 22 obvious
over the combination of Nagano17 and Sano. 18 See Final
17

U.S. Patent No. 6,240,240 (May 29, 2001) (RX-0153).

18

U.S. Patent No. 6,445,872 (Sept. 3, 2002) (RX-0152).

51a
ID 530-39. Annotated claim 13 is reproduced below as
representative of the asserted claims of the ’512
patent.
[13a] 13. A system for resolving a conflict
when multiple operations are performed
using multiple tuners controlled by an
interactive television program guide, the
system comprising:
[13b] a first tuner:
[13c] a second tuner; and
[13d] an interactive television program
guide implemented on the system,
wherein the interactive television
program guide is operative to:
[13e] receive a request to perform a
tuning operation;
[13f] determine that neither the first
tuner nor the second tuner are available
to perform the requested tuning
operation, wherein the first tuner and
the second tuner are both capable of
performing the tuning operation; and
[13g] in response to the determination,
display an alert that provides a user with
an opportunity to direct the interactive
television program guide to cancel a
function of the second tuner to permit
the second tuner to perform the
requested tuning operation.
JX-0006 (’512 patent) at 19:41-59 (emphasis added).
In reaching its conclusion as to element 13f, the
Final ID finds that a POSITA “would have been able to

52a
modify Nagano for a two-tuner [STB], such that
Nagano and Sano teach and satisfy this limitation.” Id.
at 537. The Final ID reasons,
Dr. Bederson testified that Nagano (and
the Prevue Guide) recognized tuner
conflicts, and that a [POSITA] knew of
multiple tuners, would have been able to
modify Nagano (and Prevue) to
accommodate multiple tuners, and that
the modification would not have been
complicated. See RX-0004C (Bederson
WS) at Q/A 107, 82-86, 302, 307, and 309.
Indeed, [a POSITA] would have needed
to modify Nagano when porting it on [an
STB] with multiple tuners.
Id. at 537-38. As to element 13g, the Final ID declares
that
the evidence shows that a [POSITA]
would have been able to modify Nagano
for a two-tuner [STB], such that Nagano
and Sano teach and satisfy this
limitation. See RX-0004C (Bederson WS)
at Q/A 107, 110-11, 82-86, 135, 74-75,
302, 307, and 309. [In] particular, . . . it
would have taken only ordinary skill to
modify Nagano’s alert to cancel a
function of the second tuner. Id. The
combination would not eliminate
Nagano’s solution to managing limited
tuner resources, as the combination
would still have a finite number of
tuners. Accordingly, . . . the combination
would not eliminate “the very problem
that Nagano sought to solve” and the

53a
combination of Nagano and [Sano]
teaches limitation 13g.
Id. at 538 (quoting Rovi Post-Hrg. Br. at 192).
3. Commission Determination and Analysis
The Commission has determined to affirm and
adopt the Final ID as to this issue and hereby
supplements the findings and reasoning of the Final
ID.
a. “Tuner Conflicts” and “Timer Conflicts”
Underlying Rovi’s arguments is its positions that
the prior art makes a distinction between “tuner
conflicts” and “timer conflicts”; that neither Nagano
nor Sano recite tuner conflicts; and that modifying a
reference from a timer conflict to a tuner conflict is an
obstacle supporting the nonobviousness of the asserted
claims over the combination of Nagano and Sano. Rovi
Pet. at 49-61. To the extent the Final ID does not
explicitly do so, the Commission hereby rejects each of
those positions.
First, the prior art does not include a distinction
between tuner and timer conflicts. For example,
during prosecution of the application resulting in the
’512 patent, the Examiner rejected this purported
distinction. While the applicant attempted to draw this
distinction while arguing past a reference during
prosecution (and as acknowledged by Respondents’
expert), the examiner did not accept it as a basis to
distinguish the ’512 patent over the prior art. See RDX710, -711 (excerpts from the prosecution history of the
’512 patent); see also RX-0004C (Bederson WS) at Q/A
32-37 (Q. 33 “Did the examiner accept [the timer vs.
tuner] argument? A. 33 No. The examiner issued an
additional rejection once again based on the LaJoie

54a
reference . . .”). The applicant had to rely on
amendments and arguments requiring the use of two
tuners to distinguish over the prior art. See RDX-713,
-714 (excerpts from the prosecution history of the ’512
patent); see also RX-0004C (Bederson WS) at Q/A 3435. Additionally, while Rovi argues that Dr.
Balakrishnan testified that a timer conflict “involves
the setting of a timer to view or record a television
program at a future time,” Dr. Balakrishnan testified
that any future event, regardless of how soon in the
future would be a “timer” event:
Q. So, in your opinion, it doesn’t matter
how soon in the future the recording is
being set, correct?
A. If you are setting the recording it is
different than tuning it now.
RX-0004C (Bederson WS) at Q/A 40 (citing
Balakrishnan 10/29/2016 Dep. Tr. at 248:19-249:17
(stating that an event less than one second in the
future would be a timer event)); see also id. at Q/A 3839; Hrg. Tr. at 1201:12-1202:8. Dr. Bederson then
explained that Dr. Balakrishnan’s timer versus tuner
distinction has no logical boundaries. RX-0004C
(Bederson WS) at Q/A 40 (“A one second delay is
nominal, and could be indistinguishable from a tuning
operation such as a channel change. Dr.
Balakrishnan’s distinction between “‘scheduling
events’ and ‘tuning operations’ does not appear to have
logical boundaries.”).
Second, both Nagano and Sano describe what Rovi
alleges to be tuner conflicts, thus rendering any timertuner modification unnecessary. Dr. Bederson testified
that Nagano taught tuner conflicts: “Nagano provides
an alert . . . in the case of overlapping recordings.

55a
Contrary to Rovi’s contention, Nagano does not place
any limitation on when the timer is set, and it could be
set to record at the present time.” Id. at Q/A 110
(emphasis added). And, Sano recognizes the problem of
running out of tuner resources and does not place any
temporal limitation on when the conflict occurs.
Rather, Sano says if more than three channels are set
to record at one time (whatever time that might be),
this will cause a conflict. RX-0004C (Bederson WS) at
Q/A 76. Specifically:
In the case of the digital broadcast
recording and reproducing apparatus of
FIG. 5, the number of channels that can
be
arbitrarily
selected
and
simultaneously recorded is three.
Therefore, if the number of channels more
than three is set in the same time period
in the timer recording setting, it is
impossible to record all the set channels.
RX-0152 (Sano) at 12:53-65 (emphasis added).
Third, even if there was a distinction between timer
and tuner conflicts, the modification of one to the other
could be accomplished through the application of wellknown engineering techniques to yield predictable
results. Dr. Bederson testified that, regardless of
whether a reference teaches a timer conflict (i.e., a
scheduling conflict) or a tuner conflict (which Dr.
Balakrishnan states must occur immediately, and
cannot be at any point, no matter how soon, in the
future), there is still a conflict between two requests
for a single physical tuner. RX-0004C (Bederson WS)
at Q/A 39. As Dr. Bederson testified, a POSITA would
have understood that “any request for resources in the
future can be adapted to present conflicts through the

56a
application of well-known engineering techniques to
yield predictable results” and would be nothing more
than “a simple substitution, or reuse, of the same
conflict detection techniques used for future scheduled
recordings” to a present conflict. Id. at Q/A 39, 305.
Instead of looking at conflicts only for future
recordings, “the [IPG] could look for a conflict upon any
function (e.g., channel change, etc.) that involves the
tuner.” Id. at Q/A 305. A POSITA would be motivated
to make such a change because the modification
furthers the same “goal of providing an improved user
experience, and allowing uninterrupted viewing of
television programming.” Id. at Q/A 39.
b. Reason to Combine
Rovi argues that the Final ID fails to make the
required finding that a POSITA would have had a
reason to combine Nagano and Sano to arrive at the
claimed invention. To the extent the Final ID does not
explicitly make such a finding, the Commission does so
now.
Respondents’ expert, Dr. Bederson, provided
persuasive testimony regarding the reasons to
combine the Nagano and Sano references. One such
reason is to obtain the predictable result obtained from
the application of a standard engineering technique.
See RX-0004C (Bederson WS) at Q/A 302 (“Combining
[IPGs] with [STBs], containing one or more tuners,
was a well-known technique that would be performed
using known methods, to yield predictable results.
And, applying [IPGs] that determine conflicts, and
alert the user to the conflict, to a program guide
managing one or more tuners would similarly provide
predictable results, because determining a conflict is a
non-complex problem that effectively consists of an ‘if

57a
then’ statement, regardless of whether one, two, or one
hundred tuners are in use.”). Another such reason is
the simple substitution of one known element for
another to obtain predictable results. Id. at Q/A 307
(“The resolution of the tuner conflict with respect to
the ‘second tuner’ (e.g., claims 1 and 13), is a simple
substitution of one known element for another to
obtain predictable results. The prior art clearly teaches
resolution of a conflict with respect to a first tuner, as
I have previously testified in response to QUESTIONS
36-44, and as is demonstrated in (RX-0063 (LaJoie) at
Fig. 12 (annotated). Substituting a second tuner for the
first tuner, and using the same techniques to resolve
the conflict, is a simple substitution of one known
element (second tuner) for another (first tuner) to
obtain predictable results. In either case, you free a
tuner to make it available to handle a new request.”));
see also RX-0004C (Bederson WS) at Q/A 298-309.
Additionally, the Final ID properly relies on Dr.
Bederson’s testimony regarding why it would be
obvious to add conflict resolution to an STB with
multiple tuners. Namely, STBs with additional
services (e.g., record additional channels, provide
picture-in-picture) have the same potential for conflict
(i.e., exhausting the available tuners) as STBs with
only one tuner. See Final ID at 536 (citing RX-0004C
(Bederson WS) at Q/A 309 (“Q309. Why would it be
obvious to combine the concepts of an [IPG] intended
for a single tuner to a [STB] with multiple tuners?
A309. . . . It would be equally obvious to try [IPGs] on
[STBs] with multiple tuners. Especially since the
multiple tuners were intended to provide additional
functionality (e.g. watch and record, or picture-inpicture which provides two pictures), the likelihood of
conflict still exists. It would therefore be obvious to try

58a
. . . the conflict resolution techniques taught in the
prior art (e.g., . . . Sano . . .).”). Rovi and its expert, Dr.
Balakrishnan, never address this basic point. A
conflict will arise whenever the number of requests
exceeds the number of tuners, no matter how many.
RX-0004C (Bederson WS) at QA 303. This basic
concept would naturally lead a POSITA to combine
Sano with Nagano, a conflict-detection reference. Id.
Even assuming arguendo that adding a second tuner
“may not have been desirable for economic and other
reasons at the time of the invention,” CX-1902C
(Balakrishnan RWS) at Q/A 177, this would not negate
a finding of a reason to combine. The possible economic
undesirability of a combination would not “discourage
one of ordinary skill in the art from seeking the
convenience expected therefrom.” In re Farrenkopf,
713 F.2d 714, 718 (Fed. Cir. 1983).
Rovi argues that the Final ID erroneously finds that
a POSITA would have known “to modify Nagano . . . to
accommodate multiple tuners, and that the
modification would not have been complicated” and
that “Dr. Bederson provided no such testimony.” We
disagree with Rovi. Dr. Bederson testified as to this
exact issue. See Final ID at 536 (citing RX-0004C
(Bederson WS) at Q/A 85); see also RX-0004C
(Bederson WS) at Q/A 107, 263-64, 286-87. Rovi
similarly is incorrect in stating that Dr. Bederson’s
testimony “does not address whether Nagano
recognized or otherwise taught tuner conflicts.” Dr.
Bederson also addressed this issue directly. RX-0004C
(Bederson WS) at Q/A 39, 110, 309.

59a
G. Whether the ARRIS-Rovi Agreement Provides
a Defense to the Allegations against the
ARRIS Respondents
The Commission takes no position on this issue. The
Commission has previously determined that there is
no violation of section 337 as to ARRIS. See supra
section III.C; see also Beloit, 742 F.2d at 1423.
H. Whether Rovi Established the Economic
Prong of the Domestic Industry Requirement
Based on Patent Licensing
The Commission takes no position on this issue. The
Commission had determined not to review the Final
ID’s conclusion that Rovi established the economic
prong of the domestic industry requirement (through
subsections (A), (B), and (C) (research and
development)). Rovi has otherwise established the
economic prong of the domestic industry requirement,
and thus, the Commission need not take a position as
to whether Rovi established the economic prong of the
domestic industry requirement based on patent
licensing. See Beloit, 742 F.2d at 1423.
III. REMEDY
A. Limited Exclusion Order
1. The Applicable Law
Where a violation of section 337 has been found, the
Commission must consider the issues of remedy, the
public interest, and bonding. Section 337(d)(1)
provides that, “[i]f the Commission determines, as a
result of an investigation under this section, that there
is a violation of this section, it shall direct that the
articles concerned, imported by any person violating
the provision of this section, be excluded from entry

60a
into the United States.” 19 U.S.C. 1337(d)(1). The
Commission has “broad discretion in selecting the
form, scope, and extent of the remedy.” Viscofan, S.A.
v. U.S. Int’l Trade Comm’n, 787 F.2d 544, 548 (Fed.
Cir. 1986). The Commission may issue an LEO
excluding the goods of the person(s) found in violation,
or, if certain criteria are met, a general exclusion order
against all infringing goods regardless of the source.
2. Commission Determination and Analysis
The Commission has determined to issue an LEO as
to Comcast’s infringing digital video receivers and
hardware and software components thereof. The order
prohibits the entry of these products that “are
manufactured abroad for or on behalf of, or imported
by or on behalf of Comcast or any of their affiliated
companies, parents, subsidiaries, or other related
business entities or their successors or assigns.” In
other words, infringing STBs imported by or on behalf
of Comcast, but manufactured by other parties, such
as ARRIS and Technicolor, are prohibited from entry.
Persons seeking to import infringing digital video
receivers and hardware and software components
thereof that are potentially subject to exclusion may
certify that, to the best of their knowledge and belief,
the products being imported are not subject to
exclusion. The Commission is including the following
language to address specific issues related to its Order:
At the discretion of U.S. Customs and
Border Protection (“CBP”) and pursuant
to the procedures it establishes, persons
seeking to import digital video receivers
and hardware and software components
thereof that are potentially subject to
this Order may be required to certify

61a
that they are familiar with the terms of
this Order, that they have made
appropriate inquiry, and thereupon state
that, to the best of their knowledge and
belief, the products being imported are
not capable of being used after
importation in a manner which infringes
the claims of the patents that are the
subject of this Order because one or more
elements (such as software elements) of
the internet communications path
described by the claims of the patents in
paragraph 1 of this Order are omitted
from the internet communications path
that the imported products will use after
importation. At its discretion, CBP may
require persons who have provided the
certification described in this paragraph
to furnish such records or analyses as are
necessary
to
substantiate
this
certification.
The above language permits CBP to allow a party to
certify that imported products are not capable of
infringing the claims at issue as adjudicated herein.
However, to be clear, the Commission has not
adjudicated any alternative designs presented by
Comcast and the language of the patent claims are
controlling as to the scope of the remedial orders.
Respondents’ proposed LEO includes a request for
an exception for the import of replacement STBs.
However, Respondents’ briefing does not provide a
justification for that broad exception, and, as discussed
below, Respondents argue that it would be easy to
produce non-infringing versions of the accused STBs.

62a
Accordingly, the Commission has determined to not
include this exception. See Certain Automated Teller
Machines, ATM Modules, Components Thereof &
Prods. Containing Same, Inv. No. 337-TA-972,
Comm’n Op. (Pub. Version), at 25 (June 12, 2017).
However, the Commission has determined to include
an exception to the remedial order for replacement
parts used to repair previously-imported STBs, as
discussed below. See Certain Sleep-Disordered
Breathing Treatment Sys. & Components Thereof, Inv.
No. 337-TA-890, Comm’n. Op. at 47 (Jan. 16, 2015).
B. Cease and Desist Orders
1. The Applicable Law
The Commission also has authority to issue CDOs
in addition to or in lieu of exclusion orders. See 19
U.S.C. 1337(f). The Commission generally issues
CDOs to respondents who maintain commercially
significant inventories of infringing products in the
United States. 19 See, Certain Automated Teller
Machines, ATM Modules, Components Thereof, & Pdts.
Containing Same, Inv. No. 337-TA-989, Comm’n Op. at
24 (Aug. 3. 2017).
The Commissioners have adopted different approaches to
analyzing when it is appropriate to issue CDOs. In particular,
Chairman Schmidtlein has explained that she does not believe a
commercially significant inventory is a prerequisite for obtaining
a cease and desist order. See Certain Table Saws Incorporating
Active Injury Mitigation Technology and Components Thereof,
Investigation No. 337-TA-965, Comm’n Op. at 6-7, n.2 (Pub. Vers.)
(Feb. 1, 2017). Chairman Schmidtlein has stated that the
presence of some infringing domestic inventory, regardless of the
commercial significance, provides a basis to issue a cease and
desist order. See id. There is no disagreement in the present
investigation, however, as to the appropriateness of the issuance
of CDOs as to Comcast.
19

63a
2. The RD
As to the Comcast respondents, the RD declares,
[I]n order to supply its customers with
[STBs], Comcast ships and stores
millions of imported, accused [STBs]
through an extensive warehousing and
distribution network that reaches
throughout the United States.
. . . [I]t would [undercut an] LEO to
permit Comcast to send the adjudicated,
infringing
products
through
its
warehousing and distribution network
for ultimate delivery to end-users.
Consequently, it is recommended, if a
violation is found, . . . that the Comcast
respondents . . . should be subject to a
[CDO].
Nevertheless, a [CDO] should refrain
from reaching products that were not
imported in violation of section 337.
Specifically, . . . Rovi has argued that
Comcast inventory amassed during the
license period is immaterial, and that
Comcast should not be able to distribute
imported, infringing products after a
license has expired. Yet, . . . pursuant to
an express license between Rovi and
Comcast, products imported before April
1, 2016 are not unlawful imports, and
there has been no an unfair act that
would constitute a violation of section
337. ID at 553-54. The [ALJ] has made
no determination of whether a
subsequent domestic activity connected

64a
to products imported before April 1, 2016
(e.g., any use or sale completed on or
after April 1, 2016 of a [STB] imported
before April 1, 2016) infringes the
asserted patents under the Patent Act.
In any event, any such activity would not
constitute, or be the result of, a violation
of section 337.
RD at 11-12 (footnote omitted).
3. Commission Determination and Analysis
The Commission finds that CDOs should issue to
Comcast. Respondents argue that any CDO should
contain an exception for service, maintenance, and
replacement parts for customers that obtained STBs
prior to the effective date of the CDO. Rovi does not
object, and we agree that such an exception should be
included. See, e.g., Automated Teller Machines, Inv.
No. 337-TA-972, [CDO] at 3 (May 19, 2017). However,
like with the LEO, the Commission has determined
that the CDO should not include an exception for
replacement STBs. See Automated Teller Machines,
Inv. No. 337-TA-972, Comm’n Op. (Pub. Version), at
25. For the reasons noted herein and articulated in the
RD, as well as of the finding of patent exhaustion
(discussed above), the Commission agrees with
Respondents that the CDO should not apply to activity
related to STBs lawfully imported and purchased
pursuant to the Rovi-Comcast license.
IV. THE PUBLIC INTEREST
A. The Applicable Law
Section 337 requires the Commission, upon finding
a violation of section 337, to issue a remedy, “unless,
after considering the effect of such exclusion upon the

65a
public health and welfare, competitive conditions in
the United States economy, the production of like or
directly competitive articles in the United States, and
United States consumers,” it finds that such remedial
order should not be issued. See 19 U.S.C. 337(d)(1),
(f)(1). “Public interest considerations, where they are
present in section 337 investigations, are not meant to
be given mere lip service.” Certain Inclined-Field
Acceleration Tubes & Components Thereof, Inv. No.
337-TA-67, USITC Pub. No. 1119, Comm’n Op. at 21
(Dec. 1980).
B. Commission Determination and Analysis
The Commission finds that the evidence of record
does not indicate that any public interest concerns
would be impacted that would require tailoring or
denying the issuance of any remedial order issued
here. 20
1. Public Health and Welfare
The products at issue—digital video receivers and
hardware and software components thereof—are used
primarily for entertainment purposes, and the
evidence supports the conclusion that these products
The Commission has considered comments on the public
interest from non-parties. Comments were received from Senator
Patrick Toomey (PA) and Representatives Jackie Speier (CA),
Patrick Meehan (PA), Brendan Boyle (PA), and Robert Brady
(PA). The Commission also received comments from the American
Association of People with Disabilities and the Older Adults
Technology Services. The Commission further received comments
from Rick Manning of the Americans for Limited Government.
The Commission additionally received comments from Cypress
Semiconductor Corporation, Universal Electronics Inc., Dycom
Industries, Inc., Communications Test Design, Inc., and Western
Digital Corporation.
20

66a
do not implicate any particular health or welfare need.
Respondents argue that the STBs at issue are “critical
components in the dissemination of public health and
safety information to the more than [
] Americans
that subscribe to Comcast cable services,” and that
“[a]n interruption in the supply of STBs will cause
consumers to go without cable services, impede their
access to health and safety information, and cause
vulnerable consumers to be further impeded in their
ability to live independently and enjoy equivalent
access to cable television.” Resps. Br. at 57-58. 21
However, the record shows that there are numerous
other sources through which the public obtains this
information regarding public health and safety. These
sources include, for example, mobile phones, tablets,
cable TV substitutes (such as direct broadcast satellite
providers), and other technological alternatives. See
Rovi Br. (Reply), Appendix 1, Spulber22 Submission at
¶¶ 49-67, n.41.
Respondents’ assertion that an order would deprive
consumers, in particular disabled or elderly customers,
of the “unique” capabilities of the X1 STBs’ voice
control features is incorrect. Consumers, including the
blind, disabled, and elderly, have other options for
voice activation, including Amazon’s Echo and Google’s
Home devices, and devices from other cable companies,
cable alternatives, and TV manufacturers. See, e.g.,
Introducing Entertainment Capabilities in Alexa
Among the material submitted by Respondents were Public
Interest and Remedy Submissions from Ronald A. Cass and
Robert A. Rogowsky, Ph.D, and a paper by The Internet and
Television
Association,
Unleashing
Connectivity
and
Entertainment in America.
21

Daniel F. Spulber, Ph.D., is an economics professor and a Rovi
witness.

22

67a
Smart Home - New Device Controls for TVs, AV
Receivers, and IR Hubs, Jeff Blankenburg (July 13,
2017), https://developer.amazon.com/blogs/alexa/post/
78f44d51-5bdf-4a4c-8eaa-57d1282c8212/introducingentertainment-capabilities-in-alexa-smart-home-newdevice-controls-for-tvs-av-receivers-and-ir-hubs (last
visited Nov. 16, 2017); Voice Activated TV: The
Smarter
Choice,
Amulet
Devices,
http://www.amuletdevices.com/index.php/SEO-Article
s/article-voice-actixated-tv.html (last visited Nov. 16,
2017): Sony Lets Google Home Be Your Remote
Control, CNET, Andrew Gebhart (Dec. 20, 2016)
https://www.cnet.com/news/sony-enables-google-hom
e-on-its-smart-tvs-and-speakers/ (last visited Nov. 16,
2017);
https://www.att.com/gen/pressroom?pid=23
394&cdvn=news&newsarticleid=35418 (“AT&T[] Uverse® is making it easier for U-verse TV customers,
including those with disabilities such as vision and
hearing loss, to control their TV with the new U-verse
Easy Remote App.”) (last visited Oct. 11, 2017);
https://www.dish.com/remotes/voice-remote/ (DISH’s
Voice Remote allows “[s]urf the channels or search for
your favorite programming all by simply speaking to
the new Voice Remote”) (last visited Oct. 12, 2017).
Moreover, because Comcast repeatedly alleges that
it can easily remove the infringing functionalities, the
record suggests that Comcast has several avenues to
determine whether it may import its purported
redesign products. These avenues include requesting
an advisory opinion from the Commission pursuant to
19 CFR 210.79(a), seeking an official ruling from
Customs pursuant to 19 CFR part 177, or awaiting
Customs action on importation as a predicate for a
protest under 19 CFR 1514. See, e.g., Ninestar Tech.
Co., v. Int’l Trade Comm’n, 667 F.3d 1373, 1384-85

68a
(Fed. Cir. 2012) (agreeing with the Commission that
one appropriate vehicle for a respondent to request a
determination that a redesigned product does not
infringe and, thus, does not fall within the
Commission’s exclusion order is to seek an advisory
opinion from the Commission). By doing so, Comcast’s
customers may be able to receive non-infringing STBs
with voice activation. None of the asserted patents
relates to voice activation features.
2. Competitive Conditions in the United
States Economy
There is no evidence that the Commission’s
remedial orders will harm competitive conditions in
the United States economy. As noted, Comcast has
averred that it could easily modify its STBs to remove
infringing functionality. Moreover, the many
alternatives to Comcast’s cable TV services would not
be impacted by any remedial orders. These include
direct broadcast satellite providers, over-the-top
television
services,
and
other
technological
23
alternatives. See Rovi Br. (Reply), Appendix 1,
Spulber Submission at ¶¶ 77-80; see also id at ¶ 79
(discussing competitive conditions in the provision of
STBs and declaring that “[t]he productive capacity of
these companies as described in the previous section
would still be in place. Those companies would still
compete to supply STBs to television services
companies and to retail customers.”); id. at ¶ 80
(discussing competitive conditions in other industries
that use television services). Dr. Spulber explains that
Direct broadcast satellite (DBS) providers include DirecTV and
Dish/Echostar. Over-the-top (OTT) services include Sling TV,
DirecTV Now, and YouTube TV. Rovi Br. (Reply), Appendix 1,
Spulber Submission at ¶¶ 63, 66.
23

69a
the report relied on by Respondents’ expert is “not
specific to Comcast because the data is aggregated for
the 200 networks of the cable industry as a whole,” but
that that report “does shed light on the CATV
providers overall.” Id. at ¶ 77. Dr. Spulber further
explains that “the report emphasizes that
infrastructure investments by CATV providers have
increased competition in the industry.” Id.
Respondents argue that the accused products
are not ordinary consumer products that
are generally available for purchase.
There are not a large number of firms
competing in this industry and in the
event of a remedial order, this number
would be reduced even further. . . . [T]he
requested remedy would negatively
affect competitive conditions in the
United States by harming a major player
in the industry and thus hindering
competition. The Commission should
consider the harm to competitive
conditions in the United States and
accordingly tailor and delay any remedy
by six months.
Resps. Br. at 61. However, Respondents’ argument is
conclusory
and
lacks
evidentiary
support.
Respondents and the non-party commenters have also
not explained why a delay of six months, as opposed to
any other period of time, would be appropriate. Nor
have they provided a meaningful explanation of why a
delay of six months is necessary.
Respondents further argue that “the proposed
remedy in this Investigation will have an adverse
impact on domestic employment.” Resps. Br. at 65.

70a
These assertions are likewise conclusory and not
supported by convincing evidence. For example, nearly
all of the statements from non-party commenters do
not allocate or provide any other indication of the
percentage of jobs allegedly at risk that are related
solely to the infringing X1 STBs, which are in any
event not produced in the United States, as opposed to
any other Comcast products and services. And again,
Comcast has repeatedly emphasized that modifying
the software of the infringing systems to render those
systems non-infringing would be easy to accomplish.
Furthermore, Respondents’ assertions do not consider
the effect of the delay or denial of remedial orders on
Rovi employees (or employees of other companies) that
would be adversely affected if the remedies did not
issue or were to be delayed.
3. The Production of Like or Directly
Competitive Articles in the United States
Respondents declare that “[t]here is no evidence of
any U.S. production of like or directly competitive
products that would be impacted by a remedial order
in this Investigation.” Resps. Br. at 61. Thus, this
factor does not support denying or restricting relief.
4. United States Consumers
Any effect on United States consumers also does not
warrant denying Rovi relief. In Comcast’s own words,
Ninety-nine percent of consumers can
choose among three or more MVPDs
[multichannel
video
programming
distributors], and the explosive growth of
an ever-expanding number of online
video distributors (‘OVDs’) is giving
consumers new video options (and many

71a
on a nationwide basis). Faced with fierce
competition, providers are intent on
giving consumers the flexibility they
demand to access video programming on
the devices of their choice, and delivering
more value to customers.
Comments of Comcast Corporation and NBC
Universal Media, LLC to the Federal Communications
Commission (April 22, 2016), at page 3, available at
http://corporate.comcast.com/images/2016-04-22-ASFILED-Comcast-DSTAC-STB-NPRM-Comments.pdf
(last visited Oct. 20, 2017).
Respondents argue that “consumers rely on
Comcast . . . to provide the equipment and consumers
view STBs not as purchased goods for which they are
responsible to repair and replace, but as rented goods
for which the provider is expected to repair or replace
any defective STBs quickly.” However, the remedial
orders issued along with this opinion allow the
importation of component parts to repair customers’
existing STBs. Moreover, Comcast has repeatedly
emphasized that modifying the software of the
infringing systems to render those systems noninfringing would be easy to accomplish and Comcast
may take advantage of the opportunity to obtain a
ruling from either the CBP or the Commission.
Accordingly, the evidence of record indicates that the
public interest concerns of consumers will not be
adversely impacted such that remedial orders should
be denied or the effective date of the orders delayed.
V. BONDING
A. The Applicable Law
If the Commission enters an exclusion order, a

72a
respondent may continue to import and sell its
products during the 60-day period of Presidential
review under a bond in an amount determined by the
Commission to be “sufficient to protect the
complainant from any injury.” 19 U.S.C. 1337(j)(3); see
also 19 CFR 210.50(a)(3). When reliable price
information is available in the record, the Commission
has often set the bond in an amount that would
eliminate the price differential between the domestic
product and the imported, infringing product. See
Certain Microsphere Adhesives, Processes for Making
Same, & Prods. Containing Same, Including Self-stick
Repositionable Notes, Inv. No. 337-TA-366, USITC
Pub. No. 2949, Comm’n Op. at 24 (Jan. 16, 1996). The
Commission also has used a reasonable royalty rate to
set the bond amount where a reasonable royalty rate
could be ascertained from the evidence in the record.
See, e.g., Certain Audio Digital-to-Analog Converters &
Prods. Containing Same, Inv. No. 337-TA-499,
Comm’n Op. at 25 (Mar. 3, 2005). Where the record
establishes that the calculation of a price differential
is impractical or there is insufficient evidence in the
record to determine a reasonable royalty, the
Commission has imposed a 100 percent bond. See, e.g.,
Certain Liquid Crystal Display Modules, Prods.
Containing Same, & Methods Using the Same, Inv. No.
337-TA-634, Comm’n Op. at 6-7 (Nov. 24, 2009). The
complainant bears the burden of establishing the need
for a bond. Certain Rubber Antidegradants,
Components Thereof, & Prods. Containing Same, Inv.
No. 337-TA-533, USITC Pub. No. 3975, Comm’n Op. at
40 (July 21, 2006).
B. The RD
The RD declares,

73a
[C]alculating a price differential between
the accused products and the domestic
industry products is not feasible. . . . Rovi
has, however, set forth evidence and
argument, based on the opinion of Dr.
Putnam, that a reasonable royalty rate
for the accused [STBs] would be
approximately [ ] per unit.
Rovi’s royalty-rate proposal is based on
its expert’s analysis of licenses to [STB]
manufacturers other than respondents.
The licenses are all portfolio licenses.
Yet, Rovi has not attempted to show,
much less has it demonstrated, the role
the asserted patents play in the cost of
the licenses, if they play any role at all.
Additionally, some of the licenses cover
more than simply patents.
. . . [I]t is not clear that Rovi’s proposal of
[
] per unit reflects what a reasonable
royalty rate would be relevant to the
asserted patents. Consequently, it is
recommended that no bond (i.e., 0%) be
required during any Presidential review
period. See Network Devices (I), Inv. No.
337-TA-944, Comm’n Op. at 57.
RD at 15-16 (certain citations omitted).
C. Commission Determination and Analysis
The Commission has determined not to issue a
bond. Here, no bond should be set because Rovi failed
to establish an appropriate rate. See RD at 15-16. Rovi
has failed to show that its proposed bond of [ ] reflects
the reasonable royalty relevant to the asserted

74a
patents. At a minimum, Rovi made no effort to show
the role, if any, that the asserted patents played in the
price of the portfolio licenses it submitted as evidence.
By Order of the Commission.
[/s/ Lisa R. Barton]
Lisa R. Barton
Secretary to the Commission
Issued: December 6, 2017
[CERTIFICATE OF SERVICE OMITTED]

75a
APPENDIX C
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
INITIAL DETERMINATION
Administrative Law Judge David P. Shaw
Pursuant to the notice of investigation, 81 Fed. Reg.
33548 (May 26, 2016), this is the initial determination
in Certain Digital Video Receivers and Hardware and
Software Components Thereof, United States
International Trade Commission Investigation No.
337-TA-1001. It is held that a violation of section 337
of the Tariff Act, as amended, has occurred in the
importation into the United States, the sale for
importation, or the sale within the United States after
importation, of certain digital video receivers and
hardware and software components thereof, with
respect to:
• U.S. Patent No. 8,006,263 and
• U.S. Patent No. 8,578,413.
It is held that a violation has not occurred with
respect to:
• U.S. Patent No. 6,418,556,
• U.S. Patent No. 8,046,801,
• U.S. Patent No. 8,566,871, and
• U.S. Patent No. 8,621,512.
***

76a
I. BACKGROUND
A. Institution of the Investigation
On April 6, 2016, complainants Rovi Corporation
and Rovi Guides, Inc. (collectively, “Rovi”) filed a
complaint alleging that respondents unlawfully
import “certain digital video receivers and hardware
and software components thereof’ into the United
States. Compl., ¶ 1. On April 25, Rovi filed an
amended complaint. The amended complaint alleged,
inter alia, that respondents directly and/or indirectly
infringe Rovi’s patents through the “importation,
and/or manufacture, use, sale or lease, and/or offer for
sale or lease within the United States after
importation of the Accused Products[.]” Am. Compl.,
¶¶ 6-7 and 110-200. The amended complaint asserted
the following seven patents:
• U.S. Patent No. 6,418,556 (the “’556 Patent”);
• U.S. Patent No. 8,006,263 (the “’263 Patent”);
• U.S. Patent No. 8,046,801 (the “’801 Patent”);
• U.S. Patent No. 8,566,871 (the “’871 Patent”);
• U.S. Patent No. 8,578,413 (the “’413 Patent”);
• U.S. Patent No. 8,621,512 (the “’512 Patent”);
and
• U.S. Patent No. 8,768,147 (the “’147 Patent”).
By publication of a notice in the Federal Register on
May 26, 2016, pursuant to subsection (b) of section 337
of the Tariff Act of 1930, as amended, the Commission
instituted this investigation to determine:
whether there is a violation of subsection
(a)(1)(B) of section 337 in the importation
into the United States, the sale for

77a
importation, or the sale within the
United States after importation of
certain digital video receivers and
hardware and software components
thereof by reason of infringement of one
or more of claims 1, 2, 5, 6, 8, 9, 11, 12,
14, 15, 17, and 18 of the ’263 Patent;
claims 1, 3, 5-10, 12, and 14-18 of the ’413
patent; claims 1-54 of the ’801 patent;
claims 1, 2-4, 8-16, and 20-24 of the ’512
Patent; claims 1, 5, 6, 8, 10, 11, 15, 16,
18, and 20-24 of the ’147 patent; claims
1, 2, 6-13, 17-24, 28-33 of the ’871 Patent;
and claims 2-4, 7, 10-14, 16, 18-22, 24,
26, 28, 30, 33, 35, 36, 39, and 40 of the
’556 patent, and whether an industry in
the United States exists as required by
subsection (a)(2) of section 337[.]
81 Fed. Reg. 33548 (May 26, 2016). 1
The Commission named as complainants Rovi
Corporation and Rovi Guides, Inc. Id. The Commission
named sixteen respondents that combine into three
respondent groups, the Comcast, ARRIS, and
Technicolor respondents, as follows:
• The “Comcast” respondents are Comcast
Corporation;
Comcast
Cable
Communications, LLC; Comcast Cable
Communications
Management,
LLC;
Comcast Business Communications, LLC;

The notice did not order the administrative law judge to take
evidence, other information, or argument pertaining to the public
interest.

1

78a
Comcast
Holdings
Corporation;
Comcast Shared Services, LLC.

and

• The “ARRIS” respondents are ARRIS
International plc; ARRIS Group Inc.; ARRIS
Technology, Inc.; ARRIS Enterprises Inc.;
ARRIS Solutions, Inc.; Pace Ltd.; and Pace
Americas LLC.
• The
“Technicolor”
respondents
are
Technicolor SA, Technicolor USA, Inc., and
Technicolor Connected Home USA LLC.
Id. The Office of Unfair Import Investigations was not
named as a party to the investigation. Id.
B. Procedural History Synopsis
The administrative law judge issued the procedural
schedule on July 21, 2016, which set the target date
for completion of this investigation at just over 15
months, i.e., August 28, 2017. See Order No. 8
(Procedural Schedule) (July 21, 2016).
On September 21, 2016, Rovi moved to terminate
the investigation in part as to the following asserted
claims:
• The ’556 Patent: claims 2, 4, 10, 11, 13, 16, 1922, 24, 26, 28, 30, 33, 35, 36, and 39;
• The ’263 Patent: claims 5, 6, 8, 9, 11, 12, and 18;
• The ’801 Patent: claims 2-4, 6-9, 11-14, 16-27,
and 29-54;
• The ’871 Patent: claims 1, 2, 6-11, 13, 19-22, 24,
and 30-33.
• The ’413 Patent: claims 6, 7, 8, 12, 15, 16, and
17;

79a
• The ’512 Patent: claims 4, 8, 9, 11, 12, 16, 20, 21,
23, and 24; and
• The ’147 Patent: claims 5, 6, 8, 10, 15, 21, 22,
and 24.
The administrative law judge granted the motion in
an initial determination. See Order No. 17 (Sep. 23,
2016), aff’d, Notice of Commission Determination Not
to Review an Initial Determination Granting
Complainants’ Motion to Terminate Certain Asserted
Patent Claims from the Investigation (Oct. 21, 2016).
On November 4, 2016 Rovi moved to terminate the
investigation in part as to the following asserted
claims:
• The ’556 Patent: claims 3, 12, and 14;
• The ’263 Patent: claim 15;
• The ’801 Patent: claim 28;
• The ’871 Patent: claims 23, 28, and 29;
• The ’512 Patent: claims 2, 3, 14, and 15; and
• The ’147 Patent: claim 16.
The administrative law judge granted the motion in
an initial determination. See Order No. 25 (Nov. 14,
2016), aff’d, Notice of Commission Determination Not
to Review an Initial Determination Granting
Complainant’s Motion to Terminate Certain Asserted
Patent Claims from the Investigation (Dec. 2, 2016).
On November 18, 2016, Rovi moved to terminate the
investigation in part as to the ’147 patent. The
administrative law judge granted the motion in an
initial determination. See Order No. 27 (Dec. 5, 2016),
aff’d, Notice of Commission Determination Not to
Review an Initial Determination Terminating U.S.

80a
Patent No. 8,768,147 from the Investigation (Dec. 28,
2016).
A prehearing conference was held on December 15,
2016, with the evidentiary hearing in this
investigation beginning immediately thereafter. The
hearing concluded on December 19. See Order No. 29
(Allocation of Time) (Dec. 5, 2016); Prehearing Tr. 135 (Dec. 15, 2016); Hearing Tr. 1-1376. The parties
were requested to file post-hearing briefs not to exceed
400 pages, and to file reply briefs not to exceed 150
pages. Prehearing Tr. 14 (Dec. 15, 2016).
On January 9, 2017, Rovi filed its initial posthearing brief, which asserts the following claims:
• The ’556 Patent: claims 7 (based on its
dependency from independent claim 3), 18
(based on its dependency from independent
claim 15), and 40 (see Rovi Br. at 261);
• The ’263 Patent: claims 1, 2, 14, 17 (see Rovi Br.
at 42);
• The ’801 Patent: claims 1, 5, 10, 15 (see Rovi Br.
at 42);
• The ’871 Patent: claims 12, 17, and 18 (see Rovi
Br. at 202);
• The ’413 Patent: claims 1, 3, 5, 9, 10, 14, 18 (see
Rovi Br. at 42); and
• The ’512 Patent: claims 1, 10, 13, and 22 (see
Rovi Br. at 134).
Pursuant to Order No. 3 (Ground Rules), the parties
also filed a joint outline of the issues to be decided in
the Final Initial Determination. See Joint Outline of
Issues to Be Decided (“Joint Outline”) (EDIS Doc. ID
No. 600641, filed Jan. 10, 2017).

81a
C. The Private Parties
Complainant Rovi Corporation is a Delaware
corporation and has a principal place of business in
San Carlos, California. See First Am. Compl., ¶ 11.
Complainant Rovi Guides, Inc. (f/k/a Gemstar-TV
Guide International Inc.) is a Delaware corporation
and has a principal place of business in San Carlos,
California. Id., ¶ 12. Rovi Guides, Inc. is a whollyowned subsidiary of Rovi Corporation. Id. Rovi
describes itself, as follows:
[Rovi and its predecessors have] been a
pioneer and recognized leader in media
technology, including the technology
used to facilitate consumer access to
television and other audiovisual media.
Today, Rovi’s market leading digital
entertainment solutions enable the
proliferation of access to media on
electronic devices; these solutions
include products and services related to
IGPs and other content discovery
solutions, personalized search. and
recommendation,
advertising
and
programming promotion optimization,
and other data and analytics solutions to
monetize interactions across multiple
entertainment
platforms.
Rovi’s
solutions are used by companies
worldwide in applications such as cable,
satellite, and internet protocol television
(“IPTV”) receivers (including digital
television set-top boxes (“STBs”) and
digital video recorders (“DVRs”)); PCs,
mobile devices, and tablet devices; and

82a
other means by which
connect to entertainment.

consumers

First Am. Compl., ¶ 13.
Comcast is a media and technology company that is
based in Philadelphia, Pennsylvania. Tr. 38-39. It is
the largest cable provider in the United States. RX0001C (Marcus WS) at Q/A 4.
ARRIS “is a telecommunications equipment
manufacturing company that provides cable operators,
like Comcast, with high-speed data, video, and
telephony systems and products for homes and
business.” RX-0781C (Folk WS) at Q/A 3. Many of the
ARRIS respondents maintain a presence in Suwanee,
Georgia. See Resp. of ARRIS Respondents to First Am.
Compl., ¶ 48 (EDIS Doc. ID No. 584966) (June 30,
2016). Comcast purchases certain set-top boxes from
ARRIS. Id.; see also RX-0781C (Folk WS) at Q/A 6.
Technicolor has a presence in France and
Indianapolis, Indiana. See Notice of Institution of
Investigation, 81 Fed. Reg. 33548 (May 26, 2016).
Technicolor manufactures products accused in this
investigation and provides them to Comcast. CX1750C (Technicolor SA’s 2nd Supplemental Responses
to Rovi’s 1st Set of Interrogatories (Nos. 8, 12, 15, 20,
21, 24, 40)) at 11-13; JX-0108C (Mosely Dep.) at 21:317; JX-0117C (Stockton Dep.) at 39:17-20, 39:24-40:2;
RX-0838C at Q/A 7.
In general, Comcast presents the respondents’
collective arguments on issues that pertain to all
respondents (e.g., claim construction, infringement,
and validity). See generally Resps. Br. (“Comcast” is
used to refer to all respondents). When the
respondents have a defense that applies to one

83a
respondent only (e.g., Comcast’s importation
argument, Comcast’s license defenses, and ARRIS’s
license defenses), the respondent arguing the defense
is specified. Id.; see also Tr. 79 (ARRIS’s counsel
presented “essentially a single issue”—the ARRISRovi IPG License). Technicolor does not present
arguments that apply only to it. See generally Resps.
Br.
II. JURISDICTION AND STANDING
A. Personal Jurisdiction
No party has contested the Commission’s personal
jurisdiction over it. See Rovi Br. at 13; see generally
Resps. Br., Section V (personal jurisdiction is not
contested). Indeed, Rovi, Comcast, ARRIS, and
Technicolor all participated in discovery and appeared
at the evidentiary hearing. It is found that the
Commission has personal jurisdiction over all parties.
B. Subject Matter Jurisdiction
Rovi argues that the Commission has subject
matter jurisdiction because its “complaint properly
alleges a violation of Section 337” and because the
accused products have been imported. Rovi Br. at 13.
Rovi argues that respondents “incorrectly conflate the
‘commonly misunderstood’ distinction between
jurisdiction and proof of a violation of Section 337 on
the merits.” Id. (quoting Certain Electronic Devices
with Image Processing Systems, Components Thereof,
and Associated Software, Inv. No. 337-TA-724,
Comm’n Op. (Dec. 21, 2011) (“Electronic Devices”)).
Comcast argues the Commission lacks jurisdiction
over X1 and Legacy products imported before April 1,
2016 because “Comcast had an express patent license
to [ ] Resps. Br. at 19; see also Rovi First Am. Compl.,

84a
(the license “extended only through March 31, 2016”);
CX-0001C at Q/A 28 (“the previous patent license
agreement . . . was not set to expire until March 31,
2016.”). Comcast further argues that the Commission
lacks jurisdiction because its activities are domestic
and because aspects of software it uses “are not
imported and therefore are outside the jurisdiction of
section 337.” Resps. Br. at 45-50 (Section V(A)). With
regard to indirect infringement, Comcast argues that
“Rovi’s indirect claims for the X1 STBs fail for the
same reasons as Rovi’s direct infringement claims.” Id.
at 50. In particular, Comcast argues it “does not supply
an SDK or equivalent tool for” its X1 software or the
mobile applications it provides to users. Id. at 50-52.
Comcast’s jurisdictional arguments blur the
“distinction between whether the Commission ‘has
jurisdiction over the subject matter of an investigation’
and ‘whether there is a violation of the statute upon
which a remedy can be based.’” See Electronic Devices
at 9-10 (quoting Certain Cardiac Pacemakers and
Components Thereof, Inv. No. 337-TA-162, Order No.
37 (March 21, 1984)). Here, Rovi has alleged sufficient
facts that, if proven, would show Respondents
imported articles that infringe Rovi’s patents. See
generally First Am. Compl., ¶¶ 110-205 (pages 32-65).
Accordingly, the administrative law judge has
determined that the Commission properly has
jurisdiction over Rovi’s complaint. 2
For the avoidance of doubt, the administrative law judge notes
the Commission’s jurisdiction includes attendant issues such as
whether the Commission has jurisdiction over products imported
before the Rovi-Comcast Patent License expired, Rovi’s direct
infringement claims, and Rovi’s indirect infringement claims. See
Joint Outline at 3.
2

85a
C. In Rem Jurisdiction
The Commission has in rem jurisdiction when
infringing articles are imported, sold for importation,
or sold within the United States after importation by
the owner, importer, or consignee. 19 U.S.C. §
1337(a)(1)(B). “All that is required for in rem
jurisdiction to be established is the presence of the
imported property in the United States.” Certain Male
Prophylactic Devices, Inv. No. 337-TA-546, Initial
Determination (June 30, 2006) (citing Certain Steel
Rod Treating Apparatus and Components Thereof, Inv.
No. 337-TA-97, USITC Pub. No. 1210 (Jan. 1982),
Commission Opinion at 4, 11 for the proposition that
presence of res establishes in rem jurisdiction in
Section 337 actions).
As discussed below, there is no dispute that the
accused products are manufactured abroad and
imported into the United States. Accordingly, the
administrative law judge has determined that the
Commission has in rem jurisdiction over the accused
products.
D. Importation
With respect to importation, the Commission has
explained:
all that is required concerning
infringement and importation is that
“infringement, direct or indirect, must be
based on the articles as imported.”
Electronic Devices [Inv. No. 337-TA-724,
USITC Pub. No. 4374 Vol. 1, Comm’n Op.
(Feb. 2013)] at 14. Thus, to the extent
that the ALJ found that an imported
article can only induce infringement in

86a
violation of section 337 if the article
produces direct infringement on its own,
and to the extent that the ALJ relied
upon that finding to conclude that
Respondents did not violate section 337,
we set aside that finding and reasoning.
Certain Products Containing Interactive Program
Guide and Parental Control Technology, Inv. No. 337TA-845, Comm’n Op. at 7 (Dec. 11, 2013) (“IPGs and
Parental Controls”).
1. ARRIS
Rovi has alleged that ARRIS imports the accused
products into the United States. Rovi Br. at 22. ARRIS
admits that it imports the accused products into the
United States. See ARRIS’s Resp. to the Complaint
(June 30, 2016, Rule 210.13(b) Statement); see also Tr.
465-466, 469-71, 558; JX-0100C (Johnson Dep. Tr.) 48;
CX-1738C (ARRIS Interrog. Resp.) at 31-33; JX-0098C
(Gee Dep. Tr.) 11; RX-0781C (Folk RWS) at Q/A 50
(Comcast takes title after importation); Joint Outline
at 3.
Accordingly, the administrative law judge has
determined that ARRIS imports the accused products
that it manufactures.
2. Technicolor
Rovi has alleged that Technicolor imports the
accused products into the United States. Rovi Br. at
23. Technicolor admits that it imports the accused
products into the United States. See Technicolor’s Aug.
1, 2016, Supplemental Rule 210.13(b) Statement; see
also JX-0108C (Mosely Dep. Tr.) 21; CX-1749C
(Technicolor Interrog. Resp.) at 24-26. As no Accused
Products are manufactured in the United States, all

87a
have been imported. JX-0108C (Mosely Dep. Tr.) 21;
Tr. (Shank) 558; see also CX-0002C (Shamos WS) at
Q/A 196-98, 199.
Accordingly, the administrative law judge has
determined that Technicolor imports the accused
products that it manufactures.
3. Comcast
Comcast argues it does not meet the importation
requirement, because “Section 337 forbids only three
types of conduct with respect to ‘articles that infringe’:
(1) importation into the U.S., (2) sale for importation,
and (3) sale after importation,” and it does not engage
in those activities. Resps. Br. at 8-9 (citing 19 U.S.C. §
1337(a)(1)(B)).
a) Importation into the United States
Rovi argues that Comcast is, in effect, an importer
because it “heavily involved in the design and
manufacture” of the accused products, as Comcast:
• Requires that the accused products adhere to its
specifications and acceptability standards; 3
• Has specified that the products are designed
only for Comcast (ARRIS does not even market
the products); 4

Tr. (Folk) 464-65, 468-69; see also JX-0096C (Folk Dep. Tr.) 7-8,
32-33; JX-0098C (Gee Dep. Tr.) 16-17; JX-0079C (Comcast/ARRIS
Master Supply Agreement) at § 9.01; see also JX-0066C
(Comcast/ARRIS Supply Agreement) at § 9.01.
3

4

JX-0096C (Folk Dep. Tr.) 30-32.

88a
• Restricts ARRIS’s ability to sell the products
without Comcast’s permission; 5 and
• Provides ARRIS and Technicolor with detailed
technical documents that “regarding the
hardware design for the XG1 and XG2 platform
STB product family, such that they operate as
required by Comcast within its network to
provide services to Comcast subscribers.” 6
See Rovi Br. at 25-27. Rovi further argues that
Comcast:
• Knows the imported products are manufactured
abroad and imported into the United States; 7
• Requires ARRIS to notify Comcast in the event
that there are any “changes to a Product’s
location of contract manufacturing[;]” 8
• Requires ARRIS to deliver the accused products
to Comcast delivery sites in the United States; 9

5

Tr. (Folk) 467.

See CX-1316C (Comcast XG1 and XG2 HW Spec.) at 9; CX1749C (Technicolor Interrog. Resp.) at 24-26; JX-0117C (Stockton
Dep. Tr,) 17, 20-21.

6

7

Tr. (Shank) 558; Tr. (Folk) 469-71.

Tr. (Shank) 566-67; JX-0079C (Comcast/ARRIS Master Supply
Agreement) at § 2.08.
8

Tr. (Folk) 473-74; Tr. (Shank) 568-69; JX-0079C
(Comcast/ARRIS Master Supply Agreement) at § 4.01; JX-0066C
(Comcast/ARRIS Supply Agreement) at § 4.01.

9

89a
• Requires Technicolor to deliver the accused
products to Comcast delivery sites in the United
States and Canada; 10
• Relies on ARRIS and Technicolor to ensure
sufficient quantities of the accused products are
available; 11
• Requires ARRIS and Technicolor to handle
importation formalities, such as fees,
documentation, licenses, and regulatory
approvals; 12 and
• Comcast alone controls the volume of accused
products that enter the United States, through
forecasts and orders sent to ARRIS and
Technicolor. 13
Id at 27-31. 14 Rovi further argues that [
Br. at 85-86.

] See Rovi

JX-0076C (Comcast/Technicolor Supply Agmt) at § 4.01 [
§ 5.02 [ ]
10

]

JX-0080C (Comcast/ARRIS Product Supply Addendum) at §
1.06; JX-0076C (Comcast/Technicolor Supply Agmt) at § 3.07.
11

JX-0079C (Comcast/ARRIS Master Supply Agreement) at §
4.01; JX-0066C (Comcast/ARRIS Supply Agreement) at § 5.02; Tr.
(Shank) 568-69; JX-0076C (Comcast/Technicolor Supply Agmt) at
§§ 4.01, 5.02; Tr. (Shank) 569-70.
12

RX-0838C (Shank RWS) at Q/A 57; JX-0098C (Gee Dep. Tr.) 1516; JX-0100C (Johnson Dep. Tr.) 40; JX-0117C (Stockton Dep.
Tr.) 43-44, 48-49; Tr. (Folk) 477-478; JX-0079C (Comcast/ARRIS
Master Supply Agreement) at § 3.01; JX-0066C (Comcast/ARRIS
Supply Agreement) at § 3.01; Tr. (Folk) 478-79; JX-0079C
(Comcast/ARRIS Master Supply Agreement) at § 3.02; JX-0066C
(Comcast/ARRIS Supply Agreement) at § 3.02.
13

Rovi’s reply crystalizes its argument that Comcast requires: [
] Rovi Reply at 13.
14

90a
Comcast argues that it is not an importer because it
“does not exercise any control over the Accused
Products’ importation.” Resps. Br. at 10. Comcast
further argues it has not met the importation
requirement because it “does not sell the accused
products for importation” and because it “does not sell
the accused products after importation.” Resps. Br. at
12.
Here, the evidence shows that Comcast is
sufficiently involved with the design, manufacture,
and importation of the accused products, such that it
is an importer for purposes of Section 337. Certain
Digital Set-Top Boxes and Components Thereof, Inv.
No. 337-TA-712, USITC Pub. 4332, Initial
Determination at 14-15 (June 2012) (finding the
importation requirement satisfied where the
respondent, Cablevision, caused the manufacture and
importation of set-top boxes, even though Cablevision
was not the importer of record). Indeed, the accused
products are so tailored to Comcast’s system and
requirements that they would not function within
another cable operator’s system. See Tr. (Allinson) 672;
JX-00096C (Folk Dep. Tr.) 30-32; JX-0117C (Stockton
Dep. Tr.) 35. Further, the software at issue in the heart
of this investigation is attributable squarely to
Comcast.
Accordingly, the administrative law judge has
determined that Comcast is an importer for purposes
of Section 337.
b) Sale for Importation
Comcast argues:
Rovi does not allege that Comcast sells
for importation, and the Accused

91a
Products are already in the U.S. when
Comcast purchases them. See RX-0838C
at Q/A 34-35 (testifying that [
]
Comcast’s supplier agreements show
that [
] See RX-0838C at Q/A 36; JX0116C at 70:6-72:6, 75:11-78:9, and
77:22-78:6; JX-0079C (ARRIS-Comcast
MPSA) at 8-10; JX-0055C (ScientificAtlanta-Comcast MPSA) at 8-11. Thus,
thre [sic] is no “sale for importation” by
Comcast.
Resps. Br. at 12.
Rovi has not argued that Comcast sells the accused
products for importation. See generally Rovi Br.; Rovi
Reply.
Accordingly, the administrative law judge has
determined that Comcast does not sell the accused
products for importation into the United States.
c) Sale After Importation
Comcast argues it does not sell the products after
importation because it rents them to its customers.
Resps. Br. at 12. 15 The “Comcast Agreement for

Comcast relies upon the following: RX-0838C at Q/A 63
(“Comcast maintains ownership of CPE rented to customers,
including set-top boxes, and specifically retains title to such
equipment.”); JX-0104C (Martin Dep. Tr.) at 12:3-13 (“[B]oxes
that are installed at [Comcast’s] customer sites,” are “owned by
Comcast”); 32:16-25 (“Customers pay Comcast a leasing fee for
the access for the device,” which only provides “[t]he ability for
them to use the devices”); 35:19-21, 40:12-14, 44:21-23, 49:5-7
(Comcast maintains title of inventory at warehouses, hubs, and
spokes); see also JX-0116C at 93:10-22 (Comcast “retain[s] title
[to Accused Products] even when [they] go[] to the customer”); RX15

92a
Residential Services” contains language explaining
that Comcast owns the “Comcast Equipment” and that
Comcast may “remove or change the Comcast
Equipment at [its] discretion at any time[.]” RX-0668C
at 6-7.
Rovi argues that Comcast’s distinction of sales and
leases is a “technical label of the transaction between
Comcast and its customers [that] does not allow
Comcast to engage in unfair acts with impunity; these
transactions are clearly the type of ‘sales after
importation’ prohibited by Section 337.” Rovi Br. at 33.
Rovi further argues that Comcast’s decision to charge
customers who fail to return a leased set-top box also
constitutes a sale. Id. (citing RX-0688C (Comcast
Residential Agreement) at 14 (T&C (6)(b))).
In Certain Semiconductor Devices, Semiconductor
Device Packages, and Products Containing Same, the
administrative law judge determined “whether the
rental of products by Comcast constitutes a sale after
importation.”
Inv.
No.
337-TA-1010,
Initial
Determination at 2 (Feb. 27, 2017) (on Apr. 3, 2017,
the Commission issued a notice determining not to
review the ID). In Certain Semiconductor Devices, the
administrative law judge noted that the subscriber
agreement “only specifies terms for renting equipment
from Comcast and never describes a transfer of
property or title” and determined that the “rental of
products pursuant to the Comcast subscriber
agreement is not a sale after importation, and
accordingly, such rentals are not violations of section
337.” Id. at 7.
0688C (Comcast Terms and Conditions) at .0007; RX-0689C
(Comcast Terms and Conditions) at .0008.

93a
Here, the Comcast Agreement for Residential
Services does not describe a transfer of property or
title (customers are obligated to “return all Comcast
Equipment” once services are terminated). Thus, in
light of Certain Semiconductor Devices, the
administrative law judge has determined that the
rentals of the present investigation are not violations
of Section 337.
Accordingly, the administrative law judge has
determined that Comcast has not sold the accused
products after importation into the United States.
E. Standing and Ownership of the Asserted
Patents
Rovi argues that it is the exclusive assignee of all of
the Asserted Patents, and has been prior to the
Investigation. Rovi Br. at 10. For each patent, Rovi
argues:
• U.S. Patent No. 8,006,263 issued on August 23,
2011. JX-0002 (’263 Patent) at 2. The patent
was originally assigned to United Video
Properties, Inc. CX-0001C (Armaly WS) at Q/A
139; JX-0016 (’263 Patent Assignment History)
at 429-33. United Video Properties, Inc. merged
into UV Corp., which merged into TV Guide,
Inc., which merged with Rovi Guides, Inc. CX0001C (Armaly WS) at Q/A 139. The ’263 Patent
passed entirely to Rovi Guides, Inc. on
November 25, 2014. JX-0016 (’263 Patent
Assignment History) at 451. No other party
possesses substantial rights to the ’263 Patent.
• U.S. Patent No. 8,578,413 issued on November
5, 2013. JX-0005 (’413 Patent) at 2. The patent
was originally assigned to United Video

94a
Properties, Inc. CX-0001C (Armaly WS) at Q/A
145; JX-0019 (’413 Patent Assignment History)
at 2-6. United Video Properties, Inc. merged
into UV Corp., which merged into TV Guide,
Inc., which merged with Rovi Guides. See CX0001C (Armaly WS) at Q/A 145. The ’413 Patent
passed to Rovi Guides, Inc. on November 25,
2014. JX-0019 (’413 Patent Assignment
History) at 109. No other party possesses
substantial rights to the ’413 Patent.
• U.S. Patent No. 8,046,801 issued on October 25,
2011. JX-0003 (’801 Patent) at 2. The patent
was originally assigned to United Video
Properties, Inc. CX-0001C (Armaly WS) at Q/A
151; JX-0017 (’801 Patent Assignment History)
at 429-33. United Video Properties, Inc. merged
into UV Corp., which merged into TV Guide,
Inc., which merged with Rovi Guides, Inc. CX0001C (Armaly WS) at Q/A 151. The ’801 Patent
passed entirely to Rovi Guides, Inc. on
November 25, 2014. JX-0017 (’801 Patent
Assignment History) at 451. No other party
possesses substantial rights to the ’801 Patent.
• U.S. Patent No. 8,621,512 issued on December
31, 2013. JX-0006 (’512 Patent) at 2. The patent
was originally assigned to United Video
Properties, Inc. CX-0001C (Armaly WS) at Q/A
157; JX-0020 (’512 Patent Assignment History)
at 2-5. United Video Properties, Inc. merged
into UV Corp., which merged into TV Guide,
Inc., which merged with Rovi Guides, Inc. CX0001C (Armaly WS) at Q/A 157. The ’512 Patent
passed entirely to Rovi Guides, Inc. on
November 25, 2014. JX-0020 (’512 Patent

95a
Assignment History) at 108. No other party
possesses substantial rights to the ’512 Patent.
• U.S. Patent No. 8,566,871 issued on October 22,
2013. JX-0004 (’871 Patent) at 2. The patent
was originally assigned to StarSight Telecast,
Inc. See CX-0001C (Armaly WS) at Q/A 169; JX0018 (’871 Patent Assignment History) at 23439. StarSight Telecast, Inc. merged into Rovi
Guides, Inc. CX-0001C (Armaly WS) at Q/A 169.
The ’871 Patent passed entirely to Rovi Guides,
Inc. on November 25, 2014. JX-0018 (’871
Patent Assignment History) at 441. No other
party possesses substantial rights to the ’871
patent.
• U.S. Patent No. 6,418,556 issued on July 9,
2002. See JX-0001 (the ’556 Patent). The patent
was originally assigned to News America
Publishing, Inc. and Tele-Communications of
Colorado, Inc. See CX-0001C (Armaly WS) at
Q/A 175; JX-0015 (’556 Patent Assignment
History) at 2-10. News America Publishing, Inc.
assigned its rights to New America
Publications, Inc., which changed its name to
TV Guide Magazine Group, which assigned its
rights to TV Guide, Inc. CX-0001C (Armaly WS)
at Q/A 175. TV Guide Inc. assigned its rights to
United Video Properties, Inc., which merged
with Rovi Guides, Inc. Id. Tele-Communications
of Colorado, Inc. assigned its rights to TCITCGOS, Inc., which merged into UV Corp.,
which merged into TV Guide, Inc., which
merged into Rovi Guides, Inc. Id. The ’556
Patent passed entirely to Rovi Guides, Inc. on
November 25, 2014. JX-0015 (’556 Patent

96a
Assignment History) at 509. No other party
possesses substantial rights to the ’556 Patent.
Respondents have not presented any argument on this
issue. See Joint Outline at 1; see generally Resps. Br.
(the issue is not contested).
The administrative law judge has determined that
Rovi has standing to bring its complaint in this
investigation.
III. GENERAL PRINCIPLES OF LAW
A. Claim Construction
Claim construction begins with the plain language
of the claim. 16 Claims should be given their ordinary
and customary meaning as understood by a person of
ordinary skill in the art, viewing the claim terms in the
context of the entire patent. 17 Phillips v. AWH Corp.,
415 F.3d 1303, 1312-13 (Fed. Cir. 2005) (en banc), cert.
denied, 546 U.S. 1170 (2006).
In some instances, claim terms do not have
particular meaning in a field of art, and claim
construction involves little more than the application
Only those claim terms that are in controversy need to be
construed, and only to the extent necessary to resolve the
controversy. Vanderlande Indus. Nederland BV v. Int’l Trade
Comm’n, 366 F.3d 1311, 1323 (Fed. Cir. 2004); Vivid Tech., Inc.
v. American Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999).
16

17
Factors that may be considered when determining the level of
ordinary skill in the art include: “(1) the educational level of the
inventor; (2) type of problems encountered in the art; (3) prior art
solutions to those problems; (4) rapidity with which innovations
are made; (5) sophistication of the technology; and (6) educational
level of active workers in the field.” Environmental Designs, Ltd.
v. Union Oil Co., 713 F.2d 693, 696 (Fed. Cir. 1983), cert. denied,
464 U.S. 1043 (1984).

97a
of the widely accepted meaning of commonly
understood words. Phillips, 415 F.3d at 1314. “In such
circumstances, general purpose dictionaries may be
helpful.” Id.
In many cases, claim terms have a specialized
meaning, and it is necessary to determine what a
person of skill in the art would have understood the
disputed claim language to mean. “Because the
meaning of a claim term as understood by persons of
skill in the art is often not immediately apparent, and
because
patentees
frequently
use
terms
idiosyncratically, the court looks to ‘those sources
available to the public that show what a person of skill
in the art would have understood disputed claim
language to mean.’” Phillips, 415 F.3d at 1314 (quoting
Innova/Pure Water, Inc. v. Safari Water Filtration
Sys., Inc., 381 F.3d 1111, 1116 (Fed. Cir. 2004)). The
public sources identified in Phillips include “the words
of the claims themselves, the remainder of the
specification, the prosecution history, and extrinsic
evidence concerning relevant scientific principles, the
meaning of technical terms, and the state of the art.”
Id. (quoting Innova, 381 F.3d at 1116).
In cases in which the meaning of a claim term is
uncertain, the specification usually is the best guide to
the meaning of the term. Phillips, 415 F.3d at 1315. As
a general rule, the particular examples or
embodiments discussed in the specification are not to
be read into the claims as limitations. Markman v.
Westview Instruments, Inc., 52 F.3d 967, 979 (Fed. Cir.
1995) (en banc), aff’d, 517 U.S. 370 (1996). The
specification is, however, always highly relevant to the
claim construction analysis, and is usually dispositive.
Phillips, 415 F.3d at 1315 (quoting Vitronics Corp. v.
Conceptronic, Inc., 90 F.3d 1576, 1582 (Fed. Cir.

98a
1996)). Moreover, “[t]he construction that stays true to
the claim language and most naturally aligns with the
patent’s description of the invention will be, in the end,
the correct construction.” Id. at 1316.
Claims are not necessarily, and are not usually,
limited in scope to the preferred embodiment. RF
Delaware, Inc. v. Pacific Keystone Techs., Inc., 326
F.3d 1255, 1263 (Fed. Cir. 2003); Decisioning.com, Inc.
v. Federated Dep’t Stores, Inc., 527 F.3d 1300, 1314
(Fed. Cir. 2008) (“[The] description of a preferred
embodiment, in the absence of a clear intention to limit
claim scope, is an insufficient basis on which to narrow
the claims.”). Nevertheless, claim constructions that
exclude the preferred embodiment are “rarely, if ever,
correct and require highly persuasive evidentiary
support.” Vitronics, 90 F.3d at 1583. Such a conclusion
can be mandated in rare instances by clear intrinsic
evidence, such as unambiguous claim language or a
clear disclaimer by the patentees during patent
prosecution. Elekta Instrument S.A. v. O.U.R. Sci.
Int’l, Inc., 214 F.3d 1302, 1308 (Fed. Cir. 2000); Rheox,
Inc. v. Entact, Inc., 276 F.3d 1319 (Fed. Cir. 2002).
If the intrinsic evidence does not establish the
meaning of a claim, then extrinsic evidence may be
considered. Extrinsic evidence consists of all evidence
external to the patent and the prosecution history, and
includes inventor testimony, expert testimony, and
learned treatises. Phillips, 415 F.3d at 1317. Inventor
testimony can be useful to shed light on the relevant
art. In evaluating expert testimony, a court should
discount any expert testimony that is clearly at odds
with the claim construction mandated by the claims
themselves, the written description, and the
prosecution history, in other words, with the written
record of the patent. Id. at 1318. Extrinsic evidence

99a
may be considered if a court deems it helpful in
determining the true meaning of language used in the
patent claims. Id.
For claims involving functional language, the
Federal Circuit has explained that
Construction of a means-plus-function
limitation includes two steps. “First, the
court must determine the claimed
function. Second, the court must identify
the corresponding structure in the
written description of the patent that
performs the function.” Applied Med.
Res. Corp. v. U.S. Surgical Corp., 448
F.3d 1324, 1332 (Fed. Cir. 2006)
(internal citations omitted).
Noah Sys., Inc. v. Intuit Inc., 675 F.3d 1302, 1311 (Fed.
Cir. 2012)
B. Representative Products
A single product may be representative of multiple
products when the “products operate similarly with
respect to the claimed limitation.” Sponsion, Inc. v.
Int’l Trade Comm’n, 629 F.3d 1331, 1351-52 (Fed. Cir.
2010); see also TiVo, Inc. v. EchoStar Commc’ns Corp.,
516 F.3d 1290, 1308 (Fed. Cir. 2008) (“there is nothing
improper about an expert testifying in detail about a
particular device and then stating that the same
analysis applies to other allegedly infringing devices
that operate similarly, without discussing each type of
device in detail.”); Kaneka Corp. v. SKC Kolon PI, Inc.,
198 F. Supp. 3d 1089, 1119 (C.D. Cal. 2016) (“A
patentee can prove infringement by showing that just
‘some samples’ or even ‘a sample’ of the product is
found to meet all the limitations of a patent’s claims.”).

100a
The complainant bears the burden of showing that the
representative product behaves in a manner similar to
the products it represents. See Sponsion, 629 F.3d at
1332 (“Appellants contend that the ALJ improperly
shifted the burden to Appellants to establish that the
non-modeled accused packages would behave
differently than those that were modeled. Rather than
improper burden shifting, the ALJ properly found that
Appellants simply failed to rebut the substantial
evidence set forth by Tessera.”); L & W, Inc. v.
Shertech, Inc., 471 F.3d 1311, 1318 (Fed. Cir. 2006)
(the “burden of proof on infringement. . . . falls on
Shertech, the patentee”); see also Network Protection
Sciences, LLC v. Fortinet, Inc., 2013 WL 5402089, *2*4 (N.D. Cal. 2013) (denying defendant’s motion for
summary judgment of no infringement where the
defendant argued the plaintiff should have provided
claim charts for each individual accused product).
C. Infringement
1. Direct Infringement
Under 35 U.S.C. §271(a), direct infringement
consists of making, using, offering to sell, or selling a
patented invention without consent of the patent
owner. The complainant in a section 337 investigation
bears the burden of proving infringement of the
asserted patent claims by a “preponderance of the
evidence.” Certain Flooring Products, Inv. No. 337-TA443, Comm’n Notice of Final Determination of No
Violation of Section 337, 2002 WL 448690, at *59,
(Mar. 22, 2002); Enercon GmbH v. Int’l Trade Comm’n,
151 F.3d 1376 (Fed. Cir. 1998).
Literal infringement of a claim occurs when every
limitation recited in the claim appears in the accused
device, i.e., when the properly construed claim reads

101a
on the accused device exactly. 18 Amhil Enters., Ltd. v.
Wawa, Inc., 81 F.3d 1554, 1562 (Fed. Cir. 1996);
Southwall Tech. v. Cardinal IG Co., 54 F.3d 1570,
1575 (Fed Cir. 1995).
If the accused product does not literally infringe the
patent claim, infringement might be found under the
doctrine of equivalents. “Under this doctrine, a product
or process that does not literally infringe upon the
express terms of a patent claim may nonetheless be
found to infringe if there is ‘equivalence’ between the
elements of the accused product or process and the
claimed elements of the patented invention.” WarnerJenkinson Co., Inc. v. Hilton Davis Chemical Co., 520
U.S. 17, 21 (1997) (citing Graver Tank & Mfg. Co. v.
Linde Air Products Co., 339 U.S. 605, 609 (1950)). “The
determination of equivalence should be applied as an
objective inquiry on an element by element basis.” 19 Id.
at 40.
“An element in the accused product is equivalent to
a claim limitation if the differences between the two
are insubstantial. The analysis focuses on whether the
element in the accused device ‘performs substantially
the same function in substantially the same way to
obtain the same result’ as the claim limitation.”
AquaTex Indus. v. Techniche Solutions, 419 F.3d 1374,
Each patent claim element or limitation is considered material
and essential. London v. Carson Pirie Scott & Co., 946 F.2d 1534,
1538 (Fed. Cir. 1991). If an accused device lacks a limitation of an
independent claim, the device cannot infringe a dependent claim.
See Wahpeton Canvas Co. v. Frontier, Inc., 870 F.2d 1546, 1552
n.9 (Fed. Cir. 1989).
18

“Infringement, whether literal or under the doctrine of
equivalents, is a question of fact.” Absolute Software, Inc. v.
Stealth Signal, Inc., 659 F.3d 1121, 1130 (Fed. Cir. 2011).
19

102a
1382 (Fed. Cir. 2005) (quoting Graver Tank, 339 U.S.
at 608); accord Absolute Software, 659 F.3d at 113940. 20
Prosecution history estoppel can prevent a patentee
from relying on the doctrine of equivalents when the
patentee relinquished subject matter during the
prosecution of the patent, either by amendment or
argument. AquaTex, 419 F.3d at 1382. In particular,
“[t]he doctrine of prosecution history estoppel limits
the doctrine of equivalents when an applicant makes a
narrowing amendment for purposes of patentability,
or clearly and unmistakably surrenders subject matter
by arguments made to an examiner.” Id. (quoting
Salazar v. Procter & Gamble Co., 414 F.3d 1342, 1344
(Fed. Cir. 2005)).
2. Indirect Infringement
a) Induced Infringement
Section 271(b) of the Patent Act provides: “Whoever
actively induces infringement of a patent shall be
liable as an infringer.” 35 U.S.C. § 271(b).
“To prevail on a claim of induced infringement, in
addition to inducement by the defendant, the patentee
must also show that the asserted patent was directly
infringed.” Epcon Gas Sys. v. Bauer Compressors, Inc.,
20
“The known interchangeability of substitutes for an element of
a patent is one of the express objective factors noted by Graver
Tank as bearing upon whether the accused device is substantially
the
same
as the
patented invention. Independent
experimentation by the alleged infringer would not always reflect
upon the objective question whether a person skilled in the art
would have known of the interchangeability between two
elements, but in many cases it would likely be probative of such
knowledge.” Warner Jenkinson, 520 U.S. at 36.

103a
279 F.3d 1022, 1033 (Fed. Cir. 2002). Further,
“[s]ection 271(b) covers active inducement of
infringement, which typically includes acts that
intentionally cause, urge, encourage, or aid another to
directly infringe a patent.” Arris Group v. British
Telecomm. PLC, 639 F.3d 1368, 1379 n.13 (Fed. Cir.
2011). The Supreme Court held that “induced
infringement under § 271(b) requires knowledge that
the induced acts constitute patent infringement.”
Global-Tech Appliances, Inc. v. SEB S.A., 563 U.S.
754, 766 (2011). The Court further held: “[g]iven the
long history of willful blindness and its wide
acceptance in the Federal Judiciary, we can see no
reason why the doctrine should not apply in civil
lawsuits for induced patent infringement under 35
U.S.C. § 271(b).” Id. at 768 (footnote omitted). 21
b) Contributory Infringement
Section 271(c) of the Patent Act provides: “Whoever
offers to sell or sells within the United States or
imports into the United States a component of a
patented machine, manufacture, combination or
composition, or a material or apparatus for use in
practicing a patented process, constituting a material
part of the invention, knowing the same to be
especially made or especially adapted for use in an
infringement of such patent, and not a staple article or
21
“While the Courts of Appeals articulate the doctrine of willful
blindness in slightly different ways, all appear to agree on two
basic requirements: (1) the defendant must subjectively believe
that there is a high probability that a fact exists and (2) the
defendant must take deliberate actions to avoid learning of that
fact. We think these requirements give willful blindness an
appropriately limited scope that surpasses recklessness and
negligence.” Global-Tech, 563 U.S. at 769.

104a
commodity of commerce suitable for substantial
noninfringing use, shall be liable as a contributory
infringer.” 35 U.S.C. § 271(c).
Section
271(c)
“covers
both
contributory
infringement of system claims and method claims.” 22
Arris, 639 F.3d at 1376 (footnotes omitted). To hold a
component
supplier
liable
for
contributory
infringement, a patent holder must show, inter alia,
that (a) the supplier’s product was used to commit acts
of direct infringement; (b) the product’s use
constituted a material part of the invention; (c) the
supplier knew its product was especially made or
especially adapted for use in an infringement” of the
patent; and (d) the product is not a staple article or
commodity of commerce suitable for substantial noninfringing use. Id.
D. Patent Eligibility
Whether patent claims are directed to subject
matter that is patentable under 35 U.S.C. § 101 is an
issue of law. CLS Bank Int’l v. Alice Corp Pty., 717 F.3d
1269, 1276 (2013) (en banc) (citing Bancorp Servs.,
LLC v. Sun Life Assurance Co. of Can., 687 F.3d 1266,
1273 (Fed. Cir. 2012)). “While there may be cases in
which the legal question as to patentable subject
matter may turn on subsidiary factual issues,” a
patentee must clearly identify the fact issues that
must be resolved in order to address patentability. See

“Claims which recite a ‘system,’ ‘apparatus,’ ‘combination,’ or
the like are all analytically similar in the sense that their claim
limitations include elements rather than method steps. All such
claims can be contributorily infringed by a component supplier.”
Arris, 639 F.3d at 1376 n.8.

22

105a
In re Comiskey, 554 F.3d 967, 975 (Fed. Cir. 2009). The
Commission has explained:
[T]he law remains unsettled as to
whether the presumption of patent
validity under 35 U.S.C. § 282 applies to
subject matter eligibility challenges
under 35 U.S.C. § 101.”
Certain Portable Elec. Devices & Components Thereof,
Inv. No. 337-TA-994, Initial Determination, (Aug. 19,
2016) (quoting Notice of Commission Determination
(1) to Review an Initial Determination Granting
Respondents’ Motion for Summary Determination
that Certain Asserted Claims are Directed to
Ineligible Subject Matter Under 35 U.S.C. § 101; and
(2) on Review to Affirm the Initial Determination with
Modification, Inv. No. 337-TA-963 (Apr. 4, 2016) at 2).
Section 101 of the Patent Act sets forth four
categories of patentable inventions: “Whoever invents
or discovers any new and useful process, machine,
manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent
therefore, subject to the conditions and requirements
of this title.” 35 U.S.C. §101; see also Intellectual
Ventures I LLC v. Capital One Bank (USA), 792 F.3d
1363, 1366 (Fed. Cir. 2015). The Supreme Court has
recognized three exceptions to 35 U.S.C. § 101, holding
ineligible for patenting ‘“[l]aws of nature, natural
phenomena, and abstract ideas.’” Ultramercial, Inc. v.
Hulu, LLC, 772 F.3d 709, 714 (Fed. Cir. 2014), cert
denied, sub nom. Ultramercial, LLC v. WildTangent,
Inc., 135 S. Ct. 2907 (2015) (quoting Alice Corp. Pty.
Ltd. v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014))
(“Alice”). “Patents that merely claim well-established,
fundamental concepts fall within the category of

106a
abstract ideas.” Cyberfone Sys., LLC v. CNN
Interactive Grp., Inc., 558 Fed. App’x 988, 991 (Fed.
Cir. 2014) (citing Bilski v. Kappos, 561 U.S. 593, 61112 (2010)).
An invention, however, “is not rendered ineligible
for patent simply because it involves an abstract
concept.” Alice, 134 S. Ct. at 2354 (citing Diamond v.
Diehr, 450 U.S. 175, 187 (1981)). The courts have
recognized that “‘[a]t some level,’ all inventions . . .
embody, use reflect, rest upon, or apply laws of nature,
natural phenomena or abstract ideas.’” Ultramercial,
772 F.3d at 715 (quoting Alice, 134 S. Ct. at 2354).
To identify claims that are ineligible, the Supreme
Court has articulated a two-step test. Genetic Techs.
Ltd. v. Merial L.L.C., 818 F.3d 1369, 1374 (Fed. Cir.
2016). In the first step, the court must decide whether
a claim is drawn to an abstract idea. Id. (citing Alice,
134 S. Ct. at 2355). If the patent claims an abstract
idea, the court in the second step seeks to identify an
‘“inventive concept’ sufficient to ‘transform’ the
claimed abstract idea into a patent-eligible
application.” Alice, 134 S. Ct. at 2357 (quoting Mayo
Collaborative Servs. v. Prometheus Laboratories, Inc.,
132 S. Ct. 1289, 1294, 1298 (2012) (“Mayo”)). The claim
limitations must disclose additional features
indicating more than “well-understood, routine,
conventional activity.” Mayo, 132 S. Ct. at 1292. The
limitations must “‘narrow, confine, or otherwise tie
down the claim so that, in practical terms, it does not
cover the full abstract idea itself.’” Cyberfone, 558 Fed.
App’x at 992 (quoting Accenture Global Servs., GmbH
v. Guidewire Software, Inc., 728 F.3d 1336, 1341 (Fed.
Cir. 2013), cert. denied, 134 S. Ct. 2871 (Jun. 30,
2014)).

107a
Configuring a standard, computerized system to
implement an abstract idea does not make the claimed
configuration
patent-eligible.
Manipulation
of
abstractions on a computer ‘“cannot meet the test
because they are not physical objects or substances,
and they are not representative of physical objects or
substances.’” Ultramercial, 772 F.3d at 717 (quoting In
re Bilski, 545 F.3d 943, 963 (Fed. Cir. 2008)); see also
Bancorp Servs., 687 F.3d at 1278, cert. denied, 134 S.
Ct. 2870 (2014) (“[A]dding a ‘computer aided’
limitation to a claim covering an abstract concept,
without more, is insufficient to render the claim patent
eligible.’”) (quoting Dealertrack, Inc. v. Huber, 674
F.3d 1315, 1333 (Fed. Cir. 2012)).
Claims that are not merely drawn to abstract ideas
implemented by the use of computers, however, may
be eligible. Specifically, claims directed to improving
computer functioning by the use of unconventional
methods may appropriately be patented. See Enfish,
LLC v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir.
2016) (“[W]e find it relevant to ask whether the claims
are directed to an improvement to computer
functionality versus being directed to an abstract idea,
even at the first step of the Alice analysis.”).
Indeed, the use of generic computer technology,
however “specific” to the particular environment, will
not provide eligibility, if the functionality described
constitutes an abstract idea. See TLI Commc’ns LLC
v. AV Auto., LLC, 823 F.3d 607, 611 (Fed. Cir. 2016)
(“TLI”) (holding that 35 U.S.C. § 101 applies where
“the specification makes clear that the recited physical
components merely provide a generic environment in
which to carry out the abstract idea of classifying and
storing digital images in an organized manner”).

108a
In TLI, the Federal Circuit considered and held
invalid a method for uploading digital photos from a
mobile device. TLI, 823 F.3d at 609. The Federal
Circuit clarified that a relevant inquiry under step one
is ‘“whether the claims are directed to an improvement
to computer functionality versus being directed to an
abstract idea.’” Id. at 612 (quoting Enfish, 822 F.3d at
1335). The Circuit contrasted claims ‘“directed to an
improvement in the functioning of a computer with
claims ‘simply adding conventional computer
components to well-known business practices . . . or
‘generalized steps to be performed on a computer using
conventional computer activity.’” Id. (quoting Enfish,
822 F.3d at 1338).
E. Validity
One cannot be held liable for practicing an invalid
patent claim. See Pandrol USA, LP v. AirBoss Railway
Prods., Inc., 320 F.3d 1354, 1365 (Fed. Cir. 2003).
Nevertheless, each claim of a patent is presumed to be
valid, even if it depends from a claim found to be
invalid. 35 U.S.C. § 282; DMI Inc. v. Deere & Co., 802
F.2d 421 (Fed. Cir. 1986).
A respondent that has raised patent invalidity as an
affirmative defense must overcome the presumption
by “clear and convincing” evidence of invalidity.
Checkpoint Systems, Inc. v. United States Int’l Trade
Comm’n, 54 F.3d 756, 761 (Fed. Cir. 1995).
1. Anticipation
Anticipation under 35 U.S.C. § 102 is a question of
fact. z4 Techs., Inc. v. Microsoft Corp., 507 F.3d 1340,
1347 (Fed. Cir. 2007). Section 102 provides that,
depending on the circumstances, a claimed invention
may be anticipated by variety of prior art, including

109a
publications, earlier-sold products, and patents. See 35
U.S.C. § 102 (e.g., section 102(b) provides that one is
not entitled to a patent if the claimed invention “was
patented or described in a printed publication in this
or a foreign country or in public use or on sale in this
country, more than one year prior to the date of the
application for patent in the United States”).
The general law of
summarized, as follows:

anticipation

may

A reference is anticipatory under
§ 102(b) when it satisfies particular
requirements. First, the reference must
disclose each and every element of the
claimed invention, whether it does so
explicitly or inherently. Eli Lilly & Co. v.
Zenith Goldline Pharms., Inc., 471 F.3d
1369, 1375 (Fed. Cir. 2006). While those
elements must be “arranged or combined
in the same way as in the claim,” Net
MoneyIN, Inc. v. VeriSign, Inc., 545 F.3d
1359, 1370 (Fed. Cir. 2008), the reference
need not satisfy an ipsissimis verbis test,
In re Bond, 910 F.2d 831, 832 33 (Fed.
Cir. 1990). Second, the reference must
“enable one of ordinary skill in the art to
make the invention without undue
experimentation.” Impax Labs., Inc. v.
Aventis Pharms. Inc., 545 F.3d 1312,
1314 (Fed. Cir. 2008); see In re LeGrice,
49 C.C.P.A. 1124, 301 F.2d 929, 940-44
(1962). As long as the reference discloses
all of the claim limitations and enables
the “subject matter that falls within the
scope of the claims at issue,” the
reference anticipates -- no “actual

be

110a
creation or reduction to practice” is
required. Schering Corp. v. Geneva
Pharms., Inc., 339 F.3d 1373, 1380-81
(Fed. Cir. 2003); see In re Donohue, 766
F.2d 531, 533 (Fed. Cir. 1985). This is so
despite the fact that the description
provided in the anticipating reference
might not otherwise entitle its author to
a patent. See Vas Cath Inc. v. Mahurkar,
935 F.2d 1555, 1562 (Fed. Cir. 1991)
(discussing the “distinction between a
written description adequate to support
a claim under § 112 and a written
description sufficient to anticipate its
subject matter under § 102(b)”).
In re Gleave, 560 F.3d 1331, 1334 (Fed. Cir. 2009).
2. Obviousness
Under section 103 of the Patent Act, a patent claim
is invalid “if the differences between the subject
matter sought to be patented and the prior art are such
that the subject matter as a whole would have been
obvious at the time the invention was made to a person
having ordinary skill in the art to which said subject
matter pertains.” 23 35 U.S.C. § 103. While the ultimate
determination of whether an invention would have
been obvious is a legal conclusion, it is based on
“underlying factual inquiries including: (1) the scope
and content of the prior art; (2) the level of ordinary
skill in the art; (3) the differences between the claimed
The standard for determining whether a patent or publication
is prior art under section 103 is the same as under 35 U.S.C. §
102, which is a legal question. Panduit Corp. v. Dennison Mfg.
Co., 810 F.2d 1561, 1568 (Fed. Cir. 1987).
23

111a
invention and the prior art; and (4) objective evidence
of nonobviousness.” Eli Lilly and Co. v. Teva
Pharmaceuticals USA, Inc., 619 F.3d 1329 (Fed. Cir.
2010).
The objective evidence, also known as “secondary
considerations,” includes commercial success, long felt
need, and failure of others. Graham v. John Deere Co.,
383 U.S. 1, 13-17 (1966); Dystar Textilfarben GmbH v.
C.H. Patrick Co., 464 F.3d 1356, 1361 (Fed. Cir. 2006).
“[E]vidence arising out of the so-called ‘secondary
considerations’ must always when present be
considered en route to a determination of
obviousness.” Stratoflex, Inc. v. Aeroquip Corp., 713
F.2d 1530, 1538 (Fed. Cir. 1983). Secondary
considerations, such as commercial success, will not
always dislodge a determination of obviousness based
on analysis of the prior art. See KSR Int’l Co. v. Teleflex
Inc., 550 U.S. 398, 426 (2007) (commercial success did
not alter conclusion of obviousness).
“One of the ways in which a patent’s subject matter
can be proved obvious is by noting that there existed
at the time of invention a known problem for which
there was an obvious solution encompassed by the
patent’s claims.” KSR, 550 U.S. at 419-20. “[A]ny need
or problem known in the field of endeavor at the time
of invention and addressed by the patent can provide
a reason for combining the elements in the manner
claimed.” Id.
Specific teachings, suggestions, or motivations to
combine prior art may provide helpful insights into the
state of the art at the time of the alleged invention. Id.
at 420. Nevertheless, “an obviousness analysis cannot
be confined by a formalistic conception of the words
teaching, suggestion, and motivation, or by

112a
overemphasis on the importance of published articles
and the explicit content of issued patents. The
diversity of inventive pursuits and of modern
technology counsels against limiting the analysis in
this way.” Id. “Under the correct analysis, any need or
problem known in the field of endeavor at the time of
invention and addressed by the patent can provide a
reason for combining the elements in the manner
claimed.” Id. A “person of ordinary skill is also a person
of ordinary creativity.” Id. at 421.
Nevertheless, “the burden falls on the patent
challenger to show by clear and convincing evidence
that a person of ordinary skill in the art would have
had reason to attempt to make the composition or
device, or carry out the claimed process, and would
have had a reasonable expectation of success in doing
so.” PharmaStem Therapeutics, Inc. v. ViaCell, Inc.,
491 F.3d 1342, 1360 (Fed. Cir. 2007); see KSR, 550 U.S.
at 416 (a combination of elements must do more than
yield a predictable result; combining elements that
work together in an “unexpected and fruitful manner”
would not have been obvious). 24
3. Written Description
The issue of whether a patent is invalid for failure
to meet the written description requirement of 35
U.S.C. § 112 ¶ 1 is a question of fact. Bard Peripheral
Vascular, Inc. v. W.L. Gore & Assocs., Inc., 670 F.3d
1171, 1188 (Fed. Cir. 2012). A patent’s written
description must clearly allow persons of ordinary skill
Further, “when the prior art teaches away from combining
certain known elements, discovery of a successful means of
combining them is more likely to be nonobvious.” KSR, 550 U.S.
at 416 (citing United States v. Adams, 383 U.S. 39, 52 (1966)).
24

113a
in the art to recognize that the inventor invented what
is claimed. The test for sufficiency of a written
description is “whether the disclosure of the
application relied upon reasonable conveys to those
skilled in the art that the inventor had possession of
the claimed subject matter as of the filing date.” Id.
(quoting Ariad Pharm., Inc. v. Eli Lilly & Co., 598 F.3d
1336, 1351 (Fed. Cir. 2010) (en banc)).
4. Indefiniteness
The definiteness requirement of 35 U.S.C. § 112
ensures that the patent claims particularly point out
and distinctly claim the subject matter that the
patentee regards to be the invention. See 35 U.S.C. §
112, ¶ 2; Metabolite Labs., Inc. v. Lab. Corp. of Am.
Holdings, 370 F.3d 1354, 1366 (Fed. Cir. 2004). If a
claim’s legal scope is not clear enough so that a person
of ordinary skill in the art could determine whether or
not a particular product infringes, the claim is
indefinite, and is, therefore, invalid. Geneva Pharm.,
Inc. v. GlaxoSmithKline PLC, 349 F.3d 1373, 1384
(Fed. Cir. 2003). 25
Thus, it has been found that:
When a proposed construction requires
that an artisan make a separate
infringement determination for every set
of
circumstances
in
which
the
composition may be used, and when such
determinations are likely to result in
differing
outcomes
(sometimes

Indefiniteness is a question of law. IGT v. Bally Gaming Int’l,
Inc., 659 F.3d 1109 (Fed. Cir. 2011).
25

114a
infringing and sometimes not), that
construction is likely to be indefinite.
Halliburton Energy Servs. v. M-I LLC, 514 F.3d 1244,
1255 (Fed. Cir. 2008).
The Supreme Court addressed the issue of
indefiniteness, and stated that a finding of
indefiniteness should not be found if the claims,
“viewed in light of the specification and prosecution
history, inform those skilled in the art about the scope
of the invention with reasonable certainty.” Nautilus,
Inc. v. Biosig Instruments, Inc., 134 S. Ct. 2120, 2124
(2014) (“Nautilus”).
A patent is not indefinite if the claims, “viewed in
light of the specification and prosecution history,
inform those skilled in the art about the scope of the
invention with reasonable certainty.” Nautilus, 134 S.
Ct. at 2124. “If, after a review of the intrinsic and
extrinsic evidence, a claim term remains ambiguous,
the claim should be construed so as to maintain its
validity.” Certain Consumer Electronics and Display
Devices with Graphics Processing and Graphics
Processing Units Therein, Inv. No. 337-TA-932, Order
No. 20 (Apr. 2, 2015) (quoting Phillips, 415 F.3d at
1327).
The burden is on the accused infringer to come
forward with clear and convincing evidence to prove
invalidity. See Young v. Lumenis, Inc., 492 F.3d 1336,
1344 (Fed. Cir. 2007) (“A determination that a patent
claim is invalid for failing to meet the definiteness
requirement in 35 U.S.C. § 112, ¶ 2 is a legal question
reviewed de novo.”).

115a
F. Domestic Industry
A violation of section 337(a)(1)(B), (C), (D), or (E)
can be found “only if an industry in the United States,
with respect to the articles protected by the patent,
copyright, trademark, mask work, or design
concerned, exists or is in the process of being
established.” 19 U.S.C. § 1337(a)(2). Section 337(a)
further provides:
(3) For purposes of paragraph (2), an industry
in the United States shall be considered to exist
if there is in the United States, with respect to
the articles protected by the patent, copyright,
trademark, mask work, or design concerned—
(A) significant investment in plant and
equipment;
(B) significant
capital; or

employment

of

labor

or

(C) substantial
investment
in
its
exploitation, including engineering, research
and development, or licensing.
19 U.S.C. § 1337(a)(3).
These statutory requirements consist of an
economic prong (which requires certain activities) 26
The Commission practice is usually to assess the facts relating
to the economic prong at the time that the complaint was filed.
See Certain Coaxial Cable Connectors and Components Thereof
and Products Containing Same, Inv. No. 337-TA-560, Comm’n
Op. at 39 n.17 (Apr. 14, 2010) (“We note that only activities that
occurred before the filing of a complaint with the Commission are
relevant to whether a domestic industry exists or is in the process
of being established under sections 337(a)(2)-(3).”) (citing
Bally/Midway Mfg. Co. v. U.S. Int’l Trade Comm’n, 714 F.2d
1117, 1121 (Fed. Cir. 1983)). In some cases, however, the
26

116a
and a technical prong (which requires that these
activities relate to the intellectual property being
protected). Certain Stringed Musical Instruments and
Components Thereof, Inv. No. 337-TA-586, Comm’n
Op. at 13 (May 16, 2008) (“Stringed Musical
Instruments”). The burden is on the complainant to
show by a preponderance of the evidence that the
domestic industry requirement is satisfied. Certain
Multimedia Display and Navigation Devices and
Systems, Components Thereof and Products
Containing Same, Inv. No. 337-TA-694, Comm’n Op.
at 5 (July 22, 2011) (“Navigation Devices”).
1. Economic Prong
With respect to the economic prong, and whether or
not section 337(a)(3)(A) or (B) is satisfied, the
Commission has held that “whether a complainant has
established that its investment and/or employment
activities are significant with respect to the articles
protected by the intellectual property right concerned
is not evaluated according to any rigid mathematical
formula.” Certain Printing and Imaging Devices and
Components Thereof, Inv. No. 337 TA 690, Comm’n Op.
at 27 (Feb. 17, 2011) (“Printing and Imaging Devices”)
(citing Certain Male Prophylactic Devices, Inv. No. 337
TA-546, Comm’n Op. at 39 (Aug. 1, 2007)). Rather, the
Commission examines “the facts in each investigation,
Commission will consider later developments in the alleged
industry, such as “when a significant and unusual development
occurred after the complaint has been filed.” See Certain Video
Game Systems and Controllers, Inv. No. 337-TA-743, Comm’n
Op., at 5-6 (Jan. 20, 2012) (“[I]n appropriate situations based on
the specific facts and circumstances of an investigation, the
Commission may consider activities and investments beyond the
filing of the complaint.”).

117a
the article of commerce, and the realities of the
marketplace.” Id. “The determination takes into
account the nature of the investment and/or
employment activities, ‘the industry in question, and
the complainant’s relative size.’” Id. (citing Stringed
Musical Instruments at 26).
With respect to section 337(a)(3)(C), whether an
investment in domestic industry is “substantial” is a
fact-dependent inquiry for which the complainant
bears the burden of proof. Stringed Musical
Instruments at 14. There is no minimum monetary
expenditure that a complainant must demonstrate to
qualify as a domestic industry under the “substantial
investment” requirement of this section. Id. at 25.
There is no need to define or quantify an industry in
absolute mathematical terms. Id. at 26. Rather, “the
requirement for showing the existence of a domestic
industry will depend on the industry in question, and
the complainant’s relative size.” Id. at 25-26.
2. Technical Prong
“With respect to section 337(a)(3)(A) and (B), the
technical prong is the requirement that the
investments in plant or equipment and employment in
labor or capital are actually related to ‘articles
protected by’ the intellectual property right which
forms the basis of the complaint.” Stringed Musical
Instruments at 13-14. “The test for satisfying the
‘technical prong’ of the industry requirement is
essentially same as that for infringement, i.e., a
comparison of domestic products to the asserted
claims.” Alloc, Inc. v. Int’l Trade Comm’n, 342 F.3d
1361, 1375 (Fed. Cir. 2003). “With respect to section
337(a)(3)(C), the technical prong is the requirement
that the activities of engineering, research and

118a
development, and licensing are actually related to the
asserted intellectual property right.” Stringed Musical
Instruments at 13.
IV. THE ASSERTED PATENTS
A. U.S. Patent No. 6,418,556
1. Overview of the ’556 Patent (JX-0001)
The ’556 Patent, entitled “Electronic television
program guide schedule system and method,” issued
on July 9, 2002. The application that would issue as
the ’556 Patent, Application No. 08/119,367, was filed
on September 9, 1993. The ’556 Patent is the parent of
dozens of issued patents and abandoned applications.
See RDX-0902 (presenting a “family tree” showing
numerous patents and applications that claim priority
to the ’556 Patent); see also U.S. Patent No. 9,319,735
at 1 (showing multiple patents that claim priority to
Application No. 08/119,367). The ’556 Patent discloses
a system for displaying an interactive program guide
(which may be abbreviated “IPG”) and viewed program
in an overlaid relationship.
Comcast has introduced the ’556 Patent as a
“Browse Mode” patent. See Tr. 37.
2. Claim Construction
a) Level of Ordinary Skill in the Art
Rovi’s entire argument is:
A person of ordinary skill in the art
relevant to the ’556 Patent would have a
bachelor’s degree in electrical or
computer engineering or computer
science, or equivalent experience, and
two to four years of experience relating
to electronic content delivery, such as

119a
experience with cable or satellite
television systems, set-top boxes,
multimedia systems, or electronic
program guides. CX-0004C (Delp WS) at
Q/A 42-44.
Rovi Br. at 262-63.
In a heading, Comcast reports that this issue is not
disputed. See Resps. Br. at 294. However, the
subsequent text argues:
One of ordinary skill in the art would
have had a bachelor’s degree in computer
science, computer engineering, electrical
engineering or the equivalent thereof,
and 3-5 years of experience in software
development in the 1990-93 time frame,
or equivalent industry experience. RX0005C (Grimes WS) at Q/A 11. Rovi’s
pre-hearing brief does not dispute this
recitation of the level of skill in the art.
The parties also agree that certain terms
recited in the Asserted Claims are not in
dispute. See Resps. PreHB at 700-01.
Id.
In view of the expert testimony and consensus
between the parties, the administrative law judge has
determined that a person having ordinary skill in the
relevant art would have a bachelor’s degree in
computer science, electrical engineering, computer
engineering, or a similar discipline and two to four
years of experience or familiarity with cable or
satellite television systems, set-top boxes, multimedia
systems, or electronic program guides.
b) Agreed Claim Terms

120a
The Parties have submitted agreed constructions for
multiple claim terms, as follows:
Claim Term

Agreed Construction

1. Partial overlaying
relationship

with covered-in-part or
covering-in-part
relationship with

2. Partial overlay on
covering-in-part over

covering-in-part over

3. User control means
for choosing . . . and
transmitting . . .

Function: The
function(s) include:
“Choosing user control
commands” and
“transmitting signals in
response thereto.”
Structure: “Remote
control(ler), remote
control(ler) receiver,
infrared (IR) receiver, or
keypad.”

4. “data processing
means” terms

The parties have agreed
that these terms are
subject to § 112(6), but
disagree on the
constructions.

5. “display generator”
terms

The parties have agreed
that these terms are
subject to § 112(6), but
disagree on the
constructions.

121a
See Joint Outline at 20. 27
c) Disputed Claim Terms
In footnote 40, with regard to the disputed claim
terms, Comcast states that “[t]hese terms, the relevant
claims, and the parties’ proposed constructions are
provided at Resp. PreHB at 701-66. See RDX-0912-14,
1405-07, 1409, 1420-21, 1433-35 (RX-0209).” Resps.
Br. at 294, n.40. Comcast’s many references to its prehearing brief and demonstrative exhibits (here, RDX0912-14, 1405-07, 1409, 1420-21, 1433-35 (RX-0209))
are improper incorporations by reference. See Pre-Hr’g
Tr. 14. It is unclear why Comcast would refer to a
demonstrative image rather than directly state and
argue a proposed claim construction in its brief.
(1) Preambles
Rovi explains that it “asserts Claims 7(3), 18(15)
and 40 against the Respondents’ accused products.
CX-0004C (Delp WS) at Q/A 6.” Rovi Br. at 261. Claims
3, 15, and 40 have preambles that recite an “electronic
programming guide.” The preamble of claim 3 further
includes “a television receiver having a plurality of
television channels.” These terms are addressed
separately.
(a) Electronic programming guide
The term “electronic programming guide” appears
in the asserted claims and only in the claims. The
parties have proposed the following:

27

EDIS Doc. ID No. 600641, filed Jan. 10, 2017.

122a
Rovi’s Preamble
Proposal

Comcast’s Preamble
Proposal

Claims 3 and 15:

“In view of the intrinsic
evidence, a POSITA at
This term is part of a
the time of would have
preamble, which is not
interpreted this term as
limiting. To the extent
Comcast proposes, i.e.,
this term appears in the
limited to a guide
body of the claim, no
implemented by
construction is
application software at a
necessary. Alternatively,
user site, which is the
“an electronic television
only possible
program schedule
architecture or structure
system.”
described in the ’556
Claim 40: This term is
patent.”
part of a preamble,
which is not limiting. No
construction is
necessary.
See Rovi Br. at 204-05; Resps. Br. at 295.
Rovi argues:
The term “electronic program guide”
appears in the preamble of each asserted
claim. Corrected Joint ID of Disputed
Claim Terms, Mot. Dkt. No. 1001-008 at
12 (Aug. 17, 2016) (“Joint ID”). First, the
parties dispute whether this term is
limiting.
It
is
not.
“Electronic
programming guide” does not appear in
the body of the claim; it only appears in
the preamble. It is not necessary to
“breath life” into any asserted claim.

123a
Rather, each of the limitations standing
alone defines the asserted claims, which
contain all elements necessary for the
invention. Accordingly, the term need
not be construed. TomTom, Inc. v.
Adolph, 790 F.3d 1315, 1324 (Fed. Cir.
2015).
If the term is limiting, the parties also
dispute the meaning. “Electronic
programming guide” is used in its plain
and ordinary sense as “an electronic
television program schedule system.”
Joint ID at 12. In other words, it is the
guide that appears on the screen with
the hardware and software that makes it
work (regardless of where the software
and hardware physically resides). Delp
Tr. 1012-15; CX-0004C (Delp WS) at Q/A
53. This is hardly in dispute. When
shown a screen shot of Comcast’s “miniGuide,” Comcast’s own expert, Dr.
Grimes, admitted that the screen shot
showed an “electronic program guide.”
Grimes Tr. 1047 (referencing RDX1444C and CDX-0607 at 2). As part of its
defense that the Comcast program guide
exists only as an application in the
“cloud,” Comcast asserts that the term in
the ’556 patent is limited to “a television
guide
system
implemented
by
application software at a user site”—
effectively excluding any program guide
with software functionality located on a
server. This makes no sense. Servers
containing program guide software

124a
always have been used to send program
guide listing information to a set-top
box—there is no other place for the guide
listings to originate. Thus, Comcast’s
proposed construction narrows the
definition of an “electronic programming
guide” in a manner inconsistent with the
plain and ordinary meaning without any
support from the intrinsic evidence. CX0004C (Delp WS) at Q/A 53-54.
Rovi Br. at 264-65.
Comcast argues:
In view of the intrinsic evidence, a
POSITA at the time of would have
interpreted this term as Comcast
proposes, i.e., limited to a guide
implemented by application software at
a user site, which is the only possible
architecture or structure described in the
’556 patent. RX-0848C at Q/A 37-43. No
distributed implementation for an EPG
is described in, nor would have been
enabled by, the ’556 patent, which
explains that:
Physically,
these
system
components can be located in a
user’s set-top cable converter box
or other signal reception or
processing device such as a
satellite receiver. Alternatively,
the component can be mounted in
a separate housing, or included as
part of a television receiver, VCR,

125a
personal computer, or multimedia
player.
JX-0001 at 6:30-38. Each of these
described locations is at the user site; no
description of an EPG located anywhere
remote from the user (for example in the
cloud) is provided. Id. at, e.g., FIGS. 1-2;
6:66-7:10; 7:17-47; 8:38-48. Other
statements in the specification, id. at
3:56-60, 6:57-60 (emphases added)
confirm the invention was an EPG
implemented at the user site:
It is another object of the present
invention to provide an electronic
guide system that provides a
reliable and efficient method of
updating
or
replacing
the
application
software
programs that implement the
[EPG] at the user site.
[A]ccording
to
the
present
invention, the transmitted data
stream may contain application
software for implementing the
[EPG] at the user site.
In contrast, a POSITA at the time of the
alleged invention would not have
understood how to implement the
claimed EPG remotely, i.e., without
application software running the EPG
functions located at the user site. RX0848C at Q/A 40. Rovi’s expert Dr. Delp
did not provide testimony explaining
how Rovi’s construction encompassing a

126a
distributed
implementation
was
supported, let alone enabled, by the ’556
patent.
Resps. Br. at 295-96 (emphasis in original); see also
RX-0840C at Q/A 39 (“for the ’556 Patent, there is
simply no support whatsoever, anywhere in the
specification or the file history of the ’556 Patent, for
an EPG being located anywhere other than at a user
site. 28 Such an implementation, circa 1992 or 1993,
would not have been so well known and easy to
implement that it need not even be mentioned in the
specification, let alone left unexplained.”).
Rovi replies:
Terms used in the preamble are limiting
only when necessary to give life,
meaning, and vitality to the claimed
invention—in this case, an electronic
program guide. See Catalina Mktg. Int’l,
Inc. v. Coolsavings.com, Inc., 289 F.3d
801, 808 (Fed. Cir. 2002). It is plain from
each asserted claim that the “electronic
program guide for use with a television
receiver” is defined by the detailed
limitations that follow the preamble, and
nothing more. There is no textual reason
for
supplementing
the
detailed
limitations
defining
the
claimed
electronic program guide with a
separate, independent definition of
“EPG” is an acronym for “electronic program guide.” Comcast
characterizes EPGs as “passive” guides, where viewers watched
rolling program listings on a dedicated channel. See Resps. Br. at
2.
28

127a
“electronic program guide” standing
alone. Respondents argue that the
preamble must be limiting because the
terms “serve as antecedent bases” for
phrases used later in the body of the
claims. Resps. Br. at 294-96. But this
rule only applies where a preamble term
acts as a “necessary component of the
claimed invention.” Eaton Corp. v.
Rockwell Int’l Corp., 323 F.3d 1332, 1339
(Fed. Cir. 2013). Here, an “electronic
program guide for use with a “television
receiver” is not a “necessary component”
of the invention, it is the claimed
invention. As such the preamble
functions as a statement of intended use,
which is not limiting even when the body
of the claim uses the preamble as an
antecedent basis. See Bristol-Myers
Squibb Co. v. Ben Venue Labs., Inc., 246
F.3d 1368, 1375-76 (Fed. Cir. 2001).
Respondents seek to supplement the
detailed limitations defining the claimed
electronic program guide with a
requirement that it also be located “at
the user site” by importing that
limitation from the specification.
According to Respondents, EPGs
operating at a user site differ from EPGs
maintaining some guide hardware and
software on servers. Resps. Br. at 291.
Even if the term requires separate
construction, a person skilled in the art
would understand the term to be the
guide on a screen and the hardware and

128a
software needed to make it work—
regardless of where the components are
located. Delp Tr. 1012-15; CX-0004C
(Delp WS) at Q/A 53.
Rovi Reply at 103-04.
Comcast replies:
Claim preambles are limiting if they
provide antecedent basis for terms in the
bodies of the claims. Eaton Corp. v.
Rockwell Int’l Corp., 323 F.3d 1332, 1339
(Fed. Cir. 2003). Rovi’s Pre-Hearing
Brief fails to argue that the preamble
was not limiting, and that argument is
waived. GR 7(c). Rovi’s argument that
specific terms within the preamble are
not limiting—see Compl. PoHB at 264-65
(2nd ¶ of “electronic programming
guide”); id. at 265-66 (2nd ¶ of “television
receiver”)—were not set forth in detail in
the Pre-Hearing Brief, and should also
be deemed waived.
Rovi incorrectly asserts that “[t]he term
‘electronic programming guide’ does not
appear in the body of the claim; and
therefore, does not need to be construed.”
Id. at 869. Rather, the recitations of
“electronic programming guide"' in the
preambles provide the only antecedent
bases for the recitation of “said
programming guide” in the bodies of
Claims 3 and 15. See Resp. PoHB at 294
& n. 41. Rovi is also not correct that the
preamble of claim 3, which recites “a
television receiver having a plurality of

129a
television channels,” is not a limitation.
Compl. PoHB at 265. As the file history
shows, the Asserted Claims were
specifically amended to add additional
functionality directed to TV tuning
functionality and to display on a TV, to
distinguish from prior art cited by the
Examiner involving computer displays.
See RX-0848C (Grimes RWS) at 82;
RDX-0926-39 (JX-0008). Rovi’s expert
Dr. Delp confirmed this at trial. Tr.
1007:4-1008:6; 1012:3-14.
Resps. Reply at 102-03 (footnote omitted).
The administrative law judge has determined that
the preamble term “electronic programming guide” is
limiting.
The preamble’s “electronic programming guide” is
the antecedent basis for the “said programming guide”
recited in claims 3 and 15. See Eaton Corp. v. Rockwell
Int’l Corp., 323 F.3d 1332, 1339 (Fed. Cir. 2003)
(“When limitations in the body of the claim rely upon
and derive antecedent basis from the preamble, then
the preamble may act as a necessary component of the
claimed invention.”). The body of claim 40 does not
explicitly refer to an “electronic programming guide.”
However, claims 3, 15, and 40 recite “guide channelcontrol and guide time-control commands” and “said
guide control commands,” which refer to the electronic
programming guide. The use of guide control
commands without a corresponding guide is illogical.
Thus, the preambles are necessary to bring
completeness and meaning to the claimed electronic
programming guides.

130a
The administrative law judge construes “electronic
programming guide” to mean “a guide implemented by
application software at a user site.”
Rovi’s construction simply substitutes “electronic
programming guide” with “an electronic television
program schedule system.” The term “electronic
television program schedule system” is not used in the
claims or specification. Rovi’s explanation of this new
term is that the EPG system “is the guide that appears
on the screen with the hardware and software that
makes it work (regardless of where the software and
hardware physically resides)[,]” and that “a person
skilled in the art would understand the term to be the
guide on a screen and the hardware and software
needed to make it work—regardless of where the
components are located” recasts the term in pure
functional language and does not have any support in
the specification. See Rovi Br. at 264; Rovi Reply at
104.
Comcast’s proposed construction, on the other hand,
has ample support throughout the specification and
does not broaden the patent after it has issued.
(b) a television receiver having a
plurality of television channels
The phrase “a television receiver having a plurality
of television channels” appears in the preamble of
claims 1-4, 11, 12, 20, and 41-43. The parties have
proposed the following:

131a
Rovi’s Preamble
Proposal

Comcast’s Preamble
Proposal

This phrase (as part of
the preamble) is not
limiting. Rather, it
simply describes the
environment in which
the limitations exist. . . .
Because claim 3’s
preamble is not limiting,
the phrase “a television
receiver having a
plurality of television
channels” does not need
to be construed.

Comcast does not clearly
set forth its proposal in
its post-hearing brief.

To the extent this
phrase is limiting, it still
need not be construed
because it is used in its
plain and ordinary
sense.
See Rovi Br. at 265; Resps. Br. at 296.
Rovi argues:
The phrase “a television receiver having
a plurality of television channels”
appears only in the preamble of
[asserted] claim 3. Joint ID at 13. This
phrase (as part of the preamble) is not
limiting. Rather, it simply describes the
environment in which the limitations

132a
exist. Rowe v. Dror, 112 F.3d 473, 478
(Fed. Cir. 1997). Because claim 3’s
preamble is not limiting, the phrase “a
television receiver having a plurality of
television channels” does not need to be
construed. TomTom, Inc., 790 F.3d at
1324.
To the extent this phrase is limiting, it
still need not be construed because it is
used in its plain and ordinary sense. A
television
receiver
with
multiple
television channels is something every
child knows. There is no technical
meaning. It is simply a device that
receives and displays video received over
the air, through a cable or by satellite.
CX-0004C (Delp WS) at Q/A 55. Such a
device has an ability to tune to different
television channels. Id. Comcast’s
proposed construction requires the
receipt of a particular type of television
signal—an NTSC television signal. But
nothing in the intrinsic evidence limits a
television receiver to the receipt of NTSC
television signals. Id. at Q/A 55-56. Thus,
Comcast’s request to limit the meaning
to a particular embodiment disclosed in
the specification should be rejected.
Superguide Corp. v. DirecTV Enters., 358
F.3d 870, 881 (Fed. Cir. 2004) (holding
that a “regularly received television
signal” means “video data that is
customarily received by the television
viewing public,” including “an analog
signal” and “a digital signal” even though

133a
the patent specification only disclosed
NTSC-type analog television signals).
Rovi Br. at 265-66.
Comcast argues:
Rovi has not proposed a competing
construction of this term. As discussed,
this term is part of the preamble of claim
3, and is limiting because it recites
essential structure for the claim and
provides antecedent bases for terms
recited in the claim body. Comcast’s
proposal is consistent with the plain
meaning of this term, and the
understanding of a POSITA at the time
of the invention. See RX-0848C (Grimes
RWS) at Q/A 34-36.
Resps. Br. at 296-97.
Rovi replies:
. . . Respondents do not dispute that the
patent uses “television receiver” in its
plain and ordinary sense. Resps. Br. at
296.
Rovi Reply at 104.
The administrative law judge has determined that
the phrase “a television receiver having a plurality of
television channels” does not need to be construed. The
phrase merely describes one aspect of the environment
that facilitates the electronic programming guide. It
does not recite essential structure, as Comcast argues,
nor is there any reason for adding the “NTSC”
limitation from the specification into the claims.
(2) Memory means for storing. . .

134a
The phrase “memory means for storing” is only used
in the claims. For reference, the full text for the
“memory means for storing . . .” phrases follows:
• Claim 3: “memory means for storing television
program schedule information for a set of
television programs scheduled to appear on said
plurality of television channels[.]” JX-0001 at
24:17-19;
• Claim 15: “memory means for storing television
program schedule information[.]” JX-0001 at
28:8-9; and
• Claim 40: “memory means for storing television
program schedule information[.]” JX-0001 at
36:37-38.
The parties
constructions:

have

Rovi’s Proposed
Construction
Rovi contends that the
“memory means” is not
subject to 35 U.S.C. §
112, para. 6.

proposed

the

following

Comcast’s Proposed
Construction
Rovi contends that the
“memory means” is
subject to 35 U.S.C. §
112, para. 6.
Function: “storing
program schedule
information”
Structure: “(DRAM)
and then-existing
equivalents”

See Rovi Br. at 266; Resps. Br. at 309-10.
Rovi’s argument for this phrase follows:

135a
The asserted claims all recite a “memory
means for storing television program
schedule information . . . .” Joint ID at
21. Rovi contends that the “memory
means” is not subject to 35 U.S.C. §112,
para. 6. CX-0004C (Delp WS) at Q/A 7879. It is well settled that the presence of
the word “means” does not automatically
make the words that follow subject to §
112, para. 6. Sage Prods. v. Devon Indus.,
126 F.3d 1420, 1427-28 (Fed. Cir. 1997)
(finding that, where a claim limitation
uses the term “means” and “recites a
function, but then goes on to elaborate
sufficient structure, material, or acts
within the claim itself to perform
entirely the recited function, the claim is
not in means-plus-function format”);
Rodime PLC v. Seagate Tech., Inc., 174
F.3d 1294, 1302 (Fed. Cir. 1999) (holding
that a district court erred in construing a
“positioning means for moving said
transducer means” as a “means-plusfunction” limitation). Further, the
function of the “memory means” recited
in the claim itself—“storing television
program
schedule
information”—
contains sufficient “structure” to perform
the recited function, making § 112(6)
inapplicable. TecSec, Inc. v. Int’l
Business Machines Corp., 731 F.3d 1336,
1347-48, (Fed. Cir. 2013) (ruling that
“system memory means” does not invoke
§ 112(6) because it “is sufficient
structure to perform the ‘storing data’

136a
function. To those skilled in the art, a
system memory is a specific structure
that stores data.”).
Even if “memory means” is subject to §
112, para. 6, the corresponding structure
in the specification is a “memory” and
equivalents thereof. Joint ID at 21. At
the time of the invention, memory was a
particular device with a well understood
meaning. CX-0004C (Delp WS) at Q/A
78-79, 80. The specification discloses
three memories that store program
schedule information: ROM (17), DRAM
(18) and non-volatile memory EEPROM
(20). CX-1903C (Delp RWS) at Q/A 32-33.
Rovi Br. at 266-67; see also Joint Identification of
Disputed Claim Terms, Ex. A at 21 (proposing a
construction of “memory”).
Comcast argues that the terms are subject to § 112,
¶ 6:
. . . The term “a memory”—without
reciting any such “means” and without
any reciting any associated function—
appears in recited by other claims of the
’556 patent, such as the since-dropped
Claim 12. In contrast, these disputed
terms instead recite a “memory means”
for performing the particular function of
“storing program schedule information,”
which gives rise to the presumption that
these terms are subject to 112(6). Id. at
88. The Doctrine of Claim Differentiation
confirms that the “memory means for
storing program schedule information”

137a
recited in the Asserted Claims has a
different scope from “a memory” recited
in Claim 12, i.e., “the common sense
notion that different words or phrases
used in separate claims are presumed to
indicate that the claims have different
meanings and scope.” Karlin Tech. Inc. v.
Surgical Dynamics, Inc., 177 F.3d 968,
971-72. Thus, it is presumed (and Rovi
has not rebutted the presumption) that
these terms cover the means for storing
program schedule information disclosed
in the ’556 patent (DRAM) and thenexisting equivalents. See RX-0848C at
Q/A 88.
...
As
the
’556
patent
explains,
“microcontroller 16 uses the received
program schedule information to build a
database by storing the data in
appropriately organized records in
dynamic
random
access
memory
(DRAM) 18.” JX-0001 at 7:3-6; see also
8:3-9. Other types of memory discussed
in the ’556 patent had different uses,
such as storing the bootstrap operating
software. See id at 6:67-7:3. . . .
Resps. Br. at 309-311 (emphasis in original;
argumentative
subheadings
omitted;
footnote
omitted). 29 Comcast identifies DRAM (18) as the
Comcast cites to RX-0848C (Grimes RWS) at Q/A 88, which
mistakenly cites to RDX-1521 rather than RDX-1421. Comcast’s
reference to RDX-1521 (and RDX-1421) is an improper
incorporation by reference. See Pre-Hr’g Tr. 14. It is unclear why
29

138a
proper structure. See Resps. Br. at 311; JX-0001 at 8:417.
The administrative law judge has determined that
the “memory means for storing . . .” clauses are meansplus-function phrases subject to 35 U.S.C. § 112, ¶ 6.
See Williamson v. Citrix Online, LLC, 792 F.3d 1339,
1349 (Fed. Cir. 2015) (en banc) (“The converse
presumption remains unaffected: ‘use of the word
“means” creates a presumption that § 112, ¶ 6
applies.’” (quoting Personalized Media Commc’ns, LLC
v. Int’l Trade Comm’n, 161 F.3d 696, 703 (Fed. Cir.
1998)). Rovi has not overcome the presumption that
the patentee’s use of the word “means” did not invoke
§ 112, ¶ 6, particularly where the patentee used the
lone word “memory” in claim 12. See id.
The administrative law judge has determined that
the function contemplated by the “memory means for
storing . . .” phrases is to store programming
information. Additionally, the administrative law
judge has determined that the corresponding structure
for this function is: ROM (17), DRAM (18) and nonvolatile memory EEPROM (20). See CX-1903C (Delp
RWS) at Q/A 32-33.
(3) Program schedule information is
stored in said memory means. . .
The parties brief this phrase along with the
“memory means for storing” phrase above. See Joint
Outline at 20-21. Accordingly, the administrative law

Comcast would refer to an expert’s witness statement that in turn
cites a demonstrative image rather than directly state and argue
a proposed claim construction in its brief.

139a
judge has determined it is not necessary to construe
this phrase separately.
(4) Display generator
displaying. . .

.

.

.

for

The phrases “video display generator . . . for
displaying . . .” and “program schedule display
generator . . . for displaying . . .” are only used in the
claims. For reference, the full text for the phrases
follows:
• Claim 3: “a video display generator adapted to
receive video control commands from said data
processing means and program schedule
information from said memory means for
displaying interactively-selected successive
portions of said schedule information for a set of
channels, including ones different from a
currently tuned channel, in overlaying
relationship with another display signal
currently appearing on said tuned channel in at
least one mode of operation of said
programming guide[.]” JX-0001 at 24:26-34.
• Claim 15: “a program schedule display
generator coupled to said data processing
means and said memory means for displaying,
in a partial overlay on said display signal, userselected portions of said schedule information
comprising listing information for at least one
program different from said display signal, each
said portion of said schedule information being
interactively selected by a user and
consecutively displayed in response to
consecutive user-activated ones of said guide
control commands for successively navigating
through listing information for sequential time

140a
periods or programs for which program
schedule information is stored in said memory
means[.]” JX-0001 at 28:16-28.
• Claim 40: “a program schedule display
generator coupled to said data processing
means and said memory means for displaying,
simultaneously with said display signal, userselected portions of said schedule information
comprising listing information for at least one
program different from said display signal, each
said portion of said schedule information being
interactively selected by a user and
consecutively displayed in response to
consecutive user-activated ones of said guide
control commands for successively navigating
through listing information for sequential time
periods or programs for which schedule
information is stored in said memory means,
said data processing means being responsive to
said television tuning commands for allowing a
user to select any one of said television
programs for which listing information is
displayed.” JX-0001 at 36:45-60.
(a) Proposed Functions
Rovi identifies the following function for the three
phrases:
receiving video control commands from
said data processing means and program
schedule information from said memory
means for displaying interactivelyselected successive portions of said
schedule information for a currently
tuned
channel
in
overlaying
relationship with another display signal

141a
currently appearing on said channel in
at least one mode of operation of said
programming guide.
Rovi Br. at 267 (emphasis added on text that differs
from the claim language; Rovi also omits the word
“tuned” from “said tuned channel”).
Comcast does not directly propose a functionality in
its post-hearing brief. Rather, Comcast argues what
the structure must be able to do:
A 112(6) equivalent structure must
provide the recited functionality: other
than the Video Overlay Device 25
disclosed in Figs. 1-2 and accompanying
text, the specification of the ’556 patent
describes no structure capable of
providing
the
overlay
or
simultaneous display functionality.
Id.; see Tr. 1104:2-1105:16.
See Resps. Br. at 300.
(b) Proposed Structures
Rovi identifies the corresponding structure as “a
video graphics card.” See Rovi Br. at 267 (“The
structure corresponding to these functions is a video
graphics card and equivalents thereof.”).
Comcast identifies the corresponding structure as:
The structure corresponding to these
means is the Video Display Generator 23
(“VDG”), which, as shown in Fig. 1 and
detailed further in Fig. 2, includes 2
substructures: RGB Video Generator 24
and a Video Overlay Generator 25. Id. at

142a
Q/A 36; RDX-0908-09 (JX-0001 Figs. 12). JX-0001 at 8:12-17, 20-29[.]
See Resps. Br. at 299-300.
Rovi argues:
The asserted claims recite a “video
display generator” in various formats.
Claim 7(3) recites a “video display
generator adapted to receive video
control commands . . . .” Claim 18(15)
recites “a program schedule display
generator . . . for displaying, in a partial
overlay on said display signal, userselected portions of said schedule
information . . . .” Finally, claim 40
recites “a program schedule display
generator . . . for displaying,
simultaneously with said display signal,
user-selected portions of said schedule
information . . . .” The parties agree that
these limitations are subject to 35 U.S.C.
§ 112, para. 6. Joint ID at 23. In the
asserted claims, the function of this
clause is:
receiving video control commands
from said data processing means
and
program
schedule
information from said memory
means
for
displaying
interactively-selected successive
portions
of
said
schedule
information for a currently tuned
channel in overlaying relationship
with another display signal
currently appearing on said

143a
channel in at least one mode of
operation of said programming
guide.
Id. In claim 40, the function requires a
simultaneous display relationship rather
than an overlaying relationship. The
structure
corresponding
to
these
functions is a video graphics card and
equivalents thereof. Id:, JX-0001 (’556
Patent) at col. 8, lns. 3-19, col. 8, lns. 4142; CX-0004C (Delp WS) at Q/A 72-74.
The specification also discloses a “video
display generator” in figure 1 that
performs these functions. . . .
Rovi Br. at 267-69.
Comcast argues:
. . . The structure corresponding to these
means is the Video Display Generator 23
(“VDG”), which, as shown in Fig. 1 and
detailed further in Fig. 2, includes 2
substructures: RGB Video Generator 24
and a Video Overlay Generator 25. Id. at
Q/A 36; RDX-0908-09 (JX-0001 Figs. 12). JX-0001 at 8:12-17, 20-29:
The VDG includes a standard
RGB video generator 24, which
takes
the
digital
program
schedule information sent by the
microcontroller 16 and converts it
to an RGB format in accordance
with the bit map for the particular
screen
display
then
being
presented to the user on the [TV]

144a
receiver 27. . . . The VDG also
includes a Video Overlay Device
25, which accepts the RGB video
input, as well as an input from
conventional television tuner 28,
such as a conventional tuner
manufactured
by
General
Instrument, which supplies a
program signal in standard NTSC
video format. The overlay device
25 converts and combines the
RGB signal with the signal from
the tuner 28, and produces a
composite NTSC output signal
containing both the program
signal and the program schedule
information, as shown in FIG. 2.
The ’556 patent does not describe any
other structure capable of performing all
of the recited functions of the display
generator. RX-0005C at Q/A 36-37. A
112(6) equivalent structure must provide
the recited functionality: other than the
Video Overlay Device 25 disclosed in
Figs. 1-2 and accompanying text, the
specification of the ’556 patent describes
no structure capable of providing the
overlay
or
simultaneous
display
functionality. Id.; see Tr. 1104:2-1105:16.
The ’556 patent refers to “a commercially
available VGA-type graphics card, such
as a Rocgen card manufactured by
Roctec” (JX-0001 at 8:10-12) as an
example of structure corresponding to
the recited display generator. But a

145a
generic “video graphics card” known to a
POSITA at that time, operating on a
standard PC, would not have been able
to accept a NTSC input, mix a NTSC
input with an RGB video input, or
generate a composite NTSC output. RX0005C at Q/A 37-38. Thus, Rovi’s
proposal of “video graphics card” cannot
be the corresponding structure (or a
known equivalent) for the display
generator element because such a
generic “video graphics card,” by itself,
would not have been able to generate the
required overlay of computer graphics on
a live TV signal. Id., Tr. 1104:14-1105:16.
At most, a video card would have
corresponded only to the RGB video
generator substructure (element 24) of
the VDG, not the entire display
generator itself. Id. . . .
Resps. Br. at 209-302 (footnote omitted).
Rovi replies:
. . . Respondents further argue that the
specification structure corresponding to
the “display generator” cannot include
the “video graphics card” described in the
specification. JX-0001 (’556 Patent) at
col. 8, lns. 38-42. But Respondents’
argument is premised on two incorrect
assumptions.
First,
Respondents
wrongly assume that the corresponding
structure must include inputs and
outputs described in the specification—
namely “RGB video” and “VGA-type”

146a
inputs, and an “NTSC signal” output.
But none of these inputs and outputs are
part of the recited function. Under §
112(6), functional language must be
construed exactly as recited in the claim.
. . . Second, Respondents argue that a
“video graphics card” cannot be the
corresponding
structure
because,
according to Dr. Grimes, such cards were
incapable of mixing computer graphics
with video. Grimes Tr. 1084. But, as
demonstrated by Dr. Delp, such video
graphics cards capable of mixing were
not only known in the art, they were
widely advertised. . . .
Finally,
Respondents
ignore
the
interchangeability test for equivalents.
See IMS Tech., Inc. v. Haas Automation,
Inc., 206 F.3d 1422, 1436 (Fed. Cir.
2000). Applying this test, Dr. Delp
confirmed that, at the time of the
invention, a video display generator and
video
graphics
card
were
interchangeable. CX-1903C (Delp RWS)
at Q/A 43.
Rovi Reply at 105-06 (citations omitted).
(c) Construction: Function
The administrative law judge construes the
function expressed in the phrases in accordance with
their plain and ordinary meaning, which is the claim
language itself. Accordingly, the administrative law
judge construes the phrases, as follows:

147a
Claim Language

Function

Claim 3:
“a video display
generator adapted to
receive video control
commands from said
data processing means
and program schedule
information from said
memory means for
displaying interactivelyselected successive
portions of said schedule
information for a set of
channels, including ones
different from a
currently tuned channel,
in overlaying
relationship with
another display signal
currently appearing on
said tuned channel in at
least one mode of
operation of said
programming guide[.]”
JX-0001 at 24:26-34.

displaying interactivelyselected successive
portions of said schedule
information for a set of
channels, including ones
different from a
currently tuned channel,
in overlaying
relationship with
another display signal
currently appearing on
said tuned channel in at
least one mode of
operation of said
programming guide[.]

Claim Language

Function

Claim 15:
“a program schedule
display generator
coupled to said data
processing means and

displaying, in a partial
overlay on said display
signal, user-selected
portions of said schedule

148a
said memory means for
displaying, in a partial
overlay on said display
signal, user-selected
portions of said schedule
information comprising
listing information for at
least one program
different from said
display signal, each said
portion of said schedule
information being
interactively selected by
a user and consecutively
displayed in response to
consecutive useractivated ones of said
guide control commands
for successively
navigating through
listing information for
sequential time periods
or programs for which
program schedule
information is stored in
said memory means[.]”
JX-0001 at 28:16-28.

information comprising
listing information for at
least one program
different from said
display signal, each said
portion of said schedule
information being
interactively selected by
a user and consecutively
displayed in response to
consecutive useractivated ones of said
guide control commands
for successively
navigating through
listing information for
sequential time periods
or programs for which
program schedule
information is stored in
said memory means[.]

Claim Language

Function

Claim 40:
“a program schedule
display generator
coupled to said data

displaying,
simultaneously with
said display signal, userselected portions of said

149a
processing means and
said memory means for
displaying,
simultaneously with
said display signal, userselected portions of said
schedule information
comprising listing
information for at least
one program different
from said display signal,
each said portion of said
schedule information
being interactively
selected by a user and
consecutively displayed
in response to
consecutive useractivated ones of said
guide control commands
for successively
navigating through
listing information for
sequential time periods
or programs for which
schedule information is
stored in said memory
means, said data
processing means being
responsive to said
television tuning
commands for allowing a
user to select any one of
said television programs
for which listing

schedule information
comprising listing
information for at least
one program different
from said display signal,
each said portion of said
schedule information
being interactively
selected by a user and
consecutively displayed
in response to
consecutive useractivated ones of said
guide control commands
for successively
navigating through
listing information for
sequential time periods
or programs for which
schedule information is
stored in said memory
means, said data
processing means being
responsive to said
television tuning
commands for allowing a
user to select any one of
said television programs
for which listing
information is
displayed[.]

150a
information is
displayed.” JX-0001 at
36:45-60.
Rovi has not sufficiently explained why it is prudent to
substitute “a currently tuned channel” for the actual
language that appears in claim 3: “a set of channels,
including ones different from a currently tuned
channel[.]” The same applies for claims 15 and 40.
Further, Rovi’s construction simply lifts, verbatim,
language from claim 2. Rovi’s proposed construction,
which is offered without an acknowledgement that
there are no substantive differences between its
claims, conflicts with claim differentiation’s general
tenets. See Starhome GmbH v. AT & T Mobility LLC,
743 F.3d 849, 857-58 (Fed. Cir. 2014) (“The doctrine of
claim differentiation is ‘based on the common sense
notion that different words or phrases used in separate
claims are presumed to indicate that the claims have
different meanings and scope.’”); see also Wi-LAN
USA, Inc. v. Apple Inc., 830 F.3d 1374, 1391 (Fed. Cir.
2016) (“The doctrine of claim differentiation provides
a presumption that differently worded claims cover
different claim scope. This doctrine finds root in the
legal canon of construction against superfluity. A
construction that would cause two differently worded
claims to cover exactly the same claim scope would
render one of the claims superfluous, so we apply a
presumption against such constructions.”).
(d) Construction: Structure
The administrative law judge has identified the
video display generator (VDG) 23, which includes RGB
video generator 24 and Video Overlay Device 25, as

151a
corresponding to the claimed functions. JX-0001 at
8:6-36 provides:
in conjunction with other downloaded
data types such as stored bit maps for the
screen configuration and the graphic
symbol or logo displays stored in nonvolatile memory 20 or, alternatively, in
DRAM 18, supplies it to a video display
generator (VDG) 23, which in the present
embodiment may be a commercially
available VGA-type graphics card, such
as a Rocgen card manufactured by
Roctec. The VDG includes a standard
RGB video generator 24, which takes the
digital program schedule information
sent by the microcontroller 16 and
converts it to an RGB format in
accordance with the bit map for the
particular screen display then being
presented to the user on the television
receiver 27. The configuration of each
screen is shown and discussed in greater
detail in the System Operation section
below. [JX-0001 at 8:6-19.]
The VDG also includes a Video Overlay
Device 25, which accepts the RGB video
input, as well as an input from
conventional television tuner 28, such as
a conventional tuner manufactured by
General Instrument, which supplies a
program signal in standard NTSC video
format. The 25 overlay device 25
converts and combines the RGB signal
with the signal from the tuner 28, and
produces a composite NTSC output

152a
signal containing both the program
signal and the program schedule
information, as shown in FIG. 2. This
composite video signal is supplied to a
modulator 26, shown 30 in FIG. 1, which
can be a modulator such as available
from Radio Shack, and then to the
television receiver 27, which the user
keeps tuned to the modulated channel,
for example, channel 3 or 4. The
composite video signal can also be
supplied directly to the television
receiver 27 or other receiving device from
the VDG through a video port 25A on the
VDG. [JX-0001 at 8:20-36.]
See also EON Corp. IP Holdings LLC v. AT & T
Mobility LLC, 785 F.3d 616, 623 (Fed. Cir. 2015) (“The
disclosure of structure under § 112 ¶ 6 serves the
‘purpose of limiting the scope of the claim to the
particular structure disclosed, together with
equivalents.’”); MobileMedia Ideas LLC v. Apple Inc.,
780 F.3d 1159, 1170 (Fed. Cir. 2015) (“The scope of a
means-plus-function limitation is outlined not by what
the specification and prosecution history do not say,
but rather by what they do say.”). The remainder of
the parties’ arguments pertains to infringement,
which is addressed separately.
(5) “Data
processing
phrases

means”

The “data processing means” phrases are only used
in the claims. The full text for the “data processing”
phrases in claim 3 follows:

153a
data processing means for receiving
said signals in response to said user
control commands; and
. . . [the display generator phrase is
omitted] . . .
said
data
processing
means
controlling said video display generator
with said video control commands in
response to said user control commands
to display each said portion of program
schedule information for any chosen one
of said television programs for a
predetermined display period in partial
overlaying relationship with another
display signal currently being received
on said television receiver;
each said portion being displayed in
response to corresponding consecutive
ones of said guide control commands for
successively navigating through listing
information for sequential time periods
or programs for which program schedule
information is stored in said memory
means, said data processing means
being responsive to said television
tuning commands for allowing a user to
select any one of said television
programs for which listing information is
displayed in said partially overlayed
portion of said schedule information.
JX-0001 at 24:24-52 (emphasis added).
The full text for the “data processing” phrases in
claim 15 follows:

154a
data processing means for receiving
said signals in response to said user
control commands; and
. . . [the display generator phrase is
omitted] . . .
said
data
processing
means
controlling said program schedule
display generator to also selectively
display reminder selection messages in
at least one mode of operation of said
programming guide, for allowing said
user to choose selection commands in
response to said reminder selection
messages for selecting a reminder
associated with a chosen future program,
each said selected reminder message
also to be displayed on said display at a
predetermined time prior to the time of
occurrence of each chosen future one of
said television programs, said reminder
message being displayed in overlaying
relationship with another display signal
being displayed at said time said
reminder message is displayed.
JX-0001 at 28:14-43 (emphasis added).
The full text for the “data processing” phrases in
claim 40 follows:
data processing means for receiving
said signals in response to said user
control commands; and
a program schedule display generator
coupled to said data processing means
and said memory means for displaying,

155a
simultaneously with said display signal,
user-selected portions of said schedule
information
comprising
listing
information for at least one program
different from said display signal, each
said portion of said schedule information
being interactively selected by a user and
consecutively displayed in response to
consecutive user-activated ones of said
guide control commands for successively
navigating through listing information
for sequential time periods or programs
for which schedule information is stored
in said memory means, said data
processing means being responsive to
said television tuning commands for
allowing a user to select any one of said
television programs for which listing
information is displayed.
JX-0001 at 36:43-60 (emphasis added).
(a) Proposed Functions
Rovi’s argument for three “data processing means”
phrases follows:
Asserted claims 7(3), 18(15) and 40 of the
’556 Patent all recite one or two “data
processing means” limitations, which the
parties agree are subject to construction
under 35 U.S.C. § 112, para. 6. Joint ID
at 3-4, 10-11; JX-0001 (’556 Patent) at
col. 24, lns. 24-25, 36-52, col. 36, lns. 4344, 57-60.
While the recited functions of the “data
processing means” have slight variation

156a
in wording, the means perform the
following functions in each claim:
• receiving signals in response to user control
commands;
• responding to the user control commands; and
• controlling a video display generator
See Rovi Br. at 269-70.
For the same three “data processing means”
phrases, Comcast argues:
The parties agree these are means-plusfunction terms subject to 35 U.S.C. §
112(6), but disagree on the constructions.
See RDX-01433-35 (RX-0209). Comcast
asserts that each of these terms is
indefinite
because
the
written
description fails to provide the requisite
structure; the only disclosed structure is
a general purpose processor, and no code
or algorithms are disclosed. . . .
See Resps. Br. at 297. Comcast has not presented, in
its post-hearing brief, the claim construction it would
have the administrative law judge consider.
(b) Proposed Structures
For the three “data processing means” phrases, Rovi
argues:
The structure corresponding to these
functions is disclosed in the specification
as a microcontroller 16 programmed to
perform the algorithms disclosed in JX0001 (’556 Patent) at Fig. 36A, and at col.
6, ln. 66 - col. 7, ln. 22, col. 7, lns. 34-46,

157a
col. 8, lns. 3-37, col. 8, lns. 49-67, col. 10,
lns. 23-24, col. 10, ln. 66 - col. 11, ln. 15,
and col. 12, ln. 49 - col. 13, ln. 4. CX0004C (Delp WS) at Q/A 48. Equivalent
structures could include essentially any
computer,
data
processor,
microprocessor, or state machine that
can receive a command signal and
respond. CX-1903C (Delp RWS) at Q/A
53. This is undisputed. . . .
See Rovi Br. at 269-272.
For the same three “data processing means”
phrases, Comcast argues:
. . . The only disclosed structure capable
of performing the recited functions is
“Microcontroller 16,” a general-purpose
processor, such as a M68000EC and any
then-existing
known
equivalent
structures. JX-0001 at FIG. 1; RX-0005C
at Q/A 47 & 57; RX-0848C at Q/A 93-94.
...
See Resps. Br. at 297-99 (emphasis in original).
(c) Construction: Function
The administrative law judge finds that the
function recited by the data processing means-plusfunction phrases is:
• receiving signals in response to user control
commands;
• responding to the user control commands; and
• controlling a video display generator.

158a
The above functions comport with the claim
language, and neither expand nor narrow the claim
language. Lockheed Martin Corp. v. Space Sys./Loral,
Inc., 324 F.3d 1308, 1319 (Fed. Cir. 2003) (A “claimed
function may not be improperly narrowed or limited
beyond the scope of the claim language. . . . Conversely,
neither may the function be improperly broadened by
ignoring the clear limitations contained in the claim
language. The function of a means-plus-function claim
must be construed to include the limitations contained
in the claim language.” Id. (citation omitted); see also
Wenger Mfg., Inc. v. Coating Mach. Sys., Inc., 239 F.3d
1225, 1233 (Fed. Cir. 2001) (a “court may not import
functional limitations that are not recited in the claim,
or structural limitations from the written description
that are unnecessary to perform the claimed
function.”).
(d) Construction: Structure
The administrative law judge has identified “a
microcontroller” as the structure that corresponds to
the claimed functions. Compare Rovi Br. at 269 30 with
Resps. Br. at 297. 31 The remainder of the parties’
Rovi argues: “The structure corresponding to these functions is
disclosed in the specification as a microcontroller 16
programmed to perform the algorithms disclosed in JX-0001 (’556
Patent) at Fig. 36A, and at col. 6, ln. 66 - col. 7, ln. 22, col. 7, lns.
34-46, col. 8, lns. 3-37, col. 8, lns. 49-67, col. 10, lns. 23-24, col. 10,
ln. 66 - col. 11, ln. 15, and col. 12, ln. 49 - col. 13, ln. 4. CX-0004C
(Delp WS) at Q/A 48. Equivalent structures could include
essentially any computer, data processor, microprocessor, or state
machine that can receive a command signal and respond. CX1903C (Delp RWS) at Q/A 53. This is undisputed.” Rovi Br. at 269
(emphasis added).
30

Comcast argues: “The only disclosed structure capable of
performing the recited functions is ‘Microcontroller 16,’ a general-

31

159a
disagreement pertains to infringement and invalidity,
and is not discussed here.
(6) One mode of operation of said
programming guide
The phrase “one mode of operation of said
programming guide” appears only in the claims (i.e.,
claims 1-5, 15, 17, 20, 23, 25, and 39); the phrase “mode
of operation” appears throughout the claims and
specification. The parties have proposed the following
constructions:
Rovi’s Proposed
Construction
No construction is
necessary.
Alternatively, one
configuration of said
programming guide.

Comcast’s Proposed
Construction
“The parties dispute
whether this term need
be construed as well as
the proper construction
of this term. RDX-1409
(RX-0209). In view of the
intrinsic evidence, a
POSITA would have
understood that the
recited “one mode” of
operation refers to
“Browse Mode,” which is
the only “mode”
described in the ’556
patent that contains a
simultaneous display
or overlay of program
schedule information

purpose processor, such as a M68000EC and any then-existing
known equivalent structures.” Resps. Br. at 297 (bold and italics
added).

160a
with another video
signal with the
recited navigation
and tuning
functions.”
See Rovi Br. at 273-74; Resps. Br. at 302 (emphasis
added). 32
Rovi argues:
No construction is necessary of the claim
phrase “one mode of operation of said
programming guide” as it carries its
plain and ordinary meaning in claim 3 as
“one configuration of said programming
guide.” Joint ID at 14; CX-0004C (Delp
WS) at Q/A 57. Comcast does not dispute
the plain and ordinary meaning of “one
mode of operation of said programming
guide,” but incorrectly contends the
inventors disavowed part of the scope of
the phrase during prosecution. CX0004C (Delp WS) at Q/A 58. Respondents
contend the “one mode of operation of
said programming guide” is limited to a
“browse mode” of operation and then
construe that phrase to mean “a
selectable display format for viewing

Comcast’s pre-hearing brief argued that the construction
should be, “[a] selectable display format for viewing program
schedule information for only one program listing.” See Comcast
Pre-Hr’g Br. at 736
32

161a
program schedule information for only
one program listing.” Joint ID at 14.
The inventors did not disavow the plain
and ordinary scope of “one mode of
operation of said programming guide”
such that it narrowly covers only a
“browse mode” of operation. During
prosecution, the Examiner rejected the
claims based on prior art showing a
“static guide” in an overlay relationship
with a television program signal. The
inventors responded by pointing out that
the invention did not merely display
program guide information in an overlay
relationship with a television program,
but instead displayed a television signal
in partial overlay with a guide having
interactive functionality—including the
ability to scroll through different time
periods and channels, tune to different
programs from the guide, set reminders,
etc. JX-0008 (’556 Patent File History) at
13-14, 443-47, 688-90, 820-22, 939, 102937, 1130-34, 1184-89. Although the
inventors used the short-hand term
“browse” to describe these features, they
did not limit the invention to a “browse”
mode of operation. They simply pointed
out that the claims did not cover static
guides
overlaid
with
program
information—something that the claim
language regarding the video display
generator means also makes clear.
Even if the Commission finds disavowal
such that “one mode of operation of said

162a
programming guide” is limited to
“browse mode,” further limiting “browse
mode” to the display of only one program
listing is unwarranted. CX-0004C (Delp
WS) at Q/A 59-65. In contravention of
settled rules, this would limit the term to
the figures disclosed in the specification.
Hill-Rom Servs. v. Stryker Corp., 755
F.3d 1367, 1371 (Fed. Cir. 2014).
Rovi Br. at 273-74. Rovi then argues that the claims
should not be limited to “browse mode” because the
patent does not define that term, claim 19 uses the
term flexibly, and that “browse mode,” at the time of
the invention, was understood to mean a mode of
operation “that displayed one or more programs on one
or more channels across at least one or more time
slots.” Id.
Comcast argues:
The parties dispute whether this term
need be construed as well as the proper
construction of this term. RDX-1409 (RX0209). In view of the intrinsic evidence, a
POSITA would have understood that the
recited “one mode” of operation refers to
“Browse Mode,” which is the only “mode”
described in the ’556 patent that
contains a simultaneous display or
overlay of program schedule information
with another video signal with the
recited navigation and tuning functions.
RX-0848C at Q/A 44 & 70; see JX-0001 at
11:20-13:14. Each Asserted Claim is
limited to this Browse Mode, based on
the ’556 patent specification and

163a
repeated disclaimers in the file history.
Id. All the ’556 patent describes
regarding this Browse Mode is an
interactively navigable single program
listing partially overlaying another video
signal; the program listing can be
changed in time and/or channel, but
nothing beyond a single program listing
is ever displayed. RX-0848C at Q/A 45;
see RDX-0944 & 1410-15 (JX-0001).
...
The Applicant characterized Browse
Mode as being the principal invention of
the Asserted Claims on multiple
occasions. RX-0848C at Q/A 55. In a
Response to the March 6, 1996 Office
Action, the Applicant amended the
pending claims in view of the Examiner’s
citation of overlaying display of
information from multiple sources, as
shown by applications on the Windows
operating system. Id. This amendment
was in response to the Examiner’s
remark, at the interview discussing the
rejection,
that
without
such
amendments, the pending claims were
obvious “in view of computer-based
application programs (such as those that
operate in the Windows operating
system), in combination with the other
prior art of record.” Id. In that same
Response, the Applicant explained that
the alleged invention of the ’556 patent
recited in the pending claims was the “socalled ‘Browse’ mode of operation”

164a
permitting a user to browse listings on
other channels and/or other times while
continuing to view the current program.
Id.; see RDX-1416 (JX-0008).
In the Response filed on May 20, 1997,
the Applicant further reiterated its
position, stating that the Examiner
“correctly point[ed] out” that the
combination of recited prior art
references disclosed displaying program
schedule information in a partial
overlaying display format. As shown in
RDX-1417
(JX-0008),
Applicant
reiterated that “the principal invention
of the claims remaining in the present
application” was directed to “the socalled ‘Browse’ mode of operation” that
enabled interactive navigating through
listing information without disturbing
the content of the program being viewed.
The Applicant further admitted that the
prior art cited by the Examiner taught
providing schedule information in an
overlay with the currently appearing
program or display signal, thus
conceding that the only difference
between the prior art and what was
allegedly invented was the added
interactive navigation via the overlaying
program schedule information. JX0008.1029-31; RX-0848C at Q/A 58.
...
“Browse Mode” is the only “mode”
described in the ’556 Patent providing a

165a
simultaneous display or partial overlay
of program schedule information with
another video signal that also permits
the recited interactive navigation and
tuning functionality described in the ’556
patent and recited by the Asserted
Claims. Id., see JX-001 at 11:20-13:14;
RDX-0944 (JX-0001) & 1418 (JX-0001).
In each instance where more than one
program listing is depicted in the
specification of the ’556 patent, there is
no overlay of a TV signal. RX-0848C
(Grimes RWS) at Q/A 47. Rather, all of
the figures showing more than one
program listing lack any overlay as
required for the recited “one mode of
operation” and thus are not in Browse
Mode. Id.; JX-0001 at FIGS 6 & 6A, 8, 10,
15-20 & 25; see RDX-1418 (JX-0001).
Nor is there any textual description in
the ’556 patent supporting a Browse
Mode having multiple program listings.
RX-0848C at Q/A 48. The ’556 patent
thus constantly teaches that only one
listing for one particular channel is
shown at a time in this “one mode of
operation”. Id.; JX-0001 at 11: 44-54,
12:19-30, 35-48. In conjunction with the
figures being described, this is evident
from the description of “either the prior
or next channel” being displayed, which
confirms that only one channel is
presented at a time in the overlay. RX0848C at Q/A 48-49. Moreover, the
description of viewing program schedule

166a
information for a future time in Figure
12A confirms that only one timeslot is
presented at a time in the overlay. Id.
Accordingly, a POSITA would have
understood that this “one mode of
operation”
with
an
overlay
or
simultaneous display did not involve the
display of multiple program listings, but
was limited to a single listing. Id.
In fact, the ’556 patent description of
Browse Mode’s tuning and time change
operations teaches away from multiple
program listings. Id. at 54; see also JX0001 at 12:1-7. A POSITA would have
understood the description to exclude
multiple program listings, because
among other deficiencies, they do not
identify a cursor or any other way of
identifying for the tuner which of the
hypothetical multiple listings is to be
selected. RX-0848C at Q/A 54. In short,
the functionality of “simply depress[ing]
the ENTER button” to tune to a channel
would make no sense with multiple
program listings; such a one button
selection would only work with a single
program listing at any given time. Id.
Thus, the ’556 patent provides no written
description for the required “one mode of
operation” having an overlay containing
multiple program listings.
...
In contrast to Dr. Delp’s unsupported
statements
regarding
a
“general

167a
understanding” of Browse Mode, the
relevant extrinsic evidence confirms that
if there was any “general understanding”
of “Browse Mode,” it was limited to a
display of a single program listing. RX0848C at Q/A 64-66. Literature for other
IPGs in the relevant time frame—
including from Prevue, another Roviacquired entity—are consistent in using
“Browse Mode” as only referring to a
single program listing in the partial
overlay at the bottom of the TV display.
Id. Mr. Lemmons, Rovi’s 30(b)(6) witness
on issues related to development of the
invention, testified that United Video
Properties (the original assignee of the
’556
patent)
and
Prevue
each
independently developed their own
Browse Mode. JX-0102C (Lemmons Dep.
Tr.) at 155:10-156:10. Both companies
applied the same terminology to this
same feature, which contained only a
single program listing in the partial
overlay. RX-0848C at Q/A 66; RDX1403C (RX-0073C & JC-0102)
See Resps. Br. at 302-308 (footnotes omitted; emphasis
in original).
Rovi replies that Comcast has read a “browse mode”
limitation into the claims, which unduly narrows the
claims’ scope, that non-asserted claims 19 and 38
recite a browse mode that “allows for either a display
of multiple program listings or one program listing,”
and that inventor declarations showing an “instant
rolling log” must be included within “browse mode.”
See Rovi Reply at 108-110.

168a
In reply, Comcast argues that the applicant limited,
the asserted claims to browse mode and that the
“public is entitled to rely on Applicant’s clear
descriptions of the “principal invention of the claims
remaining” as being the “Browse” mode of operation,
whether alone or combined with reminder
functionality,” that Rovi’s position ignores the
specification, that the instant rolling log cannot
“provide support that is absent from or a scope beyond
the specification,” and that “browse mode” did not have
a generally understood meaning. See Resps. Reply at
110-113.
The administrative law judge construes “one mode
of operation of said programming guide” to mean “a
simultaneous display or overlay of program schedule
information with another video signal with the recited
navigation and tuning functions.”
In prosecution, the patentee stated:
The principal invention of the claims
remaining in the present application
— i.e., the so-called “Browse” mode of
operation — permits a user to
interactively scan through program
listings in a time and/or channel domain
while continuing to view the current
program, thereby providing the user
with substantially the same experience
as channel surfing through actual
television programs, with the exception
that the user is instead surfing through
schedule listings. The user can thus
interactively navigate through the
listing information at his leisure by
issuing appropriate sequential time

169a
and/or channel control commands, while
not missing any content of the program
being simultaneously viewed.
JX-0008 at 1029-30 (emphasis added). Figures 11, 12,
and 12A depict “a television screen in a BROWSE
mode of operation.” JX-0001 at 5:7-18. Additionally,
the section of specification titled “Browse Mode”
further describes Browse Mode. See id. at 11:21-13:14.
The prosecution history, figures, and specification all
indicate that “Browse Mode” lists information
corresponding to a single program at one time. 33 The
specification does not support a construction of browse
mode that lists information for multiple program
listings at one time, as Rovi urges.
(7) To
also
selectively
display
reminder selection messages in at
least one mode of operation
The phrase “to also selectively display reminder
selection messages in at least one mode of operation”
appears only in the claims (i.e., claims 5, 15, 17, 23, 25,
29, 34, and 41). The parties have proposed the
following constructions:

The administrative law judge is not persuaded that the term
“browse mode” was “generally understood,” in the manner that
Rovi contends it was, at the time of the invention. See CX-0004C
(Delp WS) at Q/A 63 (offering a conclusory opinion that the term
was generally understood at the time of the invention). Rather,
the prosecution history, figures, and specification provide the
requisite context for understanding this term, and these sources
all indicate that “Browse Mode” lists information corresponding
to a single program at one time. No extrinsic evidence beyond Dr.
Delp’s testimony is offered to support Rovi’s position.
33

170a
Rovi’s Proposed
Construction
No construction is
necessary.
Alternatively, such that
reminder messages may
be presented in one or
more configurations.

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.
In its brief, Comcast
argues: “In view of the
intrinsic evidence, a
POSITA would have
understood that this
recited ‘one mode’ of
operation refered [sic] to
Browse Mode, consistent
with Comcast’s proposed
construction, because it
is the only ‘mode’
described in the ’556
patent that satisfies the
recitation of Claim
18(15).”

See Rovi Br. at 275; Resps. Br. at 308. 34
Rovi’s entire argument for this term follows:
No construction is necessary of the claim
phrase “reminder selection messages” in
In the Joint Identification of Disputed Claim Terms, Comcast
proposed this construction: “display a notice asking whether the
user wants to set a reminder for a future program while schedule
information for that program covers a portion of a television video
signal that is also being displayed.” See Joint Identification of
Disputed Claim Terms, Ex. A at 15.
34

171a
claim 18(15). Joint ID at 15. It is used in
its plain and ordinary sense. The
surrounding claim language makes clear
that reminder selection messages may be
presented in one or more configurations
of the programming guide and allow
users to select commands in response to
the messages to select a reminder for a
future program. With this surrounding
language, which has a plain meaning to
a person of ordinary skill in the art, no
additional construction is needed. CX0004G (Delp WS) at Q/A 66-67.
Comcast nevertheless argues that a
broader phrase in claim 15— “selectively
display reminder selection message in at
least one mode of operation”—is limited
to displaying a “reminder selection
message” in a “browse” mode of operation
in which only a single program in a
single time slot is displayed. This
argument tracks from its proposed
construction of “one mode of operation”
and the alleged disavowal of operation
modes other than “browse.” Comcast
further argues that the reminder
selection message must be displayed in a
separate overlay on top of the browse
mode
partial
overlay—effectively
requiring an overlay on an overlay. But
claim 15’s plain language proves
Comcast wrong: It only requires that the
“reminder
selection
message
be
displayed in “overlaying relationship
with another display signal being

172a
displayed . . . .” JX-0001 (’556 Patent) at
col. 28, lns. 40-43. This other display
signal can, of course, include the
television video signal. Thus, Comcast’s
proposed construction should be rejected.
Rovi Br. at 275.
Comcast argues:
The parties also dispute whether the
reminder selection messages and/or the
reminder messages recited in Asserted
Claim 18(15) must be displayed in
Browse Mode. In view of the intrinsic
evidence, a POSITA would have
understood that this recited “one mode”
of operation referred to Browse Mode,
consistent with Comcast’s proposed
construction, because it is the only
“mode” described in the ’556 patent that
satisfies the recitation of Claim 18(15).
RX-0848C at Q/A 70; see JX-0001 at
11:20-13:14. This was confirmed by
Applicant defining the alleged invention
of all pending claims as being directed to
Browse Mode. See RDX-0926-39 (JX0008); 1419 & 1466-67 (JX-0001). The
below figures from the ’556 patent
(annotated), confirm that the reminder
selection messages must appear in the
Browse Mode of operation, and that the
user remains in Browse Mode after
setting a reminder:

173a

Resps. Br. at 308-09.
The administrative law judge construes “to also
selectively display reminder selection messages in at
least one mode of operation” to mean “such that
reminder selection messages may appear in at least
one mode of operation.”
The relevant text from claim 15 follows:
said data processing means controlling
said program schedule display generator
to also selectively display reminder
selection messages in at least one
mode of operation of said programming
guide, for allowing said user to choose
selection commands in response to said
reminder
selection
messages
for
selecting a reminder associated with a
chosen future program, each said
selected reminder message also to be
displayed on said display at a
predetermined time prior to the time of
occurrence of each chosen future one of

174a
said television programs, said reminder
message being displayed in overlaying
relationship with another display signal
being displayed at said time said
reminder message is displayed.
JX-0001 at 28:29-42 (emphasis added on disputed
phrase). Thus, the construction comports with the
surrounding claim language. See Stumbo v. Eastman
Outdoors, Inc., 508 F.3d 1358, 1362 (Fed. Cir. 2007) (in
rejecting a proposed construction that would render
ancillary claim language superfluous, the Federal
Circuit explained that “construing the word ‘vertical’
as referring to merely the orientation of the opening
would render the phrases ‘along one of said side edges’
and ‘along one vertical comer of said structure’
superfluous, a methodology of claim construction that
this court has denounced.”).
(8) Displaying / display
The terms “displaying” and “display” appears
throughout the claims and specification. The parties
have proposed the following constructions:
Rovi’s Proposed
Construction
No construction is
necessary for the claim
terms “displaying” and
“display.”

Comcast’s Proposed
Construction
“using the electronic
television program guide
to visually overlay on a
screen”

See Rovi Br. at 275-76; Resps. Br. at 312-13 (“. . . Thus,
in view of the intrinsic and related evidence, a POSITA
at the time of the ’556 patent would have understood
this term in context to refer to ‘using the electronic

175a
television program guide to visually overlay on a
screen,’ not a computer monitor. See RX-0848C at Q/A
74-77.”).
Rovi’s entire argument for this term follows:
No construction is necessary for the
claim terms “displaying” and “display.”
Joint ID at 11. Both experts agree that
the terms are well understood by those of
ordinary skill in the art to mean a visual,
presentation such as what the user sees
on a television screen. CX-0004C (Delp
WS) at Q/A 50. Respondents argue that
the terms should be construed to mean
“using the electronic program guide to
visually overlay on the screen,” but there
is no basis for this proposed construction.
Id. at Q/A 50-52. Nothing in the ’556
Patent’s intrinsic record demands a
narrowing construction. Id. Moreover,
separate language in the asserted claims
addresses the overlay relationship
between the electronic program guide
graphics and the broadcast signal for the
television program.
Rovi Br. at 275-76.
Comcast argues:
Comcast’s proposed construction is
consistent with the construction of the
similar “displaying” terms of U.S. Pat.
No. 6,275,268 (“the ’268 patent”)—which
shares a common specification with the
’556 patent—issued by Judge Andrews in
United Video Properties v. Amazon.com.

176a
RX-0834.0007; see RX-0848C (Grimes
RWS) at Q/A 78. Judge Andrews
explained that the shared specification
never described the simultaneous
display of program guide information
without a partial overlay. Id.; see RX0005C at Q/A 99 & 102-03. Thus, even
the “simultaneous display” of Asserted
Claim 40 is limited to the only such
display that satisfies the recitation of the
Asserted Claims—i.e., a partial overlay.
Id. Judge Andrews also recognized that
the shared specification does not disclose
any “display” with an overlay appearing
on a device other than a TV, which
similarly applies to the construction of
the “display”/ “displaying” terms of the
’556 patent. RX-0834; RX-0848C; RX0005C at Q/A 74, 78-79.
The file history confirms that the
Asserted Claims were only allowed
because they were expressly limited to
TV functionality to overcome prior art.
See id. at 55; RDX-0934-39 & 1416-17
(JX-0008). The Applicant amended its
claims to require “said data processing
means being responsive to said television
tuning commands for allowing a user to
select any one of said television
programs” and user control commands
including “television tuning commands”
in response to the Examiner’s statement
that the pending claims were obvious. Id.
Thus, in view of the intrinsic and related
evidence, a POSITA at the time of the

177a
’556 patent would have understood this
term in context to refer to “using the
electronic television program guide to
visually overlay on a screen,” not a
computer monitor. See RX-0848C at Q/A
74-77.
Resps. Br. at 312-13 (footnote omitted).
The administrative law judge has determined that
it is not necessary to construe these terms apart from
the phrases in which they appear. Cf. Sulzer Textil
A.G. v. Picanol N.V., 358 F.3d 1356, 1366 (Fed. Cir.
2004) (“The Markman decisions, in ruling that claim
construction is a matter of law for the court, do not
hold that the trial judge in a patent case must repeat
or restate every claim term in the court’s jury
instructions.”); see also O2 Micro Int’l Ltd. v. Beyond
Innovation Tech. Co., 521 F.3d 1351, 1362 (Fed. Cir. 20
08). 35 Further, it is not necessary to construe the term
because “display” alone is not central to the parties’
infringement, validity, and domestic industry
arguments; rather the parties dispute what “display”

O2 Micro, 521 F.3d at 1362, provides: “We, however, recognize
that district courts are not (and should not be) required to
construe every limitation present in a patent’s asserted claims.
See, e.g., Biotec Biologische Naturverpackungen GmbH & Co. KG
v. Biocorp, Inc., 249 F.3d 1341, 1349 (Fed. Cir. 2001) (deciding
that disputed issue was the proper application of a claim term to
an accused process rather the scope of the term); U.S. Surgical
Corp. v. Ethicon, Inc., 103 F.3d 1554, 1568 (Fed. Cir. 1997) (Claim
construction ‘is not an obligatory exercise in redundancy.’).
Rather, ‘[c]laim construction is a matter of resolution of disputed
meanings and technical scope, to clarify and when necessary to
explain what the patentee covered by the claims, for use in the
determination of infringement.’ U.S. Surgical, 103 F.3d at 1568.”.
35

178a
entails, which is delineated in terms and phrases
construed above and below.
(9)

Program
schedule
display
generator . . . for displaying. . .

The parties brief this term in connection with the
“video display generator . . . for displaying . . .” phrase
above. See Joint Outline at 21-22.
Accordingly, the administrative law judge has
determined it is not necessary to repeat the
constructions here. Cf. Sulzer Textil, O2 Micro, Biotec
Biologische Naturverpackungen, and U.S. Surgical
Corp.
3. Representative Products
Rovi accuses two guide systems, the X1 and Legacy
systems, of infringing the ’556 Patent. Rovi Br. at 276.
Rovi argues:
Each set-top box running the X1 Guide
or Legacy Guide works in materially the
same way for purposes of infringement.
CX-0004C (Delp WS) at Q/A 118, 126;
CX-1885 (Xfinity on X1 Platform)
(including same instructions for the X1
Guide without regard to the set-top box
model). [
] Id., JX-0079C
(Comcast/ARRIS
Master
Supply
Agreement) at § 9.01(a); JX-0096C (Folk
Dep. Tr.) 95-98; JX-0105C (McCann Dep.
Tr.) 84-85. There are no differences
between the X1 set-top boxes or X1
Guides running on X1 set-top boxes or
Legacy set-top boxes or Legacy Guide
running on Legacy set-top boxes relevant
to infringement of the ’556 Patent. CX-

179a
0004C (Delp WS) at Q/A 118-20, 125-26;
JX-0105C (McCann Dep. Tr.) 87-88.
Because there are no material
differences between the different X1 settop boxes, the ARRIS XG1 v3 (X1)
AX013ANC is representative for all such
products. CX-0004C (Delp WS) at Q/A
120. Because there are no material
differences between the different Legacy
set-top boxes, the Motorola DCX3501/M
(aka
“ARRIS-HD/DVR”
or
“MOTRNG200BNMR”) is representative
for all such products. Id. at Q/A 126.
Id. Thus, Rovi proposes that the ARRIS XG1 v3 (X1)
AX013ANC is representative for the X1 system and
the Motorola DCX3501/M is representative for the
Legacy system.
Comcast argues that Rovi has not shown that other
categories of the accused products contain the same
accused components as the AX013ANC or DCX3501/M
boxes. Resps. Br. at 292-93. The sole exhibit Comcast
cites to support its argument, RX-0870, is an
unsupported letter from Comcast’s counsel that sorts
model numbers into various groupings.
The administrative law judge has determined that
Rovi has presented sufficient evidence, and that
Comcast has not rebutted this evidence. Spansion, Inc.
v. Int’l Trade Comm’n, 629 F.3d 1331, 1351-52 (Fed.
Cir. 2010) (“Appellants contend that the ALJ
improperly shifted the burden to Appellants to
establish that the non-modeled accused packages
would behave differently than those that were
modeled. Rather than improper burden shifting, the
ALJ properly found that Appellants simply failed to

180a
rebut the substantial evidence set forth by Tessera.”);
see also TiVo, Inc. v. EchoStar Commc’ns Corp., 516
F.3d 1290, 1308 (Fed. Cir. 2008). Accordingly, the
administrative law judge finds that the ARRIS XG1 v3
(X1) AX013ANC is representative for the X1 system
and the Motorola DCX3501/M is representative for the
Legacy system.
4. Literal Infringement
Rovi asserts dependent claim 7, based on its
dependency from independent claim 3, dependent
claim 18, based on its dependency from independent
claim 15, and independent claim 40. See Rovi Br. at
261 (Section VIII(B)). Rovi argues that respondents
infringe the ’556 Patent by importing, using, selling,
leasing, and offering to sell the ’556 Patent. Id. at 277.
Comcast’s post-hearing brief contends that it does not
infringe any of the asserted claims. See Resps. Br.,
Section X1(D).
a) Claims 3 and 7
Rovi acknowledges that “claim 7, as it depends from
claim 3 (7(3)), is representative.” Rovi Br. at 261.
Claim 3, with bracketed, alphanumeric claim
limitations provided by Rovi, follows:
[3pre] 3. An electronic programming
guide for use with a television receiver
having a plurality of television channels
for displaying television programs and
program schedule information for said
television programs comprising:
[3a] memory means for storing television
program schedule information for a set of
television programs scheduled to appear
on said plurality of television channels;

181a
[3b] user control means for choosing user
control commands, including television
tuning, guide channel-control and guide
time-control
commands,
and
transmitting signals in response thereto;
[3c] data processing means for receiving
said signals in response to said user
control commands; and
[3d] a video display generator adapted to
receive video control commands from
said data processing means and program
schedule information from said memory
means for displaying interactivelyselected successive portions of said
schedule information for a set of
channels, including ones different from a
currently tuned channel, in overlaying
relationship with another display signal
currently appearing on said tuned
channel in at least one mode of operation
of said programming guide;
[3e] said data processing means
controlling said video display generator
to display each said portion of program
schedule
information
in
partial
overlaying relationship with said
currently appearing display signal,
[3f] each said portion comprising listing
information for each successive one of
said television programs scheduled to
appear on said set of channels and being
consecutively displayed in response to
corresponding consecutive ones of said
guide control commands for successively

182a
navigating through listing information
for sequential time periods or programs
for which program schedule information
is stored in said memory means,
[3g] said data processing means being
responsive to said television tuning
commands for allowing a user to select
any one of said television programs for
which listing information is displayed in
said partially overlayed portion of said
schedule information.
See JX-0001 (’556 Patent) at 24:13-52; Rovi Br. at 27888 (providing the alphanumeric labels).
Claim 7, which Rovi treats as a single limitation,
follows:
7. The electronic programming guide
according to claims 1, 2, 3, 4, or 5
wherein said schedule information
displayed by said video display generator
comprises at least program title and
program channel.
See JX-0001 (’556 Patent) at 26:8-12; Rovi Br. at 28889.
Comcast presents the following chart, which provides
a helpful summary of its arguments:
Missing
Limitations
Display
generator

Types of
Deficiency

STBs

Not literally
present

X1

Not 112(6)
equivalent

X1/Legacy

183a
Missing
Limitations
EPG located at
the user site

Types of
Deficiency
Not literally
present

STBs
X1

Not equivalent
to cloud EPG
under DoE
Memory means
for Storing
program
schedule
information

Not literally
present

Data processing
means

Same means
X1
performing all
recited functions
not literally
present; not
equivalent
under DoE

X1

Not 112(6)
equivalent

X1/Legacy

User control
means

Not literally
present

X1/Legacy

No partial
overlay

Not present in
full-screen guide
or default
configuration of
Mini Guide

X1

No Browse
Mode as

Not literally
present

X1/Legacy

184a
Missing
Limitations

Types of
Deficiency

STBs

properly
construed

Reminder
selection
functionality of
Claim 18(15)
does not occur
in Browse Mode

Not DoE
equivalent to
Browse Mode

X1/Legacy

Not present
literally or
under DoE (X1)
Failure of proof
(Legacy)

X1/Legacy

See Resps. Br. at 318.
(1) Limitation 3pre
The text for this limitation is “3. An electronic
programming guide for use with a television receiver
having a plurality of television channels for displaying
television
programs
and
program
schedule
information
for
said
television
programs
comprising[.]” See Rovi Br. at 278.
(a) X1 System
Rovi identifies the X1 Guide’s “On-Screen Guide or
Mini Guide” in arguing that this limitation is satisfied.
See Rovi Br. at 278 (“The X1 Guide’s On-Screen Guide
or Mini Guide is designed to be used with a television
system including a receiver capable of tuning to
multiple channels.” (footnotes omitted)). Rovi also
identifies [ ] Id. at 279. Rovi also presents a doctrine
of equivalents argument in a single sentence:

185a
An EPG that is distributed [ ] performs
substantially the same function—for
example, providing a guide for browsing
program schedule information while
simultaneously watching a program—in
substantially
the
same
way—for
example, it uses program schedule
information to populate a guide
displayed on the television and enables a
user to issue a tuning command to view,
record, set a reminder for, a program
different from the one she is watching—
to yield the same result—for example, it
displays television guide information on
a television simultaneously with a
program being viewed and that is
responsive to user commands.
Id. at 279-80 (essentially reproducing CX-0004C (Delp
WS) at Q/A 135).
Comcast argues that the software implementing the
X1 IPG is located on an [
] not the set-top box. See
Resps. Br. at 323.
Rovi’s reply essentially represents its opening
argument. See Rovi Reply at 112.
Comcast’s reply argues that a “distributed IPG,”
such as the X1 IPG, is substantially different from a
local IPG. See Resps. Reply at 124. Comcast also
argues that Rovi’s analysis is “both conclusory and
incorrect.” Id.
The administrative law judge has determined that
the accused X1 set-top boxes do not contain an
electronic programming guide that is “implemented by

186a
application software at a user site,” as the construed
claim requires.
Rather, the evidence shows that the X1 Guide is
implemented on applications managed by an [
] See
RX-0848C (Grimes) at Q/A 96, 108; RX-0340C.0008;
RX-0329C; Tr. 1013 (Dr. Delp testified that the code he
identified is “run on the server[.]”); RX-0840C
(Allinson) at Q/A 10-33; RX-0841C (McCann) at Q/A
19-35. The evidence that Rovi cites does not
demonstrate otherwise. Accordingly, Rovi has failed to
meet its burden of showing that the accused X1
products satisfy this limitation.
Furthermore, Rovi has failed to meet its burden of
showing that the accused X1 products satisfy this
limitation under the doctrine of equivalents. As
Comcast correctly notes, Rovi’s single-sentence
equivalents argument is wholly conclusory, because it
simply recites the familiar function/way/result test
without any particularized testimony or linking
arguments. See Medtronic Inc. v. Boston Set. Corp.,
558 F. App’x 998, 1000 (Fed. Cir. 2014) (“conclusory
statements are insufficient to support a verdict finding
infringement under the doctrine of equivalents”);
Cambrian Sci. Corp. v. Cox Commc’ns, Inc., 617 F.
App’x 989, 994 (Fed. Cir. 2015) (“Cambrian’s factual
support for its doctrine of equivalents claim is limited
to two paragraphs from its expert report, both of which
are conclusory. . . . The paragraphs are devoid of any
particularized testimony or linking arguments.”);
PACTIV Corp. v. S.C. Johnson & Son, Inc., 26 F. App’x
943, 948 n.5 (Fed. Cir. 2002) (“The testimony of
Pactiv’s expert Dr. James Conley, which simply recites
the familiar function/way/result test and concludes
that the Slide-Loc bag infringes the ‘143 patent by the
doctrine of equivalents, without further analysis or

187a
explanation,
judgment.”).

is

insufficient

to

defeat

summary

(b) Legacy System
Rovi argues that the Legacy set-top boxes satisfy
this limitation. See Rovi Br. at 292. Comcast does not
present any argument on this limitation. See Resps.
Br. at 318.
The administrative law judge has determined that
the accused Legacy products satisfy this limitation.
See CX-0004C (Delp WS) at Q/A 221 (the Motorola
DCX3501M, is “loaded with Xfinity Guide software
called ‘Xfinity Guide System’, which includes an
electronic program guide for displaying television
programs and program schedule information for a
plurality of television channels. . . .”).
(2) Limitation 3a
The text for this limitation is “memory means for
storing television program schedule information for a
set of television programs scheduled to appear on said
plurality of television channels[.]” See Rovi Br. at 280.
(a) X1 System
Rovi argues that the accused X1 products contain
dynamic random access memory (DRAM) that satisfies
this limitation. See Rovi Br. at 280.
Comcast argues that the memory in the X1 products
“does not store program schedule information as
recited by the various limitations of the Asserted
Claims.” Resps. Br. 324.
The administrative law judge construed “memory
means,” in accordance with § 112 ¶ 6, to require that
the memory store program information on ROM (17),

188a
DRAM (18) and non-volatile memory EEPROM (20).
See Section IV(A)(2)(c)(2).
The ’556 Patent explains that “the microcontroller
16 takes the program schedule information stored in
the DRAM 18 and . . . supplies it to a video display
generator (VDG) 23, which . . . includes a standard
RGB video generator 24, which takes the digital
program schedule information sent by the
microcontroller 16 and converts it into an RGB format
in accordance with the bit map for the particular
screen display then being presented to the user on the
television receiver 27.” JX-0001 at 8:4-17. The patent
does not describe a distributed set-top box system such
as the X1 system.
The evidence shows that Comcast stores program
information on an [ ] not on the set-top box’s DRAM.
See RX-0848C (Grimes WS) at Q/A 109-15; RX-0841C
(McCann) at Q/A 19-35, 48. Further, inasmuch as this
limitation is a means-plus-function limitation, this
aspect of the claim is limited to the corresponding
localized structures described in the specification. See
35 U.S.C. § 112; MobileMedia Ideas. 36
Accordingly, the administrative law judge has
determined that the accused X1 products do not satisfy
this limitation.
(b) Legacy System
Rovi argues that the Legacy set-top boxes satisfy
this limitation. See Rovi Br. at 292. Comcast does not
MobileMedia Ideas LLC v. Apple Inc., 780 F.3d 1159, 1170 (Fed.
Cir. 2015) (“Literal infringement of a § 112 ¶ 6 limitation requires
that the relevant structure in the accused device perform the
identical function recited in the claim and be identical or
equivalent to the corresponding structure in the specification.”).

36

189a
present any argument on this limitation. See Resps.
Br. at 318.
The administrative law judge has determined that
the accused Legacy products satisfy this limitation.
See CX-0004C (Delp WS) at Q/A 226-27; JX-01 12C
(Radloff Dep.) at 142:14-22; CX-1288 (Advanced Media
Technologies DCX3501-M HD Dual Tuner DVR SetTop Datasheet).
(3) Limitation 3b
The text for this limitation is “user control means
for choosing user control commands, including
television tuning, guide channel-control and guide
time-control commands, and transmitting signals in
response thereto[.]” See Rovi Br. at 280.
(a) X1 System
Rovi’s entire argument for this limitation is:
The X1 ’556 Patent Accused Products are
packaged and shipped with a remote
controller that may be used for television
tuning and guide control including the
transmission of signals related to such
functions. CX-0004C (Delp WS) at Q/A
145; JX-0104C (Martin Dep. Tr.) 26-27;
CX-1255 (XR2 and XR5 Remote Control
Buttons and Functions Support); see also
JX-0113C (Robinson Dep. Tr.) 192-93;
CX-1305C.
Rovi Br. at 280.
Comcast’s entire argument is:
As Dr. Delp testified in his witness
statements, and confirmed at trial, he
only relied upon a remote control used in

190a
conjunction with the STB to establish
the existence of this element. Tr. 1017:117. Because this element exists outside
the Accused Products, Rovi cannot
establish literal infringement, and
having failed to offer any doctrine of
equivalents for this element, Rovi cannot
establish that the Accused Products
directly infringe. See id.
Resps. Br. at 329.
The parties agreed that the “user control means”
was a means-plus-function limitation where the
function included “choosing user control commands”
and “transmitting signals in response thereto” and the
structures included a “remote control(ler), remote
control(ler) receiver, infrared (IR) receiver, or keypad.”
See Section IV(A)(2)(b).
The evidence of record shows that the accused X1
products are bundled with a remote control. See CX0004C (Delp WS) at Q/A 145; JX-0104C (Martin Dep.
Tr.) 26-27; CX-1255 (XR2 and XR5 Remote Control
Buttons and Functions Support); see also JX-0113C
(Robinson Dep. Tr.) 192-93; CX-1305C (discussing “IR
and RF4CE remote support” and “Remote Control
Protocols Supported”).
Furthermore, Comcast did not raise this argument
in its pre-hearing brief. See generally Comcast PreHr’g Br. at 774-800 (the argument is not presented);
see also id. at 808 (arguing that ARRIS and
Technicolor do not indirectly infringe the ’556 Patent
because neither “imports the user control means
identified by Dr. Delp (i.e., remote controls)).
Accordingly, Comcast has waived this argument.

191a
Thus, the administrative law judge finds that the
accused X1 products satisfy this limitation.
(b) Legacy System
Rovi’s entire argument is:
The Legacy Patent Accused Products are
packaged and shipped with a remote
controller that may be used for television
tuning and guide control including the
transmission of signals related to such
functions. CX-0004C (Delp WS) at Q/A
228; CX-1205 (Xfinity User Guide) at 5;
CX-1288 (DCX3501-M HD Dual Tuner
DVR Set-Top Datasheet) at 2.
Rovi Br. at 292.
Comcast does not present separate argument for the
accused Legacy products. See Resps. Br. at 318, 329.
The administrative law judge finds that the accused
Legacy products satisfy this limitation for the same
reasons the accused X1 products satisfy this
limitation. See CX-0004C (Delp WS) at Q/A 228; CX1205 (Xfinity User Guide) at 5; CX-1288 (DCX3501-M
HD Dual Tuner DVR Set-Top Datasheet) at 2.
(4) Limitation 3c
The text for this limitation is “data processing
means for receiving said signals in response to said
user control commands[.]” See Rovi Br. at 281.
(a) X1 System
Rovi argues that each X1 accused product “includes
a System on a Chip (“SoC”) (which contains one or
more processors called CPUs for running code
installed within non-volatile flash memory) such as a

192a
[
] connected to the device’s IR receiver which
receives signals from the remote controller.” Rovi Br.
at 281. Rovi then adds an unsupported, singlesentence doctrine of equivalents argument:
Even if the SoC were deemed “afterarising
technology,”
the
Accused
Products could still satisfy this
limitation under the doctrine of
equivalents. See Ring & Pinion Serv. Inc.
v. ARB Corp. Ltd., 743 F.3d 831, 835
(Fed. Cir. 2014) (“Equivalence under the
doctrine of equivalents . . . is evaluated
at the time of infringement. Hence, an
after-arising technology, a technology
that did not exist at the time of
patenting, can be found to be an
equivalent under the doctrine of
equivalents . . . .”).
Id.
Comcast argues that the ARRIS XG1v3 set-top box’s
[ ] system on chip (“SoC”) “is after-arising technology
that cannot literally infringe” and that the [
] does
not perform all of the recited functions attributed to
the singular data processing means in each Asserted
Claim.” See Resps. Br. at 325. Comcast then argues
that Rovi’s doctrine of equivalents argument fails,
inter alia, because Dr. Delp did not identify structure
that can “perform all of the required functions” of the
claim. Id. at 327.
In Ring & Pinion, the Federal Circuit explained
that for a § 112 infringement analysis, there are two
differences between literal infringement and
infringement under the doctrine of equivalents:

193a
Equivalence under section 112(f) is
evaluated at the time of issuance. . . .
Equivalence under the doctrine of
equivalents, in contrast, is evaluated at
the time of infringement. Id. Hence, an
after-arising technology, a technology
that did not exist at the time of
patenting, can be found to be an
equivalent under the doctrine of
equivalents even though it cannot be an
equivalent
under
the
literal
infringement analysis of § 112(f). Id.
The second difference between literal
infringement and doctrine of equivalents
infringement under § 112(f) relates to
the function of the element. For literal
infringement, the accused structures
must perform the function recited in the
claim (identical function). The doctrine of
equivalents covers accused structures
that perform substantially the same
function in substantially the same way
with substantially the same results. The
doctrine of equivalents thus covers
structures with equivalent, but not
identical, functions. This is true whether
the accused equivalent was known at the
time of patenting or later arising.
Ring & Pinion Serv. Inc. v. ARB Corp., 743 F.3d 831,
835 (Fed. Cir. 2014) (citing Chiuminatta Concrete
Concepts, Inc. v. Cardinal Industries, Inc., 145 F.3d
1303 (Fed. Cir. 1998)).
The administrative law judge has determined that
Rovi has not shown that the accused X1 products

194a
literally meet this limitation (3c). As an initial matter,
Dr. Delp did not sufficiently address whether the [ ]
was equivalent to the microcontroller (16) (such as the
M68000EC) that the ’556 Patent discloses. See
generally CX-0004C (Delp WS) (Dr. Delp discusses a
generic “Soc” but does not address the [
] or the
M68000EC). Indeed, Dr. Delp’s testimony suggests
that any chip containing “one or more processors”
would meet this limitation. See id. at Q/A 147-48 (the
remainder of Dr. Delp’s testimony about the IR
receiver and RF4CE interface is not directly pertinent
to the [ ] microcontroller analysis; that portion of the
testimony shows that the X1 boxes can receive
commands from a remote control). Comcast’s expert,
on the other hand, testified that “there is nothing
within the X1 Accused Products that performs” the
function of taking program schedule information from
DRAM and supplying it to a video display generator.
See RX-0848C (Grimes) at Q/A 118-20. Dr. Grimes also
testified that the Broadcom [
] SoC is later-arising
technology. See RX-0848C (Grimes) at Q/A 119; RX0365 (the 2012 Broadcom press release indicates that
the [
] features enhanced security, expands video
capacity and 3D graphics performance, performs
“quad transcoding” that reduces the need for expensive
external peripheral hardware, and adds powermanagement capabilities for new energy-efficiency
requirements). Accordingly, the administrative law
judge has determined that Rovi has not shown that the
[ ], which Broadcom introduced in 2012, is equivalent
to the microcontroller disclosed in the ’556 Patent,
which issued in July 2002. See Ring & Pinion, 743 F.3d
at 835 (“Equivalence under section 112(f) is evaluated
at the time of issuance”).

195a
Additionally, the administrative law judge has
determined that Rovi has not shown that the accused
X1 products (the [
]) meet this limitation under the
doctrine of equivalents. Rovi has not identified
sufficient evidence to show that the [
] performs
substantially the same function as the microcontroller
(such as the M68000EC) disclosed in the ’556 Patent,
in substantially the same way as that microcontroller,
with substantially the same results. See Ring &
Pinion, 743 F.3d at 835. Indeed, Rovi’s expert does not
testify to any doctrine of equivalents issues with
relation to the X1 products and this limitation (3c). See
generally CX-0004C (Delp WS) at Q/A 147-49; see also
DePuy Spine, Inc. v. Medtronic Sofamor Danek, Inc.,
469 F.3d 1005, 1017 (Fed. Cir. 2006) (the “all elements
rule” requires that a doctrine of equivalents analysis
must “be assessed on a limitation-by-limitation basis,
rather than from the perspective of the invention as a
whole”) (emphasis added)).
(b) Legacy System
Rovi’s entire argument is:
The Legacy Accused Products include a
data processor, microcontroller, or
microprocessor or their equivalents, for
receiving signals in response to user
control commands. CX-0004C (Delp WS)
at Q/A 229. Each Legacy ’556 Patent
Accused Product includes a System on a
Chip (“SoC”) as discussed above
connected to the device’s IR receiver
which receives signals from the remote
controller. Id.; JX-0098C (Gee Dep. Tr.)
18-19; JX-0112C (Radloff Dep. Tr.) 124,
126-27. Comcast argues that Dr. Delp

196a
failed to identify the specific SoC used in
the relevant set-top boxes. RX-0848C
(Grimes RWS) at Q/A 167. This
argument is of no relevance. There is no
dispute that the accused set-top boxes in
general and Motorola DCX35O1M in
particular include a SoC (including a
processor) that functions in the manner
described by Dr. Delp. CX-0004C (Delp
WS) at Q/A 229. Dr. Delp also testified
that this SoC operates the same way and
includes the same features as they relate
to the asserted claims of the ’556 Patent.
Comcast provides no information on how
any particular processor differs as they
related to the claims at issue. RX-0848C
(Grimes RWS) at Q/A 167-69.
Rovi Br. at 292-93. Dr. Delp’s entire testimony on this
limitation is:
Q229. Let’s look at 3c: It recites a
“data
processing
means
for
receiving said signals in response to
said user control commands;” In
your opinion, do the Legacy guide
boxes satisfy this limitation?
A. The processing on the Motorola
DCX3501M is implemented using a
system-on-chip, or SoC, which contains
one or more processors for running
code installed within non-volatile flash
memory. See, e.g., JX-0098C (Gee Tr.) at
18:21-19:8; JX-0112C (Radloff Tr.) at
124:14-22, 126:10-127:3. As explained
before, the SoC is a processor and is

197a
connected to a front panel, which
contains an IR receiver. The IR receiver
receives user commands, for example,
sent from a remote controller, and
transmits them to the processor, which,
in turn “receives” the user commands.
Thus, the Motorola DCX3501M meets
the structural limitation of this claim
term because it includes a processor and
it is configured to perform the infringing
function of receiving signals in response
to user control commands.
CX-0004C (Delp WS) at Q/A 229 (emphasis added).
The administrative law judge has determined that
Rovi has not met its burden of showing that the “one
or more processors” Dr. Delp identified is equivalent to
the microcontroller disclosed in the specification,
because identifying “one or more processors” does not
identify the processor that corresponds to the claimed
processor. See 35 U.S.C. § 112; MobileMedia Ideas 37;
RX-0848C (Grimes) at Q/A 169. Accordingly, the
administrative law judge has determined that the
accused Legacy products do not satisfy this limitation.
(5) Limitation 3d
The text for this limitation is “a video display
generator adapted to receive video control commands
from said data processing means and program
schedule information from said memory means for
MobileMedia Ideas LLC v. Apple Inc., 780 F.3d 1159, 1170 (Fed.
Cir. 2015) (“Literal infringement of a § 112 ¶ 6 limitation requires
that the relevant structure in the accused device perform the
identical function recited in the claim and be identical or
equivalent to the corresponding structure in the specification.”).

37

198a
displaying interactively-selected successive portions of
said schedule information for a set of channels,
including ones different from a currently tuned
channel, in overlaying relationship with another
display signal currently appearing on said tuned
channel in at least one mode of operation of said
programming guide[.]” See Rovi Br. at 283.
(a) X1 System
Rovi argues:
The SoC of the X1 ’556 Patent Accused
Products includes a graphics processing
unit (“GPU”) that is responsible for
rendering the images displayed on the
television screen. . . . A GPU embedded
on a SoC is the equivalent of,
interchangeable with, and performs the
same function as, a video graphic card.
Rovi Br. at 283 (citations omitted); see also CX-0004C
(Delp WS) at Q/A 150-53. In conclusion, Rovi presents
a single-sentence doctrine of equivalents argument:
If “browse mode” is further limited to
require only the display of a single
program in a single time slot, the MiniGuide and On-Screen Guide would
infringe
under
the
doctrine
of
equivalents. CX-0004C (Delp WS) at Q/A
138. An electronic program guide that
displays more than one program listing
at a time performs substantially the
same function—for example, it provides
a user program schedule information
while
simultaneously
viewing
a
program—in substantially the same

199a
way—for example, using program
schedule information to populate a guide
displayed on a television simultaneously
with programming-—to yield the same
result—for example, allowing a user to
continue watching a program while
“surfing” through other channel or time
domains. Id.
Rovi Br. at 285.
Comcast argues that the [
] SoC does not infringe
because it is later-arising technology, because Rovi did
not identify “the two substructures of the video display
generator,” and because Rovi did not “establish that
the GPU in the [
] . . . performs any of the display
generator element’s recited functions.” Resps. Br. at
319-20. 38
The administrative law judge has determined that
Rovi has not shown that the accused X1 products meet
this limitation (3d) literally or under the doctrine of
equivalents.
To begin, the Broadcom [
] SoC (that Dr. Delp
identifies as satisfying this limitation) is later-arising
technology. See RX-0848C (Grimes) at Q/A 118-21
(amongst other things, Dr. Grimes also explains that
the SoC contains a graphics component that differs
from the VGA-type graphics card); RX-0365. The
administrative law judge previously determined that
Rovi has not shown that the [
] which Broadcom
introduced in 2012, is equivalent to the
microcontroller disclosed in the ’556 Patent, which
issued in July 2002. See Ring & Pinion, 743 F.3d at
Comcast’s “Browse Mode” arguments are addressed in relation
to limitation 3f.
38

200a
835 (“Equivalence under section 112(f) is evaluated at
the time of issuance”). In relation to limitation 3d, Rovi
has not shown that GPU embedded on a SoC (circa
2012) is equivalent to the graphics card described in
the specification.
Dr. Delp opines that “a person or ordinary skill in
the art would consider a GPU embedded on a SoC to
be interchangeable with a discrete video graphics
card.” CX-0004C (Delp WS) at Q/A 151. Dr. Delp also
presents an incomplete doctrine of equivalents
analysis: “[i]n fact, a GPU performs the same function
as a graphics card—it accelerates the creation of
images—in substantially the same way—it offloads
the image rendering process from the CPU.” Id. This
testimony does not demonstrate, or sufficiently
explain, that the GPU embedded on a SoC is identical
or equivalent to the corresponding structures in the
specification—a VGA-type graphics card (such as a
Rocgen card manufactured by Roctec) and a “Video
Overlay Device.” See MobileMedia Ideas. 39
In contrast, Dr. Grimes testified that a generic video
graphics card “would not have been able to accept a
NTSC input, mix a NTSC input with an RGB video
input, or generate a composite NTSC output.” RX0005C (Grimes WS) at Q/A 37-38; see also Tr. 11041105. Further, Dr. Grimes opined that the Roctec VGA
card mentioned in the specification “did not exist.” RX0005C (Grimes WS) at Q/A 38; see also RX-0317 (this
is a peripheral device, not a graphics card). Rovi has
MobileMedia Ideas LLC v. Apple Inc., 780 F.3d 1159, 1170 (Fed.
Cir. 2015) (“Literal infringement of a § 112 ¶ 6 limitation requires
that the relevant structure in the accused device perform the
identical function recited in the claim and be identical or
equivalent to the corresponding structure in the specification.”).

39

201a
not presented or cited evidence that the Roctec VGA
card actually exists, and its comparisons to the card
are thus deficient. Accordingly, Rovi has not met its
burden of showing that the accused X1 products
literally meet this limitation (3d).
The administrative law judge has also determined
that Rovi has failed to meet its burden of showing that
the accused X1 products meet this limitation (3d)
under the doctrine of equivalents. The testimony that
Rovi cites, CX-0004C (Delp WS) at Q/A 138, is
addressed to the preamble. Further, the testimony
that pertains to this limitation is deficient because it
does not address the “result” of the function/way/result
test. Id. at Q/A 151 (“In fact, a GPU performs the same
function as a graphics card—it accelerates the creation
of images—in substantially the same way—it offloads
the image rendering process from the CPU.”); see also
id. at Q/A 223 (for the Legacy products, Dr. Delp
addresses all parts of the function/way/result test).
Additionally, Rovi’s argument is too conclusory to
support a finding of infringement under the doctrine
of equivalents. See Medtronic, 558 F. App’x at 1000;
Cambrian, 617 F. App’x at 994; PACTIV Corp., 26 F.
App’x at 948 n.5.
(b) Legacy System
Rovi argues:
The Legacy Accused Products include a
video graphics card or its equivalent that
receives video control commands from
the relevant SoC and program schedule
information from memory for displaying
interactively-selected
successive
portions of said schedule information for
a currently tuned channel in overlaying

202a
relationship with another display signal
currently appearing on said tuned
channel in at least one mode of operation
of said programming guide. CX-0004C
(Delp WS) at Q/A 230. The SoC of the
Legacy ’556 Patent Accused Products
includes a graphics processing unit
(“GPU”) that is responsible for rendering
the images displayed on the television
screen.
Id.;
CX-1370C
(RNG-200
Hardware,
Case
&
Packaging
Specification) at 24, 41-47. A GPU
embedded on a SoC is the equivalent of a
video graphic card. CX-0004C (Delp WS)
at Q/A 230; JX-0086C (Allinson Dep. Tr.)
87 (referring to the GPU as a “graphics
chip”).
Rovi Br. at 293-94. In conclusion, Rovi presents a
single-sentence doctrine of equivalents argument:
If “browse mode” is further limited to
require only the display of a single
program in a single time slot, the MiniGuide would infringe under the doctrine
of equivalents. CX-0004C (Delp WS) at
Q/A 223. An electronic program guide
that displays more than one program
listing at a time performs substantially
the same function—for example, it
provides a user program schedule
information
while
simultaneously
viewing a program—in substantially the
same way—for example, using program
schedule information to populate a guide
displayed on a television simultaneously
with programming—to yield the same

203a
result—for example, allowing a user to
continue watching a program while
“surfing” through other channel or time
domains. Id.
Rovi Br. at 294. The analysis is identical to that which
Rovi presented for the X1 products. Compare id. at 285
with id. at 294. 40
Comcast argues that “Rovi’s identification of an
unspecified SoC within the DCX3501M STB for the
recited display generator amounts to a total failure of
proof.” Resps. Br. at 322.
In reply, Rovi points out that Comcast has marked
its products with the ’556 Patent. See Rovi Reply at
114; CX-0004C (Delp WS) at Q/A 127; CX-1676
(Screenshot of Legacy Product marked with the ’556
Patent). Apart from this, Rovi does not address the
Legacy products separately in its reply. See Rovi Reply
at 111-14.
The administrative law judge has determined that
Rovi has not shown that the accused Legacy products
satisfy this limitation literally or under the doctrine of
equivalents.
Dr. Delp did not identify the allegedly infringing
component (e.g., by name, model number, etc.) in the
accused Legacy products with sufficient particularity.
See RX-0848C (Grimes RWS) at Q/A 168-69; see also
CX-0004C (Delp WS) at Q/A 260-61 (identifying the
Broadcom [ ] SoC within a proposed DI product). Dr.
Grimes, on the other hand, testified that a SoC is laterComcast contends that Rovi waived this argument because Rovi
did not present it in its pre-hearing brief. See Resps. Reply at 120
n.53.
40

204a
arising technology that was not an equivalent
component. See RX-0848C (Grimes RWS) at Q/A 168.
Rovi’s doctrine of equivalents argument does not
identify a structure and function that tracks the claim
language. For example, claim 3 requires the video
display generator to “displaying interactively-selected
successive portions of said schedule information for a
set of channels, including ones different from a
currently tuned channel, in overlaying relationship
with another display signal currently appearing on
said tuned channel in at least one mode of operation of
said programming guide,” while Dr. Delp opines that
an “electronic program guide that displays more
than one program listing at a time performs
substantially the same function—it provides a user
program schedule information while simultaneously
viewing a program” meets this limitation. See CX0004C (Delp WS) at Q/A 223 (emphasis added).
Additionally, Rovi’s argument is far too conclusory to
support a finding of infringement under the doctrine
of equivalents. See Medtronic, 558 F. App’x at 1000;
Cambrian, 617 F. App’x at 994; PACTIV Corp., 26 F.
App’x at 948 n.5.
Accordingly, Rovi has failed to show that the
accused Legacy products meet this limitation literally
or equivalently.
(6) Limitation 3e
The text for this limitation is “said data processing
means controlling said video display generator to
display each said portion of program schedule
information in partial overlaying relationship with
said currently appearing display signal[.]” See Rovi Br.
at 285.

205a
(a) X1 System
Rovi argues that the “GPU on the SoC” and “the OnScreen Guide and/or Mini Guide” satisfies this
limitation. Rovi Br. at 285-86.
Comcast argues that “the X1 IPG does not provide
any screen displaying program schedule information
with in a partial overlay by default.” Resps. Br. at 330.
Comcast then argues that the X1 Mini Guide differs
from a partial overlay because it is a “shrunken video
signal displayed along with the listing information in
a non-overlaying relationship.” In reply, Comcast
adds, “[t]he X1 Full Screen Grid is a total overlay of
the TV signal comprising opaque and translucent (but
no transparent) pixels, and the X1 Mini Guide does not
display any overlay whatsoever by default, an option
that is changed by only [ ] of X1 users.” Reply at 126.
The administrative law judge has determined that
the accused X1 products meet this limitation. The
evidence indicates that the X1’s Mini Guide can
display program schedule information in a partial
overlaying relationship with a currently showing
program. See CX-0004C (Delp WS) at Q/A 169; CX1640 at 4-9. Rovi, however, has not shown that the OnScreen Guide (the full-size guide) meets this
limitation, as that guide does not generate a partial
overlay. See RX-0848C (Grimes RWS) at Q/A 131.
(b) Legacy System
Rovi argues that the “Motorola DCX3501M’s SoC
(utilizing the GPU[)] is configured to generate opaque
and translucent graphics overlay between a layer of
currently appearing display signal, such as a T.V.
show, and a layer of program schedule information,
such as the Mini Guide.” CX-0004C (Delp WS) at Q/A

206a
231 (citing CX-1371C (Comcast RNG-200 Platform
Software Requirements Specification) at 45); Rovi Br.
at 294.
Comcast does not present separate argument for the
accused Legacy products. See Resps. Br. at 318, 33031.
The administrative law judge finds that the accused
Legacy products satisfy this limitation. See CX-0004C
(Delp WS) at Q/A 231; CX-1371C.
(7) Limitation 3f
The text for this limitation is “each said portion
comprising listing information for each successive one
of said television programs scheduled to appear on
said set of channels and being consecutively displayed
in response to corresponding consecutive ones of said
guide control commands for successively navigating
through listing information for sequential time periods
or programs for which program schedule information
is stored in said memory means[.]” See Rovi Br. at 286.
(a) X1 System
Rovi argues that the “On-Screen Guide and Mini
Guide of the X1 ’556 Patent Accused Products are
configured to respond to guide control commands by
responsively displaying the appropriate listing
information.” Rovi Br. at 286.
Comcast argues that the “accused X1 Mini Guide,
which shows multiple program listings at a time, does
not provide a display of a single program listing that
differs from the currently-viewed television program
in time and/or channel and thus does not satisfy
Browse Mode” and that “the X1 full-screen guide is not
Browse Mode because it covers the entire screen (and

207a
thus is not a partial overlay) and shows multiple
program listings over multiple channels and timeslots
(and thus fails to provide only a single program
listing).” Resps. Br. at 331-32.
The
administrative
law
judge
previously
determined that the prosecution history, figures, and
specification all indicate that “Browse Mode” lists
information corresponding to a single program at one
time. See Section IV(A)(2)(c)(6). The evidence that Rovi
relies upon, CX-0004C (Delp WS) at Q/A 162, 169; CX1640 (X1 Screenshots for the ’556 Patent), shows
guides with listing information for multiple programs
or channels. See RX-0848C (Grimes RWS) at Q/A 13640. Accordingly, the administrative law judge has
determined that the accused X1 products do not meet
this limitation.
(b) Legacy System
Rovi argues that the Legacy products’ Mini Guide
satisfies this limitation. Rovi Br. at 295. As with the
X1 products, the evidence that Rovi relies upon, CX0004C (Delp WS) at Q/A 233; CX-1601 (Legacy
Screenshots for the ’556 Patent), shows guides with
listing information for multiple programs or channels.
See RX-0848C (Grimes RWS) at Q/A 159-63.
Accordingly, the administrative law judge has
determined that the accused Legacy products do not
meet this limitation.
(8) Limitation 3g
The text for this limitation is “said data processing
means being responsive to said television tuning
commands for allowing a user to select any one of said
television programs for which listing information is

208a
displayed in said partially overlayed portion of said
schedule information.” See Rovi Br. at 288.
(a) X1 System
Rovi argues that the “X1 ’556 Patent Accused
Products allow a user to select a program from the OnScreen Guide or Mini Guide, different from the one
being watched.” Rovi Br. at 288. Comcast does not
present an argument for the accused X1 products. See
Resps. Br. at 318.
The administrative law judge has determined that
the accused X1 products satisfy this limitation. See
CX-0004C (Delp WS) at Q/A 165, 169; CX-1169C
(Xcalibur Mini Guide Flow, Templates and
Interaction) at 2-4; CX-1640 (X1 Screenshots for the
’556 Patent) at 2-3, 4-9.
(b) Legacy System
Rovi argues that the “Legacy Accused Products
allow a user to select a program from the Mini Guide,
different from the one being watched.” Rovi Br. at 295.
Comcast does not present an argument for the accused
Legacy products. See Resps. Br. at 318.
The administrative law judge has determined that
the accused Legacy products satisfy this limitation.
See CX-0004C (Delp WS) at Q/A 234; CX-1601 (Legacy
Guide Screenshots for the ’556 Patent).
(9) Claim 7
The text for claim 7 is: “7. The electronic
programming guide according to claims 1, 2, 3, 4, or 5
wherein said schedule information displayed by said
video display generator comprises at least program
title and program channel.” See JX-0001 (’556 Patent)
at 26:8-12; Rovi Br. at 288-89.

209a
(a) X1 System
Rovi argues that the “X1 ’556 Patent Accused Products
satisfy claim 7 because each is configured such that
the displayed scheduled information include at a
program title and program channel.” Rovi Br. at 288.
Comcast does not present an argument for the accused
X1 products. See Resps. Br. at 318.
The administrative law judge has determined that
the accused X1 products satisfy this limitation. See
CX-0004C (Delp WS) at Q/A 167, 169; CX-1640 (X1
Screenshots for the ’556 Patent) at 2 (On-Screen
Guide), 4 (Mini Guide). CX-0004C (Delp WS) at Q/A
169. The guides shown in CX-1640 include program
listings that comprise program title and channel
information. Id. However, claim 7 is not infringed
because claim 3 is not infringed. See Ferring B.V. v.
Watson Labs., Inc.-Florida, 764 F.3d 1401, 1411 (Fed.
Cir. 2014) (“Because we hold that the asserted
independent claims of Ferring’s patents are not
infringed, the asserted dependent claims are likewise
not infringed.”)).
(b) Legacy System
Rovi argues that the “Legacy Accused Products
satisfy claim 7 because each is configured such that
the displayed scheduled information includes a
program title and program channel.” Rovi Br. at 295.
Comcast does not present an argument for the accused
Legacy products. See Resps. Br. at 318.
The evidence shows that the accused Legacy
products display schedule information that includes a
program title and program channel. See CX-0004C
(Delp WS) at Q/A 235; CX-1601 (Legacy Guide
Screenshots for the ’556 Patent). The guides shown in

210a
CX-1601 include program listings that comprise
program title and channel information. Id.
Accordingly, the administrative law judge has
determined that the accused Legacy products satisfy
this limitation. However, claim 7 is not infringed
because claim 3 is not infringed. See Ferring, 764 F.3d
at 1411. 41
b) Claims 15 and 18
Claim 15 follows:
15. An electronic programming guide for
displaying
television
schedule
information on a video display on which
is displayed a display signal, said
programming guide comprising:
memory means for storing television
program schedule information;
user control means for choosing user
control commands, including selection
commands, guide channel-control and
guide time-control commands, and
transmitting signals in response thereto;
data processing means for receiving said
signals in response to said user control
commands; and
a program schedule display generator
coupled to said data processing means
In Ferring, the Federal Circuit found a dependent claim not
infringed because its corresponding independent claim was not
infringed. Ferring B.V. v. Watson Labs., Inc.-Florida, 764 F.3d
1401, 1411 (Fed. Cir. 2014) (“Because we hold that the asserted
independent claims of Ferring’s patents are not infringed, the
asserted dependent claims are likewise not infringed.”)).

41

211a
and said memory means for displaying,
in a partial overlay on said display
signal, user-selected portions of said
schedule information comprising listing
information for at least one program
different from said display signal, each
said portion of said schedule information
being interactively selected by a user and
consecutively displayed in response to
consecutive user-activated ones of said
guide control commands for successively
navigating through listing information
for sequential time periods or programs
for which program schedule information
is stored in said memory means;
said data processing means controlling
said program schedule display generator
to also selectively display reminder
selection messages in at least one mode
of operation of said programming guide,
for allowing said user to choose selection
commands in response to said reminder
selection messages for selecting a
reminder associated with a chosen future
program, each said selected reminder
message also to be displayed on said
display at a predetermined time prior to
the time of occurrence of each chosen
future one of said television programs,
said reminder message being displayed
in overlaying relationship with another
display signal being displayed at said
time said reminder message is displayed.
JX-0001 at 28:4-42.

212a
Claim 18 follows:
18. The television schedule system
according to claims 14, 15, 16, or 17
wherein the navigation is controlled by
user-activated direction keys provided
on said user control means.
Id. at 29:49-52.
(1) Claim 15
(a) X1 System
For claim 15, Rovi explains:
Claim 15 includes the same limitations
as claim 3, but adds “reminder message”
limitations: “said data processing means
controlling said program schedule
display generator to also selectively
display reminder selection messages
in at least one mode of operation of said
programming guide, for allowing said
user to choose selection commands in
response to said reminder selection
messages for selecting a reminder
associated with a chosen future program,
each said selected reminder message
also to be displayed on said display at a
predetermined time prior to the time of
occurrence of each chosen future one of
said
television
programs,
said
reminder message being displayed in
overlaying relationship with another
display signal being displayed at said
time said reminder message is
displayed.” JX-0001 (’556 Patent) at col.

213a
28, lns. 29-42 (emphasis added); CX0004C (Delp WS) at Q/A 170.
Rovi Br. at 289 (bolding added, italics in original). Rovi
then argues:
Claim 15 is satisfied for the same
reasons as claim 3. Id. With regard to the
“reminder message” limitations, the X1
’556 Patent Accused Products display
reminder selection messages in the OnScreen Guide and Mini Guide. CX-0004C
(Delp WS) at Q/A 171; id. at Q/A 169
(explaining the reminder selection
messages in CX-1640 (X1 Screenshots for
the ’556 Patent) at 46-50 (On-Screen
Guide), 54-60 (Mini Guide). Once a
reminder is set it will be displayed at a
predetermined time prior to the
occurrence of the chosen program and
the reminder message will be displayed
in an overlaying relationship with the
television
program
signal
being
displayed. CX-0004C (Delp WS) at Q/A
171. Comcast argues that reminder
selection messages must occur in
“browse mode.” RX-0848C (Grimes RWS)
at Q/A 143-44. Comcast is incorrect, but
in any event, Dr. Delp provided evidence
that the claimed reminder selection
messages occur in “browse mode.” CX0004C (Delp WS) at Q/A 169; CX-1640
(X1 Screenshots for the ’556 Patent) at
46-50, 55-57, 59-60; CDX-0607 (Delp WS
Demonstrative) at 9-19.
Id. at 289-90 (footnote omitted).

214a
Comcast argues that claim 15’s “reminder
functionality … must also occur in Browse Mode” and
that the accused products cannot infringe because “the
reminder selection message functionality does not
occur in Browse Mode.” Resps. Br. at 334-35. Comcast
also argues that Rovi’s expert “failed to identify any
‘reminder selection message’ … as Claim 15 requires.”
Id. at 334.
The administrative law judge has determined that
the accused X1 products satisfy this limitation. The
X1’s On-Screen (full size) and Mini Guides can display
reminder messages in browse mode. See CX-1640 at
46-50, 55-57, 59-60; CX-0004C (Delp WS) at Q/A 169.
The messages are partially overlaid over a current
program. Id. CX-1640 at 50, 60.
Although the administrative law judge has found
that the accused X1 products satisfy this limitation,
the accused X1 products still do not infringe claim 15
because Rovi has not shown that claim 7(3) is
infringed.
(b) Legacy System
Rovi argues:
The Legacy Accused Products display
reminder selection messages in the Mini
Guide. CX-0004C (Delp WS) at Q/A 237
(discussing CX-1601 (Legacy Guide
Screenshots for the ’556 Patent) at 1518). Once a reminder is set it will be
displayed at a predetermined time prior
to the occurrence of the chosen program
and the reminder message will be
displayed in an overlaying relationship
with the television program signal being

215a
displayed. CX-0004C (Delp WS) at Q/A
237 (discussing CX-1601 (Legacy Guide
Screenshots for the ’556 Patent) at 1518). Even if the reminder selection
messages must occur in “browse mode”
(they do not), Dr. Delp provided evidence
that the claimed reminder selection
messages occur in “browse mode.”
Rovi Br. at 296 (footnote omitted).
Comcast argues that Rovi has “have not established
that the reminder selection messages occur as a
second overlay ‘appearing above the BROWSE overlay’
or any other overlay.” Resps. Br. at 335 (emphasis
added by Comcast).
The administrative law judge has determined that
the accused Legacy products satisfy this limitation.
The Legacy Guide can display reminder messages in
browse mode. See CX-0004C (Delp WS) at Q/A 237;
CX-1601 (Legacy Guide Screenshots for the ’556
Patent) at 15-18. The messages are partially overlaid
over a current program. Id. CX-1640 at 15-18.
Although the administrative law judge has found
that the accused Legacy products satisfy this
limitation, the accused Legacy products still do not
infringe claim 15 because Rovi has not shown that
claim 7(3) is infringed.
(2) Claim 18
(a) X1 System
For claim 18, Rovi’s entire argument is:
This claim limitation is satisfied by the
X1 ’556 Patent Accused Products’
infringement of claim 15 coupled with

216a
the capability of navigation controlled by
user-activated direction keys provided
on the remote controller. CX-0004C
(Delp WS) at Q/A 173; CX-1214 (Learn to
Navigate Your X1 Guide).
Id. at 290-91. Comcast does not present an argument
for the accused X1 products. See Resps. Br. at 318.
The administrative law judge has determined that
the accused X1 products satisfy this limitation. See
CX-0004C (Delp WS) at Q/A 173; CX-1214 (Learn to
Navigate Your X1 Guide). The X1 guides are controlled
by a remote control having arrow keys. See id.
However, claim 18 is not infringed because claim 15 is
not infringed. See Ferring, 764 F.3d at 1411.
(b) Legacy System
For claim 18, Rovi’s entire argument is:
This claim limitation is satisfied by the
Legacy Accused Products’ infringement
of claim 15 coupled with the capability of
navigation controlled by user-activated
direction keys provided on the remote
controller. CX-0004C (Delp WS) at Q/A
239; CX-1207 (Comcast - Your Xfinity
User Guide); CDX-0621C (Delp WS
Demonstrative) at 142-43.
Id. at 290-91. Comcast does not present an argument
for the accused Legacy products. See Resps. Br. at 318.
The administrative law judge has determined that
the accused Legacy products satisfy this limitation.
See CX-0004C (Delp WS) at Q/A 239; CX-1207
(Comcast - Your Xfinity User Guide). The Legacy
guides are controlled by a remote control having arrow

217a
keys. See id. However, claim 18 is not infringed
because claim 15 is not infringed. See Ferring, 764
F.3d at 1411.
c) Claim 40
Claim 40 follows:
40. An electronic programming guide for
displaying
television
schedule
information on a video display on which
is displayed a display signal, said
programming guide comprising:
memory means for storing television
program schedule information;
user control means for choosing user
control commands, including television
tuning, guide channel-control and guide
time-control
commands,
and
transmitting signals in response thereto;
data processing means for receiving said
signals in response to said user control
commands; and
a program schedule display generator
coupled to said data processing means
and said memory means for displaying,
simultaneously with said display signal,
user-selected portions of said schedule
information
comprising
listing
information for at least one program
different from said display signal, each
said portion of said schedule information
being interactively selected by a user and
consecutively displayed in response to
consecutive user-activated ones of said

218a
guide control commands for successively
navigating through listing information
for sequential time periods or programs
for which schedule information is stored
in said memory means, said data
processing means being responsive to
said television tuning commands for
allowing a user to select any one of said
television programs for which listing
information is displayed.
JX-0001 at 36:32-60.
For claim 40, Rovi explains:
Claim 40 is nearly identical to claim 3.
CX-0004C (Delp WS) at Q/A 6, 174.
Claim 40 includes a requirement that “a
program schedule display generator
coupled to said data processing means
and said memory means for displaying,
simultaneously with said display signal,
user-selected portions of said schedule
information
comprising
listing
information for at least one program
different from said display signal.” JX0001 (’556 Patent) at col. 36, lns. 45-50.
Rather than a partial overlay, claim 40
requires a “simultaneous” display of a
guide and program. CX-0004C (Delp WS)
at Q/A 174. Simultaneous display can be
thought of as picture in picture—none of
either display is cut off. Id. at Q/A 175.
In contrast, in the case of display by
partial overlay, it is possible for part of
the television program to be cut off. Id. at
Q/A 175.

219a
Rovi Br. at 291 (footnote omitted). Rovi then argues:
The X1 ’556 Patent Accused Products
provide for the simultaneous display of a
guide with a television show. CX-0004C
(Delp WS) at Q/A 176. The default
setting for the Mini Guide is to display
scaled down version of the television
program adjacent to the program
schedule information. Id. The On-Screen
Guide can also be configured to present a
scaled down version of the television
program (at the bottom right comer of
the screen) while displaying program
schedule information. Id.
Id. For the Legacy products, Rovi’s entire argument is:
The Legacy Accused Products provide for
the simultaneous display of a guide with
a television show. CX-0004C (Delp WS)
at Q/A 241.
Id. at 296-97.
For claim 40, Comcast does not present a specific
argument for the accused X1 or Legacy products. See
Resps. Br. at 318-19. However, Comcast argues:
Rovi’s Pre-Hearing Brief failed to offer
any construction for the disputed
“program schedule display generator”
terms of Claims 18(15) and 40, and
arguments regarding these terms are
waived. Under Comcast’s unrebutted
proposed construction, Claims 18(15)
and 40 cannot be infringed by the
Accused Products, which lack the recited
structure or a then-existing 112(6)

220a
equivalent. Those same arguments apply
in equal force to Rovi’s allegations that
Claim 7(3) is infringed.
Id. at 319.
The administrative law judge previously construed
the “program schedule display generator” phase in
claim 40 as a means-plus-function limitation and also
found that the accused products do not satisfy the
“video display generator” in claim 3 (limitation 3d). See
Sections IV(A)(2)(c)(4); IV(A)(4)(a)(5). For the reasons
provided in Sections IV(A)(2)(c)(4) and IV(A)(4)(a)(5),
the accused X1 and Legacy products do not satisfy the
“program schedule display generator” limitation, and
thus do not infringe claim 40.
d) Comcast’s Alternative Design
Comcast argues that it has proposed an alternative
design that does not infringe. See Resps. Br. at 338.
Rovi argues:
First, Comcast provided no evidence that
its “alternative design” has been used in
any set-top box—and the only evidence
in the record is that it has not. CX-0004C
(Delp WS) at Q/A 249. Second, Comcast
never produced any code relating to any
alternative design. Third, Comcast’s
corporate witness testified that no
alternative had been tested. Id. at Q/A
248. Finally, even if implemented,
Comcast’s alleged alternative design for
the ’556 patent would not be practical as
it would simply remove the overlay
functionality. Id. at Q/A 251.

221a
Rovi Br. at 297.
Comcast argues that its alternative design:
[

]

Resps. Br. at 338.
Rovi replies:
Comcast asserts that it provided
“reworked” software for inspection prior
to the close of discovery. Resps. Br. at
337. It did not. CX-0004C (Delp WS) at
Q/A 245; Compls. Br. at 297. [ ] it offers
no evidence that it has been deployed—
and the only evidence in the record is
that it has not. CX-0004C (Delp WS) at
Q/A 249, 251. Thus, Comcast’s
“alternative design” is irrelevant.
Rovi Reply at 114.
The administrative law judge has determined that
the alternative design(s) Comcast has identified are
too hypothetical to adjudicate. Comcast’s witness
testified that the proposed alternative has not been
“alpha or beta” tested and has not been provided to
customers since the Comcast-Rovi license expired. See
JX-0109C (Nush Dep. Tr.) at 136-39; see also CX0004C (Delp WS) at Q/A 244-49.
5. Indirect Infringement
In the event that the accused X1 or Legacy products
are found to infringe the ’556 Patent, the
administrative law judge has analyzed Rovi’s
inducement
and
contributory
infringement
arguments.

222a
a) Knowledge of the ’556 Patent and
Specific Intent to Infringe
Indirect infringement requires that the infringer
have specific intent to encourage infringement.
Commil USA, LLC v. Cisco Sys., Inc., 135 S. Ct. 1920,
1928 (2015) (“Section 271(b) requires that the
defendant ‘actively induce[d] infringement.’ That
language requires intent to ‘bring about the desired
result,’ which is infringement.”); see also Global-Tech
Appliances, Inc., v. SEB S.A., 131 S. Ct. 2060 (2011).
Such specific intent can be shown by, for example, (1)
changes in importation practices effectuated to shift
infringement liability, (2) the infringer’s copying of
patented technology, and (3) the infringer’s willful
blindness of the underlying direct infringement. See,
e.g., SynQor, Inc. v. Artesyn Techs., Inc., 709 F.3d 1365,
1384-85 (Fed. Cir. 2013); Commil USA, LLC, 135 S. Ct.
at 1924-25; Global-Tech, 131 S. Ct. at 2071-72.
“Willful blindness” is sufficient to meet the
knowledge and specific intent requirement of induced
infringement. Global-Tech, 131 S. Ct. at 2071-72. A
finding of willful blindness requires (1) the subjective
belief in the high probability that a fact exists, and (2)
the taking of deliberate steps to avoid learning of that
fact. Id. at 2070. The first prong may be found upon a
showing that the party “was successful in its attempts
to develop various functions covered by the [asserted]
patent into its products.” See, e.g., Suprema, 796 F.3d.
at 1343. The failure to obtain opinion of counsel
through which infringing conduct and/or the asserted
patent(s) can be discovered can also support a finding
of deliberate avoidance. Suprema, Inc. v. Int’l Trade
Comm’n, 2015 WL 5315371, *7 (Fed. Cir. Sept. 14,
2015) (panel remand).

223a
As discussed below, the administrative law judge
has determined that Rovi has shown Comcast was
willfully blind to the circumstances surrounding its
infringement of the ’556 Patent.
Rovi argues that Comcast induces its product
suppliers:
Comcast has induced, and continues to
induce,
its
OEMs,
ARRIS
and
Technicolor, to directly infringe the
Asserted Claims of the Asserted Patents
under 35 U.S.C. § 271(b) by, among other
things: (1) purchasing the accused settop boxes from Arris and Technicolor; (2)
causing
the
manufacture
and
importation of infringing devices to
occur; and (3) requiring the installation
of the relevant software onto the set-top
boxes prior to their importation. See
Section VIII(F), infra; Section IV(B),
supra. For example, Comcast [ ] Id.
Rovi Br. at 297. Rovi also argues that Comcast induces
its customers:
Comcast also induces its customers to
directly infringe the ’556 Patent by
instructing its customers and end users
to commit acts of infringement.
Specifically, Comcast instructs, directs,
or advises its users how to carry out
direct infringement of the asserted
claims. For example, Comcast provides
its users CX-1693 (X1 Installation
Video), which instructs its customers on
how to install the X1 operating system so
that they can use the Comcast X1

224a
system. Likewise, Comcast provides its
users CX-1694 (How to Use Your X1
Guide and DVR), which instructs its
customers on how to use their X1 Guide
and the DVR. See also CX-1695 (The X1
Platform from Xfinity) (online video
which instructs its users on how to use
the X1 platform); CX-1801-09 shows how
Comcast instructs its customers to
install and configure the X1 and Legacy
services at the customers’ homes. These
“self-installation” kits require customers
to use the X1 and Legacy services in an
infringing
manner.
Accordingly,
Comcast induces users to operate the
Accused Products in an infringing
manner.
Id. at 297-98.
Comcast argues:
Under
Respondents’
proposed
constructions of the disputed claim
terms, the Accused Products do not
infringe any of the Asserted Claims.
Moreover, even if, arguendo, all of
Respondents’ proposed constructions
that would result in a finding of noninfringement are ultimately not adopted
by the ALJ, each proposed construction
that would have resulted in a finding of
non-infringement,
whether
independently or in combination with
other terms, is still objectively
reasonable, which rebuts any alleged
“intent” to infringe. See Commil, 135 S.

225a
Ct. at 1928; RX-0848C (Grimes RWS) at
Q/A 172 & 176. Rovi’s conclusory
assertions about indirect infringement
for both the X1 and Accused Legacy
STBs fail to cite any supporting evidence
and thus cannot establish the requisite
intent. See id. at Q/A 174-75. Similarly,
ARRIS and/or Technicolor cannot
infringe and cannot have the requisite
intent to indirectly infringe, because
they neither provide any IPG software
installed on the STBs nor have any
control over its parameters or features,
which are instead determined by
Comcast. Id. at Q/A 172.
Resps. Br. at 336-37.
To begin, Rovi has shown that Comcast had actual
knowledge of the ’556 Patent since at least since 2014,
when Comcast and Rovi held license-renewal
discussions. CX-1725C (Comcast Interrog. Resp.) at
11-13; see also CX-0275C (Email Chain between J.
Finnegan and E. Rutter re: Follow Up on Your
Presentation); CX-1505C (Rovi Patent Spreadsheet).
Comcast does not argue that it lacked knowledge of the
’556 Patent. See generally Resps. Br., Section XI(E).
Further, Comcast knew, or was willfully blind to the
high probability, that its actions would cause its
suppliers and its customers to infringe the ’556 Patent.
Comcast previously licensed the ’556 Patent (in other
words, it paid for the right to infringe it). See CX0001C (Armaly WS) at Q/A 114 (discussing the
licensed patents and the license, JX-0051C). It also
received claim charts articulating Rovi’s infringement
allegations and did not respond to them, and it has not
disclosed any exculpatory opinion of counsel despite

226a
retaining opinion counsel. Id. at Q/A 114 (discussing
the licensed patents and the license, JX-0051C), Q/A
120-24, 129-30 (discussing claim charts); RX-0860C
(Comcast’s Chief Patent Counsel’s testimonial aid
showing retention of opinion counsel); Suprema, Inc. v.
Int’l Trade Comm ’n, 626 F. App’x 273, 282 (Fed. Cir.
2015) (panel remand) (affirming conclusion of specific
intent where the “Commission also found that
Suprema’s failure to obtain an opinion of counsel
constituted an additional fact evidencing Suprema’s
willful blindness.”). 42 Comcast even marked its Legacy
Guide with the ’556 Patent. See CX-1676 (Screenshot
of Comcast Marking its Legacy Product with U.S.
Patent No. 6,418,556); see also CX-0004C (Delp WS) at
Q/A 127.
Comcast’s assertions that the “reasonable claim
constructions” it developed during the litigation
negate its pre-suit intent do not rebut the facts that
support finding it had the intent to infringe Rovi’s
patents. Additionally, Comcast’s argument, if
accepted, would negate § 271(b), because almost every
accused infringer can advance a reasonable claim
construction or non-infringement argument. See
Certain
Semiconductor
Chips
and
Products
Containing Same, Inv. No. 337-TA-753, USITC Pub.
No. 4386, Comm’n Op. at 41 (Mar. 2013) (affirming
finding of induced infringement where respondents
asserted “they had plausible litigation defenses”
To the extent Comcast argues it relied upon an opinion of
counsel, it has not shown it relied upon the opinion. See Bose
Corp. v. SDI Techs., Inc., 558 F. App’x 1012, 1024 (Fed. Cir. 2014)
(“Without proof of good-faith reliance, possession of the opinion
alone is hardly dispositive of the state of mind necessary to avoid
liability.”).
42

227a
because “[m]any or most accused infringers have such
plausible defenses[.]”).
b) Indirect Infringement of the ’556
Patent in the United States
(1) Comcast’s Customers
Rovi has not sufficiently shown that customers
actually utilize the accused products—the X1 and
Legacy guides—in an infringing manner. In
particular, Rovi cites Comcast videos, webpage
printouts, and installation materials to argue that
Comcast’s users infringe the ’556 Patent. 43 See Rovi
Br. at 298 (“These ‘self-installation’ kits require
customers to use the X1 and Legacy services in an
Rovi points to CX-1694 (How to Use Your X1 Guide and DVR),
as an example of how Comcast instructs its customers on how to
use their X1 Guide and the DVR. Rovi also cites CX-1695 (The X1
Platform from Xfinity) as an example of an online video which
instructs its users on how to use the X1 platform). Comcast
contends CX-1801-09 show how Comcast instructs its customers
to install and configure the X1 and Legacy services at the
customers’ homes. In footnote 58, Rovi explains each exhibit, as
follows:
43

CX-1801 (Xfinity Install/Activate Instructions); CX-1802
(X1 Self Installation Kit, What’s Included); CX-1803 (X1
Self Installation Kit, Prepare for Installation,); CX-1804
(X1 Self Installation Kit, X1 Activation); CX-1805 (X1
Self Installation Kit, Contact us); CX-1806 (Legacy Self
Installation Kit, What’s Included); CX-1807 (Legacy Self
lnstallation Kit, Prepare for Installation,); CX-1808 (Self
Installation Kit Connection and Activation Overview
Video); CX-1809 (Comcast Legacy Self Installation Kit,
Contact Us). These “self-installation” kits require
customers to use the X1 and Legacy services in an
infringing manner.
See Rovi Br. at 298.

228a
infringing manner.”). Rovi does not cite the testimony
of its expert, who opined, as follows:
Q129. Do you have an opinion
regarding indirect infringement of
the ’556 and ’871 Patents by
Comcast, Arris and Technicolor X1
set top boxes?
A. In my opinion that each of Comcast,
Arris and Technicolor indirectly infringe
each asserted claim of each asserted
Patent by induced or contributory
infringement. This is because each X1
accused product contains all of the
needed hardware and software to be
capable of infringing at the time of
importation, each such product is [ ]
Q130. Are the accused X1 set top
boxes a staple article of commerce?
A. No. The X1 boxes are not a staple
article
of
commerce
or
generic
component. Each X1 set top box contains
hardware and software that is
specifically adapted and is intended to
infringe the asserted claims of the
asserted Patents at the time of
importation.
Q131. Based on information you
reviewed, does Comcast, Arris and
Technicolor understand how the set
top boxes will be used after
importation?
A. Yes. The information I reviewed,
including
deposition
transcripts,

229a
confirms that Comcast, Arris, and
Technicolor each understand that after
each X1 set top box is imported to the
United States each will used by
Comcast’s customers and users of
Comcast’s domestic cable network, in its
normal and expected way to access
television and other programming and
content on Comcast’s domestic cable
network. My understanding is that each
X1 set top box is in fact used by users in
its normal and expected manner. In my
opinion, when used in that manner, each
set top box necessarily infringes the
asserted claims of the ’556 and ’871
Patents.
CX-0004C (Delp WS) at Q/A 129-131 (the Legacy
products are not addressed).
Rovi’s reliance on videos and installation
instructions establishes that Comcast told its
customers to install and use the accused products, not
that the customers actually received the inducing
instructions and performed them. In other words,
while the evidence is probative of Comcast’s intent and
Comcast’s actions, it does not establish that its
customers actually used the claimed electronic
programming guide. See RX-0848C (Grimes WS) at
Q/A 174-76 (critiquing Dr. Delp’s testimony); Epcon
Gas Sys., Inc. v. Bauer Compressors, Inc., 279 F.3d
1022, 1033-34 (Fed. Cir. 2002) (explaining the rule
that “[u]pon a failure of proof of direct infringement,
any claim of inducement of infringement also fails”
and then reversing summary judgment of no
infringement based upon evidence that the defendant
demonstrated the product to prospective buyers).

230a
Finally, the Joint Outline presents an issue of
whether Comcast induces its customers to infringe
under the doctrine of equivalents. See Joint Outline at
24. The administrative law judge found that the
accused X1 and Legacy products do not infringe under
the doctrine of equivalents. Rovi does not present any
separate, substantive argument about inducing
infringement in the context of its doctrine of
equivalents
arguments.
Accordingly,
the
administrative law judge finds that Comcast does not
induce its customers to infringe with the accused X1
and Legacy products under the doctrine of equivalents.
(2) Comcast’s Suppliers
For ARRIS and Technicolor, Rovi alleges “Comcast
has induced, and continues to induce, its OEMs,
ARRIS and Technicolor, to directly infringe the
Asserted Claims of the Asserted Patents under 35
U.S.C. § 271 (b)[.]” Resps. Br. at 297. Rovi argues that
[
] Rovi Br. at 297. Rovi relies upon the same
argument and evidence presented in its arguments
that Comcast contributorily infringes the ’556 Patent.
See id. (citing “Section VIII(F), infra”).
Comcast argues that “ARRIS and/or Technicolor
cannot infringe and cannot have the requisite intent to
indirectly infringe, because [
] [RX-0848C (Grimes
RWS)] at Q/A 172.” Resps. Br. at 337.
The administrative law judge has determined that
ARRIS and Technicolor do not contributorily infringe
the ’556 Patent. See Section IV(5)(c), infra. Further,
Rovi has not sufficiently shown that Comcast had the
requisite intent to induce ARRIS and Technicolor to
infringe the ’556 Patent. See generally Rovi Br., 29798 (the evidence concerning user installation videos,
the “How to Use Your X1 Guide and DVR” document,

231a
and other similar documents does not apply to ARRIS
or Technicolor).
Accordingly, the administrative law judge has
determined that Rovi has not shown that Comcast
induces ARRIS and Technicolor induce infringement
of the ’556 Patent.
Finally, the Joint Outline presents an issue of
whether ARRIS or Technicolor contribute to
infringement under the doctrine of equivalents. See
Joint Outline at 24. The administrative law judge
found that the accused X1 and Legacy products do not
infringe under the doctrine of equivalents. Rovi does
not present any separate, substantive argument about
contributory infringement in the context of its doctrine
of
equivalents
arguments.
Accordingly,
the
administrative law judge finds that Rovi has not
shown that ARRIS or Technicolor contribute to
infringement under the doctrine of equivalents.
c) Contributory Infringement of the ’556
Patent
To prevail on a contributory infringement claim, a
complainant must show that, inter alia, the accused
product is “not a staple article or commodity of
commerce suitable for substantial noninfringing
use[.]” See 35 U.S.C. § 271(c); Fujitsu, 620 F.3d at 1326
(“To establish contributory infringement, the patent
owner must show the following elements relevant to
this appeal: 1) that there is direct infringement, 2) that
the accused infringer had knowledge of the patent, 3)
that the component has no substantial noninfringing
uses, and 4) that the component is a material part of
the invention.”).

232a
When a “product is equally capable of, and
interchangeably capable of both infringing and
substantial non-infringing uses, a claim for
contributory infringement does not lie.” In re Bill of
Lading Transmission & Processing Sys. Patent Litig.,
681 F.3d 1323, 1338 (Fed. Cir. 2012). The Federal
Circuit has explained that “non-infringing uses are
substantial when they are not unusual, far-fetched,
illusory, impractical, occasional, aberrant, or
experimental.” Vita-Mix Corp. v. Basic Holding, Inc.,
581 F.3d 1317, 1327 (Fed. Cir. 2009). A court may
“consider not only the use’s frequency, but also the
use’s practicality, the invention’s intended purpose,
and the intended market” in determining if a
particular use is substantial. See i4i Ltd. P’ship v.
Microsoft Corp., 598 F.3d 831, 851 (Fed. Cir. 2010),
aff’d sub nom, 564 U.S. 91 (2011). “For purposes of
contributory infringement, the inquiry focuses on
whether the accused products can be used for
purposes other than infringement.” Bill of Lading
Transmission & Processing Sys. Patent Litig., 681 F.3d
at 1338 (emphasis added).
Rovi argues:
ARRIS and Technicolor directly infringe
the ’556 Patent as discussed above.
ARRIS and Technicolor are contributory
infringers of all the Asserted Claims of
the ’556 Patent because they import into
the United States a component of a
patented
machine,
manufacture,
combination or composition, or a
material or apparatus for use in
practicing
a
patented
process,
constituting a material part of the

233a
invention, knowing the same to be
especially made or especially adapted for
use in an infringement of the ’556
Patent, and not a staple article or
commodity of commerce suitable for
substantial non-infringing use. See
Sections III, V(F), VI(I), VII(F), supra.
Rovi Br. at 302. Rovi then argues that ARRIS and
Technicolor knew of the asserted patents at least since
April 1, 2016, that the products do not have
substantial non-infringing uses, that ARRIS and
Technicolor “sign off” on Comcast software, and that
the accused products are[ ] Id. at 302-04.
Comcast argues:
Comcast has not induced direct
infringement by another of the Asserted
Claims as discussed above in subsection
D, the Accused Products do not infringe
the Asserted Claims. Nor can ARRIS and
Technicolor directly infringe because
they do not import products that satisfy
the recited limitations of the Asserted
Claims. RX-0848C (Grimes RWS) at Q/A
177. For both X1 and Legacy STbs,
neither ARRIS nor Technicolor imports
the user control means identified by Dr.
Delp (i.e., remote controls), without
which ARRIS and Technicolor cannot
infringe. Id. For X1, Rovi has not
demonstrated that the recited “data
processing means” limitations, which
control
“partial
overlay”
or
“simultaneous display” are imported, or
sold after importation by ARRIS or

234a
Technicolor. Id. There is no such
processor in any ARRIS or Technicolor
STB for the X1 Accused Products,
because that functionality is provided by
[ ] in the cloud, as discussed above. See
§§ I.E., I.G, VI.A.
Resps. Br. at 336.
(1) X1 System
The administrative law judge has determined that
Rovi has fallen short of meeting its burden of showing
that the accused products have no substantial noninfringing uses; rather, the evidence shows that the
accused products have many substantial noninfringing uses, such as watching television programs.
RX-0848C (Grimes RWS) at Q/A 170. Further, Rovi’s
expert testified that he did not provide any analysis on
this issue:
Q. Okay. In your patent — in your
witness statement, you talk about
indirect infringement. Do you recall
that?
A. Yes.
Q. Okay. But I didn’t see you anywhere
in your witness statement mention
whether the accused products are a
commodity of commerce suitable for
substantial noninfringing use.
A. I don’t recall if I put that in my
witness — if that’s in my witness
statement or not.
Q. I didn’t see it in there. Do you
remember? You don’t remember?

235a
A. It’s a pretty big statement. I don’t — I
don’t remember.
…
Q. And you don’t have any analysis in
your witness statement, I think we’ve
already established that, that the X1 box
is a commodity of commerce suitable for
substantial noninfringing use? You don’t
have any opinions on that?
A. Well, I don’t recall whether there’s
anything in my witness statement to
that effect.
Tr. 987-988, 1019; see also Rovi Br., Section VIII(F)
(Rovi does not address this issue). Accordingly, the
accused X1 products do not contributorily infringe the
’556 Patent.
(2) Legacy System
Rovi does not advance a separate argument for the
accused Legacy products. See generally Rovi Br.,
Section VIII(F). Likewise, Comcast does not advance a
separate argument for the accused Legacy products.
See Resps. Br., Section XI(E)(4).
Accordingly, as with the X1 products, the
administrative law judge has determined that Rovi fell
short of meeting its burden of showing that the
accused Legacy products have no substantial noninfringing uses.
6. Domestic Industry – Technical Prong
Rovi has identified its i-Guide and Passport
Systems, the SuddenLink System, and a Verizon guide
as the domestic industry products. See Rovi Br. at 304.

236a
Rovi contends these products practice claims 7, 18, and
40.
Comcast presents a three-part omnibus critique of
Rovi’s domestic industry case for the ’556 Patent. See
Resps. Br. at 339-40. Comcast argues:
1) Rovi did not “address any hardware
limitations for its Passport and
SuddenLink’s iGuide IPGs”
2) Rovi “only addresse[d] the preamble of
Claim 3 for the Passport IPG” and did
not address any “specific claim for the
SuddenLink iGuide product”
3) Rovi did not establish the DI products’
memory means, display generators, and
data processing means are 112(6)
equivalents.
Id. These arguments are addressed below.
a) Claims 3 and 7
(1) Limitation 3pre
The text for this limitation is “3. An electronic
programming guide for use with a television receiver
having a plurality of television channels for displaying
television
programs
and
program
schedule
information
for
said
television
programs
comprising[.]” See Rovi Br. at 278.
(a) Rovi i-Guide & Passport
Rovi argues:
The Rovi i-Guide and Rovi Passport
products (collectively, the “Rovi Guides”)
may be considered together as both [ ]
and have the same features as they apply

237a
to the ’556 Patent. CX-0004C (Delp WS)
at Q/A 252, 254. The Rovi Guides are
designed to be used with a television
system including a receiver capable of
tuning to multiple channels. Id. The
purpose of the Rovi Guides is displaying
television programs and program
schedule information. Id.; CX-1594 (iGuide Screenshots (including Total
Guide xD) for the ’556 Patent) at 1.
Rovi Br. at 304-05.
The administrative law judge has determined that
the Rovi products satisfy this limitation. See CX0004C (Delp WS) at Q/A 255 (“The i-Guide is
implemented on set-top boxes, such as the [ ]
and
accompanying remote control devices, loaded with
Rovi i-Guide software. I call this the ‘i-Guide
System’.”).
(b) SuddenLink
Rovi’s entire argument for every limitation of the
SuddenLink guide follows:
SuddenLink uses the Rovi i-Guide for its
set-top box. CX-0004C (Delp WS) at Q/A
329. The SuddenLink Guide practices
Claims 3, 15, and 18 for the same reasons
the Rovi i-Guide practices those claims.
Id.; see also CX-1613 (SuddenLink
Screenshots for the ’556 Patent)
(providing screenshots of the i-Guide
implemented in a SuddenLink set-top
box).
Rovi Br. at 307. Dr. Delp’s testimony is based on a
review the SuddenLink Licensee guide (i.e., the

238a
program guide) and screenshots taken by another
expert witness. See, e.g., CX-0004C (Delp WS) at Q/A
328 (the Licensee guide is referenced, but no exhibit is
cited); CX-1613 (these are SuddenLink screenshots);
CX-1764C (this is the “initial expert report of Jim C.
Williams” that contains SuddenLink screenshots); CX0005C (Williams WS) at Q/A 189-90. Dr. Delp did not
analyze any particular set-top box:
Q329. Based on that review [of the
SuddenLink Licensee Guide], do
you have an opinion as to whether
the SuddenLink licensee guide, as
displayed from set top boxes,
practices claims of the ’556 Patent?
A. Yes, in my opinion, this guide, as
displayed from set top boxes, practices
claims of the ’556 Patent. SuddenLink
uses the Rovi i-Guide System for its set
top box. Accordingly, for the same
reasons that Rovi’s i-Guide System
practices claims 3, 15, and 18, the
SuddenLink guide operating on a set top
box practices these same claims. See
generally CX-1613 and CDX-0646.
CX-0004C (Delp WS) at Q/A 329.
The administrative law judge has determined that
Rovi has not shown that the SuddenLink products
satisfy the domestic industry technical prong. With
regard to the preamble, neither Rovi nor Dr. Delp has
identified the television receiver mentioned in the
preamble (limitation 3pre). Further, neither Rovi nor
Dr. Delp has identified the claimed memory means
(limitation 3a), user control (limitation 3b), data
processor (limitation 3c), or video display generator

239a
(limitation 3d). See CX-0004C (Delp WS) at Q/A 329.
This is not sufficient to support a finding that the Rovi
products practice these limitations.
(c) Verizon FiOS
Rovi argues that the FiOS guide, which is run on
the [
] set-top boxes and includes a remote control,
when operating in “mini guide” mode, satisfies this
limitation. See Rovi Br. at 307; CX-0004C (Delp WS)
at Q/A 310-11.
The administrative law judge has determined that
the Verizon products satisfy this limitation. See CX0004C (Delp WS) at Q/A 311 (“The FiOS System
includes television receivers, including set-top boxes,
such as the [
] and accompanying remote control
devices. As implemented, the FiOS System generates
a mini guide, which displays television programs and
program schedule information for the television
programs.”).
(2) Limitation 3a
The text for this limitation is “memory means for
storing television program schedule information for a
set of television programs scheduled to appear on said
plurality of television channels[.]” See Rovi Br. at 280.
(a) Rovi i-Guide & Passport
Rovi’s entire argument is:
[

]

Rovi Br. at 305. Dr. Delp’s testimony on this
limitation follows:
Q257. Let’s turn to limitation 3a,
which requires a “memory means
for storing television program

240a
schedule information for a set of
television programs scheduled to
appear
on
said
plurality
of
television
channels;”
In
your
opinion, does the Rovi i-Guide
practice this limitation?
A. [

]

CX-0004C (Delp WS) at Q/A 257. JX-0110C (Oliver
Tr.) at 30:19-24, which was not designated testimony,
follows:
Q. [

]

A. [

]

JX-0110C (Oliver Tr.) at 65:17-22 follows:
Q. (BY MR. CAMPBELL) I’ll rephrase
the question slightly. The iGuide
software, is that stored in memory on the
set top box?
A. [

]

Q. [

]

A. [

]

CX-0372 is a webpage from the “Electronics 360” page.
The webpage indicates an October 28, 2011 byline, and
it attributes the work to “IHS Technology Teardown
Services.” Id. at 1.
For the memory means, Comcast argues that Rovi
did not identify the memory means and that “Rovi has
failed to even allege that each element existed at the
time of patenting; the cited documentation, if
anything, shows that these memory elements did not
exist at that time.” Resps. Br. at 340.

241a
The administrative law judge has determined that
Rovi has not shown that its products practice this
limitation. [
] See also RX-0848C (Grimes RWS) at
Q/A 186-87. Rovi and Dr. Delp’s citation to JX-0110C
(Oliver Tr.) does not identify a memory within the settop box. Likewise, Rovi and Dr. Delp’s reliance upon
CX-0372 (the “Teardown” document) does not identify
a memory that corresponds to the claim “memory
means.” Moreover, the source of the exhibit is not
explained, there is no indication that the “Teardown”
is accurate, and there is no confirmation that the boxes
described in the Teardown were actually equipped
with a Rovi guide. See CX-0372 (the “Target Market”
for the boxes is “North American cable service
operators - specifically (as labeled on this device)
Comcast”). For these reasons, Rovi has not shown that
its products meet the “memory means” limitation (3a).
(b) SuddenLink
The administrative law judge has determined that
Rovi has not shown that the SuddenLink products
satisfy this limitation. Neither Rovi nor Dr. Delp has
identified the claimed memory means (limitation 3a).
This is not sufficient to support a finding that the Rovi
products practice this limitation.
(c) Verizon FiOS
Rovi’s entire argument is:
[

]

Rovi Br. at 307. Dr. Delp’s testimony follows:
Q312. Please look at 3a: “memory
means
for
storing
television
program schedule information for a
set of television programs scheduled

242a
to appear on said plurality of
television
channels;”
In
your
opinion, does the FiOS guide as
displayed from a set top box
practice this limitation?
A. Yes. The Verizon FiOS receivers, such
as the [ ] have a memory for storing
television
program
schedule
information, which is shown in the [ ]
Installation and Operation Manual, CX1145C.

Q313. How is the memory used?
A. [

]

Comcast’s expert testified that Dr. Delp did not
identify which memory actually performs the claimed
function. RX-0848C (Grimes RWS) at Q/A 210-13.
The administrative law judge has determined that
Rovi has not shown that the Verizon products practice
this limitation. As a threshold matter, neither Rovi nor
Dr. Delp has identified the memory in the set-top
boxes that performs the corresponding function—[ ]

243a
which is not sufficient for finding that the boxes meet
this § 112(6) limitation. Further, no explanation or
support is provided for the [ ] For these reasons, Rovi
has not shown that its products meet the “memory
means” limitation (3a).
(3) Limitation 3b
The text for this limitation is “user control means
for choosing user control commands, including
television timing, guide channel-control and guide
time-control commands, and transmitting signals in
response thereto[.]” See Rovi Br. at 280.
(a) Rovi i-Guide & Passport
Rovi’s entire argument is:
The Rovi Guides include a remote
controller that may be used for television
tuning and guide control including the
transmission of signals related to such
functions. CX-0004C (Delp WS) at Q/A
258; JX-0110C (Oliver Dep. Tr.) 16, 7172, 74, 88; CX-1232C (Rovi - Inside iGuide HD User Guide, Ver. R32) at 61617; CX-1594 (i-Guide Screenshots
(including Total Guide xD) for the ’556
Patent) at 1-3.
Rovi Br. at 305.
The administrative law judge has determined that
it is more likely than not that the Rovi products satisfy
this limitation. The evidence indicates that a remote
control is provided with a set-top box, and it is given
that users use the remote control. See CX-1232C at 10
(ROVI_CC-ITC00485083); JX-0110C (Oliver Dep. Tr.)
at 71-72, 74, 88.

244a
(b) SuddenLink
The administrative law judge has determined that
Rovi has not shown that the SuddenLink products
satisfy this limitation. Neither Rovi nor Dr. Delp has
identified the claimed user control means (e.g., the
remote control). This is not sufficient to support a
finding that the Rovi products practice this limitation.
(c) Verizon FiOS
Rovi argues:
The Verizon FiOS Guide includes a
remote controller that may be used for
television tuning and guide control
including the transmission of signals
related to such functions. CX-0004C
(Delp WS) at Q/A 314-15; CX-1145C
(Installation Manual - [ ] at 36, 45; CX1624 (Verizon FiOS Screenshots for the
’556 Patent) at 2. The Verizon FiOS
Guide is navigable. CX-0004C (Delp WS)
at Q/A 314-15; CX-1624 (Verizon FiOS
Screenshots for the ’556 Patent) at 2.
Rovi Br. at 307.
The administrative law judge has determined that
it is more likely than not that the Verizon products
satisfy this limitation. The evidence indicates that a
remote control is provided with a set-top box, and it is
given that users use the remote control. See CX-1145C
(Installation Manual - [ ] at 36, 45; CX-1624 at 2; see
also CX-0004C (Delp WS) at Q/A 314 (discussing IR
receivers).
(4) Limitation 3c

245a
The text for this limitation is “data processing
means for receiving said signals in response to said
user control commands[.]” See Rovi Br. at 281.
(a) Rovi i-Guide & Passport
Rovi’s entire argument is:
[

]

Rovi Br. at 305. Dr. Delp testified that:
Q259. Please look at limitation 3c,
which says “data processing means
for receiving said signals in
response to said user control
commands;” In your opinion, does
the Rovi i-Guide practice this
limitation?
A. [

]

CX-0004C (Delp WS) at Q/A 259 (emphasis added).
Comcast argues:
. . . Rovi has failed to even allege that
each element existed at the time of
patenting; the cited documentation, if
anything, shows that these memory
elements did not exist at that time. RX0848C (Grimes RWS) at Q/A 186-87
(Rovi iGuide); 211-13 (FiOS). This same
deficiency applies to the elements that
Rovi relies upon for the “display
generator” and “data processing means”
terms. See id. at 188 (Rovi iGuide). . . .
Resps. Br. at 340.
The administrative law judge has determined that
Rovi has not shown that its products practice this §

246a
112(6) limitation. Neither Rovi nor Dr. Delp has
identified a processor in the representative Motorola
boxes, and Dr. Delp’s opinion that “any processor is
equivalent” is not sufficient to support a finding that
the Rovi products practice this limitation. See RX0848C (Grimes RWS) at Q/A 186-87.
(b) SuddenLink
The administrative law judge has determined that
Rovi has not shown that the SuddenLink products
satisfy this limitation. Neither Rovi nor Dr. Delp has
identified the claimed data processor. This is not
sufficient to support a finding that the Rovi products
practice this limitation.
(c) Verizon FiOS
Rovi’s entire argument is:
[

]

Rovi Br. at 307-08.
The administrative law judge has determined that
Rovi has not shown that the Verizon products practice
this § 112(6) limitation. [
] and Dr. Delp’s opinion
that the Verizon products [
] is not sufficient to
support a finding that the Rovi products practice this
limitation. See RX-0848C (Grimes RWS) at Q/A 215.
(5) Limitation 3d
The text for this limitation is “a video display
generator adapted to receive video control commands
from said data processing means and program
schedule information from said memory means for
displaying interactively-selected successive portions of
said schedule information for a set of channels,
including ones different from a currently tuned
channel, in overlaying relationship with another

247a
display signal currently appearing on said timed
channel in at least one mode of operation of said
programming guide[.]” See Rovi Br. at 283.
(a) Rovi i-Guide & Passport
Rovi’s entire argument is:
[

]

Rovi Br. at 305-06.
Comcast argues:
. . . Rovi has failed to even allege that
each element existed at the time of
patenting; the cited documentation, if
anything, shows that these memory
elements did not exist at that time. RX0848C (Grimes RWS) at Q/A 186-87
(Rovi iGuide); 211-13 (FiOS). This same
deficiency applies to the elements that
Rovi relies upon for the “display
generator” and “data processing means”
terms. See id. at 188 (Rovi iGuide). . . .
Resps. Br. at 340.
Dr. Delp testified, as follows:
Q260. . . . In your opinion, does the
Rovi iGuide practice this limitation?
A. It does.
[

]

The administrative law judge has determined that
Rovi has not shown that its products practice this §
112(6) limitation. As with the accused X1 products, Dr.
Delp’s testimony at Q/A 260-61 does not demonstrate,
or sufficiently explain, [
] is identical or equivalent

248a
to the corresponding structures in the specification—a
VGA-type graphics card (such as a Rocgen card
manufactured by Roctec) and a “Video Overlay
Device.” See MobileMedia Ideas. 44
(b) SuddenLink
The administrative law judge has determined that
Rovi has not shown that the SuddenLink products
satisfy this limitation. Neither Rovi nor Dr. Delp has
identified the claimed video display generator
(limitation 3d). This is not sufficient to support a
finding that the Rovi products practice this limitation.
(c) Verizon FiOS
Rovi’s entire argument is:
The Verizon FiOS Guide includes [

]

Rovi Br. at 308.
The administrative law judge has determined that
Rovi has not shown that its products practice this §
112(6) limitation. Neither Rovi nor Dr. Delp has
identified a specific video display generator in the [ ]
and Dr. Delp’s opinion that the boxes have “graphics
circuitry” is not sufficient to support a finding that the
Rovi products practice this limitation. See RX-0848C
(Grimes RWS) at Q/A 216-17.
(6) Limitations 3e-3g
Rovi address the “data processing means
controlling” limitations, limitations 3e-3g, together.
MobileMedia Ideas LLC v. Apple Inc., 780 F.3d 1159, 1170 (Fed.
Cir. 2015) (“Literal infringement of a § 112, ¶6 limitation requires
that the relevant structure in the accused device perform the
identical function recited in the claim and be identical or
equivalent to the corresponding structure in the specification.”).
44

249a
See Rovi Br. at 306. For reference, the text for these
limitations follows:
• [3e] “said data processing means
controlling said video display generator
to display each said portion of program
schedule
information
in
partial
overlaying relationship with said
currently appearing display signal[.]”
See Rovi Br. at 285.
• [3f] “each said portion comprising
listing information for each successive
one of said television programs
scheduled to appear on said set of
channels and being consecutively
displayed in response to corresponding
consecutive ones of said guide control
commands for successively navigating
through
listing
information
for
sequential time periods or programs for
which program schedule information is
stored in said memory means[.]” See
Rovi Br. at 286.
• [3g] “said data processing means being
responsive to said television tuning
commands for allowing a user to select
any one of said television programs for
which listing information is displayed in
said partially overlayed portion of said
schedule information.” See Rovi Br. at
288.
(a) Rovi i-Guide & Passport
Rovi argues:
[

]

250a
Rovi Br. at 306.
The administrative law judge has determined that
Rovi has shown it is more likely than not that its
products satisfy limitations 3e and 3g, but not 3f.
For limitation 3e, the evidence shows that the Rovi
guides can display program schedule information in a
partial overlaying relationship with a currently
showing program. See CX-1594 at 1-3.
For limitation 3f, the administrative law judge
previously determined that the prosecution history,
figures, and specification all indicate that “Browse
Mode” lists information corresponding to a single
program at one time. See Section IV(A)(2)(c)(6). The
evidence that Rovi relies upon, CX-0004C (Delp WS)
at Q/A 262-64; CX-1594 at 1-3, shows guides with
listing information for multiple programs or channels.
Accordingly, the administrative law judge has
determined that the Rovi products do not meet this
limitation.
For limitation 3g, the administrative law judge has
determined that the Rovi products allow a user to
select a television program from the overlay guide. See
CX-0004C (Delp WS) at Q/A 264; CX-1594 at 1-6.
(b) SuddenLink
The evidence, CX-1613, shows it is more likely than
not that the guide can display program listings in an
overlaying relationship (limitation 3e) and that a user
can select a program from that guide (limitation 3g),
but it does not show that the guide lists program
information corresponding to a single program at one
time (limitation 3f).
(c) Verizon FiOS

251a
Rovi argues:
[

]

Rovi Br. at 308.
The evidence, CX-1624, shows it is more likely than
not that the guide can display program listings in an
overlaying relationship (limitation 3e) and that a user
can select a program from that guide (limitation 3g),
but it does not sufficiently show, and no explanation is
provided, that the guide lists program information
corresponding to a single program at one time
(limitation 3f).
(7) Claim 7
Rovi does not allege that the i-Guide and Passport,
SuddenLink, or Verizon products practice claim 7. See
generally Rovi Br., Section VIII(G).
b) Claims 15 and 18
(a) Rovi i-Guide & Passport
Rovi’s entire argument for both claims is:
Claim 15 includes the same limitations
as claim 3 except it includes limitations
directed to reminder messages. CX0004C (Delp WS) at Q/A 236, 265. Claim
15 is satisfied for the same reasons as
claim 3. Id. at Q/A 265. With regard to
the “reminder message” limitations, the
Rovi Guides display reminder selection
messages in the claimed manner. CX0004C (Delp WS) at Q/A 266 (discussing
CX-1594 (i-Guide Screenshots (including
Total Guide xD) for the ’556 Patent) at
28-29). Claim 18 states: “The television
schedule system according to claims 14,

252a
15, 16, or 17 wherein the navigation is
controlled by user-activated direction
keys provided on said user control
means.” This claim limitation is satisfied
by the Rovi Guides because they include
the capability of navigation controlled by
user-activated direction keys provided
on the remote controller. GX-0004C
(Delp WS) at Q/A 267.
Rovi Br. at 306.
The administrative law judge has determined that
Rovi has shown that the i-Guide and Passport
products practice the limitations of claim 18. The
evidence Rovi cites shows the display of a reminder
selection. See CX-1594 at 29 (a reminder-bell icon is
shown next to “TV-PG”). However, the Rovi products
do not practice claim 15 for the same reasons they do
not practice claim 3. Cf. Ferring, 764 F.3d at 1411. 45
(b) SuddenLink
Rovi argues that the “SuddenLink Guide practices
Claims 3, 15, and 18 for the same reasons the Rovi iGuide practices those claims.” Rovi Br. at 307.
The administrative law judge has determined that
the Rovi has not shown the i-Guide practices claims 3,
15, and 18. Accordingly, the administrative law judge
has determined that the SuddenLink guide does not
practice claims 3, 15, and 18 for the same reasons the
In Ferring, the Federal Circuit found a dependent claim not
infringed because its corresponding independent claim was not
infringed. Ferring B.V. v. Watson Labs., Inc.-Florida, 764 F.3d
1401, 1411 (Fed. Cir. 2014) (“Because we hold that the asserted
independent claims of Ferring’s patents are not infringed, the
asserted dependent claims are likewise not infringed.”)).

45

253a
Rovi i-Guide does not practice those claims. Cf.
Ferring, 764 F.3d at 1411.
(c) Verizon FIOS
Rovi’s entire argument is:
Claim 15 is satisfied for the same
reasons as claim 3. With regard to the
“reminder” limitations, the Verizon FiOS
Guide display provides the capability for
displaying reminder messages as
claimed. CX-0004C (Delp WS) at Q/A
324-25;
CX-1624
(Verizon
FiOS
Screenshots for the ’556 Patent) at 18.
Claim 18 is satisfied by the Verizon FiOS
Guide because it includes the capability
of navigation controlled by useractivated direction keys provided on the
remote controller. CX-0004C (Delp WS)
at Q/A 326.
Rovi Br. at 309.
The administrative law judge has determined that
Rovi has shown that the Verizon products practice
claim 18. The evidence Rovi cites shows that the guide
can display a reminder selection. See CX-1624 at 21.
However, the Verizon products do not practice claim
15 for the same reasons they do not practice claim 3.
Cf. Ferring, 764 F.3d at 1411.
c) Claim 40
Rovi does not allege that the i-Guide and Passport,
SuddenLink, or Verizon products practice claim 40.
See generally Rovi Br., Section VIII(G).
7. Validity

254a
Comcast contends that Florin anticipates the
asserted claims, that seven distinct prior art
combinations, based on six prior art references, render
the asserted claims obvious, and that the ’556 Patent’s
asserted claims are invalid under the non-statutory
double patenting doctrine. See Resps. Br., Section
XI(H). The six prior art references are:
1) Florin (RX-0215, U.S. Patent No. 5,621,456);
2) Young ’268
5,479,268);

(RX-0214,

U.S.

Patent

No.

3) Reiter (RX-0188, U.S. Patent No. 4,751,578);
4) Moro (RX-0216, European Patent Specification
Pub. No. 0 444 496 A1);
5) Young ’121 (RX-0253,
4,706,121); and

U.S.

Patent

No.

6) Strubbe (RX-0218, U.S. Patent No. 5,047,867).
Id. The seven obviousness combinations are:
1) Florin (claims 7, 18, and 40);
2) Young ’268 (claims 7 and 40);
3) Young ’268 + Reiter (claims 7 and 40);
4) Young ’268 + (Young ’121 and/or Strubbe) (claim
18);
5) Young ’268 + Reiter + (Young ’121 and/or
Strubbe) (claim 18);
6) Moro + (Young ’268 and/or Reiter) (claims 7 and
40); and
7) Moro + (Young ’268 and/or Reiter) + Strubbe
(claim 18).
Id. The double-patenting references are:

255a
1) U.S. Patent No. 6,728,967 (RX-0211) (the “’967
Patent”) and
2) U.S. Patent No. 7,100,185 (RX-0212) (the “’185
Patent”).
Id. Comcast has also argued that the asserted claims
are indefinite because, with respect to the data
processing means, “the written description fails to
provide the requisite structure; the only disclosed
structure is a general purpose processor, and no code
or algorithms are disclosed.” Resps. Br. at 297-98.
a) Anticipation
Comcast argues that Florin (RX-0215) anticipates
the asserted claims under Rovi’s constructions. 46 See
Resps. Br., Section XI(H)(2)(c). Comcast then presents
a combined argument that the asserted claims are
anticipated under its own constructions or “trivially
obvious over Florin alone.” Id., Section XI(H)(2)(d); but
see RX-0005C (Grimes WS) at Q/A 133 (testifying that
Florin does not anticipate the asserted claims under
Comcast’s construction).
Rovi argues that Florin is not prior art and that
even if it is, “Florin does not disclose every element of
any asserted claim of the ’556 Patent.” Rovi Br. at 315.
Rovi then argues that Florin does not disclose a
“partially overlayed” configuration. See CX-1903C
(Delp RWS) at Q/A 165 (limitation 3f is the only
limitation Rovi contests).
For analyzing means-plus-function anticipation
arguments, the Federal Circuit has explained:

46

Florin was disclosed to the Examiner. See JX-0001 at 3.

256a
It is firmly established in our precedent
that a structural analysis is required
when means-plus-function limitations
are at issue; a functional analysis alone
will not suffice. See, e.g., CytoLogix Corp.
v. Ventana Med. Sys., 424 F.3d 1168,
1178 (Fed. Cir.2005) (“To establish
infringement under § 112, ¶ 6, it is
insufficient for the patent holder to
present testimony ‘based only on a
functional, not a structural, analysis.’”
(quoting Alpex Computer Corp. v.
Nintendo Co., 102 F.3d 1214, 1222 (Fed.
Cir. 1996))). Just as a patentee who seeks
to prove infringement must provide a
structural analysis by demonstrating
that the accused device has the identified
corresponding structure or an equivalent
structure, a challenger who seeks to
demonstrate that a means-plus-function
limitation was present in the prior art
must prove that the corresponding
structure—or
an
equivalent—was
present in the prior art.
Fresenius USA, Inc. v. Baxter Int’l, Inc., 582 F.3d 1288,
1299 (Fed. Cir. 2009).
(1) Florin (RX-0215) is prior art
Rovi argues that evidence pertaining to conception
and reduction to practice was submitted in an
interference proceeding:
This evidence was all accepted by the
Examiner in concluding that, the ’556
Patent was entitled to a priority date
earlier than the March 19, 1993 filing

257a
date of the Young 5,353,121 patent
(referred to as the Young et al. patent to
avoid confusion with the Young
4,706,121 patent (filed May 6, 1986)). JX0008 (’556 Patent File History) at 797
(Aug. 24, 1995 Office Action); Grimes Tr.
1087-91.
See Rovi Br. at 310-12; JX-0008 (Part 5) at 797 (“The
declaration filed on 4/13/95 under 37 C.F.R. § 1.131 is
sufficient to overcome the Young et al reference.”). In
summary, Rovi argues that “the ’556 invention was
conceived by May 20, 1992 and [actually] reduced to
practice by July 14, 1992.” Rovi Br. at 312. Rovi
explains
that
the
prototype
was
publicly
“demonstrated . . . at the Western Cable Show in
Anaheim, California on December 2, 1992.” Id. at 313
(citing CX-0880 (Margolis Decl.)).
Comcast argues that Rovi did not establish that the
claims were reduced to practice before September 9,
1993, the filing date. See Resps. Br. at 313-14 (citing,
inter alia, In re Omeprazole Patent Litig., 536 F.3d
1361, 1373 (Fed. Cir. 2008)).
Prior art under 35 U.S.C. § 102(g) may be “asserted
as a basis for invalidating a patent in defense to an
infringement suit.” Checkpoint Sys., Inc. v. U.S. Int’l
Trade Comm’n, 54 F.3d 756, 761 (Fed. Cir. 1995).
Respondents bear the burden of showing, through
clear and convincing evidence, that the asserted
claims are invalid under § 102(g). See Fox Grp., Inc. v.
Cree, Inc., 700 F.3d 1300, 1304 (Fed. Cir. 2012). A
patentee may avoid § 102(g) prior art by establishing
prior invention under 35 U.S.C. 102(g)(2). Id. To
establish prior invention, the patentee must show that
“(1) it reduced its invention to practice first. . . or (2) it

258a
was the first party to conceive of the invention and
then exercised reasonable diligence in reducing that
invention to practice.” Id. For an actual reduction to
practice:
a party must prove that the inventor (1)
“constructed
an
embodiment
or
performed a process that met all the
limitations” and (2) “determined that the
invention would work for its intended
purpose.” Id. (quoting Cooper v.
Goldfarb, 154 F.3d 1321, 1327 (Fed. Cir.
1998)).
“Testing
is
required
to
demonstrate reduction to practice in
some instances because without such
testing there cannot be sufficient
certainty that the invention will work for
its intended purpose.” Id. (quoting Slip
Track Sys., Inc. v. Metal-Lite, Inc., 304
F.3d 1256, 1267 (Fed. Cir. 2002)).
In re Omeprazole Patent Litig., 536 F.3d 1361, 1373
(Fed. Cir. 2008); cf. Eaton v. Evans, 204 F.3d 1094,
1097 (Fed. Cir. 2000) (“there can be no actual
reduction to practice if the constructed embodiment or
performed process lacks an element recited in the
count or uses an equivalent of that element.”).
If respondents can put forth a prima facie case of
invalidity, the patentee must show that the invention
predates the reference with “sufficient rebuttal
evidence.” See Taurus IP, LLC v. DaimlerChrysler
Corp., 126 F.3d 1306, 1322 (Fed. Cir. 2013) (“After an
accused infringer has put forth a prima facie case of
invalidity, the burden of production shifts to the
patent owner to produce sufficient rebuttal evidence to
prove entitlement to an earlier invention date.”). The

259a
ultimate burden of invalidity, however, remains with
respondents. Id.
As discussed below, the administrative law judge
has determined that Florin is prior art under § 102(g).
The administrative law judge finds that Comcast has
shown, by clear and convincing evidence, that Rovi’s
prototype did not literally meet all of the limitations of
claim 3. The evidence that Rovi relies upon (the file
history) is not sufficient to rebut Comcast’s showing.
The evidence Rovi relies upon does not identify the
structures used in the prototype shown at the Western
Cable Show. See Resps. Br. at 315; RX-0005C (Grimes
WS) at Q/A 85-88; RX-0848C (Grimes RWS) at Q/A 88.
In particular, the Morris declaration describing the
prototype explains that the EPG “was installed on a
personal computer that was attached to a TV monitor.”
CX-0880 at 16; Rovi Br. at 313. This does not satisfy
the § 112(6) “display generator” limitation, because no
graphics card (or GPU) is identified. See RX-0005C
(Grimes WS) at Q/A 88; see also Eaton, 204 F.3d at
1097 (“there can be no actual reduction to practice if
the constructed embodiment or performed process
lacks an element recited in the count or uses an
equivalent of that element.”). Further, the evidence
does not show that the Western Cable Show prototype
could “select any one of said television programs for
which listing information is displayed in said partially
overlayed portion of said schedule information”
(limitation 3g). For example, although the Morris
Declaration (CX-0880 at 189) includes a brochure
describing “Browse Mode” as a feature allowing a user
to “remain on one channel and ‘browse’ through
program listings of other channels and lime periods by
first pressing the TV Guide button then pressing the
up/down arrows to scan through channels and the

260a
left/right arrows to scan through time slots[,]” it does
not indicate that the user can select a show from
“Browse Mode.” The brochure depicts Browse Mode, as
follows:

CX-0880 at 189 (ROVI_CC-ITC00048364) (red arrow
added).
Accordingly, the administrative law judge has
determined that Rovi has not shown it is entitled to an
earlier invention date based upon the Western Cable
Show prototype. 47
(2) Comcast’s Joint Anticipation and
Obviousness Argument 48
The Joint Outline presents an issue of determining the priority
date for the ’556 Patent. See Joint Outline at 25. Given that Rovi
has not presented evidence that it is entitled to an earlier priority
date, the administrative law judge finds that the priority date is
September 9, 1993, the filing date.
47

This section analyzes Comcast’s anticipation arguments under
its claim constructions.
48

261a
Comcast jointly argues that Florin anticipates the
asserted claims and that the asserted claims are also
“trivially obvious” over Florin Alone. See Resps. Br. at
349-50. Comcast argues:
To the extent that, under Comcast’s
proposed claim constructions, Florin
“‘d[oes] not expressly spell out’ all the
limitations arranged or combined as in
the claim,” Florin anticipates the
Asserted Claims because a POSITA
“reading the reference, would ‘at once
envisage” the claimed arrangement or
combination.” Blue Calypso, 815 F.3d at
1341 (quoting Kennametal, 780 F.3d at
1381); see RX-0005C at Q/A 129. Florin
anticipates because it teaches “that the
disclosed components or functionalities
may be combined and one of skill in the
art would be able to implement the
combination.” Id.; see also Bristol-Myers
Squibb Co. v. Ben Venue Labs., Inc., 246
F.3d 1368, 1379 (Fed. Cir. 2001).
Under Comcast’s construction, the
structure to implement an interactive
single program listing displayed in
partial overlay with a video signal is
taught. Florin teaches the disclosed
functionalities combined in a single
EPG, and a POSITA would be able to
implement the combination in this
predictable art. RX-0005C at Q/A 129 &
133. At worst, it would have been less
than trivially obvious to a POSITA in
view of the disclosure of Florin, which

262a
discloses both (a) interactively navigable
program listings including those for
other channels and future times in a
partial overlay with a video signal being
viewed and (b) an interactive overlay of
program schedule information for the
currently viewed program shown in a
partial overlay over the current video
signal. Id. at Q/A 129. Based on what is
disclosed in Florin alone, it would have
been, at worst, trivially obvious to tweak
the express disclosure of Florin to
provide the program listing under
Comcast’s constructions. See id. A visual
depiction of this internal teaching of
Florin is shown at RDX-0968-71 (RX0215 modified figs.).
Id. (emphasis added). In RX-0005C (Grimes WS) at
Q/A 129, Dr. Grimes testified about the video display
generator and the A/V Connect Module (66). In A129,
he concluded that under Comcast’s constructions, the
asserted claims “would have been obvious” and that it
“would have been trivially obvious to tweak the
express disclosure of Florin to provide the program
listing under Comcast’s constructions.” Id. In Q/A 133,
Dr. Grimes testified, as follows:
Q133.
Under
Comcast’s
constructions,
does
Florin
anticipate the Asserted Claims?
A133.
No,
under
Comcast’s
constructions, the Asserted Claims are
instead obvious in view of Florin. In
particular, the interactive partial
overlay shown in Florin contains

263a
multiple program listings, not a single
program listing as required by Comcast’s
constructions of the Asserted Claims.
However, because Florin discloses
another embodiment with an interactive
partial overlay displaying program
schedule information for the program
currently being viewed, as shown in
RDX-0968-71, it would have been
obvious to a POSITA to add the
functionality
that
Florin
already
disclosed for navigating through the
program listings in both time and
channel from Florin’s “List View” overlay
to this interactive display of program
schedule information for the program
currently being viewed, producing an
interactive overlay of a single program
listing through which the user could
navigate in both time and channel.
Dr. Grimes does not testify that, under Comcast’s
constructions, a person of ordinary skill in the art
would instantly envisage the claimed arrangement or
combination after reading Florin. See Blue Calypso,
LLC v. Groupon, Inc., 815 F.3d 1331, 1341 (Fed. Cir.
2016) (quoting Kennametal, Inc. v. Ingersoll Cutting
Tool Co., 780 F.3d 1376, 1381 (Fed. Cir. 2015) for the
proposition that “a reference can anticipate a claim
even if it ‘d[oes] not expressly spell out’ all the
limitations arranged or combined as in the claim, if a
person of skill in the art, reading the reference, would
‘at once envisage’ the claimed arrangement or
combination.”). The administrative law judge has
determined that the cited testimony does not support
Comcast’s anticipation argument, because it does not

264a
address the proper legal standard. Id. Accordingly, the
administrative law judge has determined that
Comcast has not shown, by clear and convincing
evidence, that Florin anticipates the asserted claims.
(3) Claims 3 and 7
The following section addresses Comcast’s
anticipation arguments with respect to the limitations
of claims 3 and 7.
(a) Limitation 3pre
Dr. Grimes opined that “Florin teaches an EPG for
displaying program schedule information in
overlaying relationship with the current broadcast
program, and that information may include, but is not
limited to, information for a set of other channels, and
may include program information for shows scheduled
to be broadcast.” RX-0005C (Grimes WS) at Q/A 123.
Dr. Delp does not explicitly agree that Florin meets
this limitation, but he offers no opinion that Florin
does not meet this limitation. See generally CX-1903C
(Delp RWS) at Q/A 163-167 (for claim 3, limitation 3f
is the only limitation Rovi contests).
The administrative law judge has determined that
Florin discloses an electronic program guide for use
with an audio-visual transceiver (54). See id.; see also
RX-0215 at 8:19-48.
(b) Limitation 3a
Dr. Grimes testified that Florin teaches the claimed
memory means:
Florin discloses a memory that is used
for storing this program schedule
information, identified as system
memory 65 as depicted in Fig. 2. Florin

265a
explains that “the volatile part of system
memory 65 includes sufficient random
access memory (such as RAM or DRAM)
for the temporary storage of data
received over the T/T cable 52” [RX-0215
at 10:15-19.] “This data stream of
programs/services listing information
(illustrated in FIG. 3b) is received by the
transceiver’s main CPU module 62,
whereafter the sections that are most
relevant to the users are stored in the
system memory 65.” [RX-0215 at 11:1822.]
RX-0005C (Grimes WS) at Q/A 125; see also RDX-0962
(this is a helpful demonstrative that illustrates
Comcast’s argument).
The administrative law judge has determined that
Florin discloses DRAM memory (65) that stores
programming information, per limitation 3a. See id.;
see also RX-0215 at 10:15-19, 11:18-22.
(c) Limitation 3b
Dr. Grimes testified that Florin teaches the claimed
user control means:
. . . Florin discloses a user control means
that allows the user to provide television
tuning, guide channel control, and guide
time control commands, in the form of a
remote control 60 as shown in Figs. 5a5b, with direction buttons and an enter
button, among other inputs, and
associated structures to receive and
process the signals transmitted by that

266a
remote control including IR Control 82. .
..
RX-0005C (Grimes WS) at Q/A 127; see also RDX-0962.
The administrative law judge has determined that
Florin discloses remote control (60) that allows a user
to command the television. See id.; see also RX-0215
Figs. 5a-5b; 3:22-28; 17:32-35 (the abstract provides
additional support).
(d) Limitation 3c
Dr. Grimes testified that Florin teaches a data
processing means, CPU 63, which satisfies limitation
3c. RX-0005C (Grimes WS) at Q/A 130; see also RDX0962.
The administrative law judge has determined that
Florin discloses a processor that receives signals from
a remote control, responds to those signals, and
controls a video display generator. In particular,
Florin’s CPU is an equivalent structure to the
“microcontroller” in the ’556 patent, and the CPU
performs the same functions (receiving signals in
response to user control commands, responding to the
user control commands, and controlling a video display
generator) as the microcontroller. See RX-0005C
(Grimes WS) at Q/A 130; RX-0215 at 5:19¬22, 5:40-52,
8:53-61, 12:9-12,17:62-66.
(e) Limitation 3d
Dr. Grimes testified that Florin teaches a display
generator, AV encoder 78 and A/V Connect Module 66,
which satisfies the video display generator (which
includes RGB video generator 24 and Video Overlay
Device 25) of limitation 3c. RX-0005C (Grimes WS) at
Q/A 128-29; see also RDX-0962.

267a
The administrative law judge has determined that
Florin’s AV encoder 78 and A/V Connect Module 66
collectively teach the display generator limitation. Id.
Florin’s display generator receives commands from the
CPU and program schedule information from the
memory means: “CPU 63 is further coupled through
the system bus 64 to a memory and bus controller 80,
which is itself coupled through an A/V decoder 74 and
an A/V encoder 78 to the A/V connect module 66.” Id.
(quoting RX-0215 at 8:42-64). Further, Florin teaches
an interactive guide that allows the user to choose
successive program listings that differ from a current
program. See id. (citing RX-0215 at 16:30-38; 17:32-40,
Figs. 15-16); see also id. at Figs. 9-11; 13:17-15:27
(“Information Function”).
(f) Limitation 3e
The administrative law judge has determined that
Florin’s CPU (63) controls the video display generator
(AV encoder 78 and A/V Connect Module 66) so that
program information is overlaid over a current
program. See RX-0005C (Grimes WS) at Q/A 123-24,
128-30.
(g) Limitation 3f
Dr. Grimes testified that the guide displays
consecutive program listings in response to the remote
control. See RX-0005C (Grimes WS) at Q/A 127 (citing
RX-0215 at 3:22-28, 17:32-35).
Rovi argues that Florin does not disclose a “partially
overlayed” configuration. See CX-1903C (Delp RWS) at
Q/A 165 (limitation 3f is the only limitation Rovi
contests). Dr. Delp opined that this limitation was not
met because:

268a
A person of ordinary skill in the art
would recognize that “overlayed”
schedule information means that the
schedule information covers part of the
currently appearing display signal-for
example, a TV show. So Florin lacks the
“data processing means” of claim
element 3f because it never teaches,
explicitly or inherently, overlaying
currently displayed programing with
program schedule information, as
required by claim 3.
CX-1903C (Delp RWS) at Q/A 165. 49
For limitation 3f, the administrative law judge
previously determined that the prosecution history,
figures, and specification all indicate that “Browse
Mode” lists information corresponding to a single
program at one time. See Section IV(A)(2)(c)(6).
Yet, the evidence that Comcast relies upon, RX0005C (Grimes WS) at Q/A 129, indicates Florin
discloses a guide with listing information for multiple
programs or channels. RX-0005C (Grimes WS) at Q/A
129 (“Under Rovi’s construction of the Asserted
Claims, which among other things does not limit the
overlay to display of a single program listing, Florin
satisfies the overlay limitations. . . . Under Comcast’s
construction of the Asserted Claims,. . . [i]t would have
been trivially obvious to tweak the express disclosure
The parties agreed that “partial overlaying relationship with”
should be construed as “covered-in-part or covering-in-part
relationship with[.]” See Joint Outline (EDIS Doc. ID No. 600641,
filed Jan. 10, 2017) at 20. The parties did not seek to have the
term “overlayed” construed, and the claim language is not limited
in the manner that Dr. Delp opines. Id. at 20-22.
49

269a
of Florin to provide the program listing under
Comcast’s
constructions.”).
Accordingly,
the
administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that Florin teaches a guide with listing
information for a single program or channel
(limitation 3f).
(h) Limitation 3g
For limitation 3g, the administrative law judge has
determined that Florin allows a user to select a
television program from the overlay guide, in
accordance with Rovi’s infringement and domesticindustry allegations. For instance, CX-1594 at 1 shows
a guide with multiple program listings, and Rovi relies
on CX-1594 to support its domestic industry case.
Dr. Grimes testified that the remote control emits
commands that allow a user to select a program using
the “center select button (155).” RX-0005C (Grimes
WS) at Q/A 127. The ’556 Patent explains that:
While viewing the TV, a user may obtain
additional information on a current
program by depressing the info button,
and obtaining more detailed information
using the pointing device. By depressing
the list button on the remote control
device, the transceiver displays a
program listing of the current programs
available for viewing. Through the use of
the pointing device, viewers can scroll up
and down the program listing or view a
highlighted program in full screen
by pressing the select button.

270a
JX-0001 at 3:17-25 (emphasis added); see also id. at
15:28-62.
(i) Claim 7
Comcast argues that Florin anticipates claim 7. See
Resps. Br. at 346-47. Rovi’s post-hearing brief directed
to Florin does not address claim 7’s validity. See
generally Rovi Br. at (Section VIII(H)(2)); Rovi Reply
at (Section IX(G)(3)).
The administrative law judge has determined that
Florin anticipates claim 7 (but only if Florin
anticipates claim 3). Dr. Grimes testified that schedule
information displayed includes program title and
program channel information. RX-0005C (Grimes WS)
at Q/A 126, 129; RX-0215 at 11:8-11 (“For
programming purposes, the data preferably will
include titles of programs, show times, special
captions, length information, categories, and key
words, as well as channel numbers provided from the
service provider 50 over the T/T cable 52, and received
by the transceiver 54.”).
(4) Claims 15 and 18
Comcast argues:
Compared to Claim 7(3), Claim 18(15)
has two minor differences. One is that
the user control means must provide
user-activated direction keys to control
the navigation. JX-0001 at cl. 18. The
remote control of Florin has an
“interactive control button group [that]
includes . . . a pointing device consisting
of up, down, left, and right arrow
buttons, and a center select button,” RX0215 at Abstract, which is used to

271a
interactively navigate through the
program listings by the directional keys,
as Claim 18 requires. RX-0005C at Q/A
127. The data processing means must
also
provide
reminder
selection
functionality in the one mode of
operation (which, under Rovi’s proposed
constructions, is not limited to Browse
Mode), as Florin also discloses. Id. at
130.
“The mark button 142 permits the user
to mark programs for reminders, later
recall, or switching between programs
which have been selected using the mark
button 142.” RX-0215 at 12:9-12. Florin
depicts this in Fig. 15, which “is an
additional feature of the list function of
the present invention where the user
marks the highlighted program with the
mark button of the remote control
device.” Id.at 5:1-3; see Resps.’ PreHB at
848. Florin’s “mark” feature for reminder
selection and the disclosed reminder
messages thus satisfies the additional
limitations of Claim 18(15). See RX0005C at Q/A 130.
Resps. Br. at 348-49.
For claim 15, Dr. Delp, Rovi’s expert, opined that:
Q166. What is the basis for your
conclusion that Florin does not
anticipate or render obvious claim
18(15)?

272a
Al66. Florin does not anticipate or render
obvious claim 18(15) because that claim
requires navigable schedule information
to be displayed “in a partial overlay, on”
a display signal. As I just discussed,
neither the list function nor the
information function disclosed by Florin
provides partially overlaying a currently
appearing display signal with program
schedule information.
Q167. Any other reason?
A167. Yes, Florin does not disclose a
reminder message that is displayed in
overlaying relationship with another
display signal being displayed or
allowing a user to choose selection
commands in response to the reminder
selection messages, both of which are
limitations in claim 15. Dr. Grimes does
not offer any opinion on the subject. As
shown below in figure 20, Florin
discloses displaying a picture-in-picture
window of a “marked” program (labeled
254), but does not disclose a reminder
selection message.

273a

JX-0008 at 1506. So Florin does not
disclose, explicitly or inherently, the
reminder selection elements of claim 15f.
CX-1903C (Delp RWS) at Q/A 166-67.
The administrative law judge has determined that
Comcast has not shown, clearly and convincingly, that
Florin discloses a guide that allows users to select a
command in response to a reminder selection message
in browse mode. While Florin discloses some reminder
functionality, it is not clear that Florin teaches all
aspects of claim 15. Accordingly, the administrative
law judge has determined that Comcast has not shown
that Florin anticipates claim 15.
(5) Claim 40
Comcast argues:

274a
Rovi has not offered any opinion
disputing that Florin anticipates
Asserted Claim 40. Rovi’s expert Dr.
Delp did not offer any contrary opinion
on Florin in his rebuttal expert report,
and Dr. Delp confirmed at trial that he
has offered no opinions on Florin with
regard to Asserted Claim 40. Tr. 1227:213.
Resps. Br. at 346. The cited portion of the transcript
follows:
Q
In your witness statement, you
don’t offer any opinions on the claim 40
of Florin, so I wanted to focus on claims
3 and 15, and particularly it’s my —
A
Excuse me, sir, did you say claim
40 of Florin?
Q

Claim 40 of the ’556 patent.

A
I thought you said claim 40 of
Florin.
Q

I’m sorry.

A

But maybe you didn’t.

Q
Okay. In claim 40 of the ’556
patent, I don’t believe you’ve offered any
opinions with respect to Florin in your
witness statement?
A

I believe that’s correct.

Tr. 1227.
Rovi’s post-hearing brief and reply do not address
claim 40, under either party’s constructions. See

275a
generally Rovi Br. at 310-315 (Section VIII(H)(2)); Rovi
Reply at 121(Section IX(G)(3)).
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that Florin anticipates claim 40. The
evidence and argument that Comcast presents merely
states that Dr. Delp did not provide any opinion on the
validity of claim 40. This is not sufficient to satisfy the
clear-and-convincing standard. Cf. Circuit Check Inc.
v. QXQ Inc., 795 F.3d 1331, 1337 (Fed. Cir. 2015)
(“Although the court acknowledged that QXQ
presented no evidence that the additional limitations
in those claims were present in the prior art and
presented no evidence that the additional limitations
were trivial, it concluded that these claims were
obvious because Circuit Check, the patentee, did not
explain why the additional limitations rendered the
claims non-obvious. . . . The court erred in shifting the
burden of production to disprove invalidity.”).
b) Obviousness
(1) Florin (RX-0215): claims 7, 18, and 40
Comcast alleges that the asserted claims are
obvious over “Florin alone.” 50 See Resps. Br. at 350.
However, Comcast does not present a distinct
obviousness argument based on Florin alone (see
Resps. Br. at 350-56); rather, Comcast’s obviousness
argument is blended with its anticipation argument,
which is copied above. See Section IV(7)(a)(5).
For obviousness challenges based upon a single
reference, the Federal Circuit has explained:

50

Florin was disclosed to the Examiner. See JX-0001 at 3.

276a
In appropriate circumstances, a single
prior art reference can render a claim
obvious. . . . However, there must be a
showing of a suggestion or motivation to
modify the teachings of that reference to
the claimed invention in order to support
the obviousness conclusion. . . . This
suggestion or motivation may be derived
from the prior art reference itself,. . .
from the knowledge of one of ordinary
skill in the art, or from the nature of the
problem to be solved. See Pro-Mold &
Tool Co. v. Great Lakes Plastics, Inc., 75
F.3d 1568, 1573 (Fed. Cir. 1996); see also
Motorola, Inc. v. Interdigital Tech. Corp.,
121 F.3d 1461, 1472 (Fed. Cir. 1997)
(“[T]he suggestion to combine may come
from the prior art, as filtered through the
knowledge of one skilled in the art.”).
Determining whether there is a
suggestion or motivation to modify a
prior art reference is one aspect of
determining the scope and content of the
prior art, a fact question subsidiary to
the ultimate conclusion of obviousness.
SIBIA Neurosciences, Inc. v. Cadus Pharm. Corp., 225
F.3d 1349, 1356 (Fed. Cir. 2000) (citations omitted); see
also Arendi S.A.R.L. v. Apple Inc., 832 F.3d 1355, 1362
(Fed. Cir. 2016) (“our cases repeatedly warn that
references to ‘common sense’—whether to supply a
motivation to combine or a missing limitation—cannot
be used as a wholesale substitute for reasoned analysis
and evidentiary support, especially when dealing with
a limitation missing from the prior art references
specified”); but see Perfect Web Techs., Inc. v. InfoUSA,

277a
Inc., 587 F.3d 1324, 1330 (Fed. Cir. 2009) (invoking
“common sense” to supply a missing limitation).
The administrative law judge has determined that
Comcast has not shown that a person of ordinary skill
in the art would have grasped a suggestion,
motivation, or perceived need to modify Florin from a
guide that shows multiple listings to a guide that
shows a single listing. While the difference between a
guide with multiple listings and a single listing is
slight, there is no explanation of why a person of
ordinary skill in the art would have modified Florin in
the manner Comcast suggests. See Rovi Br. at 315,
n.65 (“This is classic hindsight reconstruction.”).
(2) Young ’268 (RX-0214): claims 7 and
40
Comcast argues that the asserted claims are
obvious over Young ’268 alone. 51 Resps. Br. at 351; RX0005C (Grimes WS) at Q/A 138; see also RDX-0973
(this is a helpful demonstrative that illustrates
Comcast’s argument).
Rovi argues that Young ’268 does not teach
limitation 3d. See Rovi Br. at 316-17 (arguing Young
’268 does not disclose providing scheduling
information that is “different from a currently tuned
channel,” “does not allow the user to watch one
program while navigating through other program

Young ’268 was considered by the Examiner. See JX-0001 at 3;
JX-0008 at 853-56 (Young was a primary reference in an
obviousness rejection).
51

278a
listings,” and that Young ’268 “does not disclose
interactive functionality” (limitation 3d). 52
The administrative law judge has determined that
Comcast has not shown that Young ’268 teaches each
and every limitation of claim 3. Young ’268 explains
that the “grazing overlay” is directed to information for
a currently selected channel:
FIGS. 9 and 10 show channel grazing
overlays 64 and 66 that provide
information on current programs when
switching channels while watching
television. In the overlay 64, when
scanning channels, the title of each
program is overlaid at 68, along with the
name of the TV service (HBO, ABC etc.),
the cable channel number, and the
current date, day of week, and time in
the channel information field 62. The
overlay 66 is the same as the overlay 64
except that this overlay includes a
program note 70, which is similar to the
program note 52 in FIG. 6, but contains
information pertinent to a program
currently being broadcast on the selected
channel.
RX-0214 at 7:58-8:2; see also CX-1903C (Delp RWS) at
Q/A 170; RX-0005C (Grimes WS) at Q/A 146 (Young
’268’s “interactive functionality does not extend to
browsing through program listings for other channels
or future times”). Thus, Young ’268 does not teach
CX-1903C (Delp RWS) at Q/A 171 discusses highlighting that
shows missing portions of limitations 3e and 3f, but the testimony
does not actually have any highlighting.
52

279a
showing program information that is “different from a
currently tuned channel” or allowing the user to watch
one program while navigating through other program
listings, as limitation 3d requires.
With regard to claim 40, Comcast has not argued
that Young ’268 teaches the simultaneous display of a
guide and program. See JX-0001 at 36:45-60; CX0004C (Delp WS) at Q/A 174 (discussing
“simultaneously”). Accordingly, the administrative
law judge has determined that Comcast has not clearly
and convincingly shown that claim 40 is obvious.
(3) Young ’268 (RX-0214) + Reiter (RX0188): claims 7 and 40
Comcast’s argument for this combination is:
Although producing an interactive and
navigable display of program schedule
information is taught by Young ’268
alone, as discussed above, in the
alternative, it would have been obvious
to
add
the
interactive
overlay
functionality from Reiter (RX-0188),
which expressly discloses a userselectable overlay of program schedule
information that was navigable in both
time and channel domains. See RX0005C at Q/A 147 & 165-67.
Resps. Br. at 353 (footnote omitted). 53 The testimony
Comcast that cites, Q/A 147 & 165-67, cites five lines
Reiter was before the Examiner during prosecution. See JX0008 at 848 (Reiter was a primary reference); see also id. at 68990 (the applicant is responding to a rejection involving Reiter).
The applicant argued Reiter required a “subset search” and did
not allow a user “to surf in a channel and/or time domain for
53

280a
of text (RX-0188 at 2:24-29) in response to an
analogous art question and discusses Figure 3. These
are the five lines of the specification:
It is a further object of the invention to
provide a system which permits a
television viewer to obtain, at leisure and
upon command, updated television
programming information and subsets
thereof as an overlay or window on the
display of other television signals, or as
a full screen display.
RX-0188 at 2:24-29 (cited in RX-0005C (Grimes WS) at
Q/A 166). This is Figure 3:

individual program listings . . . while continuing to watch a
currently tuned program.”

281a

RX-0188 at 4. The discussion of Figure 3 addresses
microcontroller 60 and element 155, but other
elements are not assessed.

282a
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that Young ’268 and Reiter disclose all of the
elements of claim 3 or that a person of ordinary skill
in the art would modify Young ’268 in light of Reiter
such that claim 3 would have been obvious. In
particular, like Young ’268, Comcast has not shown
that Reiter teaches showing program information that
is “different from a currently tuned channel” or
allowing the user to watch one program while
navigating through other program listings, as
limitation 3d requires.
Additionally, Comcast’s rationale for considering
“Reiter in combination with other references” is
insufficient because it is generic and bears no relation
to any specific combination of prior art elements. See
RX-0005C (Grimes WS) at Q/A 166 (opining that the
“motivation to combine these references [Reiter,
Young ’268, Florin, and Moro] comes from many
sources, including, but not limited to, the common field
and the common technical challenges confronted in
designing EPGs to meet the ’556 Patent Asserted
Claim elements’ requirements.” (emphasis added));
ActiveVideo Networks, Inc. v. Verizon Commc’ns, Inc.,
694 F.3d 1312, 1328 (Fed. Cir. 2012). 54 It also fails to
In ActiveVideo Networks, the Federal Circuit affirmed the grant
of a JMOL that reversed jury’s finding of obviousness after
finding that the expert’s “testimony is generic and bears no
relation to any specific combination of prior art elements. It also
fails to explain why a person of ordinary skill in the art would
have combined elements from specific references in the way the
claimed invention does.” ActiveVideo Networks, Inc. v. Verizon
Commc’ns, Inc., 694 F .3d 1312, 1328 (Fed. Cir. 2012) (emphasis
in original). The insufficient expert testimony was: “The
motivation to combine would be because you wanted to build
something better. You wanted a system that was more efficient,
54

283a
explain why a person of ordinary skill in the art would
have combined elements from specific references in the
way the claimed invention does.” (emphasis in
original)). ActiveVideo Networks, 694 F.3d at 1328.
Further, combining references “to meet the ’556 claim
elements’ requirements” is improper hindsight. See
Cheese Systems, Purdue Pharma, and Insite Vision. 55
In sum, Dr. Grimes’s testimony does not sufficiently
explain why a person of ordinary skill in the art would
have assembled any one, particular, discrete
combination from the various permutations of
asserted references (Reiter, Young ’268, Florin, and
Moro). Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that claim 7 and 40
would have been obvious based on a combination of
Young ’268 and Reiter.

cheaper, or you wanted a system that had more features, makes
it more attractive to your customers, because by combining these
two things you could do something new that hadn’t been able to
do before.” Id. at 1328.
Cheese Systems, 725 F.3d at 1352 (“Obviousness ‘cannot be
based on the hindsight combination of components selectively
culled from the prior art to fit the parameters of the patented
invention.’”); Purdue Pharma, 643 F. App’x at 963 (holding the
Patent Trial and Appeal Board “improperly used hindsight by
defining the problem with a recitation of the challenged claims”);
Insite Vision, 783 F.3d 853 at 859 (“Defining the problem in terms
of its solution reveals improper hindsight in the selection of the
prior art relevant to obviousness.”); see also InTouch Techs., 751
F.3d at 1352 (faulting an expert who did “not once” analyze what
one of ordinary skill in the art would have understood at the time
of the invention).
55

284a
(4) Young ’268 (RX-0214) + Young ’121
(RX-0253) and/or Strubbe (RX-0218):
claim 18
Comcast’s argument for this combination is:
Although Young ’268 does not, by itself,
expressly
disclose
the
reminder
functionality recited by Claim 18(15),
that functionality is taught by Young’
268 through its incorporation by
reference of another patent, Young ’121
(RX-0253),
which
discloses
a
reminder and alarm functionality
controlled by a CPU and the ability
to make such selections from
displayed menus. RX-0005C at Q/A 148
& 171; see RDX-0995 (RX-0253). The
recited reminder and reminder
selection
functionality
is
also
disclosed in Strubbe (RX-0218), which
is analogous art directed to solving a
related problem of simultaneously
displaying textual content relating to
upcoming programs along with a
currently viewed program. RX-0005C at
Q/A 148 & 183-84; see RDX-1400-02 (RX0218). In this predictable art, it would
have been obvious to try to add the
reminder selection messages and
reminder messages of Strubbe to the
system disclosed in Young ’268. RX0005C at Q/A 148.

285a
Resps. Br. at 353-54 (footnote omitted, emphasis
added). 56
The testimony Comcast relies upon, RX-0005C
(Grimes WS) at Q/A 148 & 171, does not show that
Young ’121 discloses reminder functionality. Rather,
Dr. Grimes testified about reminder functionality, as
follows:
Q177. Does Young ’121 disclose
reminders and reminder selection
controlled by a CPU?
A177. Yes. Young ’121 discloses a
reminder
signal
shortly
before
broadcast, if the TV is turned off. Other
reminder events are also disclosed,
including a reminder calendar, which
constitutes
program
schedule
information for programs scheduled to
appear on a plurality of channels. This is
shown in RDX-0995.
RX-0005C (Grimes WS) at Q/A 177.
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that Young ’121 teaches claim 15’s reminder
selection messages. Young ’121 discusses “reminders”
in the “PG + Schedule Setup” section, as follows:
This mode allows the user to create a
weekly reminder calendar, typically for
weekly series and special events of nonYoung ’121 and Strubbe were disclosed to the Examiner. See
JX-0001 at 3. The Examiner also considered Strubbe and Young.
Id.; see also JX-0008C at 797 (Young ’121 was used as a primary
reference), 852 (Strubbe was used as a secondary reference).

56

286a
weekly programs. The reminder process
will set an alarm if the TV is not on
before a certain time before the start of
the program. If the TV is not on when the
program starts, the reminder process
will turn on the VCR to start recording
the program.
RX-0253 at 15:18-26; see also id.at 8:66-9:2, 12:16-19,
20:40-64 (cited in RDX-0995). Young ’121, including
the text that Dr. Grimes cites in RDX-0995, does not
disclose a data processor that displays reminder
selection messages in browse mode or that the
reminders are displayed in an overlay relationship.
See JX-0001 at 28:17-28. Further, Young ’268 is silent
about reminders. See generally RX-0214.
Strubbe (RX-0218), however, teaches the reminder
messages recited in claim 15. Strubbe’s reminder
messages are shown in Figures 14a and 6b:

RX-0218 at 7, 18. The messages are in a partial overlay
and allow the user to choose selection commands. RX0005C (Grimes WS) at Q/A 148, 184.

287a
Comcast, however, has not provided a sufficient
rationale on why a person of ordinary skill in the art
would combine Young ’268 and Strubbe (and/or Young
’121). For various permutations of obviousness
combinations involving Strubbe, Dr. Grimes testified:
Q185. Why would a POSITA have
combined Strubbe with the other
references?
A185. One of ordinary skill in the art
would have found the combination of
Strubbe ’867 and one or more of (the
knowledge of one of ordinary skill in the
art, Young ’268, Florin, Moro) obvious at
least because adding the interactively
selected program schedule information
and displaying claimed elements in a
simultaneous relationship with a
currently broadcast TV channel yields
predictable results. The references and
products come from the same field
(EPGs),
relate
to
a
common
microprocessor technology, and are
directed at solving a common problem of
displaying schedule information in an
overlaying
relationship.
The
motivation
to
combine
these
references comes from many sources,
including, but not limited to, the
common field and the common
technical challenges confronted in
designing electronic programming
guides to meet the ’556 claim
elements’ requirements.

288a
RX-0005C (Grimes WS) at Q/A 185 (emphasis added).
At a minimum, this rationale is insufficient because it
is generic and bears no relation to any specific
combination of prior art elements. See ActiveVideo
Networks. 57 Further, combining references “to meet
the ’556 claim elements’ requirements” is improper
hindsight. See Cheese Systems, Purdue Pharma, and
Insite Vision. 58 With regard to Dr. Grimes’s “obvious to
try” testimony, Comcast has not shown that the
obvious-to-try doctrine is applicable, because it has not
identified a finite number of options, which are easily
traversed, to show obviousness. See Sanofi-Aventis
Deutschland GmbH v. Glenmark Pharm. Inc., USA,
748 F.3d 1354, 1360 (Fed. Cir. 2014). In this regard,
the Federal Circuit has explained:

In ActiveVideo Networks, the Federal Circuit affirmed the grant
of a JMOL that reversed jury’s finding of obviousness after
finding that the expert’s “testimony is generic and bears no
relation to any specific combination of prior art elements. It also
fails to explain why a person of ordinary skill in the art would
have combined elements from specific references in the way the
claimed invention does.” ActiveVideo Networks, Inc. v. Verizon
Commc’ns, Inc., 694 F.3d 1312, 1328 (Fed. Cir. 2012) (emphasis
in original).
57

Cheese Systems, 725 F.3d at 1352 (“Obviousness ‘cannot be
based on the hindsight combination of components selectively
culled from the prior art to fit the parameters of the patented
invention.’”); Purdue Pharma, 643 F. App’x at 963 (holding the
Patent Trial and Appeal Board “improperly used hindsight by
defining the problem with a recitation of the challenged claims”);
Insite Vision, 783 F.3d 853 at 859 (“Defining the problem in terms
of its solution reveals improper hindsight in the selection of the
prior art relevant to obviousness.”); see also InTouch Techs., 751
F.3d at 1352 (faulting an expert who did “not once” analyze what
one of ordinary skill in the art would have understood at the time
of the invention).
58

289a
In KSR . . . the Court explained that
“obvious to try” may apply when “there
are a finite number of identified,
predictable solutions” to a known
problem. The Court explained that when
the path has been identified and “leads
to the anticipated success, it is likely the
product not of innovation but of ordinary
skill and common sense.” Id. This court
has elaborated that the identified path
must “present a finite (and small in the
context of the art) number of options
easily traversed to show obviousness.”
Ortho-McNeil Pharm., Inc. v. Mylan
Labs., Inc., 520 F.3d 1358, 1364 (Fed.
Cir. 2008). As illustrated in In re
O’Farrell, 853 F.2d 894, 903 (Fed. Cir.
1988), it would not be “obvious to try”
when “the prior art gave either no
indication of which parameters were
critical or no direction as to which of
many possible choices is likely to be
successful.”
Id.
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that claim 18 would
have been obvious based on a combination of Young
’268 and Young ’121 and/or Strubbe.

290a
(5) Young ’268 (RX-0214) + Reiter (RX0188) + Young ’121 (RX-0253) and/or
Strubbe (RX-0218): claim 18 59
Comcast has not briefed this particular combination
of prior art references. See Resps. Br. at 350-54
(Section XI(H)(3)(a)). 60 Further, Comcast’s expert has
not opined on this particular combination of
references, including whether or how one of ordinary
skill in the art would combine these references. See
SIBIA Neurosciences, 225 F.3d at 1356; Arendi
S.A.R.L., 832 F.3d 1355 at 1362. Accordingly, the
administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that claim 18 is obvious based on the
combination of Young ’268, Reiter, Young ’121, and/or
Strubbe.
(6) Moro (RX-0216) + Young ’268 (RX0214) and/or Reiter (RX-0188): claims
7 and 40
Comcast argues that Moro teaches an apparatus
with all of the claimed structures (i.e., limitations 3a3d) that supports an EPG (e.g., limitation 3pre). See
Resps. Br. at 354-55 (citing RX-0005C (Grimes WS) at
Q/A 152-54, RDX-0983 (this is a helpful demonstrative
that illustrates Comcast’s argument)). 61 Comcast then

To the extent the issue presented in the Joint Outline differs as
to the claims challenged, the administrative law judge has relied
on the table in Comcast’s brief. See Resps. Br. at 350-51.
59

Comcast asserts this combination in the table appearing on
pages 350-51 of its brief.

60

Moro (EP0444496) was not before the Examiner. See generally
JX-0001.
61

291a
argues that whatever residual “display” functionality
Moro is missing would have been obvious:
In addition, as discussed in relation to
the guide time control commands, Moro
does not expressly disclose functionality
regarding display of program content in
other times. [See RX-0005C (Grimes WS)
at Q/A 161.] However, as also discussed
above, it would have been obvious to a
POSITA to add that functionality, as
disclosed in Young ’268, to the disclosure
of Moro, to achieve the functionality of
navigating through additional timeslots
and changing the on-screen display
accordingly. Id. It would also have been
obvious to a POSITA to produce that
functionality by combining Reiter with
Moro, for the same reasons that one
would combine it with Young ’268, as
discussed above. Id.
Resps. Br. at 355-56. 62
Rovi argues that Moro “does not disclose every
element of any asserted claim of the ’556 Patent.” Rovi
Br. at 317. Rovi’s expert opined that “Moro does not
teach, explicitly or inherently,” limitations 3c, 3d, 3e,
and 3f. See CX-1903C (Delp RWS) at Q/A 178-79. Dr.
Delp’s analysis largely focuses on whether Moro
teaches a system where a user can navigate through
program listings that includes time information. Id.
(discussing a “time domain” and the “time-control
Neither Comcast’s brief nor Dr. Grimes’s witness statement
explains how Young ’268 is a secondary reference. See RX-00005C
at i, Q/A 151-62.

62

292a
commands” of claim 3); see also RX-0216 at Fig. 2 (time
information is not explicitly shown).
Comcast does not provide a reply on Moro. See
generally Resps. Reply, Section IX.
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that claims 7 and 40 are obvious over Moro
in view of Young ’268 and/or Reiter. As Dr. Grimes
testified, Moro “does not explicitly disclose guide time
control commands.” See RX-0005C (Grimes WS) at Q/A
156; see also CX-1903C (Delp RWS) at Q/A 178.
Further, Comcast has not shown, through clear and
convincing evidence, that Moro teaches a browsemode-type guide having interactive functionality. See
RX-0005C (Grimes WS) at Q/A at 161-62 (replying that
Moro does “not expressly” teach reminder selections,
reminder messages, or “functionality regarding
display of program content in other times”); (CX1903C (Delp RWS) at Q/A 177 (“Moro provides no
disclosure of any such navigability.”). On the whole,
the numerous instances where Dr. Grimes testifies
that Moro “does not expressly disclose” an element—
Q/A 156, 161, 162—weighs against finding the
asserted claims are invalid, through clear and
convincing evidence, over combinations involving
Moro as a primary reference.
Moreover, Comcast and Dr. Grimes have not
provided sufficient rationale for why a person of
ordinary skill in the art would combine Moro with
Young ’268 and/or Reiter. Dr. Grimes testified:
Q157. Why would it have been
obvious to a POSITA to combine
Moro with Young ’268?

293a
[A157.] It would have been obvious to a
POSITA to combine Young ’268 with
Moro at least because adding the
disclosed
guide-channel
control
commands to the system disclosed in
Moro, yields predictable results. The
references and products come from the
same field (electronic programming
guides),
relate
to
a
common
microprocessor technology and are
directed at solving a common problem of
controlling
displayed
schedule
information
and
tuning.
The
motivation
to
combine
these
references comes from many sources,
including, but not limited to, the
common field and the common
technical challenges confronted in
designing EPGs to meet this claim
element’s requirements. A POSITA
would have understood the benefits of
providing alternative EPG control
located at the users location to establish
interactively selected program schedule
information,
displaying
claimed
elements’
guide-channel
control
commands. As a result, one of ordinary
skill in the art would have been
motivated to make this combination
because it provides, for example, these
potential benefits associated with the
ability to provide both EPG controls at
the user’s location. In addition, because
the remote control disclosed in Young
’268 contains directional arrows, the

294a
additional limitation recited by Asserted
Claim 18 would also be obvious over
Moro from the addition of Young ’268.
RX-0005C (Grimes WS) at Q/A 157 (emphasis added).
Combining references “to meet this claim element’s
requirements” is improper hindsight. See Cheese
Systems, Purdue Pharma, and Insite Vision. 63
(7) Moro (RX-0216) + Young ’268 (RX-0214)
and/or Reiter (RX-0188) + Strubbe (RX0218): claim 18 64
For claims 15 and 18, Comcast’s argument is:
Although Moro does not expressly
include display of reminder selection and
reminder messages as recited in Claim
18(15), it teaches setting stored
“reminders” in the memory of the
microcomputer. RX-0005C at Q/A 161.
These stored reminders act to control the
tuner to automatically tune to desired
Cheese Systems, 725 F.3d at 1352 (“Obviousness ‘cannot be
based on the hindsight combination of components selectively
culled from the prior art to fit the parameters of the patented
invention.’”); Purdue Pharma, 643 F. App’x at 963 (holding the
Patent Trial and Appeal Board “improperly used hindsight by
defining the problem with a recitation of the challenged claims”);
Insite Vision, 783 F.3d 853 at 859 (“Defining the problem in terms
of its solution reveals improper hindsight in the selection of the
prior art relevant to obviousness.”); see also InTouch Techs., 751
F.3d at 1352 (faulting an expert who did “not once” analyze what
one of ordinary skill in the art would have understood at the time
of the invention).
63

To the extent the issue presented in the Joint Outline differs as
to the claims challenged, the administrative law judge has relied
on the table in Comcast’s brief. See Resps. Br. at 350-51.
64

295a
program content that will air in the
future based to the stored keyword, and
can display an on-screen indication of a
broadcast program whose reception the
user had indicated was desired, which is
a reminder that the program content
corresponding to that selected by the
user by inputting the appropriate
keyword is presently airing. Id.; see RX0216 at p. 5, lns. 54-58. To the extent not
expressly disclosed by or obvious to a
POSITA in view of the foregoing
disclosure of Moro, the recited reminder
functionality was well known, as
evidenced in other references such as
Young ’121 and Strubbe. RX-0005C
(Grimes WS) at Q/A 161. For, for the
same reasons discussed above with
regard to Young ’268, it would have been
obvious to a POSITA to at least try to
add the reminder functionality disclosed
in Strubbe to the system disclosed in
Moro to provide the recited overlayed
reminder selection and reminder
messages. Id.
Resps. Br. at 355 (emphasis added).
The
administrative
law
judge
previously
determined that Strubbe teaches the reminder
messages from claim 15. See Section IV(A)(7)(b)(4).
However, the administrative law judge also
determined that Comcast did not provide a sufficient
rationale on why a person of ordinary skill in the art
would combine Young ’268 and Strubbe (and/or Young
’121) or that the obvious-to-try doctrine is applicable,
and that reasoning applies to this combination too.

296a
Thus, Comcast has not shown that claims 15 and 18
are obvious.
(8) Secondary Considerations
Rovi argues that “secondary considerations support
the non-obviousness of the ’556 Patent.” Rovi Br. at
321-22. For the following secondary considerations,
Rovi argues:
• Copying: that “StarSight Telecast,
EchoStar, and General Instrument”
copied the claimed inventions;
• Long-Felt
Need:
the
inventions
satisfied a long-felt need for consumers
wanting “to learn what programming
was available while continuing to watch
whatever show he - or she was
watching;”
• Industry Acclaim/Recognition by
Others: the claimed inventions “received
considerable praise, were considered
highly desirable by consumers, and used
extensively;”
• Skepticism by Others: the inventions
succeeded despite skepticism;
• Commercial Success: the inventions
were and are a commercial success, and
that “there is a nexus between the
claimed inventions and the commercial
success;”
• Licensing Success: a number of third
parties have licensed the patent and that
“there is a nexus between the inventions

297a
claimed in the ’556 Patent and Rovi’s
licensing success.”
Id. (citing CX-1904C (Williams RWS) at Q/A 78-89, 97,
101; CX-1903C (Delp RWS) at Q/A 214-20; CX-1905C
(Putnam RWS) at Q/A 193-226). As discussed below,
the administrative law judge finds that the secondary
considerations are of negligible probative value.
Additionally, under the heading “There is
Undisputed Objective Evidence of Obviousness,”
Comcast argues:
• Contemporaneous
Invention
by
Others: there was contemporaneous
conception by Apple (Florin), StarSight
(Young et al.), and Prevue (Prevue
Express Guide in the Full Service
Network);
• “the claimed invention as recited in the
Asserted Claims does not address any
recognized problem beyond that already
addressed by numerous other references
and systems[;]” and
• Failure by Others: “Rovi’s deployment
of its IPG products in the market does
not show that others had failed to
conceive of and commercialize the
alleged invention claimed in the ’556
patent . . . The guides independently
commercialized by StarSight and
Prevue, not only rebuts alleged failure by
others,
but
demonstrates
actual
success.” (underlining in original).
Resps. Br. at 356-57 (citing RX-0005C (Grimes WS) at
134, 181, 189-97). Under the heading “There is No

298a
Relevant Objective Evidence of Non-Obviousness,”
Comcast argues:
• Nexus: “Rovi’s proffered evidence
addressing secondary considerations
does not even attempt to address
specifics of any of the particular patents.
. . . Rovi has failed to establish the
commercial success was due to ‘the
unique characteristics of the claimed
invention—as opposed to other economic
and commercial factors unrelated to the
quality of the patented subject matter
[;]’”
• Long-Felt Need: “Rovi identifies some
survey evidence, circa 1997, about the
“Browse Mode” feature of an EPG, but
that cannot be a proxy for the Asserted
Claims, especially when Rovi contends
that Browse Mode is not required”
(footnote omitted); and
• Industry Praise: ‘“Industry Praise’ for
the alleged invention similarly lacks any
nexus to the Asserted Claims because it
identifies ‘Insight’ (a predecessor entity
to Rovi) as the provider of the technology
associated with that award, a wholly
different entity and technology from the
United Video Properties entity that
created the ’556 patent, and because the
praise for the feature of helping users
‘rapidly locating their desired program’
is unrelated to the interactive overlay of
the ’556 patent.”

299a
Resps. Br. at 357-58. These arguments and the
evidence cited therein also are of negligible probative
value.
(a) Commercial Success
Rovi argues:
Much commercial success is attributable
to the inventions claimed in the ’556
Patent. CX-1905C (Putnam RWS) at Q/A
193.
Companies
including
Rovi,
Comcast,
AT&T,
Verizon,
and
SuddenLink
have
commercially
successful products that embody the
inventions claimed in the ’556 Patent,
and there is a nexus between the claimed
inventions and the commercial success.
Id. at Q/A 194-99 (discussing commercial
success), 200-17 (discussing nexus).
Rovi Br. at 321-22.
Comcast argues:
Rovi has failed to establish the
commercial success was due to “the
unique characteristics of the claimed
invention—as opposed to other economic
and commercial factors unrelated to the
quality of the patented subject matter.”
SightSound Techs., 809 F.3d at 1319.
Resps. Br. at 357.
Rovi’s reply notes that Comcast did not offer an
economics opinion in response to Rovi’s argument.
Rovi Reply at 123.
‘“[W]hen a patentee can demonstrate commercial
success, usually shown by significant sales in a

300a
relevant market, and that the successful product is the
invention disclosed and claimed in the patent, it is
presumed that the commercial success is due to the
patented invention.’” Ormco Corp. v. Align Tech., Inc.,
463 F.3d 1299, 1312 (Fed. Cir. 2006) (quoting J.T.
Eaton & Co. v. Atlantic Paste & Glue Co., 106 F.3d
1563, 1571 (Fed. Cir. 1997)); see also In re GPAC Inc.,
57 F.3d 1573, 1580 (Fed. Cir. 1995) (‘“A prima facie
case of nexus is generally made out when the patentee
shows both that there is commercial success, and that
the thing (product or method) that is commercially
successful is the invention disclosed and claimed in the
patent.’”) (quoting Demaco Corp. v. F. Von Langsdorff
Licensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988)).
On the other hand, “‘ [i]f the commercial success is due
to an unclaimed feature of the device’ or ‘if the feature
that creates the commercial success was known in the
prior art, the success is not pertinent.’” Ethicon EndoSurgery, Inc. v. Covidien LP, 812 F.3d 1023, 1034 (Fed.
Cir. 2016) (quoting Ormco, 463 F.3d at 1312).
For the nexus requirement, the Federal Circuit has
explained that
A nexus between commercial success and
the claimed features is required. . . .
However, if the marketed product
embodies the claimed features, and is
coextensive with them, then a nexus is
presumed and the burden shifts to the
party asserting obviousness to present
evidence to rebut the presumed nexus. . .
. The presumed nexus cannot be rebutted
with mere argument; evidence must be
put forth.

301a
Brown & Williamson Tobacco Corp. v. Philip Morris
Inc., 229 F.3d 1120, 1130 (Fed. Cir. 2000) (citations
omitted).
The administrative law judge has determined that
Rovi has not made a showing that the ’556 Patent was
commercially successful because it has not shown that
any products infringe or practice the ’556 Patent. 65
(b) Licensing Success
Rovi argues:
Rovi has also successfully licensed the
’556 Patent to a number of third parties,
and there is a nexus between the
inventions claimed in the ’556 Patent
In the alternative, if it is later found that the X1, Legacy, or
domestic industry products discussed above infringe or practice
the ’556 Patent, then the evidence shows that the ’556 Patent has
had some commercial success, as the products have enjoyed
financial success and the corresponding guides embodied the
claimed features. See generally CX-0004C (Delp WS) and CX1903C (Dr. Delp opines that various guides incorporate the
patented features); CX-1905C (Putnam RWS) at Q/A 194-17
(testifying about various guides and set-top boxes, their sales, and
demand for browse mode). The evidence that Comcast cites, RX0005C (Grimes WS) at Q/A 189-97, contains a single question on
commercial success, Q/A 190. The responsive testimony is
confined to licensing and the X1 system. See id. at Q/A 190.
However, Rovi’s showing is weak, because it has not shown that
its success is not due to other factors, such as advertising and
marketing or “other economic and commercial factors unrelated
to the quality of the patented subject matter.” See In re Huang,
100 F.3d 135, 140 (Fed. Cir. 1996) (rejecting argument where
patentee did not explain “that the product was purchased due to
the claimed features”); In re DBC, 545 F.3d 1373, 1384 (Fed. Cir.
2008). In particular, Rovi has not shown that browse mode drove
consumer purchasing decisions rather than other factors (such as
demand for cable television itself).

65

302a
and Rovi’s licensing success. Id. at Q/A
218-25. Thus, there has been significant
commercial success attributable to the
’556 Patent, not only from the products
that embody the asserted claims of the
’556 Patent, but also from Rovi’s success
in licensing the patent. CX-1905C
(Putnam RWS) at Q/A 226.
Rovi Br. at 322.
Comcast argues:
. . . Rovi has failed to establish the
commercial success was due to “the
unique characteristics of the claimed
invention—as opposed to other economic
and commercial factors unrelated to the
quality of the patented subject matter.”
SightSound Techs., 809 F.3d at 1319.
Resps. Br. at 357.
The
Federal
Circuit
specifically
requires
“affirmative evidence of nexus where the evidence of
commercial success presented is a license, because it is
often cheaper to take licenses than to defend
infringement suits.” In re Cree, Inc., 818 F.3d 694, 703
(Fed. Cir. 2016) (quotations omitted). The Federal
Circuit explained that
When the specific licenses are not in the
record, it is difficult for the court to
determine if “the licensing program was
successful either because of the merits of
the claimed invention or because they
were entered into as business decisions
to avoid litigation, because of prior

303a
business relationships, or for other
economic reasons.”
Id. (citing In re Antor Media Corp., 689 F.3d 1282,
1294 (Fed. Cir. 2012)). 66 In general, the existence of a
license alone is insufficient to show that the licensed
patent was a commercial success. See Iron Grip
Barbell Co. v. USA Sports, Inc., 392 F.3d 1317, 1324
(Fed. Cir. 2004) (“Without a showing of nexus, “the
mere existence of. . . licenses is insufficient to
overcome the conclusion of obviousness” when there is
a strong prima facie case of obviousness.”); see also
Amazon.com, Inc. v. Personalized Media Commc’ns,
LLC, IPR2014-01530, 2016 WL 1170773, at *17 (Mar.
24, 2016) (“Mr. Holtzman’s testimony lists patent
family licenses and revenue, but does not discuss the
merits of the challenged claim as they relate to any
particular license for the ’956 patent in the portfolio of
licenses. . . . [this] does not establish whether a specific
license (or licensing clause, etc.) for the ’956 patent
occurred because of the merits of the challenged claim,
the merits of unchallenged claims, for other patented

In Antor Media, 689 F.3d at 1294, the Federal Circuit criticized
evidentiary support that is similar to the present investigation:
66

Antor merely lists the licensees and their respective sales
revenue. The licenses themselves are not even part of the
record. Antor provides no evidence showing that the
licensing program was successful either because of the
merits of the claimed invention or because they were
entered into as business decisions to avoid litigation,
because of prior business relationships, or for other
economic reasons. The Board was thus correct in holding
that the existence of those licenses is, on its own,
insufficient to overcome the prima facie case of
obviousness.

304a
inventions, or for other economic reasons related to the
whole ’956 patent family.”).
[ ] CX-0001C at Q/A 28, 31[ ] See id. at Q/A 3536; CX-1905C (Putnam RWS) at Q/A 67, 69-70. 67 The
evidence does not show, however, that these licenses
are based on the merits of the patents as opposed to a
business decision to avoid litigation, a prior business
relationship, or other economic reason. See In re Cree,
818 F.3d at 703; In re Antor Media, 689 F.3d at 1294.
[
] Accordingly, the administrative law judge has
determined that Rovi has not shown that licensing of
the ’556 Patent—[ ]—has been a success.
(c) Copying
Copying typically arises in a secondaryconsiderations analysis where the accused infringer
has copied the patentee’s invention. See, e.g., DePuy
Spine, Inc. v. Medtronic Sofamor Danek, Inc., 567 F.3d
1314, 1329 (Fed. Cir. 2009); Iron Grip Barbell Co. v.
USA Sports, Inc., 392 F.3d 1317, 1325 (Fed. Cir. 2004).
Copying “requires the replication of a specific product.”
Iron Grip Barbell, 392 F.3d at 1325. Copying “may be
demonstrated either through internal documents . . .
direct evidence such as disassembling a patented
prototype, photographing its features, and using the
photograph as a blueprint to build a virtually identical
replica, . . . or access to, and substantial similarity to,
the patented product (as opposed to the patent).” Id.
(citations omitted); see also Wyers v. Master Lock Co.,
616 F.3d 1231, 1246 (Fed. Cir. 2010) (“copying requires
evidence of efforts to replicate a specific product, which
It is not readily apparent whether the licenses are in the record
or if Dr. Putnam read them. See generally CX-1905C (Putnam
RWS) at Q/A 75-79.

67

305a
may be demonstrated through internal company
documents, direct evidence such as disassembling a
patented prototype, photographing its features, and
using the photograph as a blueprint to build a replica,
or access to the patented product combined with
substantial similarity to the patented product.”).
Rovi’s evidence consists of conclusory expert
testimony that cites to a declaration submitted during
prosecution. See, e.g., CX-1903C (Delp RWS) at Q/A
214. Dr. Delp did not testify that he personally
analyzed the StarSight Telecast, EchoStar, and
General Instrument guides. Id. Further, there is no
evidence of “internal company documents, direct
evidence such as disassembling a patented prototype,
photographing its features, and using the photograph
as a blueprint to build a replica, or access to the
patented product combined with substantial similarity
to the patented product” that show “efforts to replicate
a specific product.” See Wyers, 616 F.3d at 1246.
Accordingly, the administrative law judge has
determined that this testimony is insufficient to find
copying, and that this factor does not support nonobviousness.
(d) Long-Felt Need
“Evidence of a long-felt but unresolved need can
weigh in favor of the non-obviousness of an invention
because it is reasonable to infer the need would not
have persisted had the solution been obvious.” Apple
Inc. v. Samsung Elecs. Co., 839 F.3d 1034, 1056 (Fed.
Cir. 2016); see also Goodyear Tire & Rubber Co. v. RayO-Vac Co., 321 U.S. 275, 279 (1944) (finding long-felt
need where competing batteries were available for
many years but did not address recognized defects).
Long-felt need “is analyzed as of the date of an

306a
articulated identified problem and evidence of efforts
to solve that problem.” Texas Instruments Inc. v. U.S.
Int’l Trade Comm’n, 988 F.2d 1165, 1178 (Fed. Cir.
1993).
Rovi’s evidence consists of conclusory expert
testimony that cites to a declaration submitted during
prosecution. See, e.g., CX-1903C (Delp RWS) at Q/A
215. Dr. Delp did not identify the date when the longfelt need first began, nor did he discuss any evidence
outside of the file history (i.e., Dr. Delp did not analyze
the need “as of the date of an articulated identified
problem and evidence of efforts to solve that problem,”
per Texas Instruments). 68 Id. Indeed, Dr. Delp’s
testimony simply agrees with a declaration submitted
during prosecution that assumes long-felt need based
upon “the widespread acceptance of the claimed
Browse feature[.]” Id.
Accordingly, the administrative law judge has
determined that this testimony is insufficient to find a
long-felt need, and that this factor does not support
non-obviousness.
(e) Industry Acclaim / Recognition by
Others
Rovi argues that the “inventions claimed in the ’556
Patent received considerable praise, were considered
highly desirable by consumers, and used extensively.”
Rovi Br. at 321 (citing CX-1903C (Delp RWS) at Q/A
216 (describing praise of claimed inventions), 217
(describing survey related to claimed inventions), 218
While Mr. Williams discussed the 1992, 1998, and 1999
timeframes, those discussions were not cited by Rovi, and the
discussions relate to the priority dates of the patents, not the
dates when the alleged need arose.

68

307a
(describing survey related to claimed inventions), 21920 (describing consumer review and advertisements of
claimed invention)).
For industry praise, the Federal Circuit has
explained:
Evidence that the industry praised a
claimed invention or a product which
embodies the patent claims weighs
against an assertion that the same claim
would have been obvious. Industry
participants, especially competitors, are
not likely to praise an obvious advance
over the known art. Thus, if there is
evidence of industry praise in the record,
it weighs in favor of the nonobviousness
of the claimed invention.
WBIP, LLC v. Kohler Co., 829 F.3d 1317, 1334 (Fed.
Cir. 2016).
The “Tour Guides” article (CX-0848, beginning at
109) demonstrates praise that is related to the
StarSight guide. See CX-0848 at 114 (“‘Browsing’ is an
excellent way to find out what’s on.”). It is assumed
Rovi contends the praise applies to the ’556 patent
based upon its copying allegations. See RX-0005C
(Grimes WS) at Q/A 193 (providing testimony
pertaining to the nexus requirement).
For the consumer demand surveys or allegations of
extensive use, Rovi has not explained how these affect
the secondary considerations analysis. See Rovi Br. at
321 (Rovi’s argument is the “inventions claimed in the
’556 Patent received considerable praise, were
considered highly desirable by consumers, and used
extensively.”); CX-1903C (Delp RWS) at Q/A 217-20.

308a
Further, the evidence cited in CX-1903C (Delp RWS)
at Q/A 219-20 (e.g., CDX-0207C and CDX-0208C)
pertains to licensing for the ’263 Patent and the ’413
Patent. See CX-1905C (Putnam RWS) at Q/A 139.
Accordingly, the administrative law judge has
determined that Rovi has not shown that this
secondary consideration factor supports a nonobviousness finding.
(f) Skepticism by Others
Rovi argues: the “inventions claimed in the ’556
Patent helped the pay TV market grow and succeed
even though at the time of the invention persons of
ordinary skill in the art would have expressed
skepticism of such solutions. CX-1904C (Williams
RWS) at Q/A 101.” Rovi Br. at 321.
For skepticism by others, the Federal Circuit has
explained:
Evidence of industry skepticism weighs
in favor of non-obviousness. If industry
participants or skilled artisans are
skeptical about whether or how a
problem could be solved or the
workability of the claimed solution, it
favors non-obviousness. Doubt or
disbelief by skilled artisans regarding
the likely success of a combination or
solution weighs against the notion that
one would combine elements in
references to achieve the claimed
invention
WBIP, LLC v. Kohler Co., 829 F.3d 1317, 1334 (Fed.
Cir. 2016).

309a
The testimony Rovi cites pertains to the ’871 Patent:
Q101: What effect, if any, did the ’871
Patent have on the industry?
A101: The inventions of the ’871 Patent
helped the pay TV market grow and
succeed. At the time of the invention,
some persons of ordinary skill in the art
would have expressed skepticism of such
solutions considering multiple tuner
systems or a networked whole home
DVR
too
complex,
costly,
and
impractical. The solutions of the ’871
Patent were copied by implementer after
implementer as multi-channel digital
television
systems
became
more
widespread.
CX-1904C at Q/A 101 (cited by Rovi Br. at 321). The
testimony at Q/A 68 pertains to the ’556 Patent:
Q68: So how did you interpret all of
this?
A68: The inventions of the ’556 Patent
helped the pay TV market grow and
succeed. At the time of the invention,
some persons of ordinary skill in the art
would have expressed skepticism that
such capabilities could be brought into
the television space considering the
resolution requirements, processing
requirements, data requirements and
common experience with the way people
traditionally watched TV. The solutions
of the ’556 Patent were copied by
implementer after implementer as

310a
multi-channel digital television systems
became more widespread.
This testimony is conclusory and does not explain who
expressed skepticism that the guides claimed in the
’556 Patent were not feasible. See, e.g, Kinetic
Concepts, Inc. v. Smith & Nephew, Inc., 688 F.3d 1342,
1367 (Fed. Cir. 2012) (finding skepticism from “leading
experts in the field and reviewers for the Plastic and
Reconstructive Surgery journal); Vulcan Engineering
Co., Inc. v. Fata Aluminum, Inc., 278 F.3d 1366, 1373
(Fed. Cir. 2002) (pointing to technical articles and
witness testimony).
The administrative law judge has determined that
Rovi has not shown that this factor supports a finding
of non-obviousness.
(g) Contemporaneous
Others

Invention

Comcast argues:
The objective facts showing the
obviousness of the Asserted Claims
include the contemporaneous conception
of the Asserted Claims by others,
including Apple (Florin), StarSight
(Young et al.), and Prevue (Prevue
Express Guide in the Full Service
Network) RX-0005C at Q/A 134, 181,
192. This repeated conception confirms
the obviousness of the Asserted Claims.
See Ecolochem v. S. Cal. Edison Co., 227
F.3d 1361, 1379 (Fed. Cir. 2000).
Resps. Br. at 356.

by

311a
‘“Independently made, simultaneous inventions,
made within a comparatively short space of time, are
persuasive evidence that the claimed apparatus was
the product only of ordinary mechanical or engineering
skill.’” Trustees of Columbia Univ. in City of N.Y. v.
Illumina, Inc., 620 F. App’x 916, 929 (Fed. Cir. 2015)
(quoting George M. Martin Co. v. Alliance Mach. Sys.
Int’l LLC, 618 F.3d 1294, 1305 (Fed. Cir. 2010)).
The administrative law judge has determined that
Comcast’s contemporaneous inventions argument is of
little weight; the evidence is rather weak because
Florin and Young were before the Examiner during
prosecution and the Prevue guide analysis is limited
to corporate testimony instead of an examination of
the guide. See Resps. Br. at 357, n.93.
Accordingly, this argument and the evidence cited
therein also is of negligible probative value.
(h) Failure of Others
Comcast argues that “Rovi’s deployment of its IPG
products in the market does not show that others had
failed to conceive of and commercialize the alleged
invention claimed in the ’556 patent. RX-0005C
(Grimes WS) at Q/A 192.” 69 Rovi does not argue failure
of others.

69
Dr. Grimes opined: “It is my opinion that Rovi’ s deployment of
its IPG products in the market does not show that others had
failed to conceive of and commercialize the alleged invention
claimed in the ’556 Patent. . . . Not only does this rebut any
assertions that others had failed to commercialize the claimed
invention and/or conceive of it, but the contemporaneous
conception and development confirms that the alleged invention
of the ’556 Patent was obvious . . . . ”

312a
Accordingly, this argument and the evidence cited
therein is of negligible probative value.
(i) Weighing
the
Secondary
Consideration Factors
On the whole, the administrative law judge has
determined that the evidence cited by Rovi is
negligible in the overall obviousness analysis.
Likewise, the evidence cited by Comcast is negligible
in the overall obviousness analysis, and it does not
cure the defects in its obviousness arguments (such as
failing to identify a problem to be solved, providing
sufficient motivation to combine or modify references,
or addressing limitations missing from the prior art).
Thus, the evidence does not have a perceptible impact
on the obviousness calculus.
c) Non-Statutory Double Patenting
Comcast argues:
. . . the Asserted Claims of the ’556 patent
are invalid as patentably indistinct from
certain claims of the ’967 (RX-0211) and
’185 (RX-0212) Patents, which issued
from continuation applications claiming
ultimate priority to the ’556 patent, and
which share a common specification. RX0005C (Grimes WS) at Q/A 105, 112, &
114-15.
Resps. Br. at 341 (referencing U.S. Patent Nos.
6,728,967 and 7,100,185).
Rovi argues that the ’556 Patent, which was filed
before the filed before the Uruguay Round Agreements
Act (“URAA”) was effective, is not an improper
extension of the ’967 or ’185 Patents, which were filed

313a
after the URAA was effective. Rovi Br. at 322-23.
Rovi’s brief provides the following timeline:

Id. at 322. Rovi adds:
As shown above, the ’556 Patent,
although filed earlier, expires later than
the ’967 and ’185 Patents. This situation
results from a change in the law
governing patent terms and a delay in
prosecution of the ’556 Patent through no
fault of the inventors. Specifically, the
’556 Patent was filed prior to enactment
of the URAA. Under the law, patents
filed prior to the URAA are entitled to a
term that is the greater seventeen years
post-grant or twenty years post filing. 35
U.S.C. § 154(c)(1). In contrast, the ’185
and ’967 Patents were filed after the
enactment of the URAA. Patents filed
after enactment of the URAA only carry
terms of twenty years post-filing. 35
U.S.C. § 154(a)(2). As discussed in detail
in section H(2)(a) above, during
prosecution of the application for the ’556
Patent, the Patent Office requested an
“interference” proceeding between the
applicant and a third party claiming to

314a
have earlier invented the subject matter
of the application. The interference
proceeding was resolved and the ’556
Patent issued-over eight years after
filing. These events, combined, resulted
in the ’967 and ’185 patents expiring in
September 2013, and the ’556 Patent
expiring in July 2019.
Id. at 323. Rovi then argues that obviousness-type
double patenting does not apply on these facts. Id. Rovi
further argues that Comcast has failed to identify a
motivation to modify the allegedly invalidating claims
to cover the asserted claims and that the asserted
claims are patentably distinct from the allegedly
invalidating claims. See Rovi Br. at 327-29.
Comcast replies that Rovi ignored the ’556 Patent’s
means-plus-function limitations and that the memory
from allegedly invalidating claim 19 is “inherently”
disclosed. See Resps. Reply at 131-32.
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that the asserted claims are invalid for
obviousness-type double patenting in light of the ’967
and ’185 Patents.
As an initial matter, the cases that Rovi cites in
support of its argument that a post-URAA patent
cannot invalidate a pre-URAA patent, Brigham &
Women’s Hosp. Inc. v. Teva Pharm. USA, Inc., 761 F.
Supp. 2d 210, 225 (D. Del. 2011) and Abbott Labs. v.
Lupin Ltd., No. 09-152-LPS, 2011 WL 1897322, at *10
(2011 U.S. Dist. LEXIS 53846) (D. Del. May 19, 2011),
have not gained traction in subsequent decisions. See
Gilead Scis., Inc. v. Natco Pharma Ltd., 753 F.3d 1208,
1215 (Fed. Cir. 2014) (directing courts to look at a

315a
patent’s expiration date, not its filing date, in
obviousness-type double patenting challenges); see
also Janssen Biotech, Inc. v. Celltrion Healthcare Co.,
210 F. Supp. 3d 278, 2016 WL 5698362 at *3 (D. Mass.
2016) (critiquing plaintiff’s reliance on Brigham and
Abbot); DDB Techs., L.L.C, v. Fox Sports Interactive
Media, LLC, No. A-11-CV-929-LY, 2014 WL 12167628,
at *4 (W.D. Tex. May 15, 2014) (same).
The Federal Circuit has explained that obviousnesstype double patenting analysis involves two steps:
First, the court construes the claims in
the earlier patent and the claims in the
later patent and determines the
differences. Second, the court determines
whether those differences render the
claims patentably distinct. . . . A later
claim that is not patentably distinct
from, i.e., is obvious over or anticipated
by, an earlier claim is invalid for
obviousness-type double patenting.”
Abbvie Inc. v. Mathilda & Terence Kennedy Inst. of
Rheumatology Trust, 764 F.3d 1366, 1374 (Fed. Cir.
2014). 70
Comcast argues claims 7 and 40 are patentably
indistinct from claims 11-12 and 14-16 from the ’185
Patent and claims 26-27 & 35-36 of the ‘967 Patent.
See Resps. Br. at 344; RX-0005C (Grimes WS) at Q/A
105, 114. Comcast also argues that claim 18(15) is
Citations to Sun Pharm. Indus., Ltd. v. Eli Lilly & Co., 611 F.3d
1381, 1385 (Fed. Cir. 2010), Pfizer, Inc. v. Teva Pharm. USA, Inc.,
518 F.3d 1353, 1363 (Fed. Cir. 2008), and Eli Lilly & Co. v. Barr
Labs., Inc., 251 F.3d 955,968 (Fed. Cir. 2001) omitted; quotations
and bracketing alterations are also omitted.
70

316a
patentably indistinct from claims 17-20 from the ’185
Patent and 24 and 33 from the ’967 Patent. Id.
However, neither Comcast nor Dr. Grimes offer claim
constructions for any of the allegedly invalidating
claims. See generally id. For example, in RDX-0952,
Comcast compares the ’556 Patent’s “display
generator” to the ’185 Patent’s “means for displaying”
and the ’967 Patent’s “display device” without offering
any constructions. Likewise, Comcast compares the
’556 Patent’s “memory means” to the ’185 Patent’s
“program listings” and the ’967 Patent’s “program
listings
information”
without
offering
any
constructions. Comcast has failed to meet its burden
under the first step of the Federal Circuit’s
obviousness-type double patenting law.
Additionally, Comcast does not substantively
compare the allegedly invalidating claims to the
asserted claims in its brief, and Dr. Grimes does not
substantively compare the allegedly invalidating
claims to the asserted claims in his witness statement.
See generally Resps. Br., RX-0005C (Grimes WS). 71
Thus, there is no discussion of the differences between
the allegedly invalidating claims and the asserted
claims. Id.; see Abbvie, 764 F.3d at 1374 (“the court
determines whether those differences render the
claims patentably distinct”). 72 Comcast has not
71
Rather, Comcast’s analysis is relegated to demonstratives. See
RX-0005C (Grimes WS) at Q/A 116-18 (citing RDX-0952-59).

There also is no discussion of why a person of ordinary skill in
the art would modify the newer claims in a manner that would
render the prior claims obvious. Cf. Otsuka Pharm. Co. v. Sandoz,
Inc., 678 F.3d 1280, 1298 (Fed. Cir. 2012) (“In the context of
claimed chemical compounds, an analysis of nonstatutory
obviousness–type double patenting-like an analysis under § 103–
entails determining, inter alia, whether one of ordinary skill in
72

317a
persuasively shown that the ’185 Patent’s or the ’967
Patent’s allegedly invalidating claims cover data
processing means that display program schedule
information in portions where “each said portion
comprising listing information for each successive one
of said television programs scheduled to appear on
said set of channels and being consecutively displayed
in response to corresponding consecutive ones of said
guide control commands for successively navigating
through listing information for sequential time periods
or programs for which program schedule information
is stored in said memory means” (limitation 3f) or that
the data processing means is “responsive to said
television tuning commands for allowing a user to
select any one of said television programs for which
listing information is displayed in said partially
overlayed portion of said schedule information”
(limitation 3g).
d) Indefiniteness
Comcast argues, for the “data processing” means in
claims 3, 15, and 40, that:
…each of these terms is indefinite
because the written description fails to
provide the requisite structure; the only
disclosed structure is a general purpose
processor, and no code or algorithms are
disclosed. In view of this intrinsic
the art would have had reason or motivation to modify the earlier
claimed compound to make the compound of the asserted claim
with a reasonable expectation of success. There is no other way to
consider the obviousness of compound B over compound A
without considering whether one of ordinary skill would .have
had reason to modify A to make B. That is traditional obviousness
analysis.”).

318a
evidence, a POSITA would have
interpreted these terms as lacking
requisite structure, consistent with
Comcast’s proposal. RX-0005C (Grimes
WS) at Q/A 50; RX-0848C at Q/A 91. In
fact, the ’556 patent expressly concedes
that it fails to disclose code or algorithms
to implement the recited functions on
the disclosed general purpose processor.
Id. Rovi’s Dr. Delp has not identified any
code or algorithms either. . . .
Resps. Br. at 297-99 (emphasis in original).
Rovi argues that the ’556 Patent discloses
algorithms for performing the claimed functions. See
Rovi Br. at 272 (citing CX-1903C (Delp RWS) at Q/A
60; Figure 36A; col. 8, lns. 3-37, col. 8, lns. 49-67, col.
10, lns. 23-34, col. 10, ln. 66 - col. 11, ln. 15, and col.
12, ln. 49 - col. 13, ln. 4, and col. 22, ln. 63).
Comcast does not present a reply. See generally
Resps. Reply at 129-32.
The Federal Circuit has explained that the “amount
of detail that must be included in the specification
depends on the subject matter that is described and its
role in the invention as a whole, in view of the existing
knowledge in the field of the invention.” Typhoon
Touch Techs., Inc. v. Dell, Inc., 659 F.3d 1376, 1385
(Fed. Cir. 2011). Dr. Grimes—Comcast’s expert—
testified that using a data processor for an EPG was
known and implemented well before the ’556 Patent.
See RX-0005C (Grimes WS) at Q/A 58 (“this
functionality was taught by Reiter, as shown in RDX0988-89, no later than 1985 through the use of a
processor to allow a user to select a particular display
of a chosen subset of the stored program schedule

319a
information from among a full screen display, a
windowed format, and an overlay format and navigate
through the information”). Dr. Grimes also testified
that a data processor or microcontroller “have long
been known and used, including to implement the
functionality selected by a television viewer on a
remote control” and that using “a processor to control
the output of a video display generator for display, in
response to user control commands and other user
selections, was well known and implemented in the art
for years, if not decades, before the ’556 Patent.” Id. at
Q/A 59-60. For claim 18, Dr. Grimes opined that the
“structures and techniques recited in Claim 18(15) are
conventional components recited in the other Asserted
Claims that merely implement well-understood
activity.” Id. at Q/A 61. Given this testimony, the
administrative law judge finds that Comcast has not
shown that a person of ordinary skill in the art would
have considered the “data processor” limitation
indefinite under § 112.
B. U.S. Patent No. 8,006,263
1. Overview of the ’263 Patent (JX-0002)
The ’263 Patent, entitled “Interactive television
program guide with remote access,” issued on August,
23, 2011. The ’263 Patent is a continuation of two
patent applications, and it claims the benefit of U.S.
Provisional Application No. 60/097,527, filed August
21, 1998, and U.S. Provisional Application No.
60/093,292, filed July 17, 1998. The ’263 Patent shares
“essentially the same specification” as the ’801 Patent
and the ’413 Patent. See Resps. Br. at 63; see also Rovi
Br. at 41 (explaining the patents “stem from a
common, parent application filed on July 16, 1999”).
The ’263 Patent relates to interactive television guide

320a
programs that operate on local devices, such as a settop box, and remote devices, such as a laptop or mobile
phone.
Comcast has collectively introduced the ’263, ’801,
and ’413 Patents as the “Remote Access Patents.” See,
e.g., Resps. Br. at 63; see also Tr. 37 (“smartphone
scheduling of DVR recordings.”).
2. Claim Construction
a) Level of Ordinary Skill in the Art
The parties address the level of ordinary skill for the
’263, ’801, and ’413 Patents together. See Rovi Br. at
42; Resps. Br. at 70.
Rovi argues:
One of ordinary skill in the art would
have a bachelor’s degree in electrical or
computer engineering or computer
science, or equivalent experience, and
two to four years of experience relating
to computer programming and UI. CX0002C (Shamos WS) at Q/A 93-95.
Rovi Br. at 42.
Comcast argues:
A POSTIA of the ’263, ’413, and ’801
patents as of July 16, 1999, Rovi’s
proposed date of invention, would have a
bachelor’s degree in computer science,
electrical
engineering,
computer
engineering, or a similar discipline, and
at least two years of experience or
familiarity with computer networks,
graphical user interfaces, and the
associated computer software. RX-0850C

321a
(Wigdor RWS) at Q/A 6. In the
alternative, a POSITA could have
equivalent experience either in industry
or research, such as designing,
developing, evaluating, testing, or
implementing the previously mentioned
technologies. Id. There is not a
meaningful dispute between the parties
on this issue. Id. at Q/A 8.
Resps. Br. at 70.
In view of the expert testimony and consensus
between the parties, the administrative law judge has
determined that a person having ordinary skill in the
relevant art would have a bachelor’s degree in
computer science, electrical engineering, computer
engineering, or a similar discipline and two to four
years of experience or familiarity with computer
networks, graphical user interfaces, and the
associated computer software.
b) Agreed Claim Terms
The parties have submitted agreed constructions for
multiple claim terms, as follows:
Claim Term
1. Local Guide

Agreed Construction
local interactive
television program guide

2. Preamble (system for
The preamble is
selecting television
limiting.
programs over a remote
access link comprising
an Internet
communications path for
recording)

322a
Claim Term

Agreed Construction

3. Receiving, with the
remote access
interactive television
program guide, a
selection of a program
listing the plurality of
program listings in the
display

receiving, with the
remote access
interactive television
program guide, a
selection of a program
listing of the plurality of
program listings in the
display

4. Interactive television
program guide
equipment

equipment on which an
interactive television
program guide is
implemented

5. Local interactive
equipment on which a
television program guide local interactive
television program guide
equipment
is implemented
6. Location remote from
the mobile device/remote
program guide access
device

location other than on
the mobile device/remote
program guide access
device

7. Program listing

information sufficient to
identify a television
program for recording

8. Remote access link
comprising an Internet
communications path

a communications path
including at least the
Internet

9. User profile

user specific data at
least defining
preferences

323a
Claim Term

Agreed Construction

10. Remote device

remote interactive
television program guide
access device

11. Remote guide

remote access
interactive television
program guide

12. Remote to the
remote device

not on the remote device

13. Television
equipment

user television
equipment

14. User equipment

user television
equipment

15. User site

location of the user
equipment

See Joint Outline at 4. 73
c) Disputed Claim Terms
(1) Interactive television program guide
Rovi argues:
This term does not require separate
construction, as the phrase “interactive
television program guide” does not
appear separately from the broader
phrases “local interactive television
program guide” and “remote access
interactive television program guide,”
each of which are separately proposed for
73

EDIS Doc. ID No. 600641, filed Jan. 10, 2017.

324a
construction as discussed herein. Wigdor
Tr. 897 (Respondents’ expert testifying
that the term “interactive television
program guide” does not appear in any
claim, apart from the broader phrases).
CX-0002C (Shamos WS) at Q/A 143
(Rovi’s expert explaining that no
separate construction of this term is
required).
Further,
many
of
Respondents’ constructions for other
terms contain “interactive television
program guide” as part of the proposal
and it is properly construed as part of
each individual term.
Rovi Br. at 42.
Comcast argues:
The
proposed
constructions
for
“interactive television program guide,”
“local interactive television program
guide,” “remote interactive television
program guide,” “remote interactive
television program guide access device,”
and “remote program guide access
device” are all related and will be
discussed together. See RDX-0834 to
RDX-0836 (listing both party’s [sic]
constructions).
Resps. Br. at 70-71. 74
Comcast points to many demonstrative exhibits to present its
claim constructions (here, RDX-0834 to RDX-0836). It is unclear
why Comcast would refer to a demonstrative image rather than
directly state and argue a proposed claim construction in its brief.
See Pre-Hr’g Tr. 14.
74

325a
The administrative law judge agrees with Rovi that
this term does not require separate construction.
Indeed, this term does not appear separately from
other terms that include it, and need not be construed
in isolation.
(2) Local interactive television program
guide
The parties
constructions:

have

Rovi’s Proposed
Construction
guide that allows
navigation through
television program
listings and causes
display of program
information on user
television equipment

proposed

the

following

Comcast’s Proposed
Construction
interactive television
program guide inside a
user’s home

See Rovi Br. at 43; Resps. Br. at 70-71. 75
Rovi argues:
The majority of the claim construction
issues—and the related infringement
disputes—distill to whether the adjective
“local” requires that all portions of the
interactive program guide must exist
Comcast’s post-hearing brief explains that “Comcast proposes
that ‘local interactive television program guide’ be construed as
‘interactive television program guide inside a user’s home’ and
‘remote access interactive television program guide’ be construed
as ‘interactive television program guide outside a user’s home.’”
Resps. Br. at 71.
75

326a
and execute entirely, solely, and only
inside a user’s home or whether portions
of the guide may (as the Patents
contemplate) exist outside the user’s
home. Wigdor Tr. 893 (Respondents’
expert confirming that, as applied in his
non-infringement
opinions,
the
“application” corresponding to the “local
interactive television program guide”
must “execute” solely, entirely, and only
on television equipment inside the user’s
home). There is no intrinsic justification
for limiting this term as Respondents
suggest.
Rovi Br. at 43. Rovi generally relies on the text of the
specification (JX-0002 (’263 Patent) at col. 4, ll. 33-36,
col. 6, ll. 61-64, col. 12, ll. 25-29, col. 14, ll. 11-18, col.
20, ll. 27 29, col. 4, ll. 11-14, and Figures 12-23),
Figures 2a-2d, and Dr. Shamos’s (Rovi’s expert) and
Dr. Wigdor’s (Comcast’s expert) testimony. See Rovi
Br. at 43-46. In particular, Rovi relies upon Figure 2d,
which is reproduced below:

327a

See Rovi Br. at 44; JX-0002 at 15. 76 With regard to
Figure 2d, Rovi notes that:
as shown in the embodiment of Fig. 2(d),
and contrary to Respondents’ proposed
construction,
the
“interactive
television program guide equipment
17” on which the “local interactive
television
program
guide”
“is
Figure 3 provides additional context for understanding the
“User Television Equipment” (22) that is shown in Figure 2d. In
particular, Figure 3 shows that “user television equipment” can
include a television (36), a set-top box (28), and a remote control
(40).
76

328a
implemented” includes the television
distribution facility 16 and program
guide distribution equipment 21—which
are demonstrably located outside of the
user’s home—as well as the user
television equipment 22. See e.g., JX0002 (’263 Patent) at Fig. 2(d); col. 4, lns.
56-61 (“As shown in FIGS. 2a-2d
interactive television program guide
equipment may include program guide
distribution equipment 21 located at
television distribution facility 16 and
user television equipment 22”).
Rovi Br. at 44 (additional emphasis added). Rovi
further argues that the patentee defined the term
“local” in the specification:
Exercising lexicography, the Patents
define the term “local interactive
television program guide” as another
name for “the interactive television
program guide that is implemented, on
interactive television program guide
equipment 17.” JX-0002 (’263 Patent) at
col. 12, lns. 25-29. Hill-Rom Servs., Inc.
v. Stryker Corp., 755 F.3d 1367, 1371
(Fed. Cir. 2014).
Id. (footnote omitted).
Comcast argues that “‘local’ means ‘inside a user’s
home’ and ‘remote access’ means ‘outside a user’s
home.’” See Resps. Br. at 71 (quoting RX-0007C
(Wigdor WS) at Q/A 122-123). In critiquing Rovi’s
proposed construction, Comcast relies upon expert
testimony, the prosecution history, the specification,
inventor testimony, and attorney argument. See

329a
Resps. Br. at 74-78. With regard to the prosecution
history, Comcast argues:
The file histories also make clear that
“local” refers to the location of the user
equipment, not a central location such as
a cable headend. As noted above, in
responding to a rejection based on Blake,
the applicants argued that the claims
were different from Blake’s disclosure of
a central processing system that was
separate and apart from the equipment
within a user’s home. See § VIII.A.4. The
applicants argued their invention
allowed that “the user may select a
program for recording over a remote
access link by a local interactive
television program guide implemented on
user
television
program
guide
equipment.” JX-0009 (’263 file history) at
.684-694
(emphasis
added).
The
applicants also distinguished between
the “central processing system” of Blake
and “local recording equipment” located
at the user site. Id. at .729. Finally, the
applicants repeatedly argued that Blake
did not feature recording by a “local”
program guide because the equipment
that receives the message from the
remote guide was a “central processing
system” and thus not “local.” Id. at .729;
JX-0010 (’801 file history) at .374-384,
557-576, 8758-77.
Id. at 76-77.

330a
Rovi presents no argument about this limitation in
its reply. See generally Rovi Reply, Section VI(D).
Comcast’s reply essentially reargues its post-hearing
brief. See Resps. Reply at 15-19.
The administrative law judge construes the term
“local interactive television program guide” to mean
“guide that allows navigation through television
program listings and causes display of program
information on user television equipment.”
To begin, the claim term itself does not contain an
explicit location-based limitation, as Comcast urges.
The words in close proximity to the term also do not
contain a location-based limitation. In contrast, “user
television equipment” is “located within a user’s
home,” a display device is “at the user’s home” and “a
remote program guide access device [is] located
outside of the user’s home[.]” JX-0002 at 28:33-39.
Other independent claims contain similar distinctions.
See generally JX-0002 at 28:7-32:38 (e.g., claims 5, 8,
11, and 17). Thus, the administrative law judge finds
no support in the plain claim language to require that
the local interactive television program guide be solely
“inside a user’s home.”
Furthermore, the specification, including the
figures, supports the construction. In particular,
Figure 2d depicts the “interactive television program
guide equipment” (17) as including a television
distribution facility (16) and user television equipment
(22). The background of the ’263 Patent also explains
that “interactive electronic television program guides
have been developed that allow television program
information to be displayed on a user’s television.” JX0002 at 1:27-30. The detailed description adds that a
“local” guide may be implemented on “interactive

331a
television program guide equipment 17[.]” Id. at 12:2337. The remaining portions of the specification that
Rovi cites, in general, support the construction. Rovi
Br. at 43.
With regard to Rovi’s lexicographer argument, the
administrative law judge has determined that the
patentee did not clearly define the disputed claim term
in a way that demands departing from a plain-andordinary-meaning construction. The Federal Circuit
has explained that
To act as its own lexicographer, a
patentee must “clearly set forth a
definition of the disputed claim term”
other than its plain and ordinary
meaning. CCS Fitness, Inc. v. Brunswick
Corp., 288 F.3d 1359, 1366 (Fed. Cir.
2002). It is not enough for a patentee to
simply disclose a single embodiment or
use a word in the same manner in all
embodiments, the patentee must “clearly
express an intent” to redefine the term.
Helmsderfer v. Bobrick Washroom
Equip., Inc., 527 F.3d 1379, 1381 (Fed.
Cir. 2008); see also Kara Tech. Inc. v.
Stamps.com, 582 F.3d 1341, 1347-48
(Fed. Cir. 2009).
Thorner v. Sony Computer Entm’t Am. LLC, 669 F.3d
1362, 1365 (Fed. Cir. 2012); see also GE Lighting Sols.,
LLC v. AgiLight, Inc., 750 F.3d 1304, 1309 (Fed. Cir.
2014) (“To act as its own lexicographer, a patentee
must “clearly set forth a definition of the disputed
claim term,” and “clearly express an intent to
[re]define the term.”); Luminara Worldwide, LLC v.
Liown Elecs. Co., 814 F.3d 1343, 1353 (Fed. Cir. 2016)

332a
(“The standards for finding lexicography and
disavowal are ‘exacting.’”). The scant passage upon
which Rovi relies, JX-0002 at 12:25-29, is buried deep
in the specification (after appear several times before)
and does not explicitly provide a definition for “local.” 77
Indeed, it is plausible that the patentee used ‘“local”’
to differentiate the “remote access” guide or simply to
remind the reader that “interactive television program
guide equipment 17” was the local guide. Further, the
patentee did not provide a section of definitions, and it
is not argued that the patentee defined any other
terms in the specification.
Similarly, the prosecution history does not present
a clear disavowal of claim scope, as Comcast suggests
by relying on the prosecution history. See Biogen Idec,
Inc. v. GlaxoSmithKline LLC, 713 F.3d 1090, 1095
(Fed. Cir. 2013) (“[W]hen the patentee unequivocally
and unambiguously disavows a certain meaning to
obtain a patent, the doctrine of prosecution history
disclaimer narrows the meaning of the claim
consistent with the scope of the claim surrendered.”);
Omega Eng’g, Inc., v. Raytek Corp., 334 F.3d 1314,
1325-26 (Fed. Cir. 2003) (“for prosecution disclaimer to
attach, our precedent requires that the alleged
disavowing actions or statements made during
prosecution be both clear and unmistakable.”); see also
Hill-Rom Servs., Inc. v. Stryker Corp., 755 F.3d 1367,
1371 (Fed. Cir. 2014) (providing several examples of
circumstances supporting disclaimer). Indeed, a
JX-0002 at 12:25-29 explains, “The remote access interactive
television program guide may communicate with the interactive
television program guide that is implemented on interactive
television program guide equipment 17, herein referred to as a
“local” interactive television program guide.”
77

333a
review of the file history indicates that the patentee
distinguished Blake at least upon its lack of a second
guide that could display program listings:
Applicants’ claims, as amended, require
that each program guide be configured to
display program listings, which is
lacking in the Blake recording
equipment. Therefore, Blake does not
show or suggest a remote program guide
configured to display program listings,
transmitting a communication to a local
program guide configured to display
program listings to record the program
corresponding to the selected listing, as
required by applicants’ claims.
JX-0009C at 729. At least this distinction undercuts
Comcast’s arguments.
Additionally, the inventor testimony upon which
Comcast relies, JX-0118C at 10:15-20 and 30:3-13, is
extrinsic evidence. See Phillips v. AWH Corp., 415 F.3d
1303, 1317 (Fed. Cir. 2005). Accordingly, it is afforded
less significance than the intrinsic evidence discussed
above. Id.; see also ArcelorMittal France v. AK Steel
Corp., 700 F.3d 1314, 1321-22 (Fed. Cir. 2012) (“an
inventor’s subjective understanding of patent
terminology is irrelevant to claim construction”);
Howmedica Osteonics Corp. v. Wright Med. Tech., Inc.,
540 F.3d 1337, 1346 (Fed. Cir. 2008) (“The testimony
of an inventor ‘cannot be relied on to change the
meaning of the claims.’”). The administrative law
judge has reviewed the cited testimony and
determined that it is “less significant than the
intrinsic record in determining ‘the legally operative

334a
meaning of claim language.’” See Phillips, 415 F.3d at
1317.
Finally, the parties both rely upon expert testimony
to advance their arguments. Expert testimony is one
form of extrinsic evidence. Given that the parties’
experts’ testimony essentially dovetails with the
parties’ arguments, the administrative law judge finds
that the expert testimony is not particularly
significant, vis-à-vis the intrinsic record, when
“determining ‘the legally operative meaning of claim
language.’” See Phillips, 415 F.3d at 1317.
(3) Remote access interactive television
program guide
The parties
constructions:

have

Rovi’s Proposed
Construction
guide allowing
navigation through
television program
listings using a remote
access link

proposed

the

following

Comcast’s Proposed
Construction
interactive television
program guide outside a
user’s home

See Rovi Br. at 47; Resps. Br. at 71.
Rovi argues:
As with the prior term, Respondents
again try to import a geographical
limitation that the “remote access
interactive television program guide” be
limited to a guide existing entirely
“outside a user’s home.” Resps. P.H. Br.
at 182-83. One of ordinary skill in the art

335a
would agree with Rovi’s proposed
construction—“guide
allowing
navigation through television program
listings using a remote access link.” CX0002C (Shamos WS) at Q/A 106. While it
is clear that “remote access interactive
television program guide” must be
distinguished from “local interactive
television program guide,” it does not
follow that the “local guide” must be
confined solely to a guide existing
entirely “inside the home” while the
“remote guide” is confined solely to a
guide existing entirely “outside the
home.” As the ’263 Patent specification
explains: “The interactive television
program guide equipment is connected to
one or more remote program guide access
devices over a remote access link.” JX0002 (’263 Patent) at col. 2, lns. 37-39.
Therefore, what makes a guide a “remote
access interactive television program
guide”—as opposed to a “local interactive
television program guide”—is that the
“remote access interactive television
program guide” is connected to the “local
interactive television program guide” via
a remote access link. Indeed, this is
precisely what is depicted in Fig. 2(d).
JX-0002 (’263 Patent) at Fig. 2(d). This
construction is also supported by the
intrinsic evidence at JX-0002 (’263
Patent) at col. 2, lns. 39-56, col. 12, lns.
23-46, which discuss how the remote
access link is used by the remote access

336a
interactive television program guide.
CX-0002C (Shamos WS) at Q/A 106, 108,
110, 128 (explaining addition intrinsic
evidence in regard to the remote access
link).
Rovi Br. at 46-47.
Comcast argues:
Rovi’s constructions remove important
aspects of the plain and ordinary
meaning of “local” and “remote” from the
claims. A POSITA would recognize that
local and remote are designations of
location, not designations of function.
RX-0007C at Q/A 135. But Rovi’s
constructions would define “local
interactive television program guide”
and “remote access interactive television
program guide” through their functions
and remove any meaning regarding
location. . . .
Rovi’s constructions of “local interactive
television program guide” and “remote
access interactive television program
guide” are also contradicted by
arguments the applicants made during
prosecution. In this litigation, Rovi takes
the position that “what makes a guide
‘remote access is that it is connected via
a remote link.” CX-0002C at Q/A 106.
But, during prosecution, the applicants
repeatedly argued that a distinguishing
feature of their invention was that the
two guides were in communication. See,
e.g., JX-0009 (’263 file history) at

337a
.000685-694; see also JX-0010 (’801 file
history) at .000374-384. For both guides
to be “in communication,” both guides
must “use the remote access link,” not
just the remote access guide as in Rovi’s
constructions. Accordingly, because the
use of a remote access link is not a point
of distinction between local and remote
access interactive television program
guides, it is not helpful in the
constructions and not included in
Comcast’s proposal. See RX-0007 at Q/A
139.
Resps. Br. at 74-74.
Rovi presents no argument about this limitation in
its reply. See generally Rovi Reply, Section VI(D).
Comcast’s reply essentially reargues its post-hearing
brief. See Resps. Reply at 17.
The administrative law judge construes “remote
access interactive television program guide” to mean
“guide allowing navigation through television program
listings using a remote access link.”
The claim term itself does not contain an explicit
location-based limitation, as Comcast urges.
Additionally, the words in close proximity to the term
specify that “a remote program guide access device,”
which implements the remote access guide, is located
outside of the home; the location-based limitation
modifies the device, not the guide. See JX-0002 at
28:38-39. Other independent claims contain similar
distinctions. See generally JX-0002 at 28:7-32:38 (e.g.,
claims 5, 8, 11, and 17). Thus, the administrative law
judge does not construe the term to require that the
remote access guide be “outside a user’s home.”

338a
Furthermore, the specification, including the
figures, supports the construction. In particular, Figs.
2a-2b depict that the remote access guide
communicates over “remote access link 19.” The
specification explains:
As shown in FIGS. 1 and 2a-2d,
interactive television program guide
equipment 17 communicates with
remote program guide access device 24
via remote access link 19. In practice,
remote program guide access device 24
may be connected to user television
equipment (as shown in FIGS. 2a and
2c), television distribution facility 16 (as
shown in FIG. 2b), connected to both (as
indicated in FIG. 1), or may
communicate with remote program
guide server 25 (as shown in FIG. 2d) via
remote access link 19. Remote access
link 19 may be any suitable wired or
wireless communications path or paths
over
which
digital
or
analog
communications may take place between
interactive television program guide
equipment 17 and remote program guide
access device 24.
JX-0002 at 6:48-60; see also id. at 2:39-56, 12:23-46. 78
The parties also both rely upon expert testimony to
advance their arguments. Given that the parties’
The specification also describes a remote control (40). See JX0002 at 1:31-33; 7:41-52. Although Comcast does not address the
remote control, it is believed a person of ordinary skill in the art
would understand the “remote” control would normally be stored
within the user’s home.
78

339a
experts’ testimony essentially dovetails with the
parties’ arguments, the administrative law judge
finds that this extrinsic evidence is not particularly
significant, vis-à-vis the intrinsic record, when
“determining ‘the legally operative meaning of claim
language.’” See Phillips, 415 F.3d at 1317.
(4) Remote program guide access device /
remote interactive television program
guide access device
The term “remote program guide access device”
appears in claims 1 and 5 of the ’263 Patent. JX-0002
at 28:38-48; 29:12-20 (the term also appears in the
specification many times). The parties have proposed
the following constructions:

Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

device connected to
program guide
equipment over a remote
access link

equipment for accessing
a remote interactive
television program
guide 79

Rovi Br. at 78; Resps. Br. at 77-78.
Rovi’s argument in relation to this term (which is
presented in conjunction with argument for the term
Comcast proposes construing “interactive television program
guide” as an “application that, when executed, causes television
program listings to be presented to the user and enables the user
to navigate through the program listings, to select an individual
listing, and to select a function associated with the selected
listing[.]” See Resps. Br. at 70-71; RX-0007C at Q/A 122.

79

340a
“remote interactive television program guide access
device”) follows:
Respondents again improperly attempt
to limit these terms to guides “outside a
user’s home.” Resps. P.H. Br. at 192. One
of ordinary skill in the art would agree
with Rovi’s proposed constructions—
“device connected to program guide
equipment over a bidirectional remote
access link” and “device connected to
program guide equipment over a remote
access link” for the reasons discussed
with respect to the prior term. CX-0002C
(Shamos WS) at Q/A 108, 110. Because
the
remote
interactive
television
program guide access device is
interactive, the remote access link must
be bidirectional. CX-0002C (Shamos WS)
at Q/A 108 (explaining addition intrinsic
evidence
in
support
of
Rovi’s
construction); JX-0002 (’263 Patent) at
col. 1, lns. 23-28 (“Preferably remote
access link 19 is bidirectional.”).
Rovi Br. at 48.
Comcast’s argument (which is also presented in
conjunction with argument for the term “remote
interactive television program guide access device”) in
relation to this term follows:
Turning to the final two guide
limitations,
“remote
interactive
television program guide access device”
and “remote program guide access
device,”
the
parties
proposed
constructions are essentially extensions

341a
of the dispute over the construction of
“remote access interactive television
program guide.” Thus, for the same
reasons already discussed, “remote
interactive television program guide
access device” and “remote program
guide access device” should be construed
as “equipment for accessing a remote
access interactive television program
guide.”
Resps. Br. at 77-78.
Neither Rovi’s nor Comcast’s reply addresses this
construction.
The administrative law judge construes the terms
“remote program guide access device” and “remote
interactive television program guide access device” to
mean “equipment for accessing a remote interactive
television program guide over a remote access link.”
Claim 1 specifies that a “remote access interactive
television program guide is implemented” on the
“remote program guide access device.” The plain
purpose of the “remote . . . device” is to implement the
“remote . . . guide.” Comcast’s proposed construction,
while mostly acceptable, does not acknowledge the
slight difference between the terms “remote program
guide access device” and “remote interactive television
program guide access device.” The portion of Rovi’s
proposed construction that relies upon a distinction of
“bidirectional” and “unidirectional” links addresses
the different words. See CAE Screenplates Inc. v.
Heinrich Fiedler GmbH & Co. KG, 224 F.3d 1308, 1317
(Fed. Cir. 2000) (“In the absence of any evidence to the
contrary, we must presume that the use of these
different terms in the claims connotes different

342a
meanings.”). Further, the specification and figures
indicate that a remote program guide access (24)
device utilizes a link (19). JX-0002 at 6:48-60 (“As
shown in FIGS. 1 and 2a-2d, interactive television
program guide equipment 17 communicates with
remote program guide access device 24 via remote
access link 19.”).
(5) Remote interactive television program
guide access device
The term “remote interactive television program
guide access device” appears only in claims 14 and 17
of the ’263 Patent. JX-0002 at 31:12-25; 32:9-21 (it does
not appear in the specification). The parties have
proposed the following constructions:
Rovi’s Proposed
Construction
device connected to
program guide
equipment over a
bidirectional remote
access link.

Comcast’s Proposed
Construction
equipment for accessing
a remote access
interactive television
program guide

Rovi Br. at 78; Resps. Br. at 78-79. Rovi’s and
Comcast’s arguments in relation to this term are
presented above, along with the “remote program
guide access device” term.
The administrative law judge construes the term
“remote interactive television program guide access
device” to mean “equipment for accessing a remote
interactive television program guide over a
kkkkkkkkkkkkkk

